APPENDIX A
UNITED STATES COURT OF APPEALS
FOR THE DISTRICT OF
COLUMBIA CIRCUIT
Argued April 3, 2020

Decided July 31, 2020
No. 19-1067

SFPP, L.P.,
PETITIONER
v.
FEDERAL ENERGY REGULATORY
COMMISSION AND
UNITED STATES OF AMERICA,
RESPONDENTS
ASSOCIATION OF OIL PIPE LINES, ET AL.,
INTERVENORS
Consolidated with 19-1077, 19-1078, 19-1081, 191082, 19-1084, 19-1086, 19-1090
On Petitions for Review of Orders of the
Federal Energy Regulatory Commission
(1a)

2a
Charles F. Caldwell argued the cause for
petitioner SFPP, L.P. With him on the briefs were
Michelle T. Boudreaux, Sabina D. Walia, Daniel W.
Sanborn, and Susan B. Kittey.
Steven M. Kramer and Daniel J. Poynor were on
the briefs for intervenor Association of Oil Pipe Lines
in support of petitioner SFPP, L.P. Steven H. Brose
and Steven G. Reed entered an appearance.
Gregory S. Wagner argued the cause for Shipper
petitioners. With him on the joint briefs were Steven
A. Adducci, Matthew D. Field, Richard E. Powers Jr.,
Melvin Goldstein, Thomas J. Eastment, and Frederick
G. Jauss, IV.
Scott Ray Ediger, Attorney, Federal Energy
Regulatory Commission, argued the cause for
respondents. With him on the brief were Michael F.
Murray, Deputy Assistant Attorney General, Robert J.
Wiggers and Robert B. Nicholson, Attorneys, U.S.
Department of Justice, James P. Danly, General
Counsel, Federal Energy Regulatory Commission,
Robert H. Solomon, Solicitor, and Elizabeth E.
Rylander, Attorney.
Charles F. Caldwell, Sabina D. Walia, Daniel J.
Poynor, Daniel W. Sanborn, Susan B. Kittey, and
Steven M. Kramer were on the joint brief for

3a
intervenors SFPP, L.P. and Association of Oil Pipe
Lines in support of respondents.
Steven A. Adducci, Matthew D. Field, Gregory S.
Wagner, Richard E. Powers Jr., Melvin Goldstein,
Thomas J. Eastment, and Frederick G. Jauss, IV were
on the joint brief for Shipper intervenors in support of
respondents.
Before: SRINIVASAN, Chief Judge, ROGERS and
WILKINS, Circuit Judges.
Opinion for the Court filed PER CURIAM.
PER CURIAM: SFPP, L.P., is a common-carrier oil
pipeline that transports petroleum products through
Arizona, California, Nevada, New Mexico, Oregon, and
Texas. SFPP, along with several shippers that
transport petroleum products over SFPP's pipelines,
challenge two Federal Energy Regulatory Commission
orders concerning SFPP's tariffs.
SFPP first filed the tariff increases at issue in
2008. FERC initially addressed those tariffs in a series
of three orders. SFPP, L.P., Opinion 511, 134 FERC ¶
61,121 (Feb. 17, 2011); SFPP, L.P., Opinion 511-A, 137
FERC ¶ 61,220 (Dec. 16, 2011); SFPP, L.P., Opinion
511-B, 150 FERC ¶ 61,096 (Feb. 19, 2015). We granted
petitions for review and vacated those orders in part in

4a
United Airlines, Inc. v. FERC, 827 F.3d 122, 137, 423
U.S. App. D.C. 480 (D.C. Cir. 2016). FERC issued two
further orders on remand. SFPP, L.P., Opinion 511-C,
162 FERC ¶ 61,228 (Mar. 15, 2018); SFPP, L.P.,
Opinion 511-D, 166 FERC ¶ 61,142 (Feb. 21, 2019).
SFPP and Shippers petition for review of these
two orders on remand from United Airlines. SFPP
challenges FERC's decisions to deny SFPP an income
tax allowance, to decline to reopen the record on that
issue, and to deny SFPP's retroactive adjustment to its
index rates. Shippers challenge FERC's disposition of
SFPP's accumulated deferred income taxes ("ADIT")
and its temporal allocation of litigation costs.
We deny the petitions for review. With respect to
SFPP's challenges, we hold that FERC's denial of an
income tax allowance to SFPP was both consistent
with our precedent and well-reasoned and that FERC
did not abuse its discretion or act arbitrarily in
declining to reopen the record on that issue. We further
hold that FERC reasonably rejected retroactive
adjustment to SFPP's index rates. With respect to
Shippers' challenges, we hold that FERC correctly
found that the rule against retroactive ratemaking
prohibited it from refunding or continuing to exclude
from rate base SFPP's ADIT balance, and that FERC
reasonably allocated litigation costs.

5a
I. Income Tax Allowance
The first issue in these petitions for review is
whether FERC's denial of an income tax allowance in
SFPP's cost of service was lawful. In Opinion 511-C,
FERC concluded that granting both an income tax
allowance and a discounted cash flow return on equity
resulted in double recovery of income tax costs.
Opinion 511-C ¶¶ 21-22. To prevent that double
recovery, FERC denied SFPP an income tax allowance.
Id. at ¶ 21. FERC then denied rehearing on the issue.
See Opinion 511-D ¶ 10.
SFPP contends that FERC's orders are both
contrary to our decision in ExxonMobil Oil Corp. v.
FERC, 487 F.3d 945, 376 U.S. App. D.C. 259 (D.C. Cir.
2007), and arbitrary and capricious in their treatment
of United Airlines, 827 F.3d 122, 423 U.S. App. D.C.
480, in connection with their conclusion that the
discounted cash flow return on equity produces a pretax return, and in their purported lack of consideration
for the income tax liability of SFPP's corporate parent.
We disagree. FERC's denial of an income tax allowance
in SFPP's cost of service was fully consistent with our
precedent and well-reasoned.

6a
A. Background
Rates for pipelines subject to FERC's jurisdiction
must be "just and reasonable." BP W. Coast Prods.,
LLC v. FERC, 374 F.3d 1263, 1286, 362 U.S. App. D.C.
438 (D.C. Cir. 2004). Just and reasonable rates "yield[]
sufficient revenue to cover all proper costs, including
federal income taxes, plus a specified return on
invested capital." City of Charlottesville v. FERC, 774
F.2d 1205, 1207, 249 U.S. App. D.C. 236 (D.C. Cir.
1985). "There is no question that as a general
proposition a pipeline that pays income taxes is
entitled to recover the costs of the taxes paid from its
ratepayers." BP W. Coast, 374 F.3d at 1286. Master
limited partnerships ("MLPs") like SFPP was at
relevant times, however, incur no income tax liability
at the entity level. Id. (citing 26 U.S.C. §
7704(d)(1)(E)). In this case, we once again address
FERC's income tax allowance policy for such
partnership pipelines.
FERC's policy on this issue has a "tortuous
history." ExxonMobil, 487 F.3d at 948. As we outline
below, this Court has vacated two of FERC's previous
policies. The third time turns out to be the charm: we
now uphold FERC's third policy.
FERC's first policy afforded partnership pipelines
an income tax allowance for income taxes that were

7a
attributable to corporate but not individual
unitholders. Lakehead Pipe Line Co., L.P., 71 FERC ¶
61,338, at ¶ 62,314-15 (June 15, 1995). Pursuant to its
Lakehead policy, FERC granted SFPP an income tax
allowance for the portion of its income attributed to its
corporate unitholders in SFPP's rate filings. See SFPP,
L.P., Opinion No. 435, 86 FERC ¶ 61,022, at ¶ 61,10204 (Jan. 13, 1999), reh'g denied in relevant part,
Opinion No. 435-A, 91 FERC ¶ 61,135, at ¶ 61,508-09
(May 17, 2000).
This Court vacated those orders in relevant part.
BP W. Coast, 374 F.3d at 1285. We concluded that the
Lakehead policy lacked a reasoned basis to afford
"corporate tax allowances for corporate unit holders,
but [not] individual tax allowances reflecting the
liability of individual unit holders." Id. at 1290. FERC
sought to justify that distinction on the ground that
individuals who invest in corporations that in turn
invest in pipelines face an additional layer of taxation
not faced by investors who invest directly in pipelines.
Id. at 1288. We rejected that ground as "a product of
the corporate form, not of the regulated or unregulated
nature of the pipeline or any comparable investment or
of the risks involved therein." Id. at 1291. We further
concluded that, when the regulated entity generates no
tax, "the regulator cannot create a phantom tax in
order to create an allowance to pass through to the rate
payer." Id. We reasoned that investor-level income tax

8a
costs are no different than any other investor-level
cost, such as bookkeeping expenses, for which
investors receive no separate allowance. Id. We thus
concluded that SFPP was "entitled to no allowance for
the phantom income taxes it did not pay." Id. at 1288.
In response to BP West Coast, FERC adopted its
second policy. That policy in a sense leveled up rather
than down, affording partnership pipelines an income
tax allowance "on all partnership interests . . . if the
owner of that interest has an actual or potential
income tax liability on the public utility income earned
through the interest." Policy Statement on Income Tax
Allowances, 111 FERC ¶ 61,139, at ¶ 61,736 (May 4,
2005). Pursuant to that policy, FERC granted SFPP an
income tax allowance on remand from BP West Coast
to provide for the taxes paid on partnership income for
both its individual and corporate partners. SFPP, L.P.,
111 FERC ¶ 61,334, at ¶ 62,455-56 (June 1, 2005)
(SFPP 2005 ITA Order).
This Court denied, in relevant part, petitions for
review of FERC's order on remand. ExxonMobil, 487
F.3d at 955. We concluded that FERC had "resolved
the principal defect of the Lakehead policy, which was
the inadequately explained differential treatment of
the tax liability of individual and corporate partners."
Id. at 951. We also held that FERC had adequately
explained why granting an income tax allowance did

9a
not create a phantom tax liability. Id. at 954-55. In
particular, because income taxes on each partner's
distributive share of the pipeline's income must be paid
regardless of whether the partner actually receives a
distribution, we held that FERC reasonably attributed
such taxes to the regulated entity. Id. at 952. In
closing, we noted that "a fair return on equity might
have been afforded if FERC had . . . comput[ed] return
on pretax income and provid[ed] no tax allowance at
all," but we left that "policy decision" to FERC. Id. at
955.
SFPP filed to increase its tariffs again in 2008, and
FERC again granted SFPP a full income tax allowance.
See Opinion 511 ¶ 61,546, reh'g denied in relevant part,
Opinion 511-A ¶ 62,353.
Shippers petitioned for review of those orders.
They contended that granting an income tax allowance
in addition to a return on equity calculated via FERC's
discounted cash flow methodology results in a double
recovery of tax costs. United Airlines, 827 F.3d at 134.
We granted those petitions in United Airlines,
concluding that FERC had failed to demonstrate
otherwise, rendering its orders arbitrary or capricious.
Id. We reasoned that FERC's discounted cash flow
methodology "determines the pre-tax investor return
required to attract investment, irrespective of whether
the regulated entity is a partnership or a corporate

10a
pipeline." Id. at 136. Moreover, unlike corporate
pipelines, partnership pipelines incur no income taxes
at the entity level. Id. Therefore, granting an income
tax allowance would account only for taxes already
provided for in the discounted cash flow return on
equity. See id. We then vacated and remanded to
FERC to consider "mechanisms for which the
Commission can demonstrate that there is no double
recovery," such as "remov[ing] any duplicative tax
recovery for partnership pipelines directly from the
discounted cash flow return on equity," or "eliminating
all income tax allowances and setting rates based on
pre-tax returns." Id. at 137.
In response to United Airlines, FERC adopted its
third policy. Under that policy, FERC would "no longer
permit MLPs to recover an income tax allowance in
their cost of service." Inquiry Regarding the
Commission's Policy for Recovery of Income Tax Costs,
162 FERC ¶ 61,227, at ¶ 8 (Mar. 15, 2018). The same
day it adopted that policy, FERC denied SFPP an
income tax allowance on the basis that granting an
income tax allowance in addition to a discounted cash
flow return on equity would result in double recovery
of income tax costs. Opinion 511-C ¶¶ 21-22. FERC
denied rehearing on the issue. See Opinion 511-D at ¶
10. SFPP now petitions for review.

11a
B. Double Recovery
We review FERC orders under the Administrative
Procedure Act ("APA"), which empowers the Court to
reverse "any agency action that is arbitrary,
capricious, an abuse of discretion, or otherwise not in
accordance with law." Hoopa Valley Tribe v. FERC,
913 F.3d 1099, 1102, 439 U.S. App. D.C. 304 (D.C. Cir.
2019) (citation and internal quotation marks omitted);
see 5 U.S.C. § 706(2)(A). Under the arbitrary and
capricious standard, "FERC's decisions will be upheld
as long as the Commission has examined the relevant
data and articulated a rational connection between the
facts found and the choice made." ExxonMobil, 487
F.3d at 951. "In reviewing FERC's orders, we are
'particularly deferential to the Commission's expertise'
with respect to ratemaking issues." Id. (quoting Ass'n
of Oil Pipe Lines v. FERC, 83 F.3d 1424, 1431, 317 U.S.
App. D.C. 376 (D.C. Cir. 1996)). But the Court gives no
deference to an agency's interpretation of judicial
precedent. New York New York, LLC v. NRLB, 313
F.3d 585, 590, 354 U.S. App. D.C. 135 (D.C. Cir. 2002).
FERC's orders adopt and apply a policy that is
consistent with this Court's precedents in BP West
Coast, ExxonMobil, and United Airlines, and is
reasonably explained. Accordingly, we deny the
petition for review on the double-recovery issue.

12a
First, FERC's policy is consistent with this Court's
precedents. While we upheld an income tax allowance
for SFPP in ExxonMobil, 487 F.3d at 955, we clarified
in United Airlines that ExxonMobil did not foreclose
"the possibility of eliminating all income tax
allowances and setting rates based on pre-tax returns,"
827 F.3d at 137. Indeed, we noted in ExxonMobil that
"a fair return on equity might have been afforded if
FERC had . . . comput[ed] return on pretax income and
provid[ed] no tax allowance at all for the pipeline
owners." 487 F.3d at 955. ExxonMobil held only that
FERC had adequately justified its "policy decision" to
provide an income tax allowance in that case. Id.
That case, though, implicitly reserved the doublerecovery issue because FERC represented that it was
addressing it in a separate proceeding. United
Airlines, 827 F.3d at 135. And in United Airlines, we
concluded that FERC had failed to engage in reasoned
decision-making on the double-recovery issue. Id. at
134. We charged FERC on remand with considering
"mechanisms for . . . demonstrat[ing] that there is no
double recovery," including potentially "eliminating all
income tax allowances and setting rates based on pretax returns." Id. at 137. FERC's orders do exactly that.
Of course, while an "agency is free to adopt a new
policy on remand" following vacatur of its prior policy
for lack of reasoned decision-making, the agency still

13a
must provide a reasoned basis for that new policy.
ExxonMobil, 487 F.3d at 954. FERC did so here. FERC
concluded that granting both an income tax allowance
and a discounted cash flow return on equity results in
double recovery of tax costs, and, to avoid that
problem, denied SFPP an income tax allowance.
Opinion 511-C ¶¶ 21-22.
SFPP no longer challenges FERC's solution to the
double-recovery problem, but only the problem's
existence in the first place. On that score, FERC's
double-recovery finding tracked this Court's analysis
in United Airlines. FERC reasoned from two core
premises. First, SFPP does not incur entity-level
income taxes. Opinion 511-C ¶ 22. Second, the
discounted cash flow methodology determines "a
return that covers investor-level taxes and leaves
sufficient remaining income to earn investors' required
after-tax return." Id. From those two premises, it
follows that granting SFPP an income tax allowance
for its investor-level income taxes and a discounted
cash flow return on equity results in a double recovery
of income tax costs. Id.
SFPP challenges only the second premise,
contending that the discounted cash flow methodology
does not determine a pre-tax return. SFPP contends
that, because investors knew, under FERC's previous
policy approved in ExxonMobil, that they would

14a
recover income tax costs via an income tax allowance,
they would not require a return on equity that covers
those same income taxes. We cannot conclude that
FERC's contrary conclusion was unreasonable.
Under FERC's discounted cash flow methodology,
a pipeline's return on equity is based on the yields of a
proxy group of publicly traded securities with
comparable risks. United Airlines, 827 F.3d at 128.
FERC calculates those yields as the present value of
expected dividends or distributions divided by the
stock or unit price. Id. Investors must pay income taxes
on their distributive share of the pipeline's income,
regardless of whether the source of that income is an
income tax allowance or any other cost-of-service line
item. See ExxonMobil, 487 F.3d at 952 (citing United
States v. Basye, 410 U.S. 441, 453, 93 S. Ct. 1080, 35 L.
Ed. 2d 412 (1973)). Consequently, an investor's
distributive share of the pipeline's income must
provide for both the investor's income tax liability on
that income and the investor's after-tax required
return, regardless of whether the pipeline is afforded
an income tax allowance. See Opinion 511-C ¶ 22.
FERC explained this phenomenon as follows:
If an MLP Pipeline obtains a new
revenue
source
that
increases
distributions to investors (such as an

15a
income tax allowance), the unit price will
rise until, once again, the investor
receives the cash flow necessary to cover
the investor's income tax liabilities and
to earn an after-tax return that is
comparable to other investments of
similar risk. Likewise, if the MLP's cash
flows are reduced (such as via the
removal of the income tax allowance) and
consequently distributions decline, the
MLP unit price will drop until the
returns once again both cover investors'
tax costs and provide sufficient after-tax
returns. Whether or not an MLP Pipeline
receives an income tax allowance, the
MLP's [discounted cash flow] return will
always be a pre-investor tax return.
Opinion 511-D ¶ 14 (citations omitted). Thus, FERC
explained that granting an income tax allowance for
investor-level taxes does not alter the investor's
discounted cash flow rate of return. It only inflates the
pipeline's cost of service with tax costs already covered
by that return.
SFPP provides no coherent basis to question that
analysis. SFPP suggests that if an MLP pipeline
obtains an income tax allowance, the unit price will
rise, which will lower the discounted cash flow rate of

16a
return. But SFPP neglects that the unit price rises
because expected distributions rise, thus producing no
change in the rate of return, as FERC explained. Id.
SFPP alternatively contends that that analysis
fails to account for the tax liability of SFPP's corporate
parent. That is incorrect. As FERC explained,
"investor-level costs . . . are not included in a line item
in the cost of service" because they are "adequately
addressed by the [discounted cash flow return on
equity]." Opinion 511-C ¶ 29 n.67. Investors, including
corporations, will not invest "unless the returns are
sufficient to (a) cover the investor's costs and (b) allow
the
investor
to
retain
a
sufficient
return notwithstanding those costs." Id. And as we
explained previously, investor-level income tax costs
are "no different" than any other investor-level cost,
like bookkeeping expenses. BP W. Coast, 374 F.3d at
1291.
In sum, consistent with our precedents, FERC
reasonably identified a double-recovery problem, and
reasonably chose to solve that problem by removing
the income tax allowance for partnership pipelines.
Accordingly, we deny the petition for review of this
issue.

17a
II. Reopening the Record
The second issue in these petitions for review is
whether FERC's denial of SFPP's request to reopen the
record was lawful. SFPP contends that FERC abused
its discretion and arbitrarily treated SFPP differently
from similarly situated pipelines.* We hold that FERC
neither abused its discretion nor acted arbitrarily.
FERC "may" reopen the record if FERC "has
reason to believe that [doing so] is warranted by any
changes in conditions of fact or of law." 18 C.F.R. §
385.716(c). Changes always occur after closing the
record, so such discretion "is reserved for
extraordinary circumstances." Cities of Campbell v.

* SFPP

expressly frames its contentions for the wrongfulness of
FERC's refusal to reopen the record as "arbitrary and capricious"
arguments. SFPP's Opening Br. 25; see generally id. at 25-32.
While we have occasionally iterated the standard of review
applied to such a refusal as "abuse of discretion," see, e.g.,
Minisink Residents for Envtl. Pres. & Safety v. FERC, 762 F.3d
97, 115, 412 U.S. App. D.C. 97 (D.C. Cir. 2014) (citation omitted),
we have also recognized that "arbitrary, capricious, or an abuse of
discretion" review under 5 U.S.C. § 706(2)(A) "is now routinely
applied by the courts as one standard under the heading of
'arbitrary and capricious review,'" Eagle Broad. Grp., Ltd. v. FCC,
563 F.3d 543, 551, 385 U.S. App. D.C. 334 (D.C. Cir. 2009); accord
HARRY T. EDWARDS & LINDA A. ELLIOTT, FEDERAL STANDARDS OF
REVIEW 278 (3d ed. 2018). We disambiguate SFPP's lines of
argument for the sake of analytical clarity.

18a
FERC, 770 F.2d 1180, 1191, 248 U.S. App. D.C. 267
(D.C. Cir. 1985). FERC need not "hold[] an evidentiary
hearing open indefinitely," waiting for a party to
"figur[e] out what its story really is." Id. at 1191-92. We
are similarly reluctant to remand for further
proceedings absent a change "that is not merely
'material' but . . . goes to the very heart of the case."
Greater Bos. Television Corp. v. FCC, 463 F.2d 268,
283, 149 U.S. App. D.C. 322 (D.C. Cir. 1971).
After the issuance of Opinion 511-C, SFPP filed a
motion to reopen the record, proposing to introduce
four new exhibits on double recovery. Opinion 511-D ¶
19. FERC denied SFPP's motion, concluding that
SFPP's proffers provided "no basis to warrant
reopening the record at this late stage in the
proceeding that outweighs the need for finality in the
administrative process." Id. at ¶ 27. FERC noted that
SFPP had "fully litigated" this issue "through briefing
and expert testimony in the Commission proceeding
prior to United Airlines, briefing before the D.C.
Circuit, its comments and supplemental comments
following the United Airlines remand, and its request
for rehearing of Opinion No. 511-C." Id. (citations
omitted).
FERC did not abuse its discretion in so concluding.
SFPP contends that the market response to Opinion
511-C warranted reopening the record. But a market

19a
response, while relevant, is a kind of change that often
occurs following issuance of a FERC opinion. And
FERC itself concluded that the response here, namely
significant drops in MLP prices, "do[es] not undercut
the holdings of Opinion No. 511-C." Id. at ¶ 34. SFPP
further contends that consideration of the income
taxes for SFPP's corporate parent warranted
reopening the record. But, as FERC explained, any
argument for an income tax allowance solely for
SFPP's corporate parent was both procedurally
untimely because SFPP failed to raise the issue to
FERC prior to its request for rehearing, id. at ¶ 41, and
substantively dubious given this Court's vacatur of the
Lakehead policy in BP West Coast, see id. at ¶¶ 41-45.
Nor did FERC treat SFPP differently from
similarly situated pipelines. To be sure, in denying
rehearing of its revised policy, FERC indicated that
parties "will not be precluded in a future proceeding
from arguing and providing evidentiary support . . .
and demonstrating that [their] recovery of an income
tax allowance does not result in a double-recovery of
investors' income tax costs." Inquiry Regarding the
Commission's Policy for Recovery of Income Tax Costs,
164 FERC ¶ 61,030, at ¶ 8 (July 18, 2018). FERC did
also order further proceedings in SFPP's rate case after
issuance of the 2005 Policy Statement on remand from
BP West Coast. SFPP 2005 ITA Order ¶¶ 66-77. But
here, SFPP had ample chance to present its case on the

20a
double-recovery issue both leading up to and on
remand from United Airlines. Opinion 511-D ¶ 27. It
was not arbitrary for FERC to deny SFPP "yet another
bite at the apple" while leaving the door open for other
pipelines to argue the double-recovery issue on the
facts of their cases. Id.
III. Index Rates
The third issue in these petitions for review is
whether FERC unlawfully directed SFPP to use its
originally filed index rates in its compliance filing.
SFPP contends that FERC's decision conflicted with
BP West Coast and was arbitrary. We disagree on both
counts.
In setting prospective rates, "it is ordinarily
impossible for a pipeline to know at the time of filing
what its actual costs will be during the effective period
of the filed rates." BP W. Coast, 374 F.3d at 1307.
Consequently, SFPP uses a test year to calculate its
cost of service. Id. SFPP then designs a rate to reflect
that cost of service, and multiplies that rate by an
index to calculate the rate each year during the
effective period for those rates. See id. at 1302. In BP
West Coast, we approved use of the same indexing
methodology used to calculate prospective rates to also
calculate retrospective reparations in rate cases. Id. at
1307.

21a
In its original filing, SFPP proposed index rates
for 2012 and 2013 of 5.4% and 7.77%, respectively.
Opinion 511-C ¶ 55. But SFPP's compliance filing to
Opinion 511-B, which calculated certain refunds, used
index rates of 5.52% and 8.5% for those years. Id. In
Opinion 511-C, FERC ordered SFPP to recalculate its
refunds and going-forward rates based on its originally
filed index rates. Id. at ¶ 57. FERC explained that it
would not permit refunds following a rate case that are
based on index rates different from those previously
filed by the pipeline and accepted by FERC. Id.
That decision does not conflict with BP West Coast.
In BP West Coast, we upheld the use of indexes for
retrospective reparations calculations, 374 F.3d at
1307, but we had no occasion to consider the issue here:
"the permissibility of retroactive indexing increases
that had not previously been sought by the pipeline,"
Opinion 511-C ¶ 57.
FERC's decision was also well-reasoned. FERC
justified its position in Opinion 522-B on SFPP's East
Line Rates. Id. (citing SFPP, L.P., Opinion 522-B, 162
FERC ¶ 61,229 (Mar. 15, 2018)). In Opinion 522-B,
FERC provided five reasons for holding SFPP to its
originally filed index rates. Opinion 522-B ¶¶ 16-21.
First, SFPP's cost-of-service litigation "neither
altered the industry-wide annual inflationary changes

22a
justifying the . . . annual index changes nor addressed
the annual cost changes SFPP itself experienced." Id.
at ¶ 16. And the fact that FERC reduced SFPP's rates
in its rate case "does not justify allowing SFPP now to
revisit its . . . indexing filings that involve unrelated
cost changes." Id. Second, allowing SFPP's retroactive
adjustment would inoculate SFPP from the risk of its
chosen ratemaking strategy. Id. at ¶ 17. Third, it
would "undermine the simplified and streamlined
procedures indexing was intended to achieve." Id. at ¶
18. Shippers would need to litigate index increases
when SFPP initially proposed them and again when
SFPP newly proposed them at the compliance stage,
and potentially again should SFPP propose still
different index increases following further compliance
filings. Id. Fourth, SFPP's adjustment would disregard
regulations providing for 30-days' notice of rate
changes. Id. at ¶ 19. Fifth and finally, SFPP's
retroactive changes would "undermine predictability
and rate certainty for shippers." Id. at ¶ 20. While
shippers had the opportunity to consider SFPP's rates
and any aspects subject to ongoing litigation when
deciding to use SFPP's services, shippers had "no
notice of the . . . index increases SFPP now seeks to
retroactively impose" on shippers' "prior movements."
Id.

23a
SFPP provides no substantial basis to question
that well-reasoned decision. We accordingly deny the
petition for review as to this issue.
IV. Shippers' Petition
For their part, Shippers petition for review of
FERC's orders on two bases: first, FERC's treatment of
the ADIT balance that accumulated between 1992 and
2008; and second, FERC's decision that SFPP could
recover its litigation expenses over a three-year period.
We find that FERC's decisions on these points were
reasonable, reasonably explained, and not otherwise
arbitrary or capricious. We therefore deny Shippers'
petition for review.
Again, FERC orders are reviewed under the APA's
arbitrary and capricious standard. Hoopa Valley Tribe,
913 F.3d at 1102; 5 U.S.C. § 706(2)(A). So long as the
Commission "has examined the relevant data and
articulated a rational connection between the facts
found and the choice made," we will uphold its
decisions. ExxonMobil, 487 F.3d at 951. And we are
"'particularly deferential to the Commission's
expertise' with respect to ratemaking issues." Id.
(quoting Ass'n of Oil Pipe Lines, 83 F.3d at 1431).

24a
A. Background
A "depreciation deduction" is a tax deduction
whereby "a property owner can deduct the cost of its
property over the property's useful life." Telecom*USA,
Inc. v. United States, 192 F.3d 1068, 1069, 338 U.S.
App. D.C. 231 (D.C. Cir. 1999). The most basic method
of depreciation is "straight-line" depreciation, which
allows a property owner to spread the depreciation of
an asset evenly across the years of its useful life. See
id. at 1069-70 ("[F]or example, an asset with an initial
cost of $1,000,000, a salvage value of $50,000, and a
useful life of 10 years would generate annual
deductions of $95,000."). Pertinent here, the IRS also
allows for "accelerated" depreciation, whereby a
"company pays less tax than it would under straightline depreciation in the early years of the life of the
equipment, and more tax than it would under straightline depreciation in the later years of the life of the
equipment." Town of Norwood v. FERC, 53 F.3d 377,
382, 311 U.S. App. D.C. 306 (D.C. Cir. 1995) (emphases
omitted); accord, e.g., Opinion 435 ¶ 61,092 (Jan. 13,
1999). In other words, under the IRS's accelerateddepreciation scheme, a company may frontload its tax
write-offs for the depreciation of an asset.
FERC's ratemaking principles employ straightline depreciation. See Opinion 511-D ¶ 62. But FERC
permits a utility to shield its ratepayers from sudden

25a
rate increases resulting from accelerated depreciation
by using an accounting method called "tax
normalization." Town of Norwood, 53 F.3d at 382.
Under tax normalization, the utility creates a deferred
tax account, called an ADIT account:
The company charges the ratepayers the
tax that they would be responsible for
under
straight-line
depreciation
throughout the life of the equipment.
Thus, in the early years, the company
collects more in rates than it pays in
taxes to the IRS; in the later years, it
collects less in rates than it pays in taxes.
The company holds onto the surplus
from the early years in a deferred tax
account, and uses this surplus to make
up for the deficit in the later years.
Id. (emphases omitted); see also Opinion 511-D ¶ 91
("The purpose of normalization is matching the
pipeline's cost-of-service expenses in rates with the tax
effects of those same cost-of-service expenses.").
Additionally, a pipeline
must reflect ADIT balances in its rate
base. This ensures that regulated
entities do not earn a return on cost-free
capital based upon the timing differences

26a
between (a) when pipelines recover the
normalized tax costs in rates using
straight-line depreciation; and (b) when
taxes are actually paid to the IRS using
accelerated depreciation. These timing
differences create "cost-free" capital
because the pipeline may use these funds
without paying either a return to equity
investors or interest on debt. In a cost-ofservice proceeding, the Commission
requires the pipeline to deduct the sums
in the ADIT liability accounts from rate
base so the pipeline does not improperly
earn a return on amounts funded by costfree capital. Reflecting ADIT in rate base
generally lowers rates because the
pipeline does not earn a return on the
deferred taxes.
Opinion 511-D ¶ 63. FERC's calculations to determine
a cost-based rate base use the trended original cost
("TOC") method, which "requires the determination of
a nominal (inflation-included) rate of return on equity
that reflects the pipeline's risks and its corresponding
cost of capital." Williams Pipe Line Co., 31 FERC ¶
61,377, at ¶ 61,834 (June 28, 1985).
In Opinion 511-C, having found that SFPP was
not entitled to include an income tax allowance in its

27a
rates, see Opinion 522-B ¶¶ 15-22, FERC directed
SFPP to make a compliance filing recalculating its
rates and the refunds due to shippers. Opinion 511-C
¶¶ 57-58. SFPP then made a compliance filing, J.A.
934-68, wherein it removed the ADIT balance from its
cost of service ("i.e., eliminate[d] the deduction from
rate base of ADIT liability accounts," Opinion 511-D ¶
64, and "eliminated the recognition of ADIT balances
of approximately $28,021,359," id. at ¶ 89). SFPP's
compliance filing also included, in the rates effective
from August 2008 through July 2011, a litigation
surcharge, whereby it proposed to recover in its rates
the $8 million-plus it incurred over the course of its
litigation of this case, id. at ¶¶ 109, 111, 118; see
Opinion 511 ¶ 37 (adopting three-year surcharge);
Opinion 511-A ¶ 42 (on rehearing, affirming adoption
of three-year surcharge).
Shippers filed comments opposing both of these
aspects of SFPP's compliance filing. See, e.g., J.A. 971;
see generally id. at 969-95. In particular, Shippers
argued "that as a result of the elimination of SFPP's
income tax allowance, the entire ADIT balance [wa]s
overfunded and should be amortized to shippers,"
Opinion 511-D ¶ 65; see also id. at ¶¶ 66-67, and that
"the litigation expenses should be recovered over the
entire litigation and refund period, rather than an
arbitrary three-year period," because the litigation
lowered rates during the entire period, benefitting all

28a
the shippers, id. at ¶ 111. FERC rejected Shippers'
arguments on these scores in Opinion 511-D. Id. at ¶¶
61-108 (ADIT); id. at ¶ 118 (litigation surcharge).
B. ADIT
FERC's explanation for its decision to permit
SFPP to eliminate the ADIT balance, and not to
require amortization of the sum that was previously
ADIT back to Shippers through prospective rates,
rested on three pillars. First, FERC reasoned that the
elimination of the ADIT balance was appropriate in
light of the removal from SFPP's cost of service of an
income tax allowance. Opinion 511-D ¶¶ 90-91 ("As
SFPP is not permitted to recover an income tax
allowance in its rates, there is no rationale for
requiring SFPP to record current or deferred income
taxes on its books."). FERC further explained that
"ratepayers have no equitable interest or ownership
claim in ADIT." Id. at ¶ 92; see also id. at ¶ 94 ("Rates
designed pursuant to the normalization principles . . .
do not 'over-collect' the pipeline's tax expenses in the
early years. Rather, such rates require shippers
receiving service in the early years to pay their
properly allocated share of the pipeline's tax expenses
for the period of their service.") (citation omitted).
Finally, FERC explained that requiring SFPP to
return ADIT to ratepayers would violate the rule

29a
against retroactive ratemaking. Id. at ¶¶ 93-98, 10003, 105.
Shippers contend that FERC committed an
unexplained departure from its precedent and policies
in permitting SFPP to eliminate the ADIT balance
rather than amortizing it. Shippers also dispute
FERC's characterization of their proposed solution of
amortization as retroactive ratemaking, and further
assert that, in allowing SFPP to simply eliminate the
ADIT balance, FERC has in fact engaged in retroactive
ratemaking.
We are not persuaded. We agree with FERC that
refunding ADIT to ratepayers or continuing to remove
it from rate base would constitute impermissible
retroactive ratemaking, and accordingly we have no
need to address Shippers' other contentions. Shippers'
twin arguments on the retroactive-ratemaking issue—
that amortizing the ADIT sum back to ratepayers
would not have been retroactive ratemaking, and that
failing to do so was—are non-starters, as FERC
correctly concluded that refunding ADIT, or continuing
to remove it from rate base, would violate the rule
against retroactive ratemaking.
"[T]he rule against retroactive ratemaking
'prohibits the Commission from adjusting current
rates to make up for a utility's over-or under-collection

30a
in prior periods.'" Old Dominion Elec. Coop. v. FERC,
892 F.3d 1223, 1227, 436 U.S. App. D.C. 225 (D.C. Cir.
2018) (quoting Towns of Concord, Norwood, &
Wellesley v. FERC, 955 F.2d 67, 71 n.2, 293 U.S. App.
D.C. 374 (D.C. Cir. 1992)). The question of whether a
particular method of ratemaking is retroactive, and
thus impermissible, is a question of law rooted in the
Interstate Commerce Act ("ICA"), 49 U.S.C. app. § 1 et
seq. (1988), the statute that governs FERC's regulation
of oil pipelines. Frontier Pipeline Co. v. FERC, 452 F.3d
774, 776, 371 U.S. App. D.C. 398 (D.C. Cir. 2006). The
rule against retroactive ratemaking is a "corollary" of
the filed rate doctrine, NSTAR Elec. & Gas Corp. v.
FERC, 481 F.3d 794, 800, 375 U.S. App. D.C. 298 (D.C.
Cir. 2007), under which "a regulated entity may not
charge, or be forced by the Commission to charge, a
rate different from the one on file with the Commission
for a particular good or service." Assoc. Gas Distribs. v.
FERC, 898 F.2d 809, 810, 283 U.S. App. D.C. 212 (D.C.
Cir. 1990) (mem.) (per curiam) (Williams, J.,
concurring). The filed rate doctrine is rooted in Section
6(7) of the ICA, 49 U.S.C. app. § 6(7) (1988). Frontier
Pipeline Co., 452 F.3d at 776 ("[Section] 6(7) . . .
establishes the familiar filed rate doctrine."); see Ark.
La. Gas Co. v. Hall, 453 U.S. 571, 577, 101 S. Ct. 2925,
69 L. Ed. 2d 856 (1981) ("The filed rate doctrine has its
origins in [the Supreme] Court's cases interpreting the
Interstate Commerce Act."). "The retroactive
ratemaking doctrine is . . . a logical outgrowth of the

31a
filed rate doctrine, prohibiting the Commission from
doing indirectly what it cannot do directly." Assoc. Gas
Distribs., 898 F.2d at 810 (Williams, J. concurring).
We review de novo the question of whether
amortizing the ADIT balance would have
constituted retroactive ratemaking. Opinion 511-D's
disposition of this issue "purport[s] to rest on [FERC's]
interpretation of [D.C. Circuit] opinions. As such,
[FERC's] judgment is not entitled to judicial
deference." New York New York, LLC, 313 F.3d at 590.
FERC explained in Opinion 511-D its view that
the retroactive ratemaking doctrine prohibits the
amortization of the sum that was once ADIT back to
shippers in prospective rates:
Under the Interstate Commerce Act
(ICA), the Commission only has the
authority to address over-recovery by
prospectively changing a pipeline's rate,
and may not retroactively refund overcollected amounts. Requiring SFPP,
whose tax allowance is eliminated, to
amortize to ratepayers ADIT that was
lawfully collected under previously filed
and approved rates would infringe on the
rule against retroactive ratemaking. To
do so would, effectively, retroactively

32a
apply the holding in Opinion No. 511-C
by requiring SFPP to refund either the
income tax allowance expenses or
deferred tax reserves recovered under
past rates for service prior to the
commencement of this proceeding. Any
attempt to refund such amounts to
shippers would be impermissible, as it
would rest on a post hoc finding that
SFPP's past rates were not just and
reasonable.
Opinion 511-D ¶ 93 (citing City of Piqua v. FERC, 610
F.2d 950, 954, 198 U.S. App. D.C. 8 (D.C. Cir. 1979);
OXY USA, Inc. v. FERC, 64 F.3d 679, 698-700, 314
U.S. App. D.C. 175 (D.C. Cir. 2006); Public Utilities
Comm'n, 894 F.2d 1372, 1382-84, 282 U.S. App. D.C.
332 (D.C. Cir. 1990); Assoc. Gas Distribs., 898 F.2d at
810 (Williams, J., concurring)). FERC also
distinguished between the instant situation, where a
pipeline's income tax allowance has been completely
eliminated, and circumstances in which ADIT becomes
overfunded but an income tax allowance remains:
Where an income tax allowance remains
in the cost of service and there is excess
ADIT resulting from a reduction in tax
rates, it is appropriate to credit the cost
of service to reflect that the pipeline

33a
currently needs to collect a lower level of
tax expenses in rates to cover the tax
liability for that year. Rather than
returning the excess amounts to
shippers related to past service, the
pipeline's cost of service is adjusted on a
going forward basis to reflect the fact
that it now needs to collect less than
what it anticipated to cover its future tax
liabilities. In contrast, where there is no
income tax allowance in Commission
rates, there is no basis for the "matching"
function of normalization and no liability
for the deferred taxes reflected in ADIT.
Id. at ¶ 97 (citations omitted). In FERC's view, "SFPP's
ADIT balance prior to the commencement of this
proceeding was lawfully collected for the tax costs
associated with prior-period service," and "[t]he
shippers' proposal to amortize the previouslyaccumulated ADIT balance in SFPP's prospective rates
rests on an impermissible finding that SFPP's past
rates were 'in retrospect too high' or 'unjust and
unreasonable.'" Id. at ¶ 103 (quoting Public Utilities
Comm'n, 894 F.2d at 1382)).
We concur with FERC's analysis, and, like FERC,
we consider Public Utilities Commission instructive, as
it addressed this precise issue in detail. In that case, a

34a
natural-gas company had $100 million in ADIT when
it switched from cost-of-service pricing to pricing based
on statutory ceilings. 894 F.2d at 1379. Consequently,
as here, "the 'turnaround' anticipated under tax
normalization," whereby ADIT would be drawn down
to cover future tax liability, would "never come to
pass." Id. at 1375. The Commission allowed the
company to retain the ADIT balance, but continued to
remove it from the rate base. Id. at 1379. This Court
held that approach barred by the rule against
retroactivity, as it "effectively force[s the company] to
return a portion of rates approved by FERC." Id. at
1384. We opined that the rule against retroactive
ratemaking "seeks to protect" "predictability," id. at
1383, and that ratemaking decisions "violate[] the rule
against retroactive ratemaking" if they "rest[] on a
Commission view that the [prior] rates . . . were in
retrospect too high," id. at 1380. Here, too, any decision
by FERC to return ADIT to Shippers would have as a
necessary predicate a conclusion that ADIT should not
have been collected in the first place. The rule against
retroactive ratemaking therefore prohibits this course
of action.
Shippers
contend
that
Public
Utilities
Commission should not control because there the ADIT
became overfunded when FERC lost jurisdiction of the
ADIT-generating assets, whereas here FERC had
disallowed an income tax allowance. We fail to see why

35a
the reason ADIT became overfunded is relevant to
retroactivity concerns or demands a different result.
Shippers also argue that Public Utilities Commission
was dictum on the retroactive-ratemaking issue, such
that FERC erred by relying on it. As noted, we owe no
deference to an agency's interpretation of our
precedent, New York New York, LLC, 313 F.3d at 590,
but neither do we perceive any need to parse Public
Utilities Commission to determine whether its
discussion of retroactive ratemaking was dictum or
holding, because our review of the legal question
presented leads us to concur with FERC's resolution of
the issue.
Because FERC could neither refund the ADIT nor
continue to remove it from rate base without violating
the rule against retroactivity, we cannot say that
FERC acted contrary to law or arbitrarily and
capriciously in permitting SFPP to remove ADIT from
its cost of service. We therefore deny Shippers' petition
as to the issue of FERC's treatment of ADIT in Opinion
511-D.
C. Litigation Expenses
In Opinion 511, FERC held that SFPP could
"recover its regulatory litigation expenses attributable
to this proceeding through a three-year surcharge" and
allowed SFPP "to develop the surcharge to reflect the

36a
costs incurring in this proceeding . . . during the
hearing, rehearing and compliance phases." Opinion
511 ¶ 35; accord Opinion 511-A ¶ 42 (affirming
adoption of a three-year period, rather than a five-year
period, "because the costs have been incurred over
approximately three years of litigation"). SFPP's 511C compliance filing reflected an updated calculation of
that approved surcharge "to account for additional
litigation costs incurred since the Opinion 511-B
Compliance Filing." Opinion 511-D ¶ 109. Shippers
protested to FERC, and now contend to us, that the
surcharge (totaling some $8,587,491) should not be
"levied over a three-year period," but should instead
"be recovered over the entire litigation and refund
period," because "the litigation has extended well
beyond three years" and, "although all shippers will
benefit from the lower rates, only the August 2008
through July 2011 shippers will pay the expenses
SFPP has incurred in litigating this case." Id. at ¶ 111;
accord J.A. 991-93 (Shippers' protest); see also
Shippers' Opening Br. at 34-36 (arguing that FERC
offered no "reasoned basis" for its decision); Shippers'
Reply Br. at 18-20 (same).
In Opinion 511-D, FERC rejected Shippers'
proposal:
The three-year period for recovering the
litigation expenses was approved in

37a
Opinion No. 511 and affirmed in Opinion
No. 511-A. The shippers provide no
support for their proposal to recover the
expenses over the entire litigation and
refund period, whereas using a shorter
period
is
consistent
with
both
Commission and court precedent. The
use of a three-year surcharge remains
appropriate because, although the
litigation remains ongoing, the majority
of the litigation expenses (85.9 percent)
were incurred in the earlier stages prior
to August 2011. Thus, the three-year
recovery period from August 1, 2008
through July 31, 2011 reflects the
costliest phase of the litigation.
Opinion 511-D ¶ 118; see also id. at n.249 (citing
Opinion 435-A ¶ 61,512 (approving five-year surcharge
to recover litigation expenses incurred over a longer
period)).
Contrary to Shippers' contentions, we find that
FERC adequately explained its decision to apply the
litigation surcharge over the three-year period
spanning August 2008 and July 2011, rather than
spreading those costs over the eleven-plus years of the
litigation. Even absent FERC's reference to precedent,
this decision is reasonable, as FERC's explanation—

38a
that 85.9 percent of the expenses were incurred over
the three-year period to which the surcharge would
apply—supplies sufficient support for FERC's election
of the three-year surcharge rather than Shippers'
preferred route of an eleven-year surcharge.
V. Conclusion
For the foregoing reasons, SFPP's and the
Shippers' petitions for review are denied.
So ordered.

39a
APPENDIX B
166 FERC ¶ 61,142
UNITED STATES OF AMERICA
FEDERAL ENERGY REGULATORY
COMMISSION
Before Commissioners: Neil Chatterjee, Chairman;
Cheryl A. LaFleur,
Richard Glick, and
Bernard L. McNamee.
SFPP, L.P.

Docket Nos. IS08-390-010
IS08-390-011
OPINION NO. 511-D

ORDER ON REHEARING AND COMPLIANCE
FILING
(Issued February 21, 2019)

40a
TABLE OF CONTENTS
Paragraph Numbers
I. Background .............................................................. 3.
II. Rehearing and Motion to Re-Open the Record ..... 6.
A. Opinion No. 511-C Correctly Held That A Double
Recovery Results from Permitting An Income Tax
Allowance For SFPP ................................................... 8.
1. Rehearing ................................................................ 8.
a. SFPP’s Rehearing ................................................... 8.
b. Discussion.............................................................. 10.
2. Motion to Reopen the Record................................ 19.
a. SFPP Motion and Shipper Answers ..................... 19.
b. Discussion.............................................................. 26.
B. SFPP’s Alternative Argument That It Should
Receive a Partial Income Tax Allowance for the
Income Allocated To Its General Partner Lacks Merit
................................................................................... 37.
1. SFPP’s Rehearing ................................................. 37.
2. Discussion.............................................................. 40.
a. SFPP’s Argument Is Procedurally Untimely ....... 41.
b. SFPP’s Argument Is Also Substantively Flawed 43.
III. Compliance Filing ............................................... 59.
A. Adit........................................................................ 61.
1. Background ........................................................... 62.
2. SFPP Compliance Filing, Protests and Comments
................................................................................... 64.
3. SFPP’s Reply Comments ...................................... 68.

41a
4. Revised Policy Statement Rehearing ................... 74.
5. Shippers’ Supplemental Comments ..................... 75.
6. Commission Determination .................................. 88.
a. SFPP Appropriately Eliminated the ADIT Balance
................................................................................... 90.
b. The Shippers’ Arguments for Amortizing ADIT to
Ratepayers Lack Merit ............................................. 96.
B. Litigation Surcharge .......................................... 109.
1. Background ......................................................... 109.
2. Protests and Comments ...................................... 111.
3. SFPP’s Reply Comments .................................... 114.
4. Commission Determination ................................ 117.
C. Overpaid Refunds and Under-Collected Revenues
Reserve .................................................................... 120.
1. Background ......................................................... 120.
2. Protests and Comments ...................................... 122.
3. SFPP’s Reply Comments .................................... 124.
4. Commission Determination ................................ 126.

42a
166 FERC ¶ 61,142
UNITED STATES OF AMERICA
FEDERAL ENERGY REGULATORY
COMMISSION
Before Commissioners: Neil Chatterjee,
Chairman;
Cheryl A. LaFleur,
Richard Glick, and
Bernard L. McNamee.
SFPP, L.P.

Docket Nos. IS08-390-010
IS08-390-011
OPINION NO. 511-D

ORDER ON REHEARING AND COMPLIANCE
FILING
On April 16, 2018, SFPP, L.P. (SFPP) filed
a
request
for
rehearing
of
Opinion
No. 511-C, which denied SFPP an income tax
allowance in its cost of service. 1 On August 7,
2018, SFPP filed a motion to reopen the record to
admit additional evidence regarding the income
tax allowance issue. As discussed below, we deny
1

SFPP, L.P., Opinion No. 511-C, 162 FERC ¶ 61,228 (2018).

43a
SFPP’s request for rehearing and motion to reopen
the record.
On May 14, 2018, SFPP filed its
Compliance
Filing
implementing
Opinion
No. 511-C. On June 8, 2018, Joint Shippers 2 and
Tesoro Refining & Marketing Company LLC
(Tesoro) submitted protests and comments. The
protests challenge SFPP’s proposed (1) elimination
of accumulated deferred income taxes (ADIT),
(2) litigation surcharge, and (3) Overpaid Refunds
and Under-Collected Revenues reserve.
As
discussed below, we accept SFPP’s Compliance
Filing, but reject SFPP’s proposal to create an
Overpaid Refunds and Under-Collected Revenues
reserve.
I.

Background

In United Airlines, Inc. v. FERC, 3 the
United States Court of Appeals for the District of
Columbia Circuit (D.C. Circuit) vacated in part
and remanded Commission Opinion Nos. 511, 511Joint Shippers include American Airlines, Inc., United
Airlines, Inc., Delta Air Lines, Inc., Southwest Airlines Co.,
BP West Coast Products LLC, Chevron Products Company,
ExxonMobil Oil Corporation, Phillips 66 Company, and
Valero Marketing and Supply Company.

2

3

United Airlines, Inc. v. FERC, 827 F.3d 122 (D.C. Cir. 2016).

44a
A and 511-B addressing SFPP’s 2008 West Line
cost-of-service rate case. 4 As relevant here, the
D.C. Circuit held that the Commission failed to
demonstrate there was no double recovery of
income tax costs when the Commission permitted
SFPP, a master-limited partnership (MLP)
Pipeline, 5 to recover both an income tax allowance
and a return on equity (ROE) determined by the
discounted cash flow (DCF) methodology. 6 Prior to
SFPP, L.P., Opinion No. 511, 134 FERC ¶ 61,121 (2011),
order on reh’g, Opinion No. 511-A, 137 FERC ¶ 61,220 (2011),
order on reh’g, Opinion No. 511-B, 150 FERC ¶ 61,096 (2015).
4

At the time of SFPP’s 2008 West Line rate case, SFPP was
a wholly owned subsidiary of an MLP. Opinion No. 511-C,
162 FERC ¶ 61,228 at P 9. An MLP Pipeline as used in this
order is either a pipeline organized as an MLP or the wholly
owned subsidiary of an MLP such as SFPP. An MLP is a
special kind of partnership available to oil and gas pipelines
in which limited partner units trade on public exchanges.
For further discussion of the MLP Pipeline business form,
see Opinion No. 511-C, 162 FERC ¶ 61,228 at P 9.
5

To determine the ROE for a regulated entity, the DCF
methodology uses a proxy group of publicly-traded entities
(MLPs or corporations) with similar risk profiles to the
regulated entity. The DCF methodology determines for each
member of the proxy group a required investor return using
the formula k = D/P + g, where D is the dividend (or
distribution for an MLP) and P is the stock price and g is the
growth rate. The DCF ROE is typically set at the median
return in the proxy group. For further discussion of the DCF

6

45a
United Airlines, the Commission allowed all
partnership entities (including MLP Pipelines) to
recover an income tax allowance for the partners’
tax costs much like a corporation receives an
income tax allowance for its corporate income tax
costs (2005 Income Tax Policy). 7
On remand in Opinion No. 511-C, the
Commission found that a double recovery results
from granting an MLP Pipeline such as SFPP an
income tax allowance and a DCF ROE. 8 The
Commission rejected SFPP’s argument in its
comments on remand and supplemental comments
on remand that in United Airlines “the Court
erred” when holding that a double recovery results
from including both a DCF ROE and an income tax
allowance in SFPP’s cost of service. 9 Accordingly,

methodology, see Opinion No. 511-C, 162 FERC ¶ 61,228 at
P 11.
Policy Statement on Income Tax Allowances, 111 FERC ¶
61,139 (2005) (2005 Income Tax Policy Statement).

7

8

Opinion No. 511-C, 162 FERC ¶ 61,228 at P 22.

SFPP Comments on Remand at 5; Opinion No. 511-C, 162
FERC ¶ 61,228 at PP 22-29.
9

46a
the Commission denied SFPP an income tax
allowance. 10
The Commission has also addressed the
income tax allowance issues involving MLP
Pipelines in other proceedings. Following United
Airlines, the Commission issued a notice of inquiry
and received numerous comments regarding how
to address any double recovery resulting from the
Commission’s current income tax allowance and
rate of return policies in Docket No. PL17-1. 11 In
response to those comments, on March 15, 2018,
the Commission issued a Revised Policy
Statement, which superseded the guidance in the
Commission’s 2005 Income Tax Policy Statement
and provided new guidance that the Commission
will generally not permit MLP Pipelines to recover
an income tax allowance in their cost of service. 12
10 Opinion No. 511-C, 162 FERC ¶ 61,228 at P 28. The
Commission also denied SFPP’s request for a paper hearing
regarding whether any adjustment is appropriate to the ROE
of a tax pass-through entity that includes an income tax
allowance in its cost of service. Id. P 30.

Inquiry Regarding the Commission’s Policy for Recovery of
Income Tax Costs, Notice of Inquiry, 157 FERC ¶ 61,210
(2016).

11

Inquiry Regarding the Commission's Policy for Recovery of
Income Tax Costs, Revised Policy Statement, 162 FERC ¶
61,227 (2018) (Revised Policy Statement).

12

47a
On July 18, 2018, the Commission issued its
Revised Policy Statement Rehearing decision,
which dismissed the requests for rehearing and
clarification of the Revised Policy Statement and
provided guidance regarding the treatment of
ADIT where the income tax allowance is
eliminated from cost-of-service rates under the
Commission’s post-United Airlines policy. 13
II.

Rehearing and Motion to Re-Open the
Record

On rehearing, SFPP argues that Opinion
No. 511-C reached an erroneous outcome in two
respects. First, SFPP asserts that the Commission
erred by concluding that a double recovery
resulted from permitting an income tax allowance
for the tax costs incurred by its MLP parent’s
unitholders. SFPP filed the August 7, 2018 Motion
to Reopen the Record seeking to further support
these arguments.
Second, on rehearing and in the alternative,
SFPP argues that the Commission should permit
SFPP to recover a partial income tax allowance for
the taxes arising from the proportion of SFPP’s
Inquiry Regarding the Commission's Policy for Recovery of
Income Tax Costs, 164 FERC ¶ 61,030 (2018) (Revised Policy
Statement Rehearing).
13

48a
income allocated to its MLP parent’s corporate
general partner owner.
A.

Opinion No. 511-C Correctly Held That
A Double Recovery Results from
Permitting An Income Tax Allowance
For SFPP
1.

Rehearing
a.

SFPP’s Rehearing

SFPP claims that the Commission in
Opinion No. 511-C failed to adequately address the
evidence and to provide a sufficient rationale for
concluding that permitting SFPP to recover an
income tax allowance would lead to a double
recovery of investors’ tax costs. SFPP argues that
the Commission improperly relied upon United
Airlines to find that a double recovery existed and
to perfunctorily dismiss SFPP’s arguments to the
contrary. 14 SFPP argues that United Airlines
merely held that the Commission had not
previously justified its conclusions and that the
Commission was obligated to consider the full
record. In particular, SFPP argues that the
Commission simply assumed that changes to
SFPP’s unit price (or the unit price of SFPP’s MLP
14

SFPP Rehearing at 8-15.

49a
parent) would not eliminate the double recovery. 15
SFPP also challenges Opinion No. 511-C’s
observation that Table 1 in SFPP’s post-United
Airlines remand supplemental comments showed
that a DCF ROE based on an MLP proxy group
provided investors with a pre-tax investor
return. 16 SFPP now seeks to disavow this table,
arguing that it was superseded by further
arguments involving the double-recovery issue.
SFPP similarly argues that due to an over-reliance
upon United Airlines the Commission failed to
address SFPP’s argument that there is no shortterm period in which MLP investors will receive a
higher return than corporate shareholders. 17
In addition, SFPP raises a number of
objections to the Revised Policy Statement and its
purported application to SFPP.
While
acknowledging that Opinion No. 511-C never cited
the Revised Policy Statement, 18 SFPP argues that
the Commission implemented the Revised Policy
Statement as a binding rule in Opinion No. 511-C

15

Id. at 14.

16

Id. (citing Opinion No. 511-C, 162 FERC ¶ 61,228 at n.51).

17

Id.

18

Id. at 15.

50a
without considering the factors specific to SFPP. 19
SFPP also argues that the Commission failed to
address the evidence submitted in the Revised
Policy Statement proceeding (Docket No. PL17-1)
that demonstrated that there is no double recovery
when an MLP receives an income tax allowance.
SFPP argues that in the Revised Policy Statement
the Commission arbitrarily found that all MLPs
should be denied an income tax allowance while
addressing all other partnerships on a case-by-case
basis. SFPP argues that the Commission provided
no rational basis for treating MLPs such as SFPP
differently than other pass-through entities. 20

19 Id. at 15-19. SFPP also requested that the Commission
hold this proceeding in abeyance pending the outcome of the
rehearing requests on the Revised Policy Statement. An
answer opposing SFPP’s motion to hold the proceeding in
abeyance was filed on May 1, 2018 by American Airlines, Inc.
(formerly US Airways, Inc.), United Airlines, Inc., Delta Air
Lines, Inc., Southwest Airlines Co., BP West Coast Products
LLC, Chevron Products Company, ExxonMobil Oil
Corporation, and Valero Marketing and Supply Company.
On May 9, 2018, SFPP filed a motion for leave to answer and
answer, and on June 11, 2018, SFPP filed supplemental
information. This issue is now moot, as the Commission
issued its July 18, 2018 order dismissing the requests for
rehearing of the Revised Policy Statement. Revised Policy
Statement Rehearing, 164 FERC ¶ 61,030.
20

Id. at 17-19.

51a
b.

Discussion

We affirm the findings in Opinion No. 511C that a double recovery results from granting
SFPP an income tax allowance and a DCF ROE.
Contrary to SFPP’s claims, the Commission
examined the record and the parties’ comments on
remand and reached a decision based on the
following findings:


MLPs do not incur income taxes at the entity
level. 21 Instead, the partners, including both
individual and corporate unitholders, are
individually responsible for paying taxes on their
allocated share of the partnership’s taxable
income. 22

Opinion No. 511-C, 162 FERC ¶ 61,228 at P 22 (citing
United Airlines, 827 F.3d at 136).

21

Id. (citing 2005 Income Tax Policy Statement, 111 FERC ¶
61,139 at P 33; ExxonMobil Oil Corp. v. FERC, 487 F.3d 945,
954 (D.C. Cir. 2007) (noting that “investors in a limited
partnership are required to pay tax on their distributive
shares of the partnership income, even if they do not receive
a cash distribution”)).

22

52a


The DCF methodology estimates the returns a
regulated entity must provide to investors in order
to attract capital. 23



To attract capital, entities in the market must
provide investors (including individual and
corporate unitholders) a pre-tax return, i.e., a
return that covers investor-level taxes and leaves
sufficient remaining income to earn investors’
required after-tax return. 24
In other words,
because investors must pay taxes from any
earnings received from the partnership, the DCF
return must be sufficient both to cover the
investor’s tax costs and to provide the investor a
sufficient after-tax return. 25
Based on the above findings, the
Commission determined that “[g]iven that the
DCF return is a ‘pre-tax investor return,’ 26
23

Opinion No. 511-C, 162 FERC ¶ 61,228 at P 11.

Id. P 22 (citing Kern River Transmission Co., Opinion No.
486-B, 126 FERC ¶ 61,034, at P 114 (2009) (“investors invest
on the basis of after-tax returns and price an instrument
accordingly”)).
24

25

Id.

26 In United Airlines, the D.C. Circuit cited paragraphs 243244 of Opinion No. 511 to support its finding that “the [DCF
ROE] determines the pre-tax investor return required to

53a
permitting SFPP to recover both an income tax
allowance and a DCF ROE would lead to a double
recovery of its income tax costs. 27
SFPP’s

attract investment, irrespective of whether the regulated
entity is a partnership or a corporate pipeline,” which
included the following example:
The investor desires a 6 percent after-tax return
and has a 25 percent marginal tax rate. Thus, the
security must have an ROE of 8 percent to achieve
an after-tax yield of 6 percent. Assume that the
distribution or dividend is $8. The investor will
price the security at $100. Conversely, if the
security price is $100 and the yield is $8, the
Commission determines that the required return
is 8 percent. If the dollar distribution increases to
$10, the investor will price the security at $125
because $10 is 8 percent of $125. The Commission
would note that the security price is $125 and that
the yield is $10, or a return of 8 percent. If the
distribution is $6, the security price will drop to
$75, a return of 8 percent. The Commission would
observe a $75 dollar security price, a $6 yield, and
a return of 8 percent. In all cases the ROE is 8
percent and the after-tax return is 6 percent based
on the market-established return.
Opinion No. 511-C, 162 FERC ¶ 61,228 at P 16 n.32 (quoting
United Airlines, 827 F.3d at 136 (citing Opinion No. 511, 134
FERC ¶ 61,121 at PP 243-244)).
27

Opinion No. 511-C, 162 FERC ¶ 61,228 at P 21.

54a
rehearing does not challenge any of the above
findings.
Furthermore, contrary to SFPP’s claims,
Opinion No. 511-C thoroughly addressed the
evidence and arguments presented by SFPP. 28
The Commission responded to SFPP’s arguments
that (1) the market immediately increases the
price of partnership units in response to the cash
flow from an income tax allowance, thereby
maintaining the same rate of return as if there was
no income tax allowance, 29 (2) an income tax
allowance is necessary to preserve parity between
MLP and corporate-owned pipelines, 30 and (3)
denying MLPs an income tax allowance would
eliminate the tax benefit Congress intended to
provide to pass-through entities. 31
The
Commission also found no evidence that the preinvestor tax DCF ROE would fail to provide SFPP
with sufficient returns. 32

28

Id. PP 23-29.

29

Id. PP 22-23.

30

Id. P 25.

31

Id. PP 26-27.

32

Id. P 29.

55a
In response to SFPP’s rehearing request,
we reaffirm Opinion No. 511-C’s finding that
instantaneous stock price adjustments do not
eliminate the double recovery that would result
from permitting an MLP to recover an income tax
allowance. Opinion No. 511-C explained that
whether or not MLP unit prices adjust
immediately (as SFPP argues) or more slowly, the
double-recovery issue involves whether SFPP’s
income tax costs have been recognized in its cost of
service, and is separate from the post-rate case
effects upon SFPP’s MLP unit price (in this case,
the unit price of SFPP’s parent MLP, Kinder
Morgan Energy Partners (KMEP)). 33 Rather,
SFPP’s DCF ROE is based upon a proxy group of
seven MLPs and their DCF returns as of
September 2008. 34
As Opinion No. 511-C
explained, each of these seven MLPs in the proxy
group must provide its investors with a sufficient
pre-investor tax return to attract capital, and as a
result, the DCF ROE produced by the proxy group
will include investor-level tax costs. 35 The DCF
ROE incorporates the investor-level income tax
33

Id. P 24.

34 Those September 2008 proxy group returns predated the
Commission’s rulings in this case and are unaffected by the
outcome of this proceeding involving SFPP.
35

Opinion No. 511-C, 162 FERC ¶ 61,228 at P 22 n.48.

56a
liability, and SFPP does not argue that it is subject
to an additional income tax liability.
Moreover, while changes to our income tax
policies may affect the unit price of regulated
entities (whether SFPP’s parent MLP or other
MLPs in the proxy group), these changes to unit
prices do not resolve the double-recovery problem
or change any MLP’s DCF return from a preinvestor tax return to an after-investor tax return.
As Opinion No. 511-C explained, SFPP’s own postUnited Airlines remand comments in this
proceeding conceded that an MLP unit will always
provide a pre-investor tax return whether or not
an MLP Pipeline receives an income tax
allowance. 36 Although SFPP on rehearing now
appears to disavow that aspect of its post-United
Airlines remand comments, 37 SFPP’s new position
36

Id. P 24 n.51. See also supra note 26.

37 SFPP Rehearing at 14. Distancing itself from its postremand comments, SFPP somewhat cryptically states that
“[t]his table reflected a prior global, and now clearly
unsupported, assumption that the DCF ROE always results
in a pre-tax return for a corporation.” Id. (Emphasis added.)
This statement is puzzling for three reasons. First, Opinion
No. 511-C relied upon the table’s representation that an MLP
recovers a pre-investor tax whether or not it recovers an
income tax allowance, not any representation in the table
regarding corporations. See Opinion No. 511-C, 162 FERC ¶
61,228 at P 24 n.51. Second, while it is irrelevant because

57a
is not persuasive. If an MLP Pipeline obtains a
new revenue source that increases distributions to
investors (such as an income tax allowance), the
unit price will rise until, once again, the investor
receives the cash flow necessary to cover the
investor’s income tax liabilities and to earn an
after-tax return that is comparable to other
investments of similar risk. 38 Likewise, if the
SFPP’s proxy group does not include any corporations, the
Commission is not aware of any argument made elsewhere
by SFPP that the DCF return for a corporation does not
include the investor-level dividend tax cost. In fact SFPP has
argued the opposite in its other post-United Airlines filings.
See, e.g., SFPP Motion to Reopen the Record, August 7, 2018,
Ex. 2 at 47 (example in Table 2, column 6, rows 13 and 16,
describing the DCF ROE of a corporate proxy group as
providing the shareholder’s before-tax return). Third, by
abandoning reliance upon this table, SFPP is abandoning the
only substantive illustration in its post-United Airlines
remand comments and supplemental comments for why
SFPP believed permitting it to recover an income tax
allowance does not result in a double recovery.
38 In other words, whether or not an MLP Pipeline recovers
an income tax allowance, its investors decide whether to
invest at a particular MLP unit price based upon the cash
flow from the MLP unit and investors’ knowledge that the
cash flow must cover their after-tax return and tax liability.
The income tax allowance merely allows the pipeline to
increase the distributions (i.e., cash flows) to investors.
These increased cash flows increase investor demand for the
MLP unit and cause the MLP unit price to increase until the
investor receives the percentage return that compensates the

58a
MLP’s cash flows are reduced (such as via the
removal of the income tax allowance) and
consequently distributions decline, the MLP unit
price will drop until the returns once again both
cover investors’ tax costs and provide the sufficient
after-tax returns. Whether or not an MLP Pipeline
receives an income tax allowance, the MLP’s DCF
return will always be a pre-investor tax return.
Accordingly, permitting SFPP to recover both this
pre-investor tax DCF ROE and an income tax
allowance leads to a double recovery of investorlevel tax costs.
Finally, we emphasize that such post-rate
case changes to SFPP’s MLP parent’s unit price do
not remedy Opinion No. 511-C’s double-recovery
concerns. Even if, SFPP’s unit price immediately
changes such that its percentage pre-investor tax
DCF return is always the same whether or not it
recovers an income tax allowance, this does not
resolve the double-recovery issue as argued by
SFPP. As explained above, the DCF ROE in
SFPP’s cost of service includes investor-level tax
costs, and SFPP proposes an income tax allowance
to recover those same costs. As Opinion No. 511-C
explained, SFPP appears to argue that it should be
permitted to recover duplicative costs in its cost of
service because, as a result of any double recovery,
investor with a sufficient pre-investor tax return. See supra
note 26.

59a
its unit price will instantaneously rise in the
market to account for the increased cash flows
distributed to unitholders. 39 This argument is
without merit. Regardless of the subsequent
effects upon MLP unit prices, such double
recoveries are contrary to fundamental cost-ofservice principles in which a pipeline may recover
a cost from ratepayers once, not twice. Subsequent
inflation of the MLP unit price does not rectify a
cost-of-service double-recovery. 40
We also reject SFPP’s related argument
that, because the market MLP unit price
instantaneously adjusts, “there is no short-term
period in which MLP investors will receive a
higher return than corporate shareholders.” 41 As
Opinion No. 511-C explained, the Commission
39 Opinion No. 511-C, 162 FERC ¶ 61,228 at P 24 n.52
(“While an inflated cost of service will likely increase
distributions to investors and potentially cause a pipeline’s
unit price to rise, such benefits to a pipeline’s unitholders do
not render the double recovery permissible. Under SFPP’s
theory, the Commission could increase SFPP’s cost of service
by allowing SFPP to incorporate duplicative costs, yet SFPP
appears to claim that because its parent’s unit price would
subsequently rise, the inclusion of duplicative costs in
SFPP’s cost of service is not unjust or unreasonable.”).
40

Id.

41

Request for Rehearing at 14.

60a
ensures parity between MLP investors and
corporate shareholders by disallowing the double
recovery in MLPs’ cost of service:
Denying SFPP a duplicative income tax
allowance also restores the parity
between the rate treatment of MLPs (such
as SFPP) and corporations by ensuring
that neither double-recover tax costs. As
discussed above, permitting SFPP to
recover an income tax allowance leads to
a double recovery. In contrast, no double
recovery results when a corporation’s cost
of service includes an income tax
allowance. Because the corporate income
tax is not an investor-level tax, the
corporate income tax is not reflected in the
investor’s DCF return. 42
We also reject SFPP’s assertion that the
Commission implemented the Revised Policy
Statement as a binding rule in Opinion No. 511-C
without addressing the record. The holding in
Opinion No. 511-C, 162 FERC ¶ 61,228 at P 25. Moreover,
as Opinion No. 511-C explained, no double recovery results
when a corporate pipeline’s cost of service includes an income
tax allowance because this so-called “first tier” corporate
income tax is paid directly by the corporation, rather than by
shareholders from the dividends used in the DCF
methodology. Id. P 25 n.53.

42

61a
Opinion No. 511-C that SFPP may not recover an
income tax allowance in its cost of service is based
on the record in this proceeding. As discussed
above, the Commission evaluated SFPP’s
arguments and evidence in reaching its
determination, including SFPP’s comments and
supplemental comments on remand. 43
We dismiss SFPP’s argument that in the
Revised Policy Statement, the Commission
arbitrarily treated MLPs differently from other
pass-through entities by providing guidance that
MLPs will not be permitted an income tax
allowance but adopting a case-by-case approach for
other pass-through entities. This argument is
beyond the scope of this proceeding. Opinion No.
511-C addressed whether permitting SFPP to
recover an income tax allowance in its cost of
service in addition to the DCF ROE results in a
SFPP’s rehearing also does not identify with specificity
arguments that Opinion No. 511-C failed to address from
Docket No. PL17-1 that SFPP believes are applicable to this
SFPP West Line proceeding. The only specific argument
SFPP’s rehearing identifies is that Opinion No. 511-C did not
consider SFPP’s arguments in Docket No. PL17-1 that
SFPP’s proxy group is entirely composed of MLPs. SFPP
Rehearing at 15. However, Opinion No. 511-C expressly
addressed that SFPP’s proxy group is composed entirely of
MLPs, and explained that this supported its double-recovery
findings. See, e.g., Opinion No. 511-C, 162 FERC ¶ 61,228 at
P 29.
43

62a
double recovery. The treatment of the many other
pass-through entity forms and whether they may
be entitled to an income tax allowance is not at
issue in this proceeding. 44 We have supported our
holdings as applied to SFPP.
2.

Motion to Reopen the Record
a.

SFPP Motion and Shipper
Answers

On August 7, 2018, SFPP filed a 251 page
motion to reopen the record in this proceeding.
SFPP proposes to include four exhibits. The
proposed exhibits include SFPP’s comments, reply
comments and surreply comments, as well as the
associated statements of Dr. James H. Vander
Weide, in Docket No. PL17-1 (Exhibits 2-4), 45 and
a statement of Dr. Michael J. Webb (Exhibit 1)
providing evidence that MLP unit prices fell after
the Revised Policy Statement and Opinion No.
511-C issued in March 2018. SFPP claims that the
44 In addition, as we explained, the record in the Revised
Policy Statement proceeding does not provide a basis for
addressing the double-recovery issue for pass-through
business forms that are not MLPs like SFPP. Revised Policy
Statement at PP 3, 45.

Alternatively, SFPP moves to lodge these proposed
exhibits. Motion to Reopen the Record at 21 n.45.

45

63a
proposed exhibits provide evidence that there is no
double recovery from including an income tax
allowance in an MLP Pipeline’s cost of service.
SFPP argues that reopening the record is
appropriate because there has been a change in
policy that goes to the heart of the case. SFPP
asserts that the record developed in this
proceeding was prior to the United Airlines
decision and reflected adherence to the
Commission’s 2005 Income Tax Policy Statement
and ExxonMobil. 46
Although SFPP filed
comments and supplemental comments in this
docket following the United Airlines remand
decision, SFPP states that the Commission did not
issue any procedures in this docket to allow for
additional evidence to supplement the record
following the United Airlines decision. Instead,
SFPP states that the Commission issued the notice
of inquiry and received comments from
stakeholders, including SFPP, in Docket No. PL171. SFPP further argues that in the Revised Policy
Statement Rehearing in Docket No. PL17-1, the
Commission invited MLP Pipelines to demonstrate
in future cases whether or not they are entitled to
an income tax allowance by establishing that there

46

487 F.3d 945.

64a
is no double recovery. 47 SFPP argues that the
Commission should reopen the record to afford
SFPP the same opportunity that the Commission
afforded other MLP Pipelines. 48 SFPP further
argues that the exhibits in its Motion to Reopen
the Record demonstrate that its recovery of an
income tax allowance would not lead to a double
recovery. 49
SFPP asserts that when determining
whether to reopen the record due to a change in
policy, the Commission considers whether the
party was on notice regarding the change in policy
at the time the record was created. SFPP argues
that although the participants knew that the
policy was a debated issue in the proceeding prior
to the United Airlines decision, at the time the
record was created the 2005 Income Tax Policy
Statement was settled law and the record was
created only to defend the Commission’s pre-

47 Motion to Reopen the Record at 5-9. SFPP also references
Interstate and Intrastate Natural Gas Pipelines; Rate
Changes Relating to Federal Income Tax Rate, Order No. 849,
164 FERC ¶ 61,031 (2018).
48
49

Motion to Reopen the Record at 7, 11, 15-16, 20.
Id. at 9-10, 13, 16, 21.

65a
United Airlines policy. 50
SFPP argues that
reopening the record will promote administrative
efficiency, because the Commission can issue a
decision based on a complete record and the D.C.
Circuit will have a complete record on appeal. 51
SFPP also claims that the Commission
must reopen the record in order to afford due
process to SFPP. SFPP asserts that it has a
significant property interest at stake and the risk
that SFPP will be erroneously deprived of its right
to be heard regarding its property interest is high
because SFPP has not had an opportunity in this
docket to meet the newly established burden for
supporting its income tax allowance. 52 SFPP
argues that although it defended the inclusion of
the income tax allowance against attacks from
shippers in this proceeding, it did not have clear
notice of the burden.
SFPP argues that when the D.C. Circuit
previously invalidated Commission income tax
policy in BP West Coast 53 leading the Commission
50

Id. at 12-13.

51

Id. at 17-21.

52

Id. at 14-17, 20.

53

BP West Coast Products, LLC v. FERC, 374 F.3d 1263

66a
to issue the 2005 Income Tax Policy Statement, the
Commission afforded SFPP the opportunity to
comment regarding how the 2005 Policy
Statement should apply to SFPP’s underlying case
that was the subject of the BP West Coast
decision. 54 SFPP also argues that the Commission
has granted motions to reopen the record in other
circumstances to address a court of appeals
remand. 55 SFPP asserts that in other proceedings
the Commission has allowed for paper hearings
after the issuance of a policy statement. 56
On August 22, 2018, Joint Shippers filed an
answer to SFPP’s motion. Joint Shippers assert
that SFPP’s motion to reopen the record reflects
SFPP’s effort to untimely raise additional
arguments that could have been made on
(D.C. Cir. 2004).
54 Motion to Reopen the Record at 10-12 (citing SFPP, L.P.,
111 FERC ¶ 61,334, at PP 76-77 (2005)).
55 Id. (citing NYISO, 110 FERC ¶ 61,244, at 62,005 (2005);
PUC v. Sellers, 149 FERC ¶ 61,127, at 61,804-5 (2014)).

Id. at 12-13 (citing SFPP, L.P., 123 FERC ¶ 61,116 at P 12
(2008); Texaco Ref. & Mktg., Inc. v. SFPP, L.P., 123 FERC ¶
61,117 (2008); Kern River Gas Transmission Co., 126 FERC
¶ 61,034 at P 21; Duke Energy Guadalupe Pipeline, Inc., 123
FERC ¶ 61,057 (2008); Martha Coakley v. Bangor HydroElectric Co., 147 FERC ¶ 61,234, at P 10 (2014)).
56

67a
rehearing. Joint Shippers also argue that SFPP
has
not
demonstrated
extraordinary
circumstances that justify reopening the record.
Joint Shippers state that SFPP had sufficient
opportunity to litigate whether including an
income tax allowance results in a double recovery.
On September 10, 2018, SFPP filed a
motion for leave to answer and answer to Joint
Shippers’ answer. SFPP argues that its motion is
procedurally proper and supported by Commission
precedent. Rule 213 of the Commission’s Rules of
Practice and Procedure prohibits answers to
answers unless otherwise ordered by a decisional
authority. 57 We will accept SFPP’s answer as it
assisted the Commission in its determination.
b.

Discussion

As discussed below, we deny SFPP’s motion
to reopen the record. However, even if we were to
consider the additional arguments SFPP seeks to
include in this record, we would reject them as
without merit.
SFPP has presented no basis to warrant
reopening the record at this late stage in the
proceeding that outweighs the need for finality in
the administrative process. The Commission has
57

18 C.F.R. § 385.213(a)(2) (2018).

68a
discretion in deciding whether to reopen the
record, 58 and “the general rule is that the record
once closed will not be reopened.” 59 SFPP has fully
litigated in this proceeding the issue of whether
including an income tax allowance in its cost of
service in addition to the DCF ROE results in a
double recovery.
SFPP has presented its
arguments regarding the double-recovery issue
through briefing and expert testimony in the
Commission proceeding prior to United Airlines, 60
briefing before the D.C. Circuit, 61 its comments
and supplemental comments following the United
Airlines remand, 62 and its request for rehearing of
58 18 C.F.R. § 385.716; Northwest Pipeline Corp., 76 FERC ¶
61,068 at 61,240 (1996); East Texas Electric Coop., Inc. v.
Central and South West Services, Inc., 94 FERC ¶ 61,218, at
61,801 (2001).
59

East Texas, 94 FERC at 61,801.

See, e.g., Ex. SFP-94 (Prepared rebuttal testimony of
George R. Schink on behalf of SFPP); Initial Brief of SFPP at
49-64 (Sept. 30, 2009); Post-Hearing Reply Brief of SFPP,
L.P. at 41-45 (Oct. 30, 2009); Brief Opposing Exceptions of
SFPP at 6-22 (Feb. 22, 2010).
60

Brief of Intervenor SFPP, L.P. in Support of Respondents,
Case No. 11-1479, at 10-19 (D.C. Cir. filed Feb. 5, 2016).
61

62 Comments on Remand of SFPP at 3-10 (August 25, 2016);
Supplemental Comments of SFPP on Remand at 1-14
(November 30, 2016).
The Commission allowed and

69a
Opinion No. 511-C. There is no merit to SFPP’s
claim that it lacked notice of the double-recovery
issue and was denied an opportunity to
demonstrate whether or not it was entitled to an
income tax allowance by establishing that there is
no double recovery. 63 Further, the arguments
made in SFPP’s motion that consist of comments
responding to the Revised Policy Statement in
Docket No. PL17-1 could have been included in
SFPP’s comments on remand, supplemental
comments on remand, or rehearing request in this
proceeding. SFPP is procedurally barred from
introducing new arguments that it failed to timely
include in its request for rehearing. 64 Likewise, we
considered SFPP’s post-United Airlines remand comments in
this proceeding. Opinion No. 511-C, 162 FERC ¶ 61,228 at
PP 19-20, 23-30.
Although SFPP claims that it did not have an opportunity
to fully litigate the double-recovery issue due to the
Commission’s prior policy of permitting MLPs to recover an
income tax allowance, the D.C. Circuit’s prior ExxonMobil
decision affirming the Commission’s policy had reserved the
double-recovery issue. United Airlines, 827 F.3d at 135.
Moreover, the 2005 Income Tax Policy Statement was not a
binding rule and the issue was to be fully litigated in specific
cases, such as this SFPP rate case.
63

64 See Florida Power Corp., 63 FERC ¶ 61,208, at 62,570
(1993) (party was procedurally barred from introducing new
arguments that it failed to raise in its request for rehearing

70a
reject SFPP’s argument that reopening the record
is necessary to afford SFPP due process, as SFPP
has had multiple opportunities to be heard on this
issue. The Commission will not permit SFPP to
seek yet another bite at the apple at this late stage
in a proceeding in which the income tax allowance
has been a subject of dispute for more than a
decade. “[L]itigation must come to an end at some
point.” 65
In any event, SFPP’s proposed evidence
does not refute the Commission’s findings that
permitting SFPP to recover an income tax
allowance would result in a double recovery. As an
initial matter, SFPP’s motion and the attached
exhibits concede the Commission’s key findings in
Opinion No. 511-C:


Opinion No. 511-C concluded “MLPs and
similar pass-through entities do not incur
income taxes at the entity level. Instead, the
partners are individually responsible for
paying taxes on their allocated share of the

in a timely manner and instead sought to include in a
subsequent motion for clarification).
East Texas, 94 FERC at 61,801 (quoting Transwestern
Pipeline Co., Opinion No. 238, 32 FERC ¶ 61,009, at 61,307
(1985)); Southwest Power Pool, Inc., Opinion No. 562, 163
FERC ¶ 61,109, at P 222 (2018).

65

71a
partnership’s taxable income.” 66 Likewise, as
SFPP explains, “[t]he taxable income or
taxable loss of a partnership (including an
MLP) is allocated to the partners on an annual
basis in accordance with their ‘distributive
shares’ as determined by the partnership
agreement.” 67 “Over the life of a partner’s
ownership of an interest in a partnership, that
partner will be subject to tax on her share of
the partnership’s taxable income” 68


Opinion No. 511-C explained “The DCF
methodology estimates the returns a regulated
entity must provide to investors in order to
attract capital.” 69 SFPP likewise explains,
“The Commission uses its DCF model equation
to estimate the pipeline investor’s required
rate of return on equity….” 70



Opinion No. 511-C explained that, “[t]o attract
capital, entities in the market must provide

66

Opinion No. 511-C, 162 FERC ¶ 61,228 at P 22.

67

Motion to Reopen the Record, Ex. 2 at 6-7.

68

Id. at 8.

69

Opinion No. 511-C, 162 FERC ¶ 61,228 at P 22.

70

Motion to Reopen the Record, Ex. 2 at 14, 39.

72a
investors a pre-tax return, i.e., a return that
covers investor-level taxes and leaves
sufficient remaining income to earn investors’
required after-tax return. In other words,
because investors must pay taxes from any
earnings received from the partnership, the
DCF return must be sufficient both to cover the
investor’s tax costs and to provide the investor
a sufficient after-tax ROE.” 71 Similarly, SFPP
states: “Investors make investment decisions
based on their after-tax required return on
investment rather than their before-tax
required return on investment.” 72 SFPP adds:
“Because an investor makes investment
decisions based on her required after-tax rate
of return on investment, the investor must first
know that her before-tax required rate of
return on investment will be sufficient to allow
the investor to earn an after-tax required rate
of return on investment. If the investor
requires a higher before-tax rate of return in
order to earn an after-tax required return
because of income taxation, then the investor
will increase her before-tax required return
above the after-tax required return so that she
71

Opinion No. 511-C, 162 FERC ¶ 61,228 at P 22.

Motion to Reopen the Record, Ex. 2 at 15, 40 (Emphasis in
original).
72

73a
can recover both the income taxes on the
investment and earn the after-tax required
return.” 73 Accordingly, SFPP acknowledges,
“MLPs generally distribute cash flows to their
partners that are sufficient to recover the
partners’ income taxes and earn the partners’
after-tax required return.” 74


Therefore, Opinion No. 511-C concluded: “The
DCF methodology ‘determines the pre-tax
investor
return
required
to
attract
75
investment.’”
Likewise, SFPP states: “[T]he
Commission’s DCF model equation will
measure the investor’s before-tax required
return on equity for the proxy companies
included within the proxy group.” 76

Much like the Commission, SFPP concludes: “In
United Airlines, the D.C. Circuit concluded that
the Commission’s DCF model is a before-tax rate
of return on equity. SFPP and Dr. Vander Weide

73

Id. at 16, 41.

74

Id. Ex. 4 at 10.

75 Opinion No. 511-C, 162 FERC ¶ 61,228 at P 22 (quoting
United Airlines, 827 F.3d at 136) (emphasis added).
76

Motion to Reopen the Record, Ex. 2 at 40.

74a
agree.” 77 We emphasize that the above statements
all support Opinion No. 511-C’s determination
that because the DCF ROE is a pre-investor tax
return, permitting SFPP to recover an income tax
allowance leads to a double recovery of investors’
tax costs. 78
Despite acknowledging the above facts,
SFPP’s Motion to Reopen the Record nonetheless
alleges, based upon its filings in Docket No. PL171 (including affidavits of its expert Dr. Vander
Wiede) (Motion to Reopen the Record, exhibits 2-4)
and Dr. Webb’s affidavit (Motion to Reopen the
Record, exhibit 1), that the DCF model returns do
not reflect investor income taxes and thus
permitting SFPP to recover an income tax
allowance would not lead to a double recovery of
investor income tax costs.
In the Docket No. PL17-1 filings attached to
the Motion to Reopen the Record, SFPP contends
that the pre-tax investor return produced by a
DCF of an MLP with a tax allowance is the
equivalent of the investor’s after-tax return. SFPP
justifies this position on the basis that investors
will not demand a higher pre-tax return because
investors evaluating DCF returns in the market
77

Id. at 14.

78

Opinion No. 511-C, 162 FERC ¶ 61,228 at P 22.

75a
“recognize that their income taxes will be
recovered through the income tax allowance.” 79 In
such circumstances, SFPP asserts that investors
treat the MLP investment as a tax-free bond. 80
According to SFPP’s argument, MLP investors will
only demand a higher pre-tax investor return if the
MLP does not recover an income tax allowance.
We reject SFPP’s assertions that an MLP
investor’s after-tax return always equals its pretax return when an MLP Pipeline recovers an
income tax allowance for investors’ income tax
costs. 81 Contrary to SFPP’s position, we find that
whether or not an MLP Pipeline recovers an
income tax allowance, the MLP investors’ pre-tax
Motion to Reopen the Record, Ex. 2 at 14, 41-45; see also
Ex. 4 at 13, 24 (“investors in an MLP recognize that, when
their income taxes are recovered through the [income tax
allowance], there is no need for them to require a grossed-up,
before tax return to recover their income taxes and earn their
after-tax required return”).

79

80

Id., Ex. 4 at 18.

E.g., Motion to Reopen the Record, Ex. 2 at 43 (Table 1,
Lines 11-15, showing the before-tax DCF ROE equaling the
investor’s after-tax return), 47 (Table 2, Lines 11-15, showing
the before-tax DCF ROE and investor’s pre-tax return
equaling the investor’s after-tax return), 51 (Table 3, lines
11-15 showing for a pipeline with an income tax allowance,
the before-tax DCF ROE and investor’s pre-tax return
equaling the investor’s after-tax return).
81

76a
DCF return will always exceed the investors’ aftertax return. This is because MLP investors owe a
tax on any income they receive whether or not a
portion of a pipeline’s rate is attributable to an
income tax allowance. 82 We reject as illogical
SFPP’s argument that if MLP unitholders receive
a 10 percent pre-investor tax return, the investors
also will retain the same 10 percent return after
the investors’ pay taxes. 83 Notwithstanding the
presence of an income tax allowance, the preinvestor tax ROE produced by the DCF analysis
will exceed an investor’s after-tax return. 84
Id., Ex. 2 at 7-8. In other words, the Internal Revenue
Code does not exempt from taxation income that results from
the increases to rates resulting from the cost-of-service
income tax allowance.
Thus, suppose an income tax
allowance increases a pipeline’s rates, raising investor
income from $10 to $12. Two things have occurred; first the
investor’s pre-tax income increased from $10 to $12 and
second the investor now owes taxes on $12 of income just as
she owed taxes on the initial $10.
In other words,
Commission policy does not shift the actual liability to pay
income taxes from the MLP partners to the MLP itself.
82

E.g., Motion to Reopen the Record, Ex. 2 at 43 (Table 1,
Lines 11-15, showing the before-tax DCF ROE equaling the
investor’s after-tax return).
83

Likewise, if an MLP Pipeline’s loss of its income tax
allowance reduces rates and investor income, the unit price
will decline until the investor once again earns an adequate

84

77a
We further observe that elsewhere in its
Docket No. PL17-1 filings, SFPP concedes that
whether or not an MLP Pipeline recovers an
income tax allowance, funds to cover investor-level
taxes are included in an MLP’s distributions to
investors. 85 These MLP distributions are the
numerator in the DCF equation, 86 and,
accordingly, the investors’ pre-tax DCF return
must by necessity exceed the investors’ after-tax
return once, as SFPP concedes, the investor pays
its taxes from those distributions. 87
pre-tax return.
Id., Ex. 4 at 21 (stating that even for entities with nonregulated assets without an income tax allowance, “[I]t also
is reasonable for investors to expect that an MLPs
distributions will be sufficient to recover their income taxes
and earn their after-tax required return….”).
85

For an MLP, the DCF methodology determines for each
member of the proxy group a required investor return using
the formula k = D/P + g, where D is the MLP distribution, P
is the unit price and g is the growth rate. See supra n.6.
86

87 At times, SFPP’s contradictions and inconsistencies
obscure the path of its reasoning. In the Docket No. PL17-1
filings, SFPP repeatedly emphasizes that the pre-investor
tax DCF return equals the after-investor tax return when a
pipeline receives an income tax allowance because investors
“recognize that their income taxes will be recovered through
the income tax allowance.” Id., Ex. 2 at 14, 41-45; see also

78a
Furthermore, SFPP’s other filings in this
proceeding
contradict
SFPP’s
arguments
presented in its Docket No. PL17-1 filings that an
MLP investor’s pre-tax DCF return equals its
after-tax return when Commission policy permits
MLP Pipelines to recover an income tax allowance.
Dr. Webb’s affidavit, submitted as part of the
Motion to Reopen the Record alongside the Docket
No. PL17-1 filings, includes a table showing that
whether or not an MLP receives an income tax
allowance, the investors’ DCF return will be a pretax return that differs from the investors’ after-tax
return. 88
Likewise, in SFPP’s post-remand
id., Ex. 4 at 13, 24 (“investors in an MLP recognize that,
when their income taxes are recovered through the [income
tax allowance], there is no need for them to require a grossedup, before tax return to recover their income taxes and earn
their after-tax required return”). Yet, elsewhere, SFPP
contends that the presence or absence of an income tax
allowance is not essential to its theory. For example, in order
to avoid conceding that the MLP Proxy Group produces a preinvestor tax return due to the ownership of non-regulated
assets by MLP Proxy Group members, SFPP contends that
an income tax allowance is no longer necessary to make an
MLP’s pre-tax DCF return always equal its after-tax return.
Id., Ex. 4 at 21-22.
88 Motion to Reopen the Record, Ex. 1 at 8. According to Dr.
Webb’s Exhibit 1, if a regulated MLP Pipeline recovers an
income tax allowance, he hypothesizes that the investor will
receive a pre-tax return of 13.89 percent (Column D, line

79a
comments and expert testimony submitted during
the hearing proceeding, SFPP presented
hypotheticals showing that an investor will
demand a pre-tax return whether or not the
pipeline receives an income tax allowance. 89

10/Column D, line 1), pay a 28 percent individual income tax
rate on that return (Column D, Line 11), and recover a net
after tax return of 10 percent (Column D, line 14). Likewise,
if an MLP Pipeline does not recover an income tax allowance,
the share price will drop as demonstrated from $100 to $72
(Columns F, Line 1). As a result, the MLP Pipeline without
an income tax allowance also earns a pre-tax return of 13.89
percent (Column F, Line 10/Column F, Line 1), pays a 28
percent individual income tax rate on that return (Column F,
Line 11), and recovers a net after tax return of 10 percent
(Column F, line 14).
In its post-remand supplemental comments, SFPP
presented a hypothetical showing that an MLP recovering
both an income tax allowance and a DCF ROE earns the
same 6.5 percent investor after-tax return as an MLP
without an income tax allowance. See SFPP Supplemental
Comments on Remand at 10 (Table 1, Column C and Column
D). While the table in SFPP’s supplemental comments on
remand does not show the investors’ pre-tax returns, because
both pipelines were subject to a 35 percent investor-level tax,
both must have recovered a 10 percent pre-tax investor
return (i.e. 10 percent pre-tax investor return minus 35
percent tax equals a 6.5 percent after-tax return). Opinion
No. 511-C, 162 FERC ¶ 61,228 n.51. Thus, in SFPP’s own
example, the cost-of-service double-recovery of income tax
costs of the pipeline inflated the unit price until it earned the
89

80a
We also are not persuaded by Dr. Webb’s
studies showing that the prices of MLP units fell
significantly in reaction to the March 15, 2018
issuance of the Revised Policy Statement. 90 Even
if we agreed with the studies’ conclusions, the
results are not relevant and do not undercut the
holdings of Opinion No. 511-C. Rather, as the
Commission stated in Opinion No. 511-C, “[t]his
proceeding involves whether an income tax
allowance should be included in SFPP’s cost of
service, not the post-rate case effects upon the unit
price of SFPP’s parent MLP.” 91 Moreover, Opinion
No. 511-C further explained that although
eliminating the double recovery may cause MLP
unit prices to decline, this does not justify

same pre-tax return as the pipeline without an income tax
allowance. Likewise, in Exhibits SFP-98 and SFP-99,
SFPP’s expert presented hypotheticals that show that an
investor in an MLP recovering an income tax allowance
earns the same 9.207 percent investor after-tax return as an
investor in an MLP without an income tax allowance. In the
hypothetical, both pipelines were subject to a 32 percent
investor-level tax and both recovered a 13.54 percent pre-tax
investor return. Compare Ex. SFP-98 at column 4, lines 23
and 24 (MLP with an income tax allowance) with Ex. SFP-99
at column 4, lines 23 and 26).
90

Motion to Reopen the Record, Ex. 1 at 8-9, 12-14, 21-26.

91

Opinion No. 511-C, 162 FERC ¶ 61,228 at P 24.

81a
perpetuation of the double recovery. 92 Dr. Webb’s
findings do not undermine the Commission’s
conclusion in Opinion No. 511-C that the DCF
ROE alone (without an income tax allowance)
precludes SFPP from recovering an adequate
return:
There is no evidence that the pre-investor
tax DCF ROE will fail to provide SFPP
with sufficient returns. The DCF ROE by
itself provides the pipeline with a return
commensurate with investments of
corresponding risk and sufficient to
attract capital, thereby satisfying the
Supreme Court’s standard in Hope.
SFPP’s proxy group (a) consists solely of
entities of like risk selected pursuant to
Commission policy and (b) contains other
MLPs whose investors also incur partnerlevel tax costs. As discussed above, this
return addresses investor tax costs while
providing sufficient after-tax investor
earnings to attract investment. 93
Likewise, Dr. Webb’s comparisons between
MLP unit prices and corporate share prices are
92

Id. n.52.

Opinion No. 511-C, 162 FERC ¶ 61,228 at P 29 (citations
omitted).
93

82a
unconvincing. The Revised Policy Statement did
not change the Commission’s income tax policy for
corporations and thus it is not surprising that
according to Dr. Webb, corporate shares were not
affected by the issuance of the Revised Policy
Statement. 94 Similarly, it is not surprising that
MLPs whose assets are not regulated by the
Commission were not affected by a Commission
decision that is only applicable to Commission
regulated assets.
In sum, even putting aside the procedural
deficiencies in SFPP’s attempt to submit
additional materials discussed above, the proposed
evidence would not persuade us to alter the
determinations in Opinion No. 511-C. Although
SFPP has sought “to inundate the record with
competing mathematical analyses,” 95 these
analyses do not alter Opinion No. 511-C’s
conclusions.

Corporations pay an income tax prior to issuing dividends.
Commission policy has long recognized that corporations and
wholly owned subsidiaries of corporations can recover
incurred income taxes as a recoverable cost-of-service item.
The Revised Policy Statement and Opinion No. 511-C did not
change this policy.
94

95

United Airlines, Inc. v. FERC, 827 F.3d at 136.

83a
B.

SFPP’s Alternative Argument That It
Should Receive a Partial Income Tax
Allowance for the Income Allocated To
Its General Partner Lacks Merit
1.

SFPP’s Rehearing

In the alternative, and to the extent that
the Commission rejects SFPP’s proposal to recover
a full income tax allowance, SFPP argues for the
first time on rehearing that it should receive an
income tax allowance for corporate income tax
costs incurred by Kinder Morgan, Inc. (KMI), the
general partner of SFPP’s parent MLP (KMEP).
SFPP states that KMI is a corporation that pays a
corporate income tax on KMEP’s income. SFPP
states that 70 percent of KMEP’s income is
allocated to KMI. 96
SFPP justifies the proposed partial income
tax allowance for KMI on the basis that KMI is
similarly situated to a corporation that owns a
pass-through pipeline (i.e., a pipeline that does not
pay any taxes) as a wholly owned subsidiary.
SFPP emphasizes that the Commission permits
such pipelines to recover an income tax allowance
for the corporate parent’s income tax costs. SFPP
states that ExxonMobil further supports its
96

Request for Rehearing at 22.

84a
position that the Commission should consider an
owner’s tax costs. 97
SFPP explains that 70 percent of its income
is allocated to KMI even though KMI only holds a
12 percent equity stake in SFPP. SFPP explains
that KMI owns 10 percent of SFPP via publiclytraded limited partner units and KMI owns an
additional 2 percent via general partner
interests. 98 SFPP explains that its parent KMEP
has a provision in its partnership agreements for
payment of incentive distributions to the general
partner interests. SFPP states that, under these
incentive distribution provisions, as total
distributions increase, the general partner
receives a larger share of the distributions, and
will be allocated partnership income equal to the
incentive distributions received. As a result,
according to SFPP, the percentage of total MLP
taxable income (including SFPP’s income)
allocated to KMI often exceeds KMI’s percentage
ownership of the MLP. 99

97 Request for Rehearing at 24-25 (citing ExxonMobil, 487
F.3d 945).
98 SFPP’s Request for Rehearing provides additional detail
regarding SFPP’s ownership structure. Id. at 21-22.
99

Id. at 22.

85a
2.

Discussion

As discussed below, we reject SFPP’s
argument that it should receive a partial income
tax allowance as both procedurally untimely and
substantively flawed.
a.

SFPP’s
Argument
Procedurally Untimely

Is

SFPP’s argument, which it raises for the
first time on rehearing, is procedurally untimely.
The Commission typically rejects arguments
raised for the first time on rehearing because (1)
our regulations preclude other parties from
responding to a request for rehearing, 100 and (2)
such behavior is disruptive to the administrative
process because it has the effect of moving the
target for parties seeking a final administrative
decision. 101 Throughout this proceeding, SFPP
consistently and exclusively argued it should
100

18 C.F.R. § 385.713 (2018).

Tenaska Power Servs. Co. v. Southwest Power Pool, Inc.,
102 FERC ¶ 61,140, at 61,377 (2003); Tennessee Gas Pipeline
Co., LLC, 142 FERC ¶ 61,025, at P 38 (2013); SFPP, L.P.,
Opinion No. 522-A, 150 FERC ¶ 61,097, at P 30 (2015). See
also NRG Power Marketing, LLC v. FERC, 862 F.3d 108, at
116-117 (D.C. Cir. 2017) (acknowledging that the
Commission does not allow consideration of new evidence on
rehearing).
101

86a
recover a full income tax allowance and did not
present the alternative argument that it should
recover an income tax allowance solely for the
general partner’s interest. SFPP persisted with
this litigation strategy beginning with its initial
filing in 2008, through the administrative law
judge hearing proceeding, on exceptions before the
Commission, and before the D.C. Circuit on
appeal. Following the United Airlines remand of
the Commission’s decision to permit SFPP a full
income tax allowance, 102 SFPP also failed to raise
its argument involving a partial income tax
allowance for the general partner in its August 25,
2016 comments and November 30, 2016
supplemental comments filed in response to the
United Airlines decision. SFPP cannot raise this
new argument on rehearing of the remand order,
Following United Airlines, SFPP also neglected other
opportunities in other proceedings to raise the argument that
a partial income tax allowance should be presented for its
general partner interest. Following the United Airlines
decision, the Commission issued a Notice of Inquiry in
Docket No. PL17-1 in December 2016 seeking comment
regarding the appropriate response to the United Airline
decision’s double-recovery concerns. Inquiry Regarding the
Commission’s Policy for Recovery of Income Tax Costs, Notice
of Inquiry, 157 FERC ¶ 61,210 (2016). SFPP filed initial
comments on March 8, 2017 and reply comments on April 17,
2017. In neither set of comments did SFPP raise the
argument regarding the general partner that it now presents
here for the first time.

102

87a
particularly where the other parties do not have an
opportunity to respond. 103
The untimely character of SFPP’s
argument is further demonstrated by the
additional procedures that would be necessary to
determine the appropriate income percentage
allocated to KMEP’s general partner KMI’s share.
SFPP’s rehearing does not explain how it intends
to implement its new partial income tax proposal,
and, if the Commission contemplated SFPP’s
rehearing request, shippers would need the
opportunity to fully respond to SFPP’s new
proposal. These issues likely would need to be
addressed in additional hearing procedures that
would further extend this decade-long litigation.
b.

SFPP’s Argument Is Also
Substantively Flawed

We also deny SFPP’s rehearing request as
substantively flawed. First, we find that there is
no basis to support any income tax allowance for
18 C.F.R. § 385.713(d)(1) (“The Commission will not
permit answers to requests for rehearing”); Tennessee Gas
Pipeline Co., LLC, 142 FERC ¶ 61,025 at P 38 (noting that
the Commission generally rejects requests for rehearing that
raise a novel issue that could have been previously presented
in part because “our regulations preclude other parties from
responding to a request for rehearing”).
103

88a
the general partner KMI’s tax costs. Second, we
find that even if we were to permit an income tax
allowance for the general partner, we would not
adopt SFPP’s proposal to award an income tax
allowance based upon the allocation of 70 percent
of SFPP’s income to the general partner KMI.
i.

SFPP Is Not Entitled to
Any Income Tax Allowance
for Its Corporate General
Partner’s
Income
Tax
Liability

We deny SFPP’s argument that it should be
able to recover an income tax liability for the
corporate tax liability incurred by its general
partner, KMI. KMI is not, as SFPP claims, in “an
identical position to a corporation that wholly
owns” a pass-through subsidiary that is permitted
to recover an income tax allowance for its corporate
owner’s tax costs. 104 As the Commission explained
when addressing a similar argument in Enable
MRT, 105 SFPP’s argument “obscures the critical
104

SFPP Rehearing at 22.

105 Enable Mississippi River Transmission, LLC, 164 FERC
¶ 61,075 (2018). (Enable MRT). See also Trailblazer Pipeline
Co. LLC, 166 FERC ¶ 61,141, at PP 13, 28-29 (2019) (citing
Enable MRT and explaining the difference between
corporate owners of MLPs and corporate owners of other

89a
distinction between (a) a pipeline organized as a
pass-through entity that is owned by an MLP that
has corporate unitholders; and (b) a pipeline
organized as a pass-through entity that is a wholly
owned subsidiary of a corporation.” 106 SFPP is a
pipeline organized as a pass-through entity owned
by an MLP, and KMI owns units in that MLP. 107
As the Commission elaborated in Enable MRT:
An MLP incurs no tax liability prior to
making the distribution to its unitholders
that is reflected in the DCF model’s
determination of the MLP’s ROE. Thus,
partnership forms).
106

Enable MRT, 164 FERC ¶ 61,075 at P 35.

SFPP’s rehearing request makes no distinction between
KMI’s two percent general partner interests and KMI’s
ownership of 10 percent of the limited partner units. We
agree with SFPP’s equal treatment of its general and limited
partnership interests. The limited partner units (including
those owned by KMI) account for 98 percent of the equity in
SFPP and the Commission has long relied upon the return to
the limited partner units to measure an MLP Pipeline’s
required equity return to its owners. See Composition of
Proxy Groups for Determining Gas and Oil Pipeline Return
on Equity, 123 FERC ¶ 61,048, at PP 101-104 (2008)
(explaining that the Commission determines an MLP’s DCF
based upon the publicly-traded limited partner shares and
does not seek to determine a separate return for the general
partner interest).
107

90a
the MLP’s distribution includes funds
that the corporate and individual
unitholders may use to pay taxes on their
share of the MLP’s income. In contrast, a
corporation that wholly owns a passthrough pipeline pays the corporate
income tax prior to the investor-level
dividend reflected in the DCF model’s
calculation of the pipeline’s ROE. Thus,
as Opinion No. 511-C explained, although
a double-recovery results from granting a
pipeline an income tax allowance to reflect
the tax liability of corporate or other MLP
unitholders, no double-recovery results
from granting an income tax allowance to
the wholly owned subsidiary of a
corporation.” 108
Accordingly, SFPP has not provided a sufficient
justification for finding that the double-recovery
problem does not arise from affording a partial
income tax allowance for KMI nor has SFPP
provided a sufficient basis for treating KMI
differently than any other corporate investor in an
MLP Pipeline.

Id. (emphasis original); see also Opinion No. 511-C, 162
FERC ¶ 61,228 at P 25.
108

91a
We also reject SFPP’s argument as
inconsistent with the D.C. Circuit’s opinion in BP
West Coast. 109 SFPP seeks to treat its corporate
MLP partner, KMI, differently from its noncorporate MLP partners. However, BP West Coast
expressly overturned the Commission’s thenpolicy of permitting a partial income tax allowance
for only corporate MLP partners (including the
general partner interest) while denying an income
tax allowance for non-corporate MLP partners. 110
SFPP fails to support a different result here.
SFPP’s reliance upon ExxonMobil is not
persuasive given that ExxonMobil reaffirmed the
D.C. Circuit’s concern in BP West Coast about
awarding an income tax allowance to corporate
MLP partners while denying an income tax
allowance to MLP partners who were
individuals. 111 Rather, as the Enable MRT order
reaffirms, there is no basis for differentiating
109 BP West Coast Products, LLC v. FERC, 374 F.3d 1263
(D.C. Cir. 2004).
110

Id. at 1290.

ExxonMobil, 487 F.3d at 948 (stating that by awarding an
income tax allowance to both corporate and individual MLP
unitholders, the Commission resolved the “principal defect”
identified by BP West Coast “which was the inadequately
explained differential treatment of the tax liability of
individual and corporate partners”).

111

92a
between
corporate
unitholders. 112
ii.

and

individual

MLP

SFPP Cannot Claim an
Income Tax Allowance
Based Upon the Allocation
of 70 Percent of Its Income
to KMI

Although we reject SFPP’s proposed
recovery of any partial income tax allowance for
the reasons set forth above, we also would reject
SFPP’s proposal to determine any such partial
income tax allowance on the basis that the
incentive distribution causes 70 percent of SFPP’s
income to be assigned to the KMI’s comparatively
small 12 percent equity share. SFPP’s rehearing
request presents the fundamental question
whether income tax costs associated with the KMI
general partner incentive distribution at the
KMEP parent company level are properly
recovered in SFPP’s jurisdictional cost-of-service

164 FERC ¶ 61,075 at P 36 (holding that whether or not
an MLP unitholder is a corporation or an individual, the
unitholder’s income tax costs are included in the DCF ROE);
see also Trailblazer Pipeline Co. LLC, 166 FERC ¶ 61,141 at
PP 37-39 (discussing BP West Coast, ExxonMobil, and
Enable MRT).
112

93a
rates. The answer is no. We reject SFPP’s
argument for three separate reasons.
First, permitting SFPP to recover an
income tax allowance based upon the incentive
distribution would provide SFPP an excessive
return above that needed to attract capital. The
Commission has long held that the publicly-traded
MLP limited partner returns used in the DCF are
a sufficient proxy for the general partner’s
return. 113 SFPP provides no basis for a different
policy here. As Opinion No. 511-C concluded, a
12.63 percent DCF ROE provides sufficient return
for investment in SFPP, 114 including recovery of

Composition of Proxy Groups for Determining Gas and Oil
Pipeline Return on Equity, 123 FERC ¶ 61,048, at PP 101104 (2008) (explaining that the Commission determines an
MLP’s DCF based upon the publicly-traded limited partner
shares and does not seek to determine a separate return for
the general partner interest), and El Paso Natural Gas Co.,
Opinion No. 528-A, 154 FERC ¶ 61,120 at PP 270-275 (2016)
(Opinion No.528-A) (rejecting proposal to determine return
for the general partner interest). The record supports a
similar finding here. Compared to KMI’s general partner
two percent interest, KMI holds a more significant equity
stake via the ownership of approximately 10 percent of the
limited partner shares.

113

114

Opinion No. 511-C, 162 FERC ¶ 61,228 at P 47.

94a
investors’ tax costs. 115 In this case, 98 percent of
the equity in SFPP (including the majority of
KMI’s 12 percent total equity interest) arises from
limited partner units that do not receive an
incentive distribution 116 and whose investor-level
taxes are recovered in the DCF return. 117 To the
extent that the 12.63 percent DCF return is
sufficient to attract capital from 98 percent of the
equity in SFPP, SFPP has provided no support for
the proposition that an additional return (such as
the incentive distribution and the related tax
costs) is necessary to attract capital to SFPP for
the remaining 2 percent of equity provided by

Id. PP 22-30. The 12.83 percent DCF ROE in this
proceeding is based upon market returns for the publiclytraded MLP limited partnership shares of the seven MLPs in
SFPP’s proxy group. Ex. SFP-5 at 9.
115

116 KMI’s equity stake consists of 10 percent of limited
partner units and two percent of a general partner interest.
The incentive distribution may be more correctly
characterized as flowing to a two percent equity interest
because this is KMI’s actual general partner interest in
SFPP. KMI’s remaining 10 percent interest is in the limited
partner units which do not receive an incentive distribution.

Enable MRT, 164 FERC ¶ 61,075 at P 36 (holding that
whether or not an MLP unitholder is a corporation or an
individual, the unitholder’s income tax costs are included in
the DCF ROE).
117

95a
KMI’s general partner interest. 118 In particular,
when, as here, the Commission has determined
that a 12.63 percent return is sufficient to attract
capital for SFPP, there is no reason to treat KMI
as requiring a return of 442.05 percent for the two
percent general partner interest or an additional
238.03 percent gross-up to that return to address
tax costs associated with such a return. 119
Second, if we were to adopt SFPP’s proposal
to permit an income tax allowance on the basis of
the incentive distribution, it would lead to
nonsensical results. The incentive distribution to
the general partner increases only as KMEP
becomes more profitable and KMEP’s cash flows
118 KMI’s 10 percent equity interest from the limited partner
shares constitutes the bulk of KMI’s investment in SFPP. To
the extent the limited partner shares failed to provide KMI
with an adequate investor return, KMI would not have
continued to hold those shares. Accordingly, there is no
reason to provide KMI an additional return for the smaller
two percent general partner equity interest.

The 442.05 percent equity return is based upon allocating
70 percent of the SFPP company-wide 12.63 percent return
to the 2 percent general partner interest, i.e., (12.63*.70/.02).
We estimate that grossing-up the 442.05 percent equity
return for the income tax allowance would effectively
recognize in cost of service an income tax allowance that adds
an additional 238.03 percent return to the general partner to
recover the general partner’s tax costs resulting from the
incentive distribution, i.e., 238.03 = 442.05*(.35/(1-.35)).

119

96a
increase. SFPP’s ratepayers should not be forced
to pay increased rates because KMEP’s increased
profitability leads to higher incentive distributions
and increased taxes associated with those
distributions.
Similarly, it would also be
nonsensical to reduce SFPP’s rates by lowering the
income tax allowance merely because KMEP has
become less profitable, leading to reduced
incentive distributions and related tax costs for the
general partner.
Third, we conclude that the stand-alone
methodology also precludes granting an income
tax allowance based upon the incentive
distribution as requested by SFPP on rehearing.
By way of background, since the 1980s the
Commission
has
used
the
stand-alone
methodology to determine a regulated entity’s
income tax allowance when the regulated entity’s
income is consolidated on the tax return of its
corporate parent (i.e., the regulated entity does not
file its own tax return). Under the stand-alone
methodology, a regulated entity’s income tax
allowance is based on the income and deductions
specifically attributable to the regulated entity
itself, not the income and deductions of the entire
consolidated corporate group. 120 Thus, under the
120

City of Charlottesville v. FERC, 774 F.2d 1205 (D.C. Cir.

97a
stand-alone
methodology,
the
Commission
determines the income tax allowance using the
same calculation that would be applied if the
regulated entity (as opposed to the corporate
parent) filed its own tax return. In practice, this
means that the income tax allowance is calculated
by applying the marginal income tax rate
(currently 21 percent for corporations) to the
regulated subsidiary’s cost-of-service equity
return. 121 The stand-alone methodology can be
contrasted with the alternative, called the flowthrough methodology. Under the flow-through
methodology, the income tax allowance is based
upon the lower effective tax rate that results from
the corporate parent’s ability on the consolidated
return to offset taxable income with losses or
deductions from the corporate parent’s other
subsidiaries. 122 Although the Commission relied
1985).
The way cost of service is determined, costs that serve as
deductions (such as depreciation) are already factored into
the entity’s cost of service. Thus, the tax costs can simply be
calculated by applying the tax rate to the equity return.
121

122 For instance, under the flow-through methodology, the
Commission might conclude that due to deductions, losses,
and deferrals from other affiliated subsidiaries, the corporate
parent only actually incurs a 15 percent tax rate as opposed
to a 21 percent tax rate on the regulated entity’s income and,
accordingly, the income tax allowance should be based upon

98a
upon the flow-through methodology at times prior
to the 1980s, the Commission ultimately adopted
the
stand-alone
methodology
because
it
determined that the tax savings resulting from the
regulated entity’s affiliates should not be passed
along to the regulated entity’s “consumers when
these same consumers did not pay the expenses
which created the deductions for tax purposes.” 123
The
Commission-adopted
stand-alone
methodology provides support for rejecting SFPP’s
rehearing request. As discussed above, under the
stand-alone methodology, deductions or losses
from an affiliated business do not offset the tax
liability of the regulated entity. 124 Just as the
stand-alone methodology precludes reductions to
SFPP’s income tax allowance as a result of the
deductions and losses incurred by SFPP’s
affiliates, the stand-alone methodology precludes
consideration of additional income tax costs (such
a 15 percent tax rate.
123 City of Charlottesville v. FERC, 774 F.2d at 1208 (citation
omitted).
In other words, unlike the flow-through
methodology, the stand-alone methodology allocates cost “on
the basis of a causal link” between those costs and the
services the regulated subsidiary provides to its ratepayers.
Id. at 1211.
124

Id.

99a
as the incentive distribution) incurred as a result
of SFPP’s affiliated businesses. 125
It is
inconsistent with the stand-alone methodology to
increase the rates paid by SFPP’s customers
merely because, at the parent company level,
elevated cash flows from affiliated business have
increased cash flows to SFPP’s parent, KMEP.
Likewise, it would be inconsistent with the standalone methodology to decrease SFPP’s rates
because declining cash flows from SFPP’s affiliates
to KMEP have resulted in a smaller incentive
distribution.
We acknowledge that the Commission
previously accounted for the incentive distribution
to determine SFPP’s income tax allowance under
the pre-United Airlines policy in Opinion Nos. 511

The incentive distribution results from the cash flows of
all the entities owned by KMEP, not just SFPP. KMEP is a
“large, complex enterprise” that owns five distinct business
segments, each containing multiple subsidiary business: (1)
the products pipeline division (of which SFPP’s West Line is
only one part), (2) the CO2 Pipelines, (3) the bulk terminals
division, (4) the natural gas pipelines division, and (5) the
KM Canada entities. Ex. SFP-38 at 17; SFPP April 15, 2011
Compliance Filing, Affidavit of Dale D. Bradley at P 5.
SFPP’s West Line provides a small percentage of KMEP’s
overall revenues. See SFPP Compliance Filing, “Tab D(1) –
CONFIDENTIAL Mass Model 2007 OP511BV1.XLSX.”
Workpaper 1, Column E, Lines 12-19.
125

100a
and 511-A. 126 However, in light of the United
Airlines decision, and in considering SFPP’s
rehearing request, we no longer find persuasive
the reasoning the Commission adopted regarding
the incentive distribution in Opinion Nos. 511 and
511-A. Specifically, we no longer find persuasive
Opinion No. 511 and Opinion No. 511-A’s holding
that the “historical stand-alone approach” must be
modified to permit consideration of the incentive
distribution for determining SFPP’s income tax
allowance under the circumstances presented
here. 127

SFPP, L.P., Opinion No. 522, 140 FERC ¶ 61,220 (2012)
adopted a similar position in SFPP’s 2009 East Line Rate
case on the basis of the precedent established by Opinion
Nos. 511 and 511-A. Opinion No. 522, 140 FERC ¶ 61,220 at
PP 305-308.
126

127 Opinion No. 511, 134 FERC ¶ 61,121 at PP 283-291;
Opinion No. 511-A, 137 FERC ¶ 61,220 at PP 356-359, 363365. We emphasize that Opinion No. 511 and Opinion No.
511-A largely applied the stand-alone methodology to SFPP.
As in the traditional standalone methodology, SFPP’s income
tax allowance was based upon the parent’s income and
SFPP’s effective tax rate is not reduced to account for all the
deductions or losses of other KMEP subsidiaries. Moreover,
Opinion No. 511 also expressly relies upon the stand-alone
methodology to reject a reduction in the tax allowance for
unitholders’ depreciation costs arising from their ownership
of the MLP units. Opinion No. 511, 134 FERC ¶ 61,121 at PP
275-277, 309. See also Opinion No. 511-A, 137 FERC ¶

101a
First, we are no longer persuaded by
Opinion No. 511’s statement that the incentive
distribution tax costs can be recovered because
they are a necessary “cost of raising capital” for
SFPP. 128 Rather, the most appropriate tax costs to
consider are the tax costs incurred by the limited
partner investors who provide the overwhelming
majority of the equity in SFPP and whose tax costs
are, as SFPP’s alternative rehearing argument
concedes, reflected in the DCF ROE and, thus, do
not require an income tax allowance. 129 As
61,220 at P 362 (explaining that section 743(b) deductions
offset distributed income at the individual partner level and
thus consideration of these deductions is not properly
grounded in the stand-alone doctrine).
128 See supra P 47; Opinion No. 511, 134 FERC ¶ 61,121 at P
288.

We emphasize that under SFPP’s argument, if all of the
parent MLP’s income is allocated to KMI, SFPP would argue
that its income tax allowance should be based upon applying
the then-effective 35 percent corporate tax rate to its entire
equity rate base even though 88 percent of SFPP’s equity
investment arises from limited partner units that, as SFPP’s
alternative argument concedes, require no income tax
allowance. See SFPP Rehearing, Docket No. IS09-437, at 1720 (supporting the application of an income tax allowance at
the then-applicable 35 percent corporate tax rate for the
entirety of SFPP’s equity rate base because, SFPP argues
that on the record of that proceeding, “138 percent” of SFPP’s
income is allocated to the general partner).
129

102a
discussed above, under these circumstances, it
does not seem necessary for SFPP to recover an
income tax allowance as though 70 percent of
SFPP’s income incurs a corporate income tax in
order to “attract capital.”
Second, we are also no longer persuaded
that the incentive distribution must be considered
because it affects the partners’ tax liability. 130 The
incentive distribution (which results from cash
flows at the parent level attributable to all of its
affiliated pipelines) is akin to deductions and
deferrals resulting from affiliates’ losses. Just like
the incentive distribution, these affiliate losses
also affect the parent’s tax liability (in this case the
partner’s tax liability). However, under the standalone methodology, the Commission only looks at
the regulated entity itself and does not consider
the deductions or deferrals created by these
affiliated entities.
Providing an income tax
allowance for an incentive distribution would
permit SFPP to have its cake (not reducing its
income tax allowance for deferrals and deductions
associated with affiliated business) while eating it
too (increasing its income tax allowance as a result

Opinion No. 511, 134 FERC ¶ 61,121 PP 288, 291; Opinion
No. 511-A, 137 FERC ¶ 61,220, at PP 356, 359, 363, 365.

130

103a
of increased cash flows resulting from affiliate
businesses). 131
Third, Opinion No. 511’s finding that “there
is nothing illegal” about the incentive distribution
is not applicable to the issues in this proceeding. 132
The legality of the incentive distribution is not the
issue. Rather the issue is what costs SFPP should
be permitted to recover in its cost-of-service rates.
Fourth, we also are no longer convinced
that consideration of the incentive distribution is
justified because it leaves ratepayers “no worseoff” than if SFPP (or its parent KMEP) had been
organized as a corporation, which could recover an
income tax allowance for corporate income tax
costs. 133 This proceeding addresses the costs that
may be included in SFPP’s cost of service given
In other words, Opinion Nos. 511 and 511-A permitted
SFPP to determine its weighted average marginal tax rate
based upon the allocation of income to KMI via the incentive
distribution.
However consistent with the standalone
methodology, SFPP did
131

not and was not required to consider how affiliate losses and
deductions affected the overall income tax liability arising
from SFPP’s income.
132

Opinion No. 511-A, 137 FERC ¶ 61,220 at PP 356-357.

133

Id. PP 357, 363.

104a
SFPP’s organization as an MLP Pipeline, not
whether a different cost of service might result had
SFPP been organized as a corporation or the
wholly owned subsidiary of a corporation. 134
Finally, we emphasize that the United
Airlines decision required the Commission to
review its prior holdings regarding incentive
distributions. The distorting effect of the incentive
distribution when determining the income tax
allowance was relatively limited under the preUnited Airlines policy that permitted an income
tax allowance for all MLP limited partners. Thus,
at the time of Opinion Nos. 511 and 511-A,
allowing SFPP to recover an income tax allowance
based upon the incentive distribution merely
changed whether the weighted average marginal
income tax rate used in SFPP’s cost of service was
weighted more heavily to the then-existing 35
percent corporate tax rate or other tax rates, such
as the then-existing 28 percent individual income
tax rate. 135 However, as applied here in SFPP’s
rehearing request, the difference is between an
income tax determined at the then-effective 35
134 See e.g., Opinion No. 511-C, 162 FERC ¶ 61,228 at P 25
(explaining that parity between corporations and MLP
Pipelines is established by denying MLPs an income tax
allowance).
135

See, e.g., Ex. SFP-58.

105a
percent corporate tax rate and no income tax
allowance at all. This significant differential
warrants more careful scrutiny, and, upon closer
analysis, we have concluded that sound reasons
exist for denying SFPP an income tax allowance
based upon the incentive distribution.
Accordingly, for the reasons stated above,
we conclude that SFPP should not be able to base
its income tax allowance on the percentage of its
income allocated to the general partner due to the
incentive distribution.
III.

Compliance Filing

On May 14, 2018, SFPP submitted its
Compliance Filing to Opinion No. 511-C. The
Compliance Filing calculates a revised cost of
service for SFPP’s West Line and revised West
Line rates, as well as the estimated refund
amounts for all West Line shippers. In addition to
removing the income tax allowance consistent with
Opinion No. 511-C, SFPP made a corresponding
adjustment to ADIT. SFPP also updated its
litigation surcharge and proposes to establish an
Overpaid Refunds and Under-Collected Revenues
Reserve. 136
136 SFPP also renewed its request to hold the proceeding in
abeyance pending the resolution of the rehearing requests of

106a
On June 8, 2018, Joint Shippers submitted
comments and protests and Tesoro submitted a
motion to intervene, protests and comments. Joint
Shippers do not oppose SFPP’s implementation of
Opinion No. 511-C regarding ROE and the income
tax allowance or SFPP’s indexing adjustments to
test period rates. However, Joint Shippers and
Tesoro challenge SFPP’s (1) ADIT adjustments, (2)
litigation surcharge, and (3) Overpaid Refunds and
Under-Collected Revenues Reserve. On July 11,
2018, SFPP filed reply comments.
A.

Adit

As discussed below, the Commission finds
that SFPP properly removed ADIT from its cost of
service.
1.

Background

ADIT balances generally arise from timing
differences between the method of computing book
accounting income used in developing the total
cost of service for Commission ratemaking
purposes on the one hand, and the method of
the Revised Policy Statement. This issue is moot, as the
Commission issued its July 18, 2018 order dismissing the
requests for rehearing of the Revised Policy Statement.
Revised Policy Statement Order on Rehearing, 164 FERC ¶
61,030.

107a
computing the actual taxes payable to the Internal
Revenue Service (IRS) and state governments for
the same time period. For example, for book
accounting and the ratemaking process a pipeline’s
test period cost of service assumes a tax deduction
based upon straight-line depreciation of its
pipeline assets, yet the IRS allows the pipeline an
earlier deduction based upon Modified Accelerated
Cost Recovery System (MACRS) depreciation rates
as long as the benefits of the increased deduction
are not flowed through to ratepayers. The annual
differences between a cost-of-service tax allowance
and the income taxes payable are recorded as
current deferrals of income taxes. The current
deferrals of income taxes are added to the
beginning of the period’s ADIT to calculate the end
of the year’s ADIT balance.
Under the
normalization of tax costs used in the ratemaking
process, the income taxes that are ultimately owed
to the IRS for which payment is deferred in the
early years due to accelerated depreciation are
matched 137 to the payment under the
“The primary rationale for tax normalization is matching:
the recognition in rates of the tax effects of expenses and
revenues with the expenses and revenues themselves.”
Regulations Implementing Tax Normalization for Certain
Items Reflecting Timing Differences in the Recognition of
Expenses or Revenues for Ratemaking and Income Tax
Purposes, Order No. 144, FERC Stats. & Regs. ¶ 30,254, at
31,522 (1981) (cross-referenced at 15 FERC ¶ 61,133), reh’g

137

108a
Commission’s ratemaking policies’ straight-line
depreciated costs. 138 Generally, in the early years
of an asset’s life, ADIT balances increase because
a pipeline’s cost of service reflects a higher tax
allowance than the pipeline’s IRS obligations. In a
pipeline’s later years, the situation reverses.
Thus, normalization requires shippers receiving
service in the early years of an asset’s life to pay
their properly allocated share of the pipeline’s tax
expenses for the service they receive during that
period.
As part of the normalization methodology
as it applies to calculating a cost of service, the
pipeline must reflect ADIT balances in its rate
denied, Order No. 144-A, FERC Stats. & Regs. ¶ 30,340
(1982), (cross-referenced at 15 FERC ¶ 61,133), aff’d, Public
Systems v. FERC, 709 F.2d 73 (D.C. Cir. 1983).
The normalization method differs from the “flow-through”
method where the tax allowance for regulatory ratemaking
purposes reflects the actual amount of taxes paid in each
year. Under the flow-through method the then-current
ratepayers realize the tax benefits of the entire tax deduction
in the year the deduction is taken, whereas the tax expenses
will be charged to future ratepayers in the later years when
the deferred tax payments are made. Normalization avoids
the problem whereby the timing difference subsidizes
current ratepayers at the expense of future ratepayers and
avoids the need for the entity to increase rates in an asset’s
later years to cover payment of deferred taxes. Public
Systems, 709 F.2d at 75-76, 80.
138

109a
base. This ensures that regulated entities do not
earn a return on cost-free capital based upon the
timing differences between (a) when pipelines
recover the normalized tax costs in rates using
straight-line depreciation; and (b) when taxes are
actually paid to the IRS using
accelerated depreciation. 139
These timing
differences create “cost-free” capital because the
pipeline may use these funds without paying
either a return to equity investors or interest on
debt. 140
In a cost-of-service proceeding, the
Commission requires the pipeline to deduct the
sums in the ADIT liability accounts from rate base
so the pipeline does not improperly earn a return
on amounts funded by cost-free capital. 141
Reflecting ADIT in rate base generally lowers
139 Once accelerated depreciation has caused the asset to
fully depreciate for federal and state income tax purposes,
the pipeline begins to pay the deferred taxes and ADIT
decreases. Ultimately, at the end of the property’s service
life, the ADIT liability will be reduced to zero.
140 Arco Pipe Line Co., Opinion No. 351, 52 FERC ¶ 61,055,
at 61,238 (1990).

The deduction of ADIT from rate base reflects the lower
cost of service that a pipeline achieves by its use of the cash
flow from deferred taxes in place of debt and equity capital.
Order No. 144-A, FERC Stats. & Regs. ¶ 30,340 at 30,128.
141

110a
rates because the pipeline does not earn a return
on the deferred taxes. 142
2.

SFPP
Compliance
Protests and Comments

Filing,

SFPP’s Compliance Filing removed its
income tax allowance.
SFPP also made a
corresponding adjustment to remove the ADIT of
SFPP’s partners, i.e., eliminate the deduction from
rate base of ADIT liability accounts. 143
Joint Shippers and Tesoro oppose SFPP’s
adjustment to remove ADIT. They argue that as a
result of the elimination of SFPP’s income tax
allowance, the entire ADIT balance is overfunded
and should be amortized to shippers. 144 Joint
Shippers argue that permitting SFPP to eliminate
ADIT would result in an undeserved windfall. 145
Joint Shippers argue that requiring SFPP to
amortize the ADIT balance to shippers is no
different from the Commission’s approach for
142

Public Systems, 709 F.2d at 83.

143 See Compliance Filing, Verified Statement of George R.
Ganz at PP 7-9.
144

Joint Shippers Protest at 5-23; Tesoro Protest at 7-8.

145

Joint Shippers Protest at 5, 13, 14.

111a
remedying overfunded ADIT caused by a tax rate
decrease, except there, only a portion of the ADIT
is overfunded whereas here, the entire ADIT
balance is overfunded. 146
Joint Shippers and Tesoro assert that the
deferred tax reserve was intended to compensate
for income tax liabilities in the future, but now the
ADIT balance is no longer associated with any
valid cost, as SFPP has no future tax liability that
is properly recovered through an income tax
allowance. Joint Shippers assert that the existing
ADIT balance was recovered from past ratepayers
who were harmed by the recovery of future
investor tax liabilities not properly recoverable
through an income tax allowance. 147
Joint
Shippers
request
that
the
Commission create a separate amortization
mechanism for the ADIT balance with a related
reduction to rate base. Joint Shippers argue that
SFPP should amortize the ADIT over the refund
period in this proceeding via a negative surcharge
to the test period rates. 148 Tesoro also supports
refunding the ADIT to shippers by amortizing it
146

Id. at 16-20.

147

Id. at 17.

148

Id. at 6, 17-18, 21-23.

112a
over the refund period as a deduction from SFPP’s
rates. 149
3.

SFPP’s Reply Comments

SFPP argues that its ADIT calculation is
correct, and that the shippers’ proposal to amortize
ADIT to ratepayers is incorrect. 150 SFPP argues
that the shippers provide no support for seeking
disparate treatment regarding the income tax
allowance and ADIT. 151
SFPP argues that ADIT is not a loan from
shippers, but is analogous to an interest-free loan
from the U.S. Treasury. 152 According to SFPP, the
Commission recognizes that (1) the deferred
income tax balance does not represent a fund to
which shippers have entitlement and (2) payments
made under a normalized tax allowance merely

149

Tesoro Protest at 8 (quoting Ex. B at PP 7-9).

150

SFPP Reply at 5-37.

151

Id. at 32-33.

SFPP Reply at 9. SFPP also argues that Joint Shippers’
requested relief is unreasonable in light of pending rehearing
requests on the Revised Policy Statement, Opinion No. 511C and Opinion No. 522-B. Id. at 31.
152

113a
cover costs attributable to that period. 153 SFPP
also argues that the shippers’ analogy to the
context of an income tax rate reduction is
inapposite. Where there is a tax rate decrease,
SFPP states that the Commission views the
portion of the loan from the U.S. Treasury related
to the reduced income tax liability to have been
forgiven, which results in income for the pipeline
that reduces its cost of service and going-forward
rates. The excess ADIT balance is amortized via a
reduction to the income tax allowance. In contrast,
SFPP asserts that here, the Commission required
SFPP to remove its income tax allowance. SFPP
claims that the ADIT balance is not overfunded,
but instead has no applicability where SFPP does
not have an income tax allowance. 154
SFPP claims that ADIT is not a fund to
which shippers have an equity interest. SFPP
states that when an asset with an ADIT balance is
sold in a manner that generates a depreciation
recapture tax, the Commission views the income
tax liability associated with the ADIT as paid, and
the loan related to the liability as repaid in full by
the pipeline, so ADIT is extinguished. SFPP
asserts that in both the context of a tax rate
153

Id. at 14.

154

Id. at 16-18, 33.

114a
reduction and sale of an asset, the ADIT balance is
treated as a source of financing for the pipeline in
which ratepayers have no equity interest. SFPP
argues that in this proceeding, the ADIT balance
never existed in the first place because under the
Commission’s revised policy there is no longer an
income tax allowance from which to generate it. 155
SFPP argues that the Commission’s
rationale for removing an income tax allowance
from MLPs compels the removal of the associated
ADIT. SFPP states that if the DCF ROE captures
the partners’ income tax liability, the ROE also
captures any benefits of accelerated depreciation
flowed to those partners. SFPP states that the
liability (income tax expense) and asset
(accelerated depreciation of those expenses) stem
from the same source and there is no basis for
affording them disparate treatment. 156
SFPP represents that its rates from 1992
until the test period were the subject of litigation
resolved by black-box settlements. SFPP argues
that the shippers are barred from seeking to
recover ADIT collected during the settlement
period. SFPP claims that any amounts that it may
have double recovered due to the prior income tax
155

Id. at 16, 19-21, 34-36.

156

Id. at 22, 34.

115a
policy for the period 2005 through August 1, 2008
are covered by the settlement period, and the
return of such amounts would violate the
settlement and the rule against retroactive
ratemaking. 157 SFPP also asserts that it has not
over-collected anything after initiating this
proceeding because those rates are subject to
refund, and Opinion No. 511-C returns shippers to
a position as if no income tax allowance had been
collected during the refund period. 158
SFPP notes that the shippers adopted the
Brattle Report filed in Docket No. RM18-12 into
their comments in this proceeding, along with
additional witness affidavits. 159
In order to
Id. at 15, 25-31 (citing Docket Nos. OR92-8 and OR96-2,
et al.).
157

Id. at 26. SFPP also argues that if the proposal to
amortize ADIT is accepted, (1) the ADIT balance should be
amortized over the remaining life of the pipeline, not the
refund period, and (2) ADIT should be subtracted from rate
base to reflect new just and reasonable rates, not separately
refunded through a negative surcharge. Id. at 31-32.
158

159 Joint Shippers include Exhibit B, an Affidavit of Matthew
P. O’Loughlin, and Exhibit C, an Affidavit of Daniel S.
Arthur, in support of their comments and protest.
Attachment 1 to Exhibit B is the following report that was
filed in Docket No. RM18-12: Analysis of the Effect of the Tax
Cuts and Jobs Act and Revised Policy Statement Treatment

116a
address the ADIT issues presented by the
shippers, SFPP states that it included the Verified
Statement of Dr. Michael Webb (Exhibit 1 to
SFPP’s Reply Comments). SFPP states that to the
extent necessary, SFPP moves to reopen the record
to include Dr. Webb’s Verified Statement. 160 On
July 26, 2018, Joint Shippers filed an answer
arguing that it is unnecessary to reopen the record
to admit Dr. Webb’s Verified Statement as part of
the formal evidentiary record.
4.

Revised
Policy
Rehearing

Statement

Subsequent to the above comments, on July
18, 2018, the Commission issued the Revised
Policy Statement Rehearing, which provided
guidance that where the income tax allowance is
eliminated from cost-of-service rates under the
Commission’s post-United Airlines policy, the
pipeline
may
also
eliminate
previouslyaccumulated sums in ADIT from cost of service
instead of flowing these previously-accumulated
of Income Taxes on Commission-Jurisdictional Rates,
Matthew P. O’Loughlin, Daniel S. Arthur, and Michael R.
Tolleth, Docket No. RM18-12 (May 21, 2018) (Brattle
Report). Tesoro includes Exhibit B, the Declaration of Peter
K. Ashton in support of its protest.
160

SFPP Reply at 4 n.5.

117a
balances to ratepayers. 161
The Commission
explained that this guidance is consistent with (1)
Commission and IRS regulations; (2) Commission
precedent that shippers do not have an ownership
interest in previously accumulated sums in ADIT;
and (3) D.C. Circuit precedent suggesting that
returning the ADIT amounts would violate the
prohibition against retroactive ratemaking. 162
The Commission recognized that the guidance
provided in the Revised Policy Statement
Rehearing is non-binding and the Commission
would have to fully support and justify its
application in individual cases. 163
5.

Shippers’
Comments

Supplemental

Joint
Shippers
and
Tesoro
filed
supplemental comments responding to both
SFPP’s Reply Comments and the Revised Policy
Statement Rehearing. 164 Tesoro also adopts Joint
161 Revised Policy Statement Rehearing, 164 FERC ¶ 61,030
at PP 10, 13.
162

Id.

163

Id. P 6.

164 Joint Shippers Motion to File Surreply Comments and
Surreply Comments (August 17, 2018) (Joint Shippers

118a
Shippers’ positions
remedy. 165

on

ADIT

and

proposed

Joint Shippers argue that there is good
cause to grant leave to file the supplemental
comments as (1) SFPP withheld arguments in
support of a major component of its compliance
filing until SFPP’s reply comments, referring in
particular to the Verified Statement of Dr. Webb,
and (2) Joint Shippers should be afforded an
opportunity to develop a record associated with the
ADIT policy announced in the Revised Policy
Statement Rehearing. Joint Shippers include a
supplemental affidavit of Matthew P. O’Loughlin
as Exhibit 1 to the supplemental comments.
Tesoro also includes the Declaration of Peter K.
Ashton in its supplemental comments that
responds to Dr. Webb’s statement.
Joint Shippers claim that under the
Commission’s tax normalization policies and
precedent, SFPP’s overfunded ADIT balance,
Surreply Comments); Tesoro Motion for Leave to File
Supplemental Reply Comments and Supplemental Reply
Comments (July 26, 2018).
Tesoro adopts Joint Shippers’ proposal to use a negative
surcharge to refund the ADIT balance as well as the timevarying component associated with the refund balance.
Tesoro Supplemental Reply Comments at 9-10 and attached
Declaration of Peter K. Ashton.
165

119a
which is not needed to cover future anticipated
taxes, must be amortized to ratepayers. Joint
Shippers assert that such policy of amortizing an
overfunded ADIT balance back to ratepayers is
illustrated where future tax liabilities are reduced
when tax rates are reduced. 166 Joint Shippers
argue that if SFPP is treated differently than a
pipeline that experiences a tax rate decrease, it
will collect a windfall profit. 167 Joint Shippers and
Tesoro rely on the Commission’s statement in
Order No. 144 that “[a]ny excess or deficiency in
the deferred tax reserve does not, however, result
in a windfall to either shareholders or ratepayers
since the balances will systematically be subject to
a reconciliation in future rates.” 168
Joint Shippers and Tesoro claim that SFPP
incorrectly characterizes the deferred tax
component of ADIT as a loan from the U.S.
Treasury. Joint Shippers argue that the shippers
(not the Treasury) paid the rates that gave rise to
the ADIT balance. Joint Shippers further argue
that ADIT is not properly characterized as a loan,
166

Joint Shippers Surreply Comments at 7-11, 18, 20-21, 24.

167

Id. at 39-40.

Id. at 15 (quoting Order No. 144, FERC Stats. & Regs. ¶
30,254); see also id. at 18, 50; see also Tesoro Supplemental
Comments at 6.
168

120a
either from ratepayers or the government, but
instead is a regulatory account established as part
of the Commission’s tax normalization policy to
quantify the amount of deferred taxes. 169 Joint
Shippers claim that ADIT balances account for a
prepayment by shippers for an anticipated future
expense, and as such, the goal is to maintain the
deferred tax reserve as nearly as possible as a
According to Joint
revenue neutral fund. 170
Shippers, Commission precedent dictates that
excess ADIT should be treated no differently than
any other excess prepaid amount for a deferred
cost and should be amortized back to
ratepayers. 171 Similarly, Tesoro argues that ADIT
was collected through rates charged to shippers for
a non-existent tax and, as there is no future tax
liability, must be refunded to shippers. 172
Joint Shippers claim that SFPP and the
Revised Policy Statement Rehearing mistakenly
focus on the fact that shippers do not have an
ownership interest in the ADIT balances, when
neither the carrier nor the ratepayer have an
169

Joint Shippers Surreply Comments at 12-14.

170

Id. at 14-15.

171

Id. at 17.

172

Tesoro Supplemental Comments at 5-6.

121a
ownership interest in ADIT. Joint Shippers state
that ratepayers do not have an ownership interest
in ADIT balances, as they represent prepaid sums
for a specific anticipated future expense. Joint
Shippers claim that as the pipeline also has no
interest in the excess ADIT, under Commission
policy excess ADIT should be amortized to
ratepayers.
Joint Shippers state that ADIT
balances are contributed by ratepayers on a costfree basis to the carrier and the ADIT balance is
accordingly deducted from rate base.
Joint
Shippers claim that if SFPP’s position were
adopted, SFPP would begin as of 2008 to earn a
return on the ADIT balance because that balance
would be pocketed by SFPP and not deducted from
rate base, transforming a sum that the
Commission treats as cost-free capital into pure
profit. 173
Joint Shippers argue that SFPP’s analogy
to the Commission’s policy of zeroing out ADIT
balances when the pipeline’s assets are sold fails
to support the view that SFPP may zero out ADIT
in the situation at hand. Joint Shippers point out
that an asset sale is a taxable event whereby the
anticipated future tax obligations become
immediately due and payable and the
Commission’s policy is to remove the deferred tax
173

Joint Shippers Surreply Comments at 17-18.

122a
balance from cost of service. Joint Shippers assert
that the ADIT balance is only zeroed out when it is
used to pay taxes. In contrast, Joint Shippers note
that taxes on SFPP’s assets have not been
accelerated as a result of the Commission’s
decision prohibiting SFPP from including an
income tax allowance in cost of service. 174 Further,
Joint Shippers state that only normal ADIT, that
is balances that are aligned with the future tax
liability that is incurred at the time of sale, is
zeroed out when an asset is sold. According to
Joint Shippers, the same logic does not apply to
excess ADIT that exceeds the anticipated tax
liability. 175
Joint Shippers argue that contrary to
SFPP’s position, the Commission does not permit
pipelines to use deferred reserve accounts, such as
ADIT and dismantlement, removal, and
restoration (DR&R) to generate profits based on
the underlying expense.
By eliminating the
overfunded ADIT balance, Joint Shippers argue
that SFPP seeks to enjoy an undue windfall profit.
Instead, Joint Shippers argue that to the extent
ADIT or DR&R funds become overfunded, it is

174

Id. at 20.

175

Id. at 19-21.

123a
established Commission practice to amortize the
excess funds back to ratepayers. 176
Joint Shippers and Tesoro assert that,
contrary to SFPP’s claims, amortizing ADIT back
to ratepayers would not violate settlement
agreements with shippers. 177 First, Joint Shippers
argue that adjusting prospective rates to account
for an overfunded ADIT balance does not change
any rate charged during the settlement period.
Second, Joint Shippers and Tesoro argue that in
any event, the settling shippers were expressly
permitted to continue to pursue all claims
(including those related to the settlement period)
in this proceeding. 178
Joint Shippers and Tesoro argue that the
rule against retroactive ratemaking does not
prohibit returning excess ADIT to ratepayers.
According to Joint Shippers, the amortization of
the ADIT balance to ratepayers does not represent
a change in SFPP’s past rates in effect prior to
SFPP’s rate filing in this case, or a prospective
176

Id. at 15-16, 31.

177 Id. at 33 (citing SFPP, L.P., 131 FERC ¶ 61,180 (2010);
SFPP, L.P., 134 FERC ¶ 61,201 (2011)); Tesoro
Supplemental Comments at 7-9.
178

Joint Shippers Surreply Comments at 33-38.

124a
change to make up for unjust and unreasonable
rates collected in the past. 179 Joint Shippers claim
that the doctrine of retroactive ratemaking does
not consider the time when a prepayment for a
future anticipated cost is made. 180 Instead, the
relevant issue according to Joint Shippers is how
the ADIT funds are to be treated to resolve issues
regarding SFPP’s rate at issue in this proceeding
Joint Shippers argue that
prospectively. 181
retroactive ratemaking is not implicated by the
proposed remedy to address the treatment of
SFPP’s excess ADIT balance going forward for
prospective rates, where shippers have not sought
refunds associated with periods prior to the rate
filing in this matter. 182 Joint Shippers assert that
retroactive ratemaking is not applicable as all
participants have been on notice by virtue of the
Commission’s long-standing tax normalization
policy that a carrier is required to reconcile overrecoveries of ADIT through prospective rate
adjustments. 183 Joint Shippers argue that in
179

Id. at 21-24.

180

Id. at 25-26; see also id. at 40-41.

181

Id. at 26; see also id. at 41.

182

Id. at 21-24, 25-27; see also id. at 44-45.

183

Id. at 21-24, 27-29.

125a
Town of Norwood, 184 the D.C. Circuit found that
the Commission’s switch to tax normalization did
not violate the rule against retroactive
ratemaking. 185 Joint Shippers assert that when
the corporate tax rate fell in 1986, the Commission
found that amortizing excess ADIT to ratepayers
did not constitute retroactive ratemaking, 186 and
the Commission has relied on this logic in other
contexts. 187
Joint Shippers argue that the rule against
retroactive ratemaking prohibits SFPP’s proposal
to zero out its ADIT balance. Joint Shippers point
out that SFPP collected an income tax allowance
in rates and deferred taxes. Joint Shippers argue
that permitting SFPP to zero-out its ADIT balance
retroactively (1) transforms cost-free capital that
must be deducted from rate base into an increased
rate base on which increased return would be
provided, and (2) extinguishes the right of
ratepayers under Commission normalization
Town of Norwood, Mass. v. FERC, 53 F.3d 377 (D.C. Cir.
1995).
184

185

Joint Shippers Surreply Comments at 29-30.

186 Id. at 30 (citing El Paso Nat. Gas Co., 43 FERC ¶ 61,258
(1988)).
187

Id. at 30-31.

126a
policies to an amortization back of overfunded
ADIT balances. According to Joint Shippers, SFPP
is proposing to apply the Commission’s new policy
retroactively such that it would double recover its
investor income taxes for years but still pretend,
for ADIT purposes, that the double recovery never
happened. 188
Joint Shippers and Tesoro challenge the
Commission’s reliance on Public Utilities 189 to find
that the amortization of ADIT would constitute
retroactive ratemaking in the guidance provided in
the Revised Policy Statement Rehearing. In their
view, Public Utilities is distinguishable because in
that case the deferred tax reserve was collected
through rates for gas sales that subsequently were
made according to statutory ceiling rates as a
result of the Natural Gas Policy Act, so there was
no jurisdictional cost-based gas sales rate to
adjust. 190
Joint Shippers claim that the
Commission has rejected arguments premised on
Public Utilities that amortization of excess ADIT
or other overfunded deferred expense balances to
188

Id. at 31-32.

Public Utilities Comm’n of State of Cal. v. FERC, 894 F.2d
1372 (D.C. Cir. 1990).

189

Joint Shippers Surreply Comments at 44-46; see also
Tesoro Supplemental Comments at 10-11.
190

127a
ratepayers is restricted. 191 Tesoro argues that
Public Utilities does not apply because SFPP’s
rates have been suspended and subject to a refund
obligation in connection with this proceeding. 192
Tesoro states that similar arguments that
reparations are barred by retroactive ratemaking
have been rejected in prior cases. 193
Joint Shippers argue that the Revised
Policy Statement Rehearing results in inconsistent
treatment of MLP-owned pipeline and corporate
pipeline ADIT amounts without providing any
explanation.
Joint Shippers assert that the
Commission incorrectly implies that because MLPowned pipelines no longer have an income tax in
rates, there is no need to account for existing
ADIT. Joint Shippers explain that where the
ADIT balances were accumulated, MLP-owned
pipelines did include an income tax allowance in
rates. According to Joint Shippers, permitting
carriers to eliminate these balances incorrectly
assumes that the income tax allowance was
eliminated retroactively instead of prospectively.
Joint Shippers argue that the excess ADIT amount
generated from the prior income tax allowance did
191

Joint Shippers Surreply Comments at 47-48.

192

Tesoro Supplemental Comments at 11.

193

Id. at 13-16.

128a
not disappear and remains a source of cost-free
capital that the carrier should not earn a return
on, let alone retain as a windfall contrary to the
Commission’s tax normalization policy. Further,
Joint Shippers argue that MLP-owned pipelines
continue to recover an income tax component in
their cost-of-service rates via the DCF ROE which
includes investor-level taxes. 194 Finally, Joint
Shippers and Tesoro argue that returning the
excess ADIT to ratepayers is a just and reasonable
remedy that is consistent with principles of
fairness and equity, whereas permitting SFPP to
extinguish ADIT and retain a windfall profit is
not. 195
In addition, Tesoro argues that the Revised
Policy Statement Rehearing does not apply to
SFPP’s Compliance Filing because SFPP’s rates
from 2008 to present are subject to refund. As
such, Tesoro argues that the Commission has the
authority to order SFPP to return the ADIT
balance. 196

194

Joint Shippers Supplemental Comments at 41-44.

195

Id. at 48-53; see also Tesoro Supplemental Comments at

6.
196

Tesoro Supplemental Comments at 3-5.

129a
6.

Commission Determination

We will consider the shippers’ and SFPP’s
comments and supplemental comments on the
ADIT issues, including all supporting affidavits
and attachments. We find that these materials
assisted us in the decision-making process
regarding the ADIT issue.
SFPP’s Compliance Filing eliminated
income taxes from its cost of service. No party
takes issue with the Compliance Filing’s removal
of the income tax allowance line item.
As
discussed above, we reject SFPP’s rehearing
request for an income tax allowance; therefore, the
findings of Opinion No. 511-C are unchanged.
Accordingly, we find that the component of the
Compliance Filing eliminating income taxes from
SFPP’s cost of service complies with Opinion No.
511-C.
In addition, the Compliance Filing
eliminated the recognition of ADIT balances of
approximately $28,021,359 (as there is no longer
an income tax allowance). Elimination of these
ADIT balances results in the Compliance Filing’s
calculated rate base increasing by a like amount.
As discussed below, we find that the previously
accumulated sums in ADIT are properly
eliminated and not amortized to shippers. The

130a
shippers’ arguments and the record in this
proceeding do not compel a different finding. 197
a.

SFPP
Appropriately
Eliminated
the
ADIT
Balance

We find that it was appropriate for SFPP to
eliminate its ADIT balance from its cost of service
because (1) the income tax allowance was removed
from cost of service, (2) shippers have no right to
the sums previously accumulated in ADIT, and (3)
requiring SFPP to return the previously
accumulated sums in ADIT would be retroactive
ratemaking.
Once an income tax allowance has been
removed from cost of service, as is the case for
SFPP, there is no basis to continue to include ADIT
to normalize the pipeline’s income tax costs. As
SFPP is not permitted to recover an income tax
allowance in its rates, there is no rationale for
requiring SFPP to record current or deferred
We recognize that the Revised Policy Statement
Rehearing provided guidance of the course of action the
Commission intended to follow in future adjudications and
did not establish a binding rule. Revised Policy Statement
Rehearing, 164 FERC ¶ 61,030 at P 6. We have thoroughly
considered the arguments presented by the parties and the
record in this proceeding in reaching our determinations
regarding SFPP’s rates in this order.
197

131a
income taxes on its books. As explained above,
ADIT is a regulatory construct to ensure that
regulated entities do not earn a return on cost-free
capital based upon timing differences between
federal and state tax liability and Commission
ratemaking. The purpose of normalization is
matching the pipeline’s cost-of-service expenses in
rates with the tax effects of those same cost-ofservice expenses. If there is no income tax
allowance in Commission rates, there is no basis
for the “matching” function of normalization,
including ADIT.
In addition, regulations
regarding normalization for natural gas pipelines
only apply to entities with an income tax allowance
component in their regulated cost-of-service
rates. 198 Although these rules are not specifically
198 18 C.F.R. § 154.305(a) (“An interstate pipeline must
compute the income tax component of its cost-of-service by
using tax normalization for all transactions.”); 18 C.F.R. §
154.305(b)(1) (“Tax normalization means computing the
income tax component as if transactions recognized in each
period for ratemaking purposes are also recognized in the
same amount and in the same period for income tax
purposes.”); 18 C.F.R. § 154.305(b)(4) (“Income tax component
means that part of the cost-of-service that covers income tax
expenses allowable by the Commission.”); see also 26 U.S.C.
§ 168(i)(9)(A) (“the taxpayer must, in computing its tax
expense for purposes of establishing its cost of service for ratemaking purposes…use a method of depreciation with respect
to such property that is the same as, and a depreciation
period for such property that is no shorter than, the method

132a
applicable to oil pipelines such as SFPP, the same
principles apply. 199
Furthermore, ratepayers have no equitable
interest or ownership claim in ADIT. Rather, the
Commission and the D.C. Circuit have rejected
such claims. 200 Consistent with these holdings,
ADIT is not a true-up or tracker of money owed to
shippers. 201 Rather, ADIT records the amount of
and period used to compute its depreciation expense for such
purposes….”) (emphasis added).
See Williams Pipe Line Co., Opinion No. 154-B, 31 FERC
¶ 61,377, at 61,837-38 (1985).
199

Public Systems, 709 F.2d at 85 (rejecting the notion “that
ratepayers have an ownership claim” to the ADIT balance);
Public Utilities, 894 F.2d at 1381 (“The Commission and this
Court have both rejected” “the notion that under
normalization accounting customers enjoy an equitable
interest in a utility’s deferred tax account”); Order No. 144,
FERC Stats. & Regs. ¶ 30,254 at 31,539 (addressing the
“erroneous premise that a loan is being made by ratepayers
to utilities” through the normalization process and stating
that ratepayers do not “have an ownership claim or equitable
entitlement to the ‘loaned monies’”); id. at 31,539 n.75 (“This
is not to say that customers do not pay rates that recover
deferred taxes. They do. But paying deferred taxes in rates
does not convey an ownership or creditor’s right.”).
200

201 Lakehead Pipe Line Co. L.P., 75 FERC ¶ 61,181, at 61,594
(1996)). There would be practical problems with maintaining
such a tracker as, unlike SFPP, many oil pipeline rates have

133a
income taxes that the pipeline has collected due to
normalization and which it will eventually owe the
federal government (not ratepayers) but which
have been deferred pending the reversal of the
timing difference such as accelerated depreciation.
The balances recorded in ADIT accounts reflect
deferred taxes that are ultimately owed to the IRS.
Once the tax obligations are settled, the associated
ADIT amounts are eliminated. For example, when
the pipeline must pay these deferred taxes to the
federal government as a result of a sale of the
asset, the ADIT associated with the asset is
eliminated (not returned to shippers). 202
Therefore, we find that SFPP appropriately
eliminated ADIT from its cost of service.
Finally, returning ADIT to shippers
violates the doctrine against retroactive
ratemaking.
The rule against retroactive
ratemaking bars “the Commission’s retroactive
substitution of an unreasonably high or low rate
with a just and reasonable rate.” 203 Under the
never been subject to a cost-of-service rate proceeding. For
these pipelines, no cost-of-service income tax allowance has
been established.
Enbridge Pipelines (KPC), 100 FERC ¶ 61,260, at PP 158162 (2002).

202

203

City of Piqua v. FERC, 610 F.2d 950, 954 (D.C. Cir. 1979).

134a
Interstate Commerce Act (ICA), the Commission
only has the authority to address over-recovery by
prospectively changing a pipeline’s rate, and may
not retroactively refund over-collected amounts. 204
Requiring SFPP, whose tax allowance is
eliminated, to amortize to ratepayers ADIT that
was lawfully collected under previously filed and
approved rates would infringe on the rule against
retroactive ratemaking.
To do so would,
effectively, retroactively apply the holding in
Opinion No. 511-C by requiring SFPP to refund
either the income tax allowance expenses or
deferred tax reserves recovered under past rates
for service prior to the commencement of this
proceeding. Any attempt to refund such amounts
to shippers would be impermissible, as it would
rest on a post hoc finding that SFPP’s past rates
were not just and reasonable. 205
204 Oxy USA, Inc. v. FERC, 64 F.3d 679, 698-700 (D.C. Cir.
2006). Although under the ICA, retroactive reparations can
sometimes be awarded following a successful complaint
against an oil pipeline, these reparations are, if available at
all, limited to two years prior to the filing date of the
complaint. 49 U.S.C. app. § 16(3).

See Public Utilities, 894 F.2d at 1382-84, and Associated
Gas Distributors v. FERC, 989 F2d. 809, 810 (D.C. Cir. 1990)
(per curiam) (Williams, J. concurring) (the Commission may
not “force a utility to reduce its current rates to make up for
overcollections in previous periods”).
205

135a
Rates
designed
pursuant
to
the
normalization principles described above do not
“over-collect” the pipeline’s tax expenses in the
early years. Rather, such rates require shippers
receiving service in the early years to pay their
properly allocated share of the pipeline’s tax
expenses for the period of their service. 206 For
example, if a shipper only takes service in the early
years and then leaves the system, it has paid its
appropriate share of the pipeline’s tax expenses;
the shipper has not paid an excessive amount that
it could only recoup by remaining on the system
into the later years. It follows that, if the
Commission determines part way through the
overall normalization period that the pipeline is
not entitled to any tax allowance, the Commission
cannot require the pipeline to return to shippers
ADIT amounts collected in prior rates without
engaging in retroactive ratemaking. That is
because those ADIT amounts represent tax
expenses that the Commission previously found
were properly allocated to the approved rates in

The Commission’s primary justification for its decision to
adopt tax normalization was “the matching principle: as a
matter of fairness, customers who pay an expense should get
the tax benefit that accompanies the expense.... To do
otherwise would subsidize present customers at the expense
of future ones.” Public Systems, 709 F.2d at 80.
206

136a
effect prior to the Commission’s finding that the
pipeline is not entitled to a tax allowance.
This analysis is supported by the D.C.
Circuit’s decision in Public Utilities, which held
that requiring a pipeline to credit ratepayers for
earnings on an excess ADIT balance or refund the
balance to ratepayers where the pipeline switched
from cost-of-service rates to ceiling prices violated
the rule against retroactive ratemaking. The D.C.
Circuit found that ADIT “is composed entirely of
rate revenue that [the pipeline] has already
collected. Refund of such property, or its earnings,
would effectively force [the pipeline] to return a
portion of rates approved by FERC, and collected
by [the pipeline].” 207 The D.C. Circuit explained
that to the extent any basis for requiring the credit
to ratepayers rested on the view that the pipeline’s
prior cost-of-service rates were “in retrospect too
high” 208 or “unjust and unreasonable,” 209 then the
credit for earnings on previously accumulated
ADIT sums violated the rule against retroactive
ratemaking. Likewise, as SFPP’s income tax
allowance has been eliminated as a result of
Opinion No. 511-C, flowing the previously
207

Public Utilities, 894 F.2d at 1383.

208

Id. at 1380.

209

Id. at 1382.

137a
accumulated ADIT balance to shippers goingforward would amount to little more than
returning rates collected for providing prior-period
service, which is retroactive ratemaking.
b.

The Shippers’ Arguments
for Amortizing ADIT to
Ratepayers Lack Merit

We reject the shippers’ arguments that
previously accumulated sums in ADIT should be
amortized to them or that previously accumulated
sums in ADIT should continue to be deducted from
SFPP’s rate base.
The shippers argue that the Commission’s
tax normalization policies provide that when a
pipeline’s ADIT balance is overfunded and not
needed to recover future tax liability, the excess
balance should be amortized to ratepayers. The
fundamental flaw in the shippers’ arguments is
that they are based on the Commission’s tax
normalization policies and precedents for pipelines
that continue to have an income tax allowance in
cost-of-service rates, 210 whereas here, the
Commission has ordered SFPP to eliminate its
See, e.g., Joint Shippers Protest at 13-16 and Joint
Shippers Surreply Comments at 13-15, 24, 28-30 (describing
the Commission’s normalization policies under Order No.
144 and the Reverse South Georgia Method).
210

138a
income tax allowance altogether and held “there is
no basis for imputing the partners’ income tax
costs to SFPP’s cost of service.” 211 The shippers
fail to acknowledge the critical distinction between
(1) adjustments to amortize excess or deficient
ADIT to be included in future rates to account for
changes in income tax rates, and (2) a complete
elimination of the income tax allowance from cost
of service.
Where an income tax allowance
remains in the cost of service and there is excess
ADIT resulting from a reduction in tax rates, it is
appropriate to credit the cost of service to reflect
that the pipeline currently needs to collect a lower
level of tax expenses in rates to cover the tax
liability for that year. Rather than returning the
excess amounts to shippers related to past service,
the pipeline’s cost of service is adjusted on a going
forward basis to reflect the fact that it now needs
to collect less than what it anticipated to cover its
future tax liabilities. In contrast, where there is
no income tax allowance in Commission rates,
there is no basis for the “matching” function of
normalization and no liability for the deferred
taxes reflected in ADIT. In the absence of ADIT,
there is no ADIT adjustment to rate base or
amortization allowance to be reflected in cost-ofservice rates.
In other words, under
normalization, shippers that paid past rates for
211

Opinion No. 511-C, 162 FERC ¶ 61,228 at P 28.

139a
service on the pipeline under which the ADIT
balance was accumulated paid their properly
allocated share of the pipeline’s costs for the
transportation service they received. 212
Likewise, the Commission’s decision to
deny SFPP an income tax allowance is not
analogous to a change in the federal tax rates, as
the shippers presume. 213 The shippers correctly
state that the established policy in the case of a
reduction in the federal tax rates is to amortize the
excess ADIT to ratepayers. We agree that a
change in the federal tax rates giving rise to excess
deferred taxes would trigger Commission and IRS
normalization requirements. This is because when
income tax rates are merely reduced and an
income tax allowance remains in future cost of
service, it is appropriate to credit any excess in
ADIT in the future cost of service. Rather than
returning the excess amounts to shippers related
to past service, the pipeline’s cost of service is
adjusted on a going forward basis to reflect the fact
212 For example, if a shipper only takes service in the early
years and then leaves the system, it has paid its appropriate
share of the pipeline’s tax expenses; the shipper has not paid
an excessive amount that it could only recoup by remaining
on the system into the later years.

See, e.g., Joint Shippers Protest at 16-17; Joint Shippers
Surreply Comments at 8, 20, 24, 30.
213

140a
that it now needs to collect less than what it
anticipated to cover its future tax liabilities.
Again, this is not the situation here.
The
Commission applied its post-United Airlines policy
to deny SFPP an income tax allowance. Where
there is no income tax allowance component in
cost-of-service rates, there is no rationale for
requiring SFPP to continue to account for ADIT.
As explained above, when the income tax
allowance is eliminated due to the post-United
Airlines policy, there are no income tax costs
recognized in rates at all. That means the income
tax allowance must be completely removed and
there is no excess or deficient ADIT balance to
amortize in the cost of service.
The
shippers’
argument
that
the
Commission is treating MLP Pipelines and
corporate
pipelines
differently
without
explanation exhibits the same fatal flaw. The
difference in ADIT treatment is a consequence of
the Commission’s decision to adopt the shippers’
position in Opinion No. 511-C that allowing an
MLP Pipeline such as SFPP to recover an income
tax allowance results in a double recovery because
the DCF ROE is a pre-investor tax return. The
Commission found that no double recovery results
when a corporation’s cost of service includes an
income tax allowance because the corporate

141a
income tax is not an investor-level tax. 214 As a
result, corporate pipelines may continue to recover
an income tax allowance and correspondingly
account for deferred taxes in rates, whereas MLP
Pipelines like SFPP may not.
We find
unpersuasive the shippers attempt to circumvent
this distinction by arguing that SFPP does recover
an income tax component because investor-level
tax costs are reflected in the DCF ROE. 215
However, the Commission’s determination in
Opinion No. 511-C that the DCF methodology
results in a return that includes investor-level
taxes does not signify that MLP Pipelines recover
an income tax allowance. On the contrary, as
Opinion No. 511-C explained, “there is no basis for
imputing the partners’ income tax costs to SFPP’s
cost of service” when the taxes are an investorlevel cost recovered in the investor-level DCF
ROE. 216 The shippers incorrectly conflate the preinvestor tax ROE with an income tax allowance
component in cost-based rates in which tax costs
are incurred by or imputed to the regulated entity.
The shippers contradict themselves in
acknowledging that ratepayers do not have an
214

Opinion No. 511-C, 162 FERC ¶ 61,228 at P 25.

215

See Joint Shippers Surreply Comments at 43-44.

216

Opinion No. 511-C, 162 FERC ¶ 61,228 at P 28.

142a
ownership interest in the ADIT balance, 217 but
claiming that principles of equity require the ADIT
balance to be amortized to ratepayers to prevent
SFPP from retaining a windfall profit. 218 As the
shippers appear to concede, the Commission and
the D.C. Circuit have consistently held that
shippers do not have an equitable interest in
ADIT. 219 ADIT is not money owed to past or future
ratepayers, but rather deferred taxes that are
ultimately owed to the government. 220 In addition,
the shippers misconstrue the Revised Policy
Statement Rehearing as claiming that the removal
of ADIT upon the elimination of an income tax
allowance is the same as the elimination of ADIT
when an asset is sold. The Commission does not
suggest this in the Revised Policy Statement
Rehearing.
Instead, the Commission merely
referred to a sale of assets as an example of
another situation where ADIT is eliminated and
not returned to shippers to illustrate the point that
217

Joint Shippers Surreply Comments at 17.

218

Id. at 48-53.

219

See supra note 200.

The Commission has also explained that ADIT is not a
true-up or tracker of money owed to shippers. Lakehead Pipe
Line Co. L.P., Opinion No. 397-A, 75 FERC ¶ 61,181, at
61,594 (1996).
220

143a
shippers do not have an ownership claim over
balances recorded in ADIT. 221
We reject the shippers’ claim that the
elimination of the ADIT balance constitutes
retroactive ratemaking. On the contrary, as
discussed above, to direct SFPP to flow-back ADIT
that was lawfully collected under past rates to
shippers would violate the rule against retroactive
ratemaking because the Commission’s directive
would rest on a retroactive application of Opinion
No. 511-C’s denying SFPP an income tax
allowance. While the payment of the taxes may
have been deferred, the sum in ADIT reflects
income tax costs for prior shippers’ service as
determined by the straight-line depreciation used
in cost-of-service rates. As explained above, this
finding comports with the D.C. Circuit’s decision in
Public Utilities, which held that requiring a
pipeline to credit ratepayers for earnings on an
excess ADIT balance or refund the balance to
ratepayers where the pipeline switched from costof-service rates to ceiling prices violated the rule
against retroactive ratemaking.
The shippers do not provide compelling
grounds for distinguishing Public Utilities. The
Revised Policy Statement Rehearing, 164 FERC ¶ 61,030
at P 16.
221

144a
shippers correctly assert that in Public Utilities,
the gas sales were made according to statutory
ceiling prices as opposed to the historical costbased method, whereas SFPP continues to have
cost-based rates. There, as here, the basis for tax
normalization no longer applied because the
pipeline no longer recovered an income tax
allowance. 222 The Commission was confronted
with the issue of how to treat the ADIT funds that
had accumulated during the previous period for
that prior period’s service when the pipeline had
both an income tax allowance and corresponding
adjustment for deferred taxes in rates. Customers
unsuccessfully argued that allowing the pipeline to
retain the ADIT fund or its earnings would result

Public Utilities, 894 F.2d at1379 (the switch “wiped out
the premise of tax normalization” and hence the matching
principle “ceased to operate as an explicit guide”); id. at 1382
(“Tax normalization sought to ‘match’ the timing of a
customer’s contribution toward a cost with enjoyment of any
offsetting tax benefit.” …. “Enactment of the NGPA,
however, mooted the whole question to which normalization
was an answer.”); see also Public Systems, 709 F.2d at 8 (the
Commission’s primary justification for its decision to adopt
tax normalization was “the matching principle: as a matter
of fairness, customers who pay an expense should get the tax
benefit that accompanies the expense.... To do otherwise
would subsidize present customers at the expense of future
ones.”).
222

145a
in an inequitable windfall. 223 The D.C. Circuit
found that requiring the pipeline to flow-back the
previously-accumulated ADIT balance or to credit
the earnings on such balance in rates would run
afoul of the rule against retroactive ratemaking. 224
As the D.C. Circuit explained, ADIT “is composed
entirely of rate revenue that [the pipeline] has
already collected. Refund of such property, or its
earnings, would effectively force [the pipeline] to
return a portion of rates approved by FERC, and
collected by [the pipeline].” 225 Likewise, SFPP’s
income tax allowance has been eliminated as a
result of Opinion No. 511-C.
Flowing the
previously accumulated ADIT balance to shippers
going-forward would amount to little more than
returning revenues collected for providing priorperiod service, which is retroactive ratemaking.

223 Id. at 1381 (rejecting argument premised on “the notion
that under normalization accounting customers enjoy an
equitable interest in a utility’s deferred tax account”); id. at
1382 (rejecting the argument that the pipeline would receive
a “windfall” regarding the deferred tax reserve).
224 Id. at 1383-1384 (“The Commission had no legal right to
reduce [the pipeline’s going-forward] rates … below levels
found to be just and reasonable” as “the Commission’s
adjustments of those rates were in substance a retroactive
adjustment of prior rates based on normalization.”).
225

Id. at 1383.

146a
For the same reasons, we reject the
shippers’ claim that their proposed remedy to
amortize ADIT to shippers does not constitute
retroactive ratemaking because it only applies to
SFPP’s prospective rates. 226 SFPP’s ADIT balance
prior to the commencement of this proceeding was
lawfully collected for the tax costs associated with
prior-period service, and was consistent with the
Commission’s then-existing policy to allow MLP
pipelines to recover an income tax allowance and
accordingly also account for deferred taxes under
the Commission’s normalization policy. 227 The
shippers’ proposal to amortize the previouslyaccumulated ADIT balance in SFPP’s prospective
rates rests on an impermissible finding that

The shippers argue that in a recent decision, the
Commission distinguished Public Utilities and found that
accounting for DR&R collections was not retroactive
ratemaking because the remedy only concerned prospective
rates. Joint Shippers Surreply Comments at 48 (citing BP
Pipelines (Alaska) Inc., 123 FERC ¶ 61,287, at P 163 (2007)).
In the cited case, the DR&R continued to be recoverable in
rates, but had merely been over-collected. In contrast, here
both the tax allowance and ADIT have been removed from
SFPP’s cost of service, and therefore, as in Public Utilities,
the basis for income tax normalization in rates no longer
applies.
226

See 2005 Income Tax Policy Statement, 111 FERC ¶
61,139.

227

147a
SFPP’s past rates were “in retrospect too high” 228
or “unjust and unreasonable.” 229 The D.C. Circuit
in Public Utilities found that “[t]his kind of post
hoc tinkering would undermine the predictability
which the [retroactive ratemaking] doctrine seeks
to protect.” 230
We also reject the shippers’ argument that
the Commission’s normalization policy provides
notice to participants that SFPP is required to
adjust rates to reconcile excess ADIT sufficient to
satisfy the bar on retroactive ratemaking. As
explained above, the Commission’s normalization
policy does not apply in the context of a complete
elimination of a pipeline’s income tax allowance.
The cases cited by the shippers involve situations
228

Public Utilities, 894 F.2d at 1380.

229 Id. at 1382; see also id. at 1383-1384 (“The Commission
had no legal right to reduce [the pipeline’s going-forward]
rates … below levels found to be just and reasonable” as “the
Commission’s adjustments of those rates were in substance
a retroactive adjustment of prior rates based on
normalization.”).

Id; see also Old Dominion Electric Coop. v. FERC, 892
F.3d 1223, 1230 (D.C. Cir. 2018) (“The filed rate doctrine and
the rule against retroactive ratemaking leave the
Commission no discretion to waive the operation of a filed
rate or to retroactively change or adjust a rate for good cause
or for any other equitable considerations.”).

230

148a
where the income tax allowance remains in the
entity’s cost of service and there is excess ADIT,
such as a reduction in tax rates, and do not raise
the same retroactive ratemaking concerns. 231
Moreover, the Commission’s normalization
principles undermine, rather than support, the
shippers’ argument that SFPP’s ADIT balance is
overfunded and must be amortized to ratepayers
to prevent a windfall. As explained above, under
normalization, the shippers that paid past rates
For example, Joint Shippers argue that in Town of
Norwood, Mass. v. FERC, 53 F.3d 377, the D.C. Circuit found
that the Commission’s switch to tax normalization
accounting did not violate the rule against retroactive
ratemaking. Joint Shippers Surreply Comments at 29-30.
However, in that case the D.C. Circuit found that “the
transition obligation does not run afoul of the retroactive
ratemaking proscription, because [the entity] has not shifted
any costs that it tried but failed to collect in the past: it
always planned to collect these costs from future ratepayers,
the only shift is timing within the future.” Town of Norwood,
53 F.3d at 381; see also id. at 313 (“because the transition
provision only shifts the timing of collection of [postretirement benefits other than pension] costs among future
ratepayers, it does not constitute retroactive ratemaking”).
In contrast, if the Commission ordered SFPP to amortize the
ADIT balance, it would not merely be shifting the timing of
an adjustment that would have refunded the sums to future
ratepayers, but instead “correct[ing] for errors in earlier
approximates of actual costs” (namely, the error of
permitting MLP Pipelines an income tax allowance), which
is “impermissible retroactive ratemaking.” Id. at 312.
231

149a
for service on SFPP under which the ADIT balance
was accumulated paid their properly allocated
share of the pipeline’s costs for the transportation
service they received. Thus, to order SFPP to
amortize the ADIT balance to shippers would
retroactively apply Opinion No. 511-C’s holding to
SFPP’s past rates for prior-period service. The
shippers’ argument that the ADIT accumulated
under the past rates was prepayment for a future
anticipated cost that will never become due is
misplaced. 232 As the D.C. Circuit stated, “just
Joint Shippers point out that in Order No. 144-A, the
Commission compared the rate treatment for deferred tax
costs to the rate treatment for dismantlement (DR&R) costs
in explaining that neither constitutes a loan from shippers.
They quote the Commission’s statement that “[j]ust as the
prepayment of plant removal costs over a plant’s operating
life (rather than during the period of dismantlement when
the costs are incurred) does not constitute a loan . . . , so too,
the prepayment of taxes (through deferred taxes) does not
constitute a loan.” Shippers’ Surreply Comments at 14-15
(quoting Order No. 144-A). The Commission’s use of the term
“prepayment” in Opinion No. 144-A may have been
imprecise.
Both deferred taxes and DR&R provide
accounting for current costs although those costs are to be
paid in the future. Moreover, the analogy to DR&R does not
support the shippers’ position regarding SFPP’s ADIT.
Although over-collected DR&R may need to be refunded to
shippers, in this scenario DR&R remains recognized in cost
of service to cover dismantling and removal costs to the
extent such costs exist. That is not the case with SFPP’s
ADIT. The removal of the income tax allowance removes the
232

150a
because [the pipeline] may draw on these funds to
pay future costs does not mean that the funds
should be treated as having been collected in the
period in which they are spent.” 233 In other words,
the “‘windfall argument’ overlooks the reality that
every [prior ratepayer] received the full tax benefit
associated with every expense that it bore.” 234
We reject Tesoro’s argument that
amortizing SFPP’s ADIT balance would not
constitute retroactive ratemaking in this
proceeding because SFPP’s rates are subject to a
refund obligation. Tesoro’s argument misses the
mark. First, under United Airlines and Opinion
No. 511-C, SFPP is not entitled to recover an
income tax allowance in the first place, and as a
result the ADIT balance and any normalization
principles associated with it are terminated.
Because the Commission has eliminated the
income tax allowance from SFPP’s cost of service
effective for 2008 (when the rate proceeding
commenced), no ADIT balance has accumulated
basis for any income tax normalization via ADIT. As a
result, refunding ADIT to shippers is impermissible and,
among other issues, violates the prohibition against
retroactive ratemaking as discussed in this order.
233

Public Utilities, 894 F.2d at 1381.

234

Id. at 1382.

151a
since 2008 (during the refund period). Second,
regarding the previously-accumulated ADIT prior
to 2008, the Commission is precluded from
returning those funds to shippers by the
retroactive ratemaking doctrine and other
concerns as explained above.
The Compliance Filing removes the income
tax allowance for the refund period, such that
shippers are placed in the same position as if SFPP
had not collected any income tax allowance (or
made corresponding ADIT adjustments) during
the refund period. Therefore, the Compliance
Filing does not reflect any excess ADIT balance
generated during the refund period. As such, we
find that the Compliance Filing’s removal of the
ADIT balances complies with Opinion No. 511-C.
As we find that it is not appropriate to
amortize SFPP’s ADIT balance to shippers, we
need not address the shippers’ challenges to
SFPP’s argument that settlements bar their
proposed remedy.
B.

Litigation Surcharge
1.

Background

SFPP reflects an updated calculation of the
litigation surcharge approved in Opinion Nos. 511
and 511-A to account for additional litigation costs

152a
incurred since the Opinion No. 511-B Compliance
Filing.
SFPP also asserts that in the event it is
unable to recover, in Docket No. IS11-444-002, the
litigation expenses attributed to SFPP’s West Line
rate index in that docket, SFPP reserves the right
to recover those expenses as an additional
component of the litigation surcharge in the
instant docket.
SFPP argues that the two
proceedings are inextricably intertwined because
the
Commission’s
ultimate
determination
regarding the appropriate indexing increase for
SFPP’s West Line rates in Docket No. IS11-444
will have a direct and substantial impact on the
refunds SFPP will pay in the present docket. 235
2.

Protests and Comments

Joint Shippers and Tesoro oppose SFPP’s
litigation surcharge.
Joint Shippers oppose
SFPP’s proposal to recover $8,587,491 in litigation
expenses through a surcharged levied over a threeyear period. Joint Shippers argue that the factual
underpinning for the three-year surcharge in this
case no longer exists, given that the litigation has
extended well beyond three years. Joint Shippers
assert that although all shippers will benefit from
235

Compliance Filing at 5-7.

153a
the lower rates, only the August 2008 through July
2011 shippers will pay the expenses SFPP has
incurred litigating this case. They argue that the
litigation expenses should be recovered over the
entire litigation and refund period, rather than an
arbitrary three-year period. 236
Tesoro challenges SFPP’s proposal to
recover certain litigation expenses incurred
subsequent to its compliance filing in Opinion No.
511-B, arguing that SFPP has not shown that the
additional expenses are just and reasonable.
Tesoro also argues that SFPP should not be
permitted to reserve the right to allocate costs from
other proceedings to the litigation surcharge in
this proceeding. 237
Joint Shippers argue that the Commission
should reexamine its policy of allowing oil
pipelines to recover all litigation expenses without
considering whether those expenses are excessive
or were prudently incurred, and reject SFPP’s
recovery of a litigation surcharge. Joint Shippers
assert that under the Commission’s policy, a
pipeline has no incentive to limit its costs. Joint
Shippers claim that SFPP incurred over $8.5
million in legal costs and the end result has been
236

Id. at 23-25; see also id. at Ex. C.

237

Tesoro Protest at 9.

154a
not just a denial of its proposed rate increase, but
a rate decrease. Joint Shippers assert that the
only way SFPP can show a rate increase is by
tacking on the litigation surcharge to recover the
litigation expenses spent in its failed pursuit of a
rate increase. Joint Shippers state that where a
pipeline’s rate increase proposal is rejected, the
Commission should not force ratepayers to fund
the pipeline’s costs of litigating the unfounded rate
increase.238
3.

SFPP’s Reply Comments

SFPP argues that the litigation surcharge
calculation is consistent with Opinion No. 511A.239 SFPP states that the Docket No. IS08-390
litigation surcharge was updated to account for
additional litigation costs incurred since the
Opinion No. 511-B compliance filing, including
actual costs through March 31, 2018 and
estimated costs through May 14, 2018 regarding
preparing the Opinion No. 511-C Compliance
Filing.
SFPP argues that the factual
underpinnings of the three-year surcharge are
largely unchanged from when the surcharge was

238

Joint Shippers Protest at 25-27.

SFPP Reply at 42 (citing Opinion No. 511-A, 137 FERC ¶
61,220 at P 35).
239

155a
affirmed in Opinion No. 511-A and unchallenged
in Opinion No. 511-B. 240
SFPP argues that the Commission has
previously accepted recovery of litigation expenses
from other proceedings when doing so is
reasonable. 241 SFPP asserts that it is entitled to
reserve its right to recover litigation expenses
attributable to Docket No. IS11-444-002 as an
additional component of the litigation surcharge in
the instant proceeding in Docket No. IS08-390, et
al because Docket No. IS11-444-002 is inextricably
intertwined with the instant proceeding.
SFPP argues that the Commission may not
shift its policy regarding the recovery of litigation
costs in oil pipeline rate litigation because to do so
would be arbitrary and capricious. SFPP argues
that the most recent litigation expenses are the
result of Joint Shippers’ success in overturning the
Commission’s policy on the income tax allowance,
which required SFPP to recalculate its cost of
service. 242

240

Id. at 42-44.

241 Id. at 46 (citing Texaco Refining and Marketing, Inc. v.
SFPP, 117 FERC ¶ 61,285, at PP 72-74 (2006)).
242

Id. at 45.

156a
4.

Commission Determination

We reject the shippers’ arguments
challenging the litigation surcharge. The shippers
primarily repeat the same arguments that the
Commission rejected in Opinion Nos. 511 and 511A. 243 In particular, the shippers reassert the
argument that the Commission should not permit
pipelines to recover litigation expenses because
pipelines will have no incentive to limit litigation
costs. 244 As the Commission explained in Opinion
No. 511-A, pipelines are entitled to recover their
reasonably incurred rate litigation costs. 245 The
shippers have not provided any grounds for finding
See SFPP, L.P., Opinion No. 511, 134 FERC ¶ 61,121 at
PP 31-37; Opinion No. 511-A, 137 FERC ¶ 61,220 at PP 3551.
243

244

41.

See e.g. Opinion No. 511-A, 137 FERC ¶ 61,220 at PP 37,

Opinion No. 511-A, 137 FERC ¶ 61,220 at P 39 (quoting
SFPP, L.P., Opinion No. 435-A, 91 FERC ¶ 61,135, at 61,512
(2000) (“Litigation related to the pipeline’s cost of service and
the structure of its tariff are part of its normal, ongoing
operations, and such costs are recoverable as part of the
pipeline’s cost of service.”)); Iroquois Gas Transmission Sys.
v. FERC, 145 F.3d 398 (D.C. Cir. 1998); see also Opinion No.
511, 134 FERC ¶ 61,121 at P 37 (finding that SFPP “may
include a limited three-year surcharge to recover reasonable
legal costs of the proceeding in Docket No. IS08-390-000 et
al. that have been incurred by SFPP”).
245

157a
that the expenses SFPP includes in its Compliance
Filing are not just and reasonable.
As the
Commission stated in Opinion No. 511 and
Opinion No. 511-A, “[w]here significant litigation
costs have been incurred and it is uncertain
whether those litigation costs will continue into
future years, a surcharge based upon actual
litigation costs provides an appropriate means to
avoid both over-recovery and under-recovery.” 246
As the Commission pointed out in Opinion No. 511A, SFPP does not control the degree to which
shippers have litigated the issues raised in this
proceeding. 247
We also reject the shippers’ proposal to
recover the litigation expenses over the entire
litigation and refund period. The three-year period
for recovering the litigation expenses was
approved in Opinion No. 511 and affirmed in
Opinion No. 511-A. 248 The shippers provide no
support for their proposal to recover the expenses
over the entire litigation and refund period,
whereas using a shorter period is consistent with
246 Id. (quoting Opinion No. 511, 134 FERC ¶ 61,121 at P 35
(citations omitted)).
247

Id. P 41.

Opinion No. 511, 134 FERC ¶ 61,121 at P 35; Opinion No.
511-A, 137 FERC ¶ 61,220 at P 42.

248

158a
both Commission and court precedent. 249 The use
of a three-year surcharge remains appropriate
because, although the litigation remains ongoing,
the majority of the litigation expenses (85.9
percent) were incurred in the earlier stages prior
to August 2011. 250 Thus, the three-year recovery
period from August 1, 2008 through July 31, 2011
reflects the costliest phase of the litigation.
We agree with shippers that SFPP should
not be permitted, as part of the Compliance Filing
in this proceeding, to reserve the right to include
litigation expenses attributable to the litigation in
Docket No. IS11-444 in the litigation surcharge.
SFPP states that “if SFPP is unable to recover its
litigation expenses attributable to Docket No.
IS11-444 in that docket, SFPP reserves the right
to seek recovery of such litigation expenses as a
component of the litigation surcharge the
Commission has already ordered in this one.” 251
Whether SFPP can recover litigation expenses
249 SFPP, L.P., Opinion No. 435-A, 91 FERC ¶ 61,135 at
61,512 (approving 5-year surcharge to recover litigation
expenses), order on reh’g, Opinion No. 435-B, 96 FERC ¶
61,281, at 62,074 (2001), order on reh’g, 100 FERC ¶ 61,353
(2002), aff’d in relevant part, BP West Coast Products, LLC v.
FERC, 374 F.3d 1263, 1293-1294 (D.C. Cir. 2004).
250

Compliance Filing, Tab A, Schedule 24, Page 1.

251

Compliance Filing at 6-7.

159a
associated with the pending case in Docket No.
IS11-444 is beyond the scope of this proceeding.
C.

Overpaid
Refunds
and
Collected Revenues Reserve
1.

Under-

Background

SFPP states that for the periods July 2011
and February 1, 2012 through June 13, 2018, the
Opinion No. 511-C refund rate is higher than the
Opinion No. 527 refund rates (for July 2011 and
from February 1, 2012 through July 2, 2013) or the
rates paid (for the period July 3, 2013 through
June 13, 2018). Hence, SFPP asserts that refunds
paid per Opinion No. 527 for July 2011 and from
February 1, 2012 through July 2, 2013 (in Docket
No. IS11-444), were greater than what is required
based on the rulings in Opinion No. 511-C. SFPP
further claims that the rates West Line shippers
paid for the period July 3, 2013 through June 13,
2018 were lower than the rates West Line shippers
should have paid for West Line transportation
service based on Opinion No. 511-C.
SFPP
explains that to return SFPP to the same position
it would have been in had it not paid the nowexcessive refunds per Opinion No. 527 (Overpaid
Refunds), or established the now-insufficient rates
per Opinion Nos. 527 and 511-B as indexed
forward (Under-Collected Revenues), SFPP offset
the Overpaid Refunds and Under-Collected

160a
Revenues against other refunds in developing total
estimated refunds. SFPP claims that while it still
owes refunds, the Overpaid Refunds and UnderCollected Revenues exceed other refunds for 25
shippers, totaling $3.3 million.
SFPP claims that the ability to recover the
$3.3 million from such shippers is uncertain, and
proposes to create an Overpaid Refunds/UnderCollected Revenues Reserve that would be funded
by a uniform pro rata withholding of $3.3 million
from the refund amounts owed to all shippers to
mitigate its exposure. SFPP proposes to assess
after a certain period how much of the amount has
been recovered and distribute to the applicable
shippers a corresponding amount following SFPP’s
initial distribution of the total refunds. At the end
of the period, SFPP would determine if any refunds
have not been claimed by SFPP’s shippers and
credit that amount to the reserve, distributing pro
rata to the applicable shippers an equivalent
amount. SFPP proposes that after the reserve has
been reduced by the amount of unclaimed refunds,
the shippers that failed to claim their refunds after
180 days have elapsed would be foreclosed from
doing so and SFPP would retain any remainder to
compensate it for the amounts of Overpaid

161a
Refunds and Under-Collected Revenues it was
unable to recoup. 252
2.

Protests and Comments

Joint Shippers argue that shippers that do
not owe negative refunds should not be required to
subsidize the subset of shippers that have the
financial obligation, particularly where SFPP has
not attempted to recover the negative refunds from
such subset of shippers. Joint Shippers argue that
SFPP should be required to first seek recovery
from the individual shippers with the negative
refund obligation, and if that fails, seek recovery
through a tariff filing and non-discriminatory
mechanism. 253
Similarly, Tesoro challenges
SFPP’s proposal to retain amounts from shippers
that are owed refunds, rather than collecting the
$3.3 million from the actual shippers that
allegedly owe the negative refunds. 254
Joint Shippers and Tesoro challenge SFPP’s
reliance on a 2011 settlement order. 255 They argue
252

Id. at 7-9.

253

Joint Shippers Protest at 28-34; see also id. at Ex. C.

254

Tesoro Protest at 10-11.

255

SFPP, L.P., 134 FERC ¶ 61,202 (2011).

162a
that a settlement does not constitute Commission
precedent. 256 Joint Shippers assert that unlike the
2011 order, SFPP has not demonstrated that it is
sharing the burden of mitigation, nor that it will
be unable to recover the overpaid refunds from the
shippers that owe them. 257 Joint Shippers and
Tesoro also argue that once SFPP’s erroneous
treatment of ADIT is corrected, no West Line
shipper will owe negative refunds and the reserve
mechanism will be unnecessary. 258
3.

SFPP’s Reply Comments

SFPP
argues
that
the
Overpaid
Refunds/Under-Collected Revenues Reserve is
reasonable to place SFPP in the same position it
would have been had it not paid excessive refunds
per Opinion No. 527 or established insufficient
rates per Opinion Nos. 527 and 511-B. 259 SFPP
argues that the Commission has previously
approved the use of a similar Overpaid
Refunds/Under-Collected Revenues Reserve by

256

Joint Shippers Protest at 31-33; Tesoro Protest at 11.

257

Joint Shippers Protest at 31-33.

258

Id. at 30; Tesoro Protest at 11 (citing Ex. B at P 12).

259

Id. at 37-42.

163a
SFPP. 260 SFPP asserts that SFPP’s ability to
recover the $3.3 million from the applicable 25
shippers is uncertain and thus, SFPP proposes the
Overpaid Refunds/Under-Collected Revenues
Reserve to mitigate this risk.
SFPP states that it will fund the $3.3
million based on a uniform pro rata withholding of
refunds owed to all shippers, but will then attempt
to collect the $3.3 million from the 25 specific
shippers that owe such amount. To the extent
successful, SFPP states that it will release and
distribute the amount from the reserve to the
applicable shippers that are still owed refunds.
SFPP states that it will only retain the portion of
the $3.3 million in the reserve to the extent it is
not able to collect revenues from the 25 shippers
that owe this amount. 261
4.

Commission Determination

We reject SFPP’s proposal to implement the
Overpaid Refunds/Under-Collected Revenues
Reserve. SFPP proposes to withhold $3.3 million
in refunds that it owes to all shippers in order to
mitigate its risk that SFPP will be unable to collect
such amount from 25 specific shippers to which
260

Id. at 40 (citing SFPP, L.P., 134 FERC ¶ 61,202).

261

Id. at 41-42.

164a
SFPP overpaid refunds as a result of the
Commission’s orders. As a general principle, it is
inappropriate to require shippers to bear the cost
of the unrecovered amounts that are owed by other
shippers. 262 The fact that the Commission has the
authority to correct its errors, as SFPP argues,
does not support SFPP’s proposal to withhold
refunds from shippers that do not have any
negative refund obligation. 263
SFPP’s proposal is also unsupported. SFPP
does not state whether it made any attempts to
collect the negative refunds from the subset of
shippers that owe such refunds or their successorsin-interest. Based on the record, it is unclear why
SFPP would be unable to recover the
overpayments from entities that owe negative
See, e.g., Williston Basin Interstate Pipeline Co., 67 FERC
¶ 61,137, at 61,360 (1994) (ratepayers should not shoulder
the burden of subsidizing amounts owed by certain
ratepayers and “Bad debts are a risk of doing business that
is compensated through the pipeline’s rate of return”), on
reh’g, 71 FERC ¶ 61,019, at 61,075 (1995) (“allowing this
uncollected amount to be borne by its other, paying
customers is an improper cross-subsidy”).
262

See e.g. SFPP Reply Comments at 39-40 (citing United
Gas Improvement Co. v. Callery Properties, Inc., 382 U.S.
223, 229 (1965); PUC of California v. FERC, 988 F.2d 154,
163 (D.C. Cir. 1993)); see also Natural Gas Clearinghouse v.
FERC, 965 F.2d 1066, 1073-1075 (D.C. Cir. 1992).
263

165a
refunds. 264 The Commission’s role is to determine
a just and reasonable rate for SFPP, not to
mitigate SFPP’s risk in pursuing collections. 265
SFPP’s attempt to rely on a 2011 Letter
Order 266 is also unavailing. In that proceeding, the
Commission permitted an overpaid refunds
reserve that was unchallenged in connection with
an uncontested offer of settlement, among other
distinguishing factors. 267 Here, SFPP’s proposal
has been challenged by the shippers whose refunds
SFPP proposes to withhold. On review of SFPP’s
Williston Basin Interstate Pipeline Co., 71 FERC at 61,075
(“Shifting the responsibility for costs of amounts uncollected
as a result of management’s discretion in not seeking to
collect those costs from those who are responsible is not
appropriate.”).
264

265 Transcontinental Gas Pipe Line Corp., 78 FERC ¶ 61,198,
at 61,856 (1997), reh’g denied, 79 FERC ¶ 61,224 (1997).
266

SFPP, 134 FERC ¶ 61,202.

SFPP’s proposed reserve in the 2011 proceeding only
covered specifically identified circumstances where SFPP
explained it was likely unable to collect the previously
overpaid refunds from certain shippers, as opposed to SFPP’s
proposal here which applies to SFPP’s entire net refund
exposure. See Report of SFPP, L.P. on Pending Compliance
Filings and Request for Order to Pay Refunds and Recover
Overpaid Refunds, Docket No. OR92-8-033, et al. (February
10, 2011).
267

166a
Compliance Filing in this proceeding, we see no
basis for permitting SFPP to withhold refunds
owed to shippers. 268
The Commission orders:
(A)
SFPP’s compliance filing is accepted
subject to the conditions described herein, as
discussed in the body of this order.
(B)
Rehearing is denied, as discussed in
the body of this order.
(C)
SFPP’s Motion to Reopen the Record
is denied, as discussed in the body of this order.
By the Commission.
(SEAL)
Nathaniel J. Davis, Sr.,
Deputy Secretary.

It is unclear from SFPP’s Compliance Filing whether any
refunds were withheld in order to implement the proposed
reserve. To the extent SFPP withheld any refunds owed to
shippers, SFPP shall provide the full amount of refunds due
to shippers consistent with this order within 30 days.
268

167a
APPENDIX C
162 FERC ¶ 61,228
UNITED STATES OF AMERICA
FEDERAL ENERGY REGULATORY
COMMISSION
Before Commissioners:

SFPP, L.P.

Kevin J. McIntyre,
Chairman;
Cheryl A. LaFleur,
Neil Chatterjee,
Robert F. Powelson, and
Richard Glick.

Docket Nos. IS08-390-008
IS08-390-009
OPINION NO. 511-C

ORDER ON REMAND AND COMPLIANCE
FILING
(Issued March 15, 2018)

168a
1.
This order addresses the United States Court of
Appeals for the District of Columbia Circuit’s (D.C.
Circuit) remand in United Airlines 1 which vacated in
part and remanded Commission Opinion Nos. 511,
511-A and 511-B addressing SFPP, L.P.’s (SFPP) 2008
West Line cost-of-service rate case. 2 This order also
addresses an April 6, 2015 compliance filing by SFPP,
L.P., pursuant to Opinion No. 511-B.
2.
In United Airlines, the D.C. Circuit remanded
to the Commission holdings concerning (a) the decision
to grant SFPP an income tax allowance and a return
on equity (ROE) determined by the discounted cash
flow (DCF) methodology and (b) the data period for
assessing SFPP’s real ROE. As to the first issue, the
D.C. Circuit determined the Commission failed to
demonstrate that a double recovery does not result
from granting a partnership pipeline both an income
tax allowance and a DCF ROE. 3 As to the second issue,
the D.C. Circuit held that the Commission failed to
provide a reasoned explanation for determining the
real ROE based upon data for the six-month period

1

United Airlines, Inc. v. FERC, 827 F.3d 122 (2016).

2 SFPP, L.P., Opinion No. 511, 134 FERC ¶ 61,121 (2011), order
on reh’g, Opinion No. 511-A, 137 FERC ¶ 61,220 (2011), order on
reh’g, Opinion No. 511-B, 150 FERC ¶ 61,096 (2015).
3

United Airlines, 827 F.3d 122 at 134.

169a
ending September 2008. 4
In this order, the
Commission reconsiders both issues and
(a) denies
SFPP an income tax allowance, and (b) determines a
real ROE of 10.24 percent for SFPP based on an
inflationary component of 2.39 percent.
3.
On April 6, 2015, SFPP submitted a compliance
filing pursuant to Opinion
No. 511-B. 5 Certain
shippers challenge the application of certain indexed
rate increases for calculating refunds. As discussed
below, the Commission accepts in part SFPP’s
compliance filing and orders SFPP to make a further
compliance filing within 60 days that (a) implements
the Commission’s holdings on the remanded issues and
(b) calculates refunds and going forward rates based
upon the timing and the level of the index increases
actually filed by SFPP and accepted by the
Commission consistent with
section 342.3 of the
Commission’s regulations. 6
I.

Procedural History

4.
In June 2008, SFPP filed a cost-of-service rate
increase pursuant to section 342.4(a) of the

4

Id. at 131.

5

Opinion No. 511-B, 150 FERC ¶ 61,096.

6

18 C.F.R. § 342.3 (2017).

170a
Commission’s regulations to increase the rates for its
West Line between Watson Station, Los Angeles
County, California and Phoenix, Arizona. 7 The rates
were protested by shippers, raising numerous issues of
material fact regarding SFPP’s costs and proposed
rates. 8 The Commission accepted and suspended
SFPP’s proposed West Line rates to become effective
August 1, 2008, subject to refund and set the issues
surrounding the proposed rates for hearing. 9 The
hearing was held in June 2009. 10
5.
The Administrative Law Judge’s December
2009 Initial Decision resolved numerous rate-setting
issues. 11
The Commission addressed briefs on
exceptions in Opinion No. 511 and rehearing in
Opinion Nos. 511-A and 511-B. Opinion Nos. 511, 511A, and 511-B collectively reduced SFPP’s proposed
West Line rate increase. On April 6, 2015, SFPP

7

18 C.F.R. § 342.4(a) (2017).

8

Opinion No. 511, 134 FERC ¶ 61,121 at P 2.

9

SFPP, L.P., 124 FERC ¶ 61,103 (2008).

10

Opinion No. 511, 134 FERC ¶ 61,121 at P 5.

11

SFPP, L.P., 129 FERC ¶ 63,020 (2009) (Initial Decision).

171a
submitted its compliance filing to Opinion No. 511-B. 12
The parties subsequently submitted comments and
reply comments.
6.
In September 2015, SFPP and Shippers 13 filed
petitions with the D.C. Circuit regarding, as relevant
here, the income tax allowance issue and data period
for determining SFPP’s DCF ROE. On July 1, 2016,
the D.C. Circuit granted the petitions for review and in
United Airlines remanded those issues to the
Commission. 14

SFPP filed tariff records to implement its April 6, 2016
compliance filing in Docket No. IS15-238. That filing was
accepted subject to the outcome of this and other ongoing SFPP
proceedings. SFPP, L.P., 151 FERC ¶ 61,101 (2015).

12

13 For purposes of this order, Shippers generally refers to the
shipper parties that petitioned the D.C. Circuit challenging the
Commission’s Opinion No. 511 orders, including United Airlines,
Inc., Delta Air Lines, Inc., Southwest Airlines Co., US Airways,
Inc., BP West Coast Products LLC, Chevron Products Co.,
ExxonMobil Oil Corporation, Valero Marketing and Supply
Company, and Tesoro Refining and Marketing Company LLC.
The same parties except for US Airways, Inc. filed comments on
remand with the Commission.
14

United Airlines, 827 F.3d 122.

172a
7.
SFPP subsequently
supplemental comments. 15
comments. 16
II.

filed comments and
Shippers filed reply

Income Tax Allowance

8.
In the SFPP rate case issues arose involving the
interaction between (a) the Commission’s policy
permitting an income tax allowance policy for
partnership business forms (such as SFPP) and (b) the
Commission’s DCF methodology used to determine a
cost-of-service rate of return.
9.
At the time of SFPP’s 2008 West Line rate case
addressed in Opinion Nos. 511, 511-A, and 511-B,
SFPP was a wholly owned subsidiary of a master
limited partnership (MLP), 17 a partnership form in
which units are traded on exchanges much like
corporate stock. In order to be treated as an MLP for
Federal income tax purposes, an MLP must receive at
least 90 percent of its income from certain qualifying
15 SFPP Comments on Remand (August 25, 2016); SFPP
Supplemental Comments on Remand (November 30, 2016).
16

Shippers Comments on Remand (September 13, 2016).

At the time of SFPP’s rate filing, Kinder Morgan Energy
Partners (KMEP) indirectly owned a 99 percent general partner
interest in SFPP. Initial Decision,
129 FERC ¶ 63,020 at PP
28 n. 13, 39, 82; Opinion No. 511, 134 FERC ¶ 61,121 at P 74.

17

173a
sources, including natural gas and oil transportation. 18
Unlike corporations, MLP pipelines are pass-through
entities, which means that MLPs are not taxed at the
pipeline level.
Rather, for tax purposes, the
partnership agreement allocates to each partner a
share of the partnership’s taxable income, and each
partner is personally responsible for paying income
taxes on the partnership’s net taxable income. 19
10.
In United Airlines, the D.C. Circuit held that
because both the partnership income tax allowance
and the DCF ROE may include investors’ tax costs,
permitting both may result in a double recovery. In
light of the United Airlines findings and the discussion
below, the Commission determines that, in order to
avoid a double recovery of investor-level tax costs,
SFPP should not receive an income tax allowance.
A.

Background
1.

The DCF Methodology

11.
The Commission’s cost-of-service ratemaking
methodology uses the DCF model to determine the
ROE that a regulated entity may recover in rates. The

18

26 U.S.C. § 7704.

Composition of Proxy Groups for Determining Gas and Oil
Pipeline Return on Equity, 123 FERC ¶ 61,048, at P 14 (2008).

19

174a
DCF methodology estimates the return required by
investors in order to invest in the pipeline whose rates
are at issue. 20 The DCF model considers the range of
returns that the market provides investors in a proxy
group of publicly-traded entities with similar risk
profiles. 21 For each member of the proxy group, the
required rate of return is estimated to equal investors’
current dividend yield – dividends (or in the case of
MLPs, distributions) divided by stock (or unit) price –
plus the projected future growth rate of dividends (or
distributions), such that k = D/P + g. In the DCF
formula, P is the six-month average price of the stock
(or units) over the relevant test period, D is the current
dividend (or distribution), k is the investors’ required
rate of return, and g is the expected growth rate in
dividends (or distributions). Based typically upon the
median of the range of returns in the proxy group, the
Commission determines the regulated entity’s allowed
ROE.

20 Coakley, Mass. Attorney Gen. v. Bangor Hydro-Elec. Co.,
Opinion No. 531, 147 FERC ¶ 61,234, at P 14 (2014).

See Canadian Ass’n of Petroleum Producers v. FERC, 254 F.3d
289, 293-294 (D.C. Cir. 2001).
21

175a
2.

The Commission’s 2005 Income Tax
Allowance Policy

12.
The Commission’s 2005 Income Tax Policy
Statement 22 adopted a policy allowing partnerships,
including MLP pipelines, to recover an income tax
allowance for the partners’ income tax costs 23 much
like a corporation receives an income tax allowance for
its corporate income tax costs. The 2005 Income Tax
Policy Statement reasoned that while partnerships do
not pay income taxes, the partners incur an income tax
liability on the partnership income. Accordingly, the
Commission determined that those investor-level
income tax costs should be attributed to the regulated
entity and included in a pipeline’s cost of service. 24 In

22 Policy Statement Income Tax Allowances, 111 FERC ¶ 61,139
(2005) (2005 Income Tax Policy Statement). The 2005 Income Tax
Policy Statement issued in response to a D.C. Circuit remand
regarding the Commission’s then-existing policy of affording
regulated partnership entities an income tax allowance for income
attributable to interests held by corporations, but not for income
attributable to interests held by individuals. BP West Coast
Products, LLC v. FERC, 374 F.3d 1263 (2004).

The Commission’s policy permits an income tax allowance,
provided that the owners can show an actual or potential income
tax liability to be paid on income from the regulated assets. 2005
Income Tax Policy Statement, 111 FERC ¶ 61,139 at P 32.

23

24

Id. P 34.

176a
ExxonMobil, 25 the D.C. Circuit held that the
Commission provided a sufficient rationale for
affording partnership pipelines an income tax
allowance. 26
3.

Commission Proceedings

13.
In SFPP’s 2008 West Line rate case, the Initial
Decision applied the 2005 Income Tax Policy
Statement to permit SFPP to include an income tax
allowance in its rates. 27 In briefs on exceptions and
requests for rehearing, shipper-parties argued that a
double recovery results from granting SFPP both a
DCF ROE and an income tax allowance. Shippers
emphasized that whereas a corporation pays the
corporate income tax prior to the distribution of
dividends to investors, an MLP is a pass-through
entity and the MLP’s only income tax liability is paid
directly by the partners themselves. Because the MLP
partners must pay the income taxes themselves, the
shippers explained that in order to attract capital in
the market, an MLP must provide a market return
(i.e., a DCF return) that allows investors (a) to earn
their required after-tax rate of return and (b) to pay

25

ExxonMobil Oil Corp. v. FERC, 487 F.3d 945 (D.C. Cir. 2007).

26

Id. at 952-954.

27

Initial Decision, 129 FERC ¶ 63,020 at PP 662-666, 670.

177a
the investors’ income tax liability. The shippers
asserted that because the DCF return must include
sufficient funds to pay investor income taxes,
permitting SFPP to recover both a DCF ROE and an
income tax allowance in its cost of service results in a
double recovery.
14.
In Opinion Nos. 511 and 511-A, the Commission
rejected the shippers’ double recovery argument. The
Commission stated that because Commission policy
imputes the partners’ income taxes to the partnership
entity, the partners’ income taxes are not investorlevel taxes. Accordingly, the Commission explained
that the DCF ROE determines an after-tax return. 28
The Commission further asserted that the
Commission’s rate design methodology does not “gross
up” the after-tax DCF ROE to achieve a pre-tax ROE
that would include investor income taxes. 29
4.

United Airlines

15.
Shippers appealed the Commission’s decision.
As an initial matter, the D.C. Circuit rejected the
Commission’s argument that Shippers’ challenge was
an impermissible collateral attack on the D.C. Circuit’s

28 Opinion No. 511, 134 FERC ¶ 61,121 at PP 228, 240, 250;
Opinion No. 511-A, 137 FERC ¶ 61,220 at PP 280, 339-340.
29

Opinion No. 511-A, 137 FERC ¶ 61,220 at P 295.

178a
prior affirmation in ExxonMobil of the income tax
policy. The D.C. Circuit found that ExxonMobil
“reserved the issue of whether the combination of the
[DCF ROE] and the tax allowance results in double
recovery of taxes for partnership pipelines.” 30
16.
As to the merits, the D.C. Circuit agreed with
Shippers and held that the Commission failed to
demonstrate that there is no double recovery of taxes
for partnership pipelines that receive both an income
tax allowance and the DCF ROE. 31 Due to the double
recovery, the D.C. Circuit also concluded that the
Commission was not providing parity between returns
to corporate owners (which do not include such a
double recovery) and returns to partnership owners
(which include the double recovery). In support of
these findings, the D.C. Circuit found that, “unlike a
corporate pipeline, a partnership pipeline incurs no
taxes, except those imputed from its partners, at the
entity level,” and “the [DCF ROE] determines the pretax investor return required to attract investment,
irrespective of whether the regulated entity is a
partnership or a corporate pipeline.” 32

30

United Airlines, 827 F.3d at 134.

31

Id. at 136.

32

Id. The D.C. Circuit relied on Opinion No. 511, 134 FERC ¶

179a
17.
The D.C. Circuit also rejected the Commission’s
arguments that for a partnership pipeline no double
recovery exists because the Commission does not
adjust, or “gross-up,” partnership ROE to cover the
income taxes that must be paid to obtain its after-tax
return. 33 Even without such a gross-up, a double
recovery remained given the United Airlines finding
that the DCF ROE is a “pre-tax investor return.” 34 The
D.C. Circuit also rejected the Commission’s argument

61,121 at PP 243-244, which included the following example:
The investor desires a 6 percent after-tax return and
has a 25 percent marginal tax rate. Thus, the security
must have an ROE of 8 percent to achieve an after-tax
yield of 6 percent. Assume that the distribution or
dividend is $8. The investor will price the security at
$100. Conversely, if the security price is $100 and the
yield is $8, the Commission determines that the
required return is 8 percent. If the dollar distribution
increases to $10, the investor will price the security at
$125 because $10 is 8 percent of $125. The Commission
would note that the security price is $125 and that the
yield is $10, or a return of 8 percent. If the distribution
is $6, the security price will drop to $75, a return of 8
percent. The Commission would observe a $75 dollar
security price, a $6 yield, and a return of 8 percent. In
all cases the ROE is 8 percent and the after-tax return
is 6 percent based on the market-established return.
33

Id.

34

Id.

180a
that any disparity in returns is justified by the
Internal Revenue Code. 35
18.
The D.C. Circuit remanded the decisions to the
Commission to consider “mechanisms for which the
Commission can demonstrate that there is no double
recovery.” 36 The D.C. Circuit further explained that
“[e]ven if FERC elects to impute partner taxes to the
partnership pipeline entity, it must still ensure parity
between equity owners in partnership and corporate
pipelines.” 37
5.

Pleadings on Remand

19.
In comments on remand, SFPP asserts that “the
Court erred” when holding that a double recovery
results from including both a DCF ROE and an income
tax allowance in SFPP’s cost of service. 38 SFPP further
argues that the Commission’s current policy of

35

Id.

Id. at 137. The D.C. Circuit also noted that the Commission
“might be able to remove any duplicative tax recovery for
partnership pipelines directly from the [DCF ROE]” and that the
Commission had in the past considered “eliminating all income
tax allowances and setting rates based on pre-tax returns.” Id.

36

37

Id.

38

SFPP Comments on Remand at 5.

181a
affording MLPs an income tax allowance preserves the
investment incentive created by Congress in the tax
code. 39 While SFPP argues for the preservation of an
income tax allowance for partnership pipelines, SFPP
requests a paper hearing regarding whether any
adjustment is appropriate to the ROE of a tax passthrough entity that includes an income tax allowance
in its cost of service. 40
20.
Shippers’ comments defend United Airlines’
holdings and argue that on remand the Commission
should eliminate the income tax allowance from
SFPP’s cost of service. 41
B.

Discussion

21.
The Commission implements the United
Airlines remand by removing the income tax allowance
from SFPP’s cost of service. This action (a) remedies
the double recovery identified by the court in its United
Airlines remand, (b) restores parity between SFPP (an
MLP partnership) and corporate investment forms, (c)
is consistent with Congressional intent, and (d)
provides SFPP with a sufficient return via the DCF

39

SFPP Supplemental Comments on Remand at 8-12.

40

SFPP Comments on Remand at 12.

41

Shippers Comments on Remand at 8-10.

182a
ROE. SFPP’s request for additional paper hearing
procedures is rejected as discussed below.
1.

Granting the SFPP Partnership an
Income Tax Allowance Results in a
Double Recovery

22.
Consistent
with
United
Airlines,
the
Commission finds that a double recovery results from
granting an MLP such as SFPP an income tax
allowance and a DCF ROE. 42 This finding is based
upon the following:


MLPs and similar pass-through entities do not
incur income taxes at the entity level. 43 Instead,
the partners are individually responsible for
paying taxes on their allocated share of the
partnership’s taxable income. 44

The D.C. Circuit discussed these issues in terms of partnerships
generally.
While all partnerships seeking an income tax
allowance will need to address United Airlines’ double recovery
concerns, this holding pertains to SFPP, which was organized as
an MLP at the time of this litigation.

42

43

United Airlines, 827 F.3d at 136.

2005 Income Tax Policy Statement, 111 FERC ¶ 61,139 at P 33;
see also ExxonMobil, 487 F.3d at 954 (noting that “investors in a
limited partnership are required to pay tax on their distributive

44

183a


The DCF methodology estimates the returns a
regulated entity must provide to investors in order
to attract capital. 45



To attract capital, entities in the market must
provide investors a pre-tax return, i.e., a return
that covers investor-level taxes and leaves
sufficient remaining income to earn investors’
required after-tax return. 46
In other words,
because investors must pay taxes from any
earnings received from the partnership, the DCF
return must be sufficient both to cover the
investor’s tax costs and to provide the investor a
sufficient after-tax ROE.

shares of the partnership income, even if they do not receive a
cash distribution”). In contrast, corporations pay entity-level
income taxes, and corporate dividends are second tier income to a
common stock investor, not analogous to partnership
distributions.
45

See supra P 11.

Kern River Transmission Co., Opinion No. 486-B, 126 FERC ¶
61,034, at P 114 (2009) (“investors invest on the basis of after-tax
returns and price an instrument accordingly”).
46

184a


The DCF methodology “determines the pre-tax
investor return required to attract investment.” 47

Given that the DCF return is a “pre-tax investor
return,” permitting SFPP to recover both an income
tax allowance and a DCF ROE would lead to a double
recovery of its income tax costs. 48
23.
SFPP’s arguments to the contrary are
unavailing. The Commission rejects SFPP’s argument
that the D.C. Circuit “erred” in finding a double
recovery.
SFPP specifically challenges the D.C.
Circuit’s statement that “with a tax allowance, a
partner in a partnership pipeline will receive a higher
after-tax return than a shareholder in a corporate
pipeline, at least in the short term before adjustments
SFPP
can occur in the investment market.” 49

47

United Airlines, 827 F.3d at 136 (emphasis added).

SFPP’s DCF ROE is based upon a proxy group of 7 MLPs.
Initial Decision, 129 FERC ¶ 63,020 at PP 365, 651-657; Opinion
No. 511, 134 FERC ¶ 61,121 at PP 199, 203. For the reasons
discussed above, each of these MLPs must provide a return that
covers investor-level taxes and leaves sufficient remaining income
to earn investors’ required after-tax return. If, in addition to this
DCF ROE SFPP receives an income tax allowance, it will doublerecover its tax costs.
48

SFPP Comments on Remand at 6 (quoting United Airlines, 827
F.3d at 136). In other words, the D.C. Circuit found that while

49

185a
essentially argues that there is no “short term” because
(pursuant to the efficient market hypothesis) the
market immediately increases the price of partnership
units in response to the cash flow from an income tax
allowance, thereby maintaining the same rate of
return as if there was no income tax allowance. 50
24.
The Commission rejects such claims. As an
initial matter, this argument is a direct challenge to a
finding by the D.C. Circuit notwithstanding the fact
that SFPP failed to appeal the United Airlines
decision. Second, SFPP’s argument distracts from the
fundamental concern.
This proceeding involves
whether an income tax allowance should be included
in SFPP’s cost of service, not the post-rate case effects
upon the unit price of SFPP’s parent MLP. Regarding
SFPP’s cost of service, SFPP’s DCF ROE is based upon
a proxy group of other MLPs, all of which must provide
investors with sufficient pre-tax investor returns to
attract capital. 51 Permitting SFPP to recover both the

unit prices rose to account for the increased cash flows and
distributions resulting from the income tax allowance, the
pipeline would earn a higher percentage return.
SFPP Comments on Remand at 5-7; SFFP Supplemental
Comments on Remand at 11.
50

SFPP appears to concede as much on remand. SFPP
Supplemental Comments on Remand, Table 1, Column C shows

51

186a
DCF pre-investor tax return and an income tax
allowance for the investor-level tax costs leads to a
double recovery. Whether or not the double recovery
manifests itself in a “short term” higher percentage
return or an “instantaneously” inflated unit price, the
impermissible double recovery in SFPP’s cost of service
remains. 52

that an MLP recovering both an income tax allowance and a DCF
ROE earns the same 6.5 percent investor after-tax return as an
MLP without an income tax allowance in Column D. While the
table does not show the investors’ pre-tax returns, since both
pipelines were subject to a 35 percent investor-level tax, both
must have earned a 10 percent pre-tax investor return. Thus, in
SFPP’s own example, the cost-of-service double recovery of income
tax costs of the pipeline in Column C inflated the unit price until
it earned the same pre-tax return as the pipeline without an
income tax allowance in Column D.
While an inflated cost of service will likely increase
distributions to investors and potentially cause a pipeline’s unit
price to rise, such benefits to a pipeline’s unitholders do not render
the double recovery permissible. Under SFPP’s theory, the
Commission could increase SFPP’s cost of service by allowing
SFPP to incorporate duplicative costs, yet SFPP appears to claim
that because its parent’s unit price would subsequently rise, the
inclusion of duplicative costs in SFPP’s cost of service is not unjust
or unreasonable. This argument is without merit.
52

187a
2.

Eliminating the Duplicative Income
Tax Allowance for SFPP Restores
Parity between Corporations and
Partnerships

25.
Denying SFPP a duplicative income tax
allowance also restores the parity between the rate
treatment of MLPs (such as SFPP) and corporations by
ensuring that neither double-recover tax costs. As
discussed above, permitting SFPP to recover an income
tax allowance leads to a double recovery. In contrast,
no double recovery results when a corporation’s cost of
service includes an income tax allowance. Because the
corporate income tax is not an investor-level tax, the
corporate income tax is not reflected in the investor’s
DCF return. 53
3.

Congressional Intent Does Not
Justify Permitting SFPP to Maintain
This Double Recovery

26.
While SFPP denies the existence of a double
recovery, SFPP also concedes that MLPs with an
income tax allowance receive greater cash flows than

No double recovery results when a corporate pipeline’s cost of
service includes an income tax allowance because this so-called
“first tier” corporate income tax is paid directly by the corporation,
rather than by shareholders from the dividends used in the DCF
methodology.
53

188a
corporations. 54
SFPP claims that denying
partnerships an income tax allowance would eliminate
the tax benefit Congress intended to provide to passthrough entities in section 7704 of the Internal
Revenue Code (IRC). 55 As the D.C. Circuit observed,
such arguments engage “in a form of Orwellian
doublethink” that simultaneously denies that a double
recovery exists (see SFPP’s argument above) while
attributing this disparity in returns to the IRC. 56
Moreover, the D.C. Circuit has twice rejected the
argument that Congress’ intent in section 7704
provides an independent basis for upholding a full
income tax allowance for partnerships. Prior to United
Airlines, the D.C. Circuit stated that “[t]he mandate of
Congress in the tax amendment was exhausted when
the pipeline limited partnership was exempted from
corporate taxation. It did not empower FERC to do

54

SFPP Supplemental Comments on Remand at 8.

55

26 U.S.C. § 7704.

The Commission further emphasizes that the D.C. Circuit on
remand has instructed the Commission to consider “mechanisms
for which the Commission can demonstrate that there is no double
recovery.” United Airlines, 827 F.3d at 137. SFPP’s attempt to
justify affording an income tax allowance on the basis that the
Commission is implementing Congress’ intent does not address
the remand’s mandate to resolve the double recovery issue.
56

189a
anything….” 57 Likewise, in United Airlines the D.C.
Circuit rejected the argument that “any disparate
treatment between partners in partnership pipelines
and shareholders in corporate pipelines is the result of
the [IRC], not FERC’s tax allowance policy.” 58
27.
In addition to being contrary to two previous
D.C. Circuit holdings, SFPP’s argument is
unsubstantiated. Contrary to SFPP’s arguments on
remand, 59 when the D.C. Circuit issued these
decisions, it was fully aware that Congress designed
the MLP business form to reduce the tax burden on
energy related activities (including transportation via
an oil pipeline such as SFPP). 60 Moreover, SFPP
provides no evidence that Congress intended the
Commission’s income tax allowance policy to provide a
necessary component of the advantages conferred in

57

BP West Coast, 374 F.3d at 1293.

58 United Airlines, 827 F.3d at 136; see also Opinion No. 511, 134
FERC ¶ 61,121 at PP 253-258, 262; Opinion No. 511-A, 137 FERC
¶ 61,220 at PP 342-353; Federal Energy Regulatory Commission
and United States of America, Brief for Respondents, Case No. 111479, at 29-30 (D.C. Cir., filed Feb. 5, 2016).
59

SFPP Supplemental Comments on Remand at 8.

Federal Energy Regulatory Commission and United States of
America, Brief for Respondents, Case No. 11-1479, at 30 (D.C.
Cir., filed Feb. 5, 2016).
60

190a
section 7704.
Congress did not provide explicit
instructions to federal agencies regarding how to
address section 7704’s tax treatment in setting
regulated entity rates as, for instance, it did in the
Revenue Act of 1964. 61
Instead, the statutory
62
As the D.C. Circuit has twice
language is silent.
already concluded, there is no basis for SFPP’s
argument that Congress implicitly intended to limit
the Commission’s discretion in carrying out its
statutory rate setting obligations. 63

The Revenue Act of 1964 established an investment tax credit
and explicitly provided in the statute that federal agencies could
not use the credit as a basis to reduce a regulated entity’s income
taxes for its cost of service and rates. See Alabama-Tennessee
Natural Gas Co. v. FPC, 359 F.2d 318, 333 (5th Cir. 1966) (“In the
Revenue Acts of 1962 and 1964 Congress demonstrated that when
it desires a tax statute to restrict the ratemaking authority of
federal regulatory agencies it does so in precise language.”).

61

Moreover, contrary to SFPP’s arguments on remand, when the
D.C. Circuit issued its decisions in BP West Coast and United
Airlines, it was fully aware that Congress designed the MLP
business form to reduce the tax burden on energy related
activities (including transportation via an oil pipeline such as
SFPP). Federal Energy Regulatory Commission and United
States of America, Brief for Respondents, Case No. 11-1479, at
30 (D.C. Cir., filed Feb. 5, 2016).
62

63 See Alabama-Tennessee Natural Gas Co. v. FPC, 359 F.2d at
335 (“It is unlikely to suppose that Congress amended the Natural
Gas Act by a reference in the [IRC]; it is unreasonable to read

191a
4.

The tax costs of partnership
investors
are
not
properly
attributed
to
the
regulated
partnership entity

28.
Accordingly, the Commission denies SFPP’s
income tax allowance and denies SFPP’s request for
further paper hearing procedures. Removing the
income tax allowance eliminates the double recovery
identified by the court in United Airlines. In light of
the Commission’s finding that the DCF methodology
determines ROE based on the before-tax return
demanded by market investors, there is no basis for
imputing the partners’ income tax costs to SFPP’s cost
of service. 64 In light of these findings, and consistent

Section 167 [of the IRC] as a mandate reducing the Commission’s
responsibility to fix fair rates according to its usual ratemaking
policies in favor of the consumer”); see also Cheney R. Co., Inc. v.
ICC, 902 F.2d 66, 69 (D.C. Cir. 1990) (“in an administrative
setting, … Congress is presumed to have left to reasonable agency
discretion questions that it has not directly resolved”).
As discussed above, the United Airlines opinion spoke generally
in terms of partnerships, not just an MLP such as SFPP. While
all partnerships seeking an income tax allowance in a cost-ofservice rate case will need to address the United Airlines double
recovery concerns, this holding addresses the circumstances of an
MLP such as SFPP. United Airlines expressly did not overturn
ExxonMobil, meaning that there may be circumstances in which
64

192a
with the D.C. Circuit’s remand, the Commission
revises its prior policy 65 that an income tax allowance
may be recovered in the rates of an MLP such as SFPP.
29.
There is no evidence that the pre-investor tax
DCF ROE will fail to provide SFPP with sufficient
returns. The DCF ROE by itself provides the pipeline
with a return commensurate with investments of
corresponding risk and sufficient to attract capital,
thereby satisfying the Supreme Court’s standard in
Hope. 66 SFPP’s proxy group (a) consists solely of
entities of like risk selected pursuant to Commission
policy and (b) contains other MLPs whose investors
also incur partner-level tax costs. As discussed above,
this return addresses investor tax costs while

a partnership could justify imputing an income tax allowance to
its cost of service. United Airlines, 827 F.3d at 134. However,
those circumstances (whatever they may be), do not exist for an
MLP such as SFPP.
65

2005 Income Tax Policy Statement, 111 FERC ¶ 61,139.

Fed. Power Comm’n v. Hope Natural Gas Co., 320 U.S. 591, 603
(1944) (“[T]he return to the equity owner should be commensurate
with the return on investments in other enterprises having
corresponding risks.”).

66

193a
providing sufficient after-tax investor earnings to
attract investment. 67
30.
The Commission also denies SFPP’s request for
a paper hearing.
Because the Commission is
eliminating the income tax allowance, there is no need
to consider offsetting adjustments to the DCF ROE as
proposed by SFPP. This proceeding has included an
exhaustive record developed in nearly a decade of
litigation, and the Commission has considered two
separate filings by SFPP following the remand. There
is no reason for further delay.
III.

ROE Data Period

31.
In United Airlines, the D.C. Circuit also
remanded issues related to the determination of
SFPP’s ROE. Specifically, the D.C. Circuit determined

While investor-level costs affect investment decisions, such
costs are not included in a line item in the cost of service. For
example, SFPP’s ultimate investors incur bookkeeping costs
associated with any investment and the Commission does not
include these bookkeeping costs in the cost of service. It is not
clear why SFPP’s investors’ tax costs should be treated
differently. See BP West Coast, 374 F.3d at 1291. Based upon the
United Airlines reasoning, all of these costs should be adequately
addressed by the DCF ROE – an investor will not make an
investment unless the returns are sufficient to (a) cover the
investor’s costs and (b) allow the investor to retain a sufficient
return notwithstanding those costs.
67

194a
that while Opinion Nos. 511 and 511-A may have
selected a reasonable nominal ROE of 12.63 percent,
those orders failed to justify selecting an inflationary
component of ROE of 4.64 percent and a resulting real
ROE of 7.69 percent. 68
32.
On remand, as discussed below, the
Commission will permit SFPP’s cost of service to
reflect a nominal ROE of 12.63 percent, an inflationary
component of 2.39 percent, and a real ROE of 10.24
percent.
A.

Background
1.

Trended
Methodology

Original

Cost

33.
Using the methodology described above, the
Commission’s DCF ROE methodology determines a
nominal ROE. 69 Under the Commission’s oil pipeline

68

United Airlines, 827 F.3d at 130-131.

As described in the prior section, the DCF estimates the
investor’s required return based upon a proxy group of entities
with similar risks. The investor’s return is then used to determine
the pipeline’s required return. For each member of the proxy
group, the DCF estimates the required return based upon the
current dividend yield – dividends (or in the case of MLPs,
distributions) divided by stock (or unit) price – plus the projected
future growth rate of dividends, such that k = D/P + g.
69

195a
trended original cost methodology, the nominal ROE is
then divided into (a) an inflationary component and (b)
a real ROE (calculated by subtracting the inflationary
component from the nominal ROE). The real ROE
times the equity share of the rate base yields the
pipeline’s yearly allowed equity return in dollars. The
inflation factor times the equity rate base yields the
equity rate base write-up, which is written-off or
amortized over the life of the property. 70
2.

Data Period for Determining the
ROE

34.
The Commission’s DCF methodology for
determining a pipeline’s ROE provides an exception to
the Commission’s typical test year approach. In
general, the Commission uses a test period
methodology for cost-of-service ratemaking. The test
period consists of a 12-month base period of actual
experience “adjusted for changes in revenues and costs
which are known and measurable with reasonable
accuracy at the time of filing and which will become
effective within nine months after the last month” of
the base period. 71 In this proceeding, the base period
consists of the calendar year 2007 (January 1, 2007
70 Williams Pipe Line Co., Opinion No. 154-B, 31 FERC ¶ 61,377,
at 61,834 (1985).
71

18 C.F.R. § 346.2(a) (2017).

196a
to December 31, 2007) and an adjustment period of the
first nine months of 2008 (January 1, 2008 through
September 30, 2008). 72
35.
However, in contrast, the Commission’s ROE
(including the nominal ROE, inflation factor and real
ROE) determinations generally use the most recent
data in the record, even if such data is outside the test
period “because the market is always changing and
later figures more accurately reflect current investor
Commission policy also provides that
needs.” 73
“updates are not permitted once the record has been

United Airlines, 827 F.3d 122 at 129 (citing Opinion No. 511,
134 FERC
¶ 61,121 at P 8).
72

Portland Natural Gas Transmission System, Opinion No. 510,
134 FERC
¶ 61,129, at P 242 (2011) (quoting Trunkline Gas
Co., 90 FERC ¶ 61,017, at 61,117 (2000) (citing Panhandle
Eastern Pipe Line Co., 74 FERC ¶ 61,109, at 61,363 (1996) (citing
Boston Edison Co. v. FERC, 885 F.2d 962, 966 (1st Cir. 1989))).
73

197a
closed and the hearing has concluded.” 74 In this case,
the record closed on June 26, 2009. 75
3.

Commission Proceedings

36.
SFPP presented the following ROE studies into
the record:
Data Period
Six-month period
ending September
2008 (April –
September 2008) 76

Nominal Real Inflation
ROE
ROE prior 12
months
12.63
7.69 4.94

Portland Natural Gas Transmission System, Opinion No. 510,
134 FERC
¶ 61,129 at P 242 (citing Enbridge Pipelines (KPC),
100 FERC ¶ 61,260, at PP 379-386 (2002), reh’g denied, 102 FERC
¶ 61,310 (2003)); Portland Natural Gas Transmission System,
Opinion No. 510-A, 142 FERC ¶ 61,198, at 62,063 (2013) (the
Commission’s longstanding policy is “to use the most current
record data available but to exclude post-hearing data”).
74

75

Initial Decision, 129 FERC ¶ 63,020 at P 579.

76 For purposes of this order, this period is referred to as the
September 2008 data period. The direct testimony submitted by
SFPP’s expert, Dr. J. Peter Williamson, determined a nominal
ROE of 13.01 percent with 5.37 percent inflation and a real ROE
of 7.64 percent. Ex. SFP-1; SFP-5 at 9. On April 25, 2011, SFPP

198a
Six-month period
14.33
ending January
2009 (August 2008 –
January 2009) 77
Six-month period
14.09
ending April 2009
(November 2008 –
April 2009) 78

14.30 0.03

14.83 -0.74

37.
In Opinion No. 511, the Commission upheld the
Initial Decision’s determination to adopt the

filed its compliance filing implementing Opinion No. 511, which
recalculated the ROE figures for the September 2008 period
consistent with the Commission’s rulings. SFPP Compliance
Filing Implementing Opinion No. 511 at 4 and Schedule 10 (April
25, 2011); see also, SFPP Compliance Filing Implementing
Opinion No. 511-B at Schedule 10, page 6 (April 6, 2015).
77 For purposes of this order, this period is referred to as the
January 2009 data period. Exs. SFP-75; SFP-76. If the January
2009 ROE figures were recalculated consistent with the
Commission’s ruling to remove Enterprise Products Partners,
L.P. from the proxy group (Opinion No. 511, 134 FERC ¶ 61,121
at P 199), the nominal ROE would be 14.14 and real ROE would
be 14.11.

For purposes of this order, this period is referred to as the April
2009 data period. Ex. SFP-323. If the January 2009 ROE figures
were recalculated consistent with the Commission’s ruling to
remove Enterprise Products Partners, L.P. from the proxy group,
the nominal ROE would be 13.94 and real ROE would be 14.68.

78

199a
September 2008 nominal ROE, inflation factor, and
real ROE. The Commission rejected SFPP’s proposed
use of April 2009 data for all three ROE components.
The Commission acknowledged that its general policy
is to use the most recent data, which in this case would
be the April 2009 data. However, the Commission held
that the April 2009 data was not representative of
SFPP’s long-term equity cost of capital.
The
Commission explained that the increase in the real
ROE from October 2008 to January and April 2009
“reflects the collapse of the stock market in late 2008
and early 2009 and the use of a negative inflation rate
in calculating SFPP’s ROE.” 79
The Commission
elaborated that “SFPP’s proposed West Line rates in
this proceeding will be in effect indefinitely into the
future” and “[n]either the collapse of the stock prices
(which increased the dividend yield used in the DCF
calculation) nor the minimal or negative inflation rate
(which establishes the real rather than the nominal
cost of capital) would have so continued.” 80 For
comparison purposes, 81 the Commission also

79

Opinion No. 511, 134 FERC ¶ 61,121 at P 209.

80

Id.

Because this data was not available at the time the hearing
record closed in June 2009, it was not used by Opinion No. 511 to
determine the DCF ROE. Rather, Opinion No. 511 used this data
for comparison purposes only.
81

200a
considered subsequent DCF ROE data developed in a
separate rate case involving SFPP’s East Line: 82
Data Period
Six-month period
ending February
2010 (September
2009 – February
2010) 83
Six-month period
ending March 2010
(October 2009 –
March 2010) 84

Nominal Real Inflation
ROE
ROE prior 12
months
11.24
9.09 2.14

11.03

8.72

2.31

The Commission observed that elevated January 2009
and April 2009 real ROEs did not persist into 2010.
38.
On April 11, 2011, SFPP requested rehearing of
Opinion No. 511, arguing that the Commission erred

82 Id. P 209, n. 339 (referring to FERC Docket No. IS09-437-000,
Ex. SPE-108).
83 For purposes of this order, this period is referred to as the
February 2010 data period.

For purposes of this order, this period is referred to as the
March 2010 data period.
84

201a
in rejecting the most recent data in the record, the
April 2009 ROE. While SFPP continued to advocate
for the April 2009 nominal ROE, SFPP acknowledged
that the nominal ROE for the September 2008 period
was itself consistent with historical patterns. 85 SFPP
objected to the relatively high September 2008 data
period’s inflation factor of 4.94 percent and the
resulting real ROE of 7.69. 86 Whether or not the
Commission used the April 2009 nominal ROE or the
September 2008 nominal ROE, SFPP urged the
Commission to calculate the inflation factor and the
real ROE based upon an average inflation factor based
on the approximately two and a half year period during
which the rates in this proceeding had been in effect
(August 2008 through February 2011), which is 1.11
percent. 87
39.
In Opinion No. 511-A, the Commission denied
rehearing and continued to determine the real ROE
based upon the September 2008 period nominal ROE

85

SFPP, Request for Rehearing at 11-12 (April 11, 2011).

86

Id.

87

Id. at 14-15.

202a
and the September 2008 period inflation factor of 4.94
percent. 88
4.

United Airlines

40.
On appeal, SFPP argued that the Commission
acted arbitrarily and capriciously in departing from its
policy to use the most recent ROE data in the record
(here, April 2009 data) and adopting the September
2008 data without providing any basis for finding that
such data represents a reasonable forecast of SFPP’s
future cost of service. 89 In its reply brief, SFPP
clarified that it did not dispute that the nominal ROE
for the September 2008 period reasonably represents
SFPP’s cost of capital. 90 However, SFPP argued that
the inflation component and thus the real ROE for the
September 2008 period are not representative. 91
41.
The D.C. Circuit concluded that the
Commission did not justify determining the ROE

88

Opinion No. 511-A, 137 FERC ¶ 61,220 at PP 256-259.

89 SFPP, Brief of Petitioner, Case No. 11-1479, at 19-20, 22-25
(D.C. Cir., filed Feb. 5, 2016).
90 SFPP, Reply Brief of Petitioner, Case No. 11-1479, at 4-5 (D.C.
Cir., filed Feb. 5, 2016) (citing Exs. SFP-4 and SFP-5).
91

Id.

203a
based upon September 2008 data. The D.C. Circuit
explained that “there may be evidence to support the
conclusion that the nominal [ROE] for September 2008
was in line with historical trends.” 92 However, the
D.C. Circuit held that the Commission did not provide
a reasoned explanation for adopting the real ROE of
7.69 from the September 2008 period (i.e., the
September 2008 nominal ROE minus the September
2008 inflation of 4.94 percent). 93 The D.C. Circuit
stated that the Commission “provides only a cursory
comparison of real [ROEs] from the September 2008
through the March 2010 time periods, and otherwise
appears to have chosen the smallest real [ROE] from
the data available.” 94
42.
While remanding the use of September 2008
data back to the Commission, the D.C. Circuit also
concluded that “it was reasonable for FERC to conclude
92

United Airlines, 827 F.3d at 130.

93 Id. at 131 (“FERC engaged in arbitrary-or-capricious decisionmaking by adopting the September 2008 real return on equity
without reasoned explanation”); see also id. at 130 (the
Commission’s “evidence does not show that the real return on
equity for [the September 2008] time period was representative of
SFPP’s costs”).

Id. at 130-131. The D.C. Circuit found it need not reach SFPP’s
alternative argument regarding its proposed average inflation
factor for determining real ROE. Id. at 131.

94

204a
that the April 2009 data was not representative of
SFPP’s long-term cost of capital.” 95 The D.C. Circuit
rejected SFPP’s argument that the Commission has a
bright-line policy of relying on the most recent data to
determine ROE, explaining that “the Commission
‘seeks to find the most representative figures on which
to base rates.’” 96
5.

Pleadings on Remand

43.
SFPP argues in its comments on remand that
the Commission can evaluate data on inflation and
real ROE from both before and after SFPP filed its
transportation rates to arrive at a representative
return. 97 SFPP requests a paper hearing on the issue
of “the just and reasonable real [ROE] to be provided
to SFPP.” 98
44.
Shippers oppose additional proceedings,
arguing that the existing record provides ample

95

Id. at 130.

Id. (quoting Trunkline Gas Co., Opinion No. 441, 90 FERC ¶
61,017, at 61,049 (2000) (emphasis added by the D.C. Circuit)).

96

97

SFPP Comments on Remand at 2, 11.

98

Id. at 12.

205a
information for the Commission to reach a decision. 99
Shippers continue to argue that the September 2008
nominal ROE, inflation, and real ROE should be used
to calculate SFPP’s rates, given the more recent data
has been found to be anomalous. 100
45.
In supplemental post remand comments, SFPP
newly proposes to determine the real ROE based upon
the 12.63 percent September 2008 nominal ROE minus
an inflation factor calculated using the annual 12month inflation factors for 2007 and 2008. SFPP
explains that 2007 and 2008 incorporate the full
January 1, 2007 – September 30, 2008 test period.
This would lead to an inflation factor of 2.09 percent
and a real ROE of 10.54 percent. 101
B.

Discussion

46.
As discussed below, the Commission will
continue to determine SFPP’s cost of service using the
September 2008 nominal ROE of 12.63 percent.
However, following United Airlines, the Commission
will use an inflation factor of 2.39 percent, calculated
using an annualized average of monthly inflation from

99

Shippers Comments on Remand at 11-12.

100

Id. at 13-14.

101

SFPP Supplemental Comments on Remand at 16-17.

206a
January 2007 through April 2009. Subtracting the
2.39 percent inflation factor from the nominal ROE of
12.63 leads to a real ROE of 10.24 percent.
47.
The Commission affirms the inclusion in
SFPP’s cost of service of the 12.63 percent nominal
ROE from September 2008. The D.C. Circuit did not
dispute that the 12.63 percent nominal ROE was
generally consistent with historical trends, and, on
remand, neither SFPP nor Shippers challenge the
reasonableness of the 12.63 percent nominal ROE. 102
The Commission also notes that the court affirmed the
Commission’s prior rejection of the only two
alternative nominal ROEs in the record (January 2009
and April 2009). 103 The Commission continues to find
that the 12.63 September 2008 nominal ROE figure is
a representative figure on which to determine SFPP’s
rates. 104

SFPP Supplemental Comments on Remand at 14-18; Shippers
Comments on Remand at 12-14; see also SFPP, Request for
Rehearing at 11-12 (April 11, 2011). As discussed extensively in
Opinion Nos. 511 and 511-A, the decision to use the September
2008 data resulted from extraordinary economic circumstances.
The Commission emphasizes that its general policy remains to
use the most recent nominal ROE data in the record.
102

103

United Airlines, 827 F.3d 122 at 128.

104

See Opinion No. 511, 134 FERC ¶ 61,121 at P 209.

207a
48.
However, on remand, the Commission also
concludes that the September 2008 4.94 percent
inflation and the resulting 7.69 real ROE 105 are not
“representative of the conditions likely to happen while
the rate is in effect.” 106 Immediately after September
2008, inflation decreased significantly, 107 and, as the
D.C. Circuit observed, remained between 2.14 and 2.31
percent in early 2010. 108 Particularly given that the
September 2008 4.94 percent inflation was high by
historical standards, 109 there is no basis to conclude

105

This is the nominal ROE of 12.63 minus inflation of 4.94.

106

Opinion No. 511-A, 137 FERC ¶ 61,220 at P 258.

Annualized monthly inflation dropped by 9.82 percent from
September to October 2008 to negative 11.47, and dropped again
by 9.24 percent to negative 20.71 percent in November 2008. Ex.
SFP-323 at 42.
107

For comparison purposes, the DCF ROE 2010 data from
SFPP’s East Line rate case in Docket No. IS09-437 that the
Commission considered in Opinion No. 511 reflects inflation
figures of 2.14 and 2.31 for the six-month periods ending in
February and March, respectively. Opinion No. 511, 134 FERC ¶
61,121 at P 209 n. 339 (citing Docket No. IS09-437-000, Ex. SPE108).
108

109 While not the highest on record, the September 2008 inflation
figure is on the high end of the historical inflation data in the
record for 1984 to 2007. The inflation data in the record shows
that between January 1984 and January 2009 the 12-month

208a
that the September 2008 4.94 percent inflation
represents future inflation conditions.
The 4.94
percent inflation factor skews the real ROE
downwards to, as the D.C. Circuit noted, “the smallest
real [ROE] from the data available.” 110 While the
Commission generally uses coinciding data periods 111
for determining the inflation factor and the nominal
ROE, an exception must be applied here where (a) all
parties concede the reasonableness of the September
2008 nominal ROE, 112 and (b) the September 2008
inflation levels (and hence the real ROE) are not
representative of future conditions.
49.
In these highly unusual circumstances, while
continuing to use the September 2008 nominal ROE,

inflation factor was equal to or higher than 4.94 percent in only
approximately 20 months out of 301 months. In every month from
January 1992 to May 2008 the 12-month inflation factor was
lower than 4.94 percent. See Ex. SFP-84.
110

United Airlines, 827 F.3d 122 at 130-131.

111 The data periods are not exactly the same as the ROE is
generally based upon the most recent six months of data while the
inflation factor is typically based upon the most recent twelve
months.

SFPP, Request for Rehearing at 11-12 (April 11, 2011); SFPP
Supplemental Comments on Remand at 14-18; Shippers
Comments on Remand at 12-14.
112

209a
the Commission will adopt an inflation factor of 2.39
percent based upon an annualized average of the
monthly inflation for January 2007 to April 2009 113
and the resulting 10.24 percent real ROE. 114 Given the
abnormal inflation volatility in the 2007-2009
period 115 and the difficulty of predicting future
inflation levels in those uncertain conditions, adopting
an average inflation factor for the entire period, from
January 1, 2007 (the start of the base period) through
113 The Commission measured the change in the consumer price
index (CPI) between January 1, 2007 (201.8) (which is the CPI for
the end of December 2006) and April 30, 2009 (213.240). Exs.
SFP-6 at 7; SFP-323 at 42. The Commission calculated the mean
for the monthly changes by taking the 28th root, and then
annualized it by taking this mean to the 12th power. Expressed
as a formula, the average monthly inflation over the 28-month
28 213.24

period = �

201.8

= 1.001971. The annualized average monthly

inflation = 1.00197112 = 1.0239.

This is the nominal ROE of 12.63 minus inflation of 2.39
percent.
114

During this period, the highest 12-month inflation figure was
5.6 percent for July 2008, and the lowest 12-month inflation figure
was negative 0.74 percent for April 2009. Ex. SFP-323 at 42. In
essence, inflation increased to the upper bound of historical
experience and then plummeted during the financial crisis to
atypically low levels. Id; see also Ex. SFP-6; Ex. SFP-84. See also
Opinion No. 511-A, 137 FERC ¶ 61,220 at P 256 (“All parties have
recognized in this proceeding that the period of time in question
was a volatile economic period.”).
115

210a
April 30, 2009 (the most recent data submitted prior to
the hearing), will offset the outlying high and low
inflationary periods and stabilize the extreme
fluctuations. 116
50.
Moreover, the annualized average of the
monthly inflation for January 2007 to April 2009
addresses the concerns raised by the court in United
Airlines. The resulting 2.39 percent inflation is neither
the highest nor the lowest inflation level considered by
the Commission, 117 and it reflects the entire record
used at hearing to set SFPP’s rates. The 2.39 percent
inflation level is also generally consistent with the 2.14
and 2.31 inflation levels recorded for February and
March 2010. Likewise, the resulting real ROE of 10.24
(the September 2008 nominal ROE minus the January

116 As noted previously, the Commission typically determines the
nominal ROE, the inflation factor, and the real ROE based upon
the most recent data in the record. In this case, that would be the
April 2009 data.
However, this case presents unique
circumstances where the most recent data encompasses a period
of financial turmoil and a minimal or negative inflation rate that
was unlikely to continue, and thus does not reflect SFPP’s longterm cost of equity. Opinion No. 511, 134 FERC ¶ 61,121 at P
209; Opinion No. 511-A, 137 FERC ¶ 61,220 at PP 256-258;
United Airlines, 827 F.3d 122 at 130.

The 2.39 percent inflation level is between the higher
September 2008 inflation level (4.94 percent) and the lower
January 2009 inflation (0.03) and April 2009 (-0.74) levels.

117

211a
2007 to April 2009 inflation factor) addresses the D.C.
Circuit’s concerns that Opinion Nos. 511 and 511-A
selected the lowest real ROE in the record.
Specifically, while higher than the September 2008
(7.69 percent), February 2010 (9.09 percent), and
March 2010 (8.72 percent) real ROEs, the 10.24
percent real ROE is lower than the real ROEs recorded
for January 2009 (14.30 percent) and April 2009 (14.83
percent).
51.
The Commission declines to adopt three
alternative proposals advanced by SFPP. First, the
Commission rejects SFPP’s proposal in its
supplemental comments on remand to adopt an
average inflation factor of 2.09 percent based on the
average inflation for the calendar years 2007 and
2008. 118 While SFPP justifies using this data on the
basis that it coincides with the base and test period,
SFPP’s calculation actually includes the last three
months of 2008 that (a) are not in the base and test
period and (b) include anomalously low inflation
levels. 119 The Commission’s proposed methodology is

SFPP Supplemental Comments on Remand at 16-17
(proposing an inflation factor of 2.09 percent based on the annual
12-month inflation factors for 2007 (4.08 percent) and 2008 (0.09
percent)).
118

119 On an annualized basis, October 2008 monthly inflation was
negative 11.47 percent, November 2008 monthly inflation was

212a
superior because it considers the full record available
for determining SFPP’s return as opposed to only 2007
and 2008 data.
Moreover, while there was
considerable negative monthly inflation in late 2008,
the data from early 2009 moderates those swings in the
inflation level. 120 As discussed above, the annualized
average of the monthly inflation figures using a longer
period counter-balances the impact of both the high
and low outliers and results in more reasonable and
representative figures on which to base SFPP’s
rates. 121

negative 20.71 percent, and December 2008 monthly inflation was
negative 11.73 percent. Ex. SFP-323 at 42.
The last three months of 2008 showed abnormal deflation, such
as negative 20.71 percent monthly inflation on an annualized
basis for November 2008. Ex. SFP-323 at 42. By April 2009,
monthly annualized inflation levels had moderated, but the 12month inflation factors remained skewed downward by the last
months of 2008. Id. Thus, while the Commission appropriately
rejects using the negative 0.74 inflation based upon the 12months preceding April 2009, it is not inappropriate for the
Commission to include the stable monthly inflation levels for
January, February, March, and April 2009. Id.

120

Tr. 350-351 (SFPP’s expert explained that some are of the view
that capturing a longer period for averaging the high and low unit
prices may reduce the impact of aberrations in the most recent six
months of data).
121

213a
52.
Second, the Commission continues to reject
SFPP’s alternative proposal advanced on rehearing of
Opinion No. 511 to use the inflation factor of 1.11
percent based upon the average inflation from August
2008 to February 2011. 122 While the Commission’s
ROE policies permit consideration of some information
beyond the last month of the test period, longstanding
Commission policy generally prohibits determining a
pipeline’s return using data that emerges “once the
record has been closed and the hearing has
As the Commission explained in
concluded.” 123
Opinion No. 511-A, “the goal is to set a future, lawful
rate by predicating it upon reliable information that
will be representative of the conditions likely to
happen while the rate is in effect, but without being so
open-ended as to time that the test year is obscured.” 124
In this case, the February 2011 data became available
well after the June 2009 close of the record.
Continually updating the record for new ROE and

122

SFPP, Request for Rehearing at 10, 14-15 (April 11, 2011).

123 Opinion No. 511, 134 FERC ¶ 61,121 at P 208. While the
Commission considered February and March 2010 data from
another SFPP rate case, this was for comparison purposes only.

Opinion No. 511-A, 137 FERC ¶ 61,220 at P 258 (emphasis
added) (citing Williston Basin Interstate Pipeline Co. v. FERC, 165
F.3d 54, 56-57 (D.C. Cir. 1999), Indiana & Michigan Mun. Distrib.
Ass’n v. FERC, 659 F.2d 1193, 1197-98 (D.C. Cir. 1981)).

124

214a
inflation data could encourage perpetual litigation,
and the return data should not become too attenuated
from the test period used to calculate other elements
in SFPP’s cost of service. 125 While market returns may
change more rapidly (thus justifying the Commission’s
consideration of more recent ROE data), other cost-ofservice elements can also shift. The solution to these
changes is for the pipeline to file a new rate case, 126 not
to continually reinsert new data into a closed record.
Accordingly, the Commission rejects incorporating
return data through February 2011, which is far
removed from the 2007 and 2008 data used to

125 Opinion No. 511-A, 137 FERC ¶ 61,220 at P 258. SFPP’s own
ROE expert, Dr. Williamson also stated “the longer the
Commission waits beyond the present time to do the DCF, the
greater the likelihood that it will be inconsistent with . . . other
parts of the cost of service conclusion.” Tr. 353; see also id. at 352,
355. Dr. Williamson further stated that using 2010 data to
determine the rate of return would be “quite inconsistent with
other parts of the cost of service.” Tr. 353. Dr. Williamson’s
statements apply with even more force to the later 2011 data
SFPP seeks to use.

We emphasize that neither SFPP nor shippers are without a
remedy to the extent return levels and other costs have changed
since 2009. SFPP may refile its cost-of-service rates at any time,
using the most recent data available, and shippers can file a
complaint at any time.
126

215a
determine all other elements of SFPP’s cost-of-service
rates and the June 2009 close of the record.
53.
Third, for the same reasons, the Commission
rejects SFPP’s proposal on remand to re-open the
record. At some point, this proceeding must reach
finality, and there is no need to consider any data that
became available nearly a decade after the close of the
record. To the extent market returns have changed
since 2009, SFPP may file a new cost-of-service rate
change.
IV.

Compliance Filing
A.

Background

54.
On April 6, 2015, SFPP submitted its
compliance filing to Opinion No. 511-B calculating
refunds for the August 1, 2008 - May 10, 2015 period
and going forward rates. The calculation of refunds
owed to shippers and going forward rates both involve
(a) the final cost-of-service rate for SFPP’s West Line
established by this proceeding to be effective August 1,
2008, and (b) the subsequent indexing changes
affecting SFPP’s West Line rates.

216a
55.
On April 20, 2015, Joint Shippers 127 filed
comments, and, on April 21, 2015, Tesoro Refining &
Marketing Company LLC (Tesoro) filed late
comments. 128 Joint Shippers and Tesoro object to the
index increases that SFPP applied to calculate refunds
and going forward rates. While SFPP’s compliance
filing includes an index increase of 5.98 percent
effective July 1, 2011, Joint Shippers and Tesoro
emphasize that the Commission previously rejected
SFPP’s proposed July 1, 2011 index rate increase in
Docket No. IS11-444. 129 Thus, they assert that SFPP
should not be allowed to apply this index increase
effective July 1, 2011, to calculate refunds. They also
object that SFPP’s compliance filing included a 5.52
percent increase effective July 1, 2012, as opposed to
the 5.40 percent increase previously filed by SFPP. 130

BP West Coast Products LLC, Chevron Products Company,
United Airlines, Inc., Delta Air Lines, Inc., ExxonMobil Oil
Corporation, Southwest Airlines Co., US Airways, Inc., and
Valero Marketing and Supply Company.
127

128 We grant Tesoro’s unopposed request to file late comments
because it will not disrupt the proceeding.

Joint Shippers Protest at 7 (citing SFPP, L.P., Opinion No. 527,
143 FERC ¶ 61,213, as modified by 144 FERC ¶ 61,002 (2013)).

129

The 5.40 percent increase became effective August 5, 2012.
SFPP had withdrawn the prior index increase it had proposed to
make effective July 1, 2012.
130

217a
Likewise, they oppose the compliance filing’s inclusion
of an 8.50 percent index filing to be effective on July 1,
2013, which exceeds the 7.77 percent index increase
previously filed by SFPP. Tesoro also seeks to
challenge index increases that were previously
accepted by the Commission for 2012, 2013, and 2014,
and Tesoro asserts that the Commission should
consider these index increases in light of (i) ongoing
litigation against those rates in separate complaint
proceedings and (ii) West Line specific cost changes
during those years.
56.
On May 5, 2015, SFPP filed reply comments
defending the refund calculations in its compliance
filing. SFPP states that its filing is consistent with
Opinion No. 522-A, which allowed SFPP in its East
Line rate case (Docket No. IS09-437) to apply index
increases that exceeded the index increases SFPP had
previously filed. 131
SFPP also states that its
compliance filing is consistent with the precedent
established in a prior SFPP complaint proceeding in
Docket No. OR92-8, et al.

SFPP Reply Comments at 4 (citing SFPP, L.P., Opinion No.
522-A, 150 FERC ¶ 61,097, at PP 69-70 (2015)).
131

218a
B.

Discussion

57.
The Commission directs SFPP to recalculate its
refunds and going forward rates to remove index
increases that (a) were not previously filed by SFPP or
(b) were previously rejected by the Commission. In
Opinion No. 522-B, 132 which reverses Opinion No. 522A, the Commission explains why it will not permit a
pipeline to calculate refunds following a cost-of-service
rate case using different index increases than those
previously filed by the pipeline and accepted by the
Commission.
Opinion No. 522-B also addresses
SFPP’s reliance upon the Docket No. OR92-8
proceedings, explaining that, among other things,
neither the Commission nor the appellate court in that
proceeding “directly rule[d] upon a challenge to the
permissibility of retroactive indexing increases that
had not previously been sought by the pipeline.” 133
Likewise, contrary to Tesoro’s arguments, as the
Commission explains in Opinion No. 522-B, a
compliance filing is not an appropriate forum for relitigating index filings previously accepted by the
Commission.

132

SFPP, L.P., Opinion No. 522-B, 162 FERC ¶ 61,229 (2018).

133

Id. P 21.

219a
58.
Accordingly, SFPP must make a further
compliance filing within 60 days that calculates
refunds and going forward rates based upon the timing
and the level of the index increases actually filed by
SFPP and accepted by the Commission consistent with
section 342.3 of the Commission’s regulations. 134 In
addition, the compliance filing must implement the
Commission’s rulings discussed above in Sections II
and III that deny SFPP an income tax allowance in its
cost of service and determine a real ROE of 10.24
percent based on an inflationary component of 2.39
percent.

18 C.F.R. § 342.3 (2017). The Commission recognizes that there
is ongoing rate litigation in Docket No. IS11-444 regarding SFPP’s
2011 West Line indexed rate increase. Concurrently with the
issuance of this order, the Commission has granted rehearing of
Order No. 527 in Docket No. IS11-444 and has sent it back to
hearing. SFPP, L.P., Opinion No. 527-A, 162 FERC ¶ 61,230
(2018). Consistent with that decision, SFPP’s calculation of
refunds in this 2008 West Line rate proceeding may include the
full index increase. The Commission will address subsequent
issues related to the 2011 West Line Index increase, including any
changes to the refunds owed by SFPP, in that proceeding.
Likewise, the Commission will address any issues involving
ongoing complaints against SFPP’s rates in those complaint
proceedings. See Docket Nos. OR11-13, OR11-16, OR11-18,
OR14-35 and OR14-36.
134

220a
The Commission orders:
(A)
SFPP’s compliance filing is accepted
subject to the conditions described herein.
(B)
SFPP shall file revised West Line rates
and refunds consistent with this order within 60 days
after this order issues, including supporting
workpapers, explanatory statements, and any other
necessary documentation.
(C)
Comments on the compliance filing
directed in Ordering Paragraph (B) are due 75 days
after this order issues and reply comments are due 90
days after the date this order issues.
By the Commission.
(SEAL)

Nathaniel J. Davis, Sr.,
Deputy Secretary.

221a
APPENDIX D
UNITED STATES COURT OF APPEALS
FOR THE DISTRICT OF
COLUMBIA CIRCUIT
No. 19-1067

September Term, 2020

FERC-IS08-390-010, FERC-IS08-390-011,
FERC-IS08-390-008, FERC-IS08-390-009,
FERC-IS08-390-004, FERC-IS08-390-006,
FERC-IS08-390-007, FERC-IS08-390-002
Filed On: November 19, 2020
SFPP, L.P., Petitioner
v.
Federal Energy Regulatory Commission and
United States of America, Respondents
Association of Oil Pipe Lines, et al.,
Intervenors
Consolidated with 19-1077, 19-1078, 19-1081,
19-1082, 19-1084, 19-1086, 19-1090

222a
BEFORE: Srinivasan, Chief Judge; and Rogers
and Wilkins, Circuit Judges
ORDER
Upon consideration of the Shippers’ petition
for panel rehearing filed on September 14, 2020, the
supplements thereto, and the responses to the
petition; and petitioner SFPP, L.P.’s petition for panel
rehearing filed on September 14, 2020, it is
ORDERED that the petitions be denied.
Per Curiam
FOR THE COURT:
Mark J. Langer, Clerk
BY:

/s/
Kathryn D. Lovett
Deputy Clerk

223a
APPENDIX E
1. 49 U.S.C. App. § 1 (1988) provides in relevant
part:
Regulation in general;
alteration of line

car

service;

(1) Carriers subject to regulations
The provisions of this chapter shall apply to
common carriers engaged in-(a) The transportation of passengers or property
wholly by railroad, or partly by railroad and
partly by water when both are used under a
common control, management, or arrangement
for a continuous car­riage or shipment; or
(b) The transportation of oil or other commodity,
except water and except natural or artificial gas,
by pipe line, or partly by pipe line and partly
by·railroad or by water; or from one State or
Territory of the United States, or the District of
Columbia, to any other State or Territory of the
United States, or the District of Columbia, or
from one place in a Territory to another place in
the same Territory, or from any place in the

224a
United States through a foreign country to any
other place in the United States, or from or to
any place in the United States to or from a
foreign country, but only insofar as such
transportation takes place within the United
States.
(2) Transportation subject to regulation
The provisions of this chapter shall also apply to
such transportation of passengers and property,
but only insofar as such transportation takes
place within the United States, but shall not
apply-(a) To the transportation of passengers or
property, or to the receiving, delivering; storage,
or handling of property wholly within one state
and not shipped to or from a foreign country
from or to any place in the United states as
aforesaid, except as otherwise provided in this
chapter;
(c) To the transportation of passengers or
property by a carrier by water where such
transportation would not be subject to the
provisions of this chapter except for the fact that
such carrier absorbs, out of its port­to-port

225a
water rates or out of its proportional through
rates, any switching, terminal, lighterage, car
rental, trackage, handling, or other charges by a
rail carrier for services within the switching,
drayage, lighterage, or corporate limits of a port
terminal or district.
2. 49 U.S.C. App. § 15(1) (1988) provides in
relevant part:
Determination of rates, routes,
routing of traffic; disclosures, etc.

etc.;

(1) Commission empowered to determine
and prescribe rates, classifications, etc.
Whenever, after full hearing, upon a complaint
made as provided in section 13 of this Appendix,
or after full hearing under an order for
investigation and hearing made by the
Commission on its own initiative, either in
extension of any pending complaint or with­out
any complaint whatever, the Commission shall
be of opinion that any individual or joint rate,
fare, or charge whatsoever demanded, charged,
or collected by any common carrier or carriers
subject to this chapter for the transportation of
persons or property, as defined in section 1 of

226a
this Appendix, or that any individual or joint
classification, regulation, or practice whatsoever
of such carrier or carriers subject to the
provisions of this chapter, is or will be unjust or
un­reasonable or unjustly discriminatory or
unduly preferential or prejudicial, or otherwise
in violation of any of the provisions of this
chapter, the Commission is authorized and
empowered to determine and prescribe what
will be the just and reasonable individual or
joint rate, fare, or charge, or rates, fares, or
charges, to be thereafter observed in such case,
or the maximum or minimum, or maximum and
minimum, to be charged, and what individual or
joint classification, regulation, or practice is or
will be just, fair, and reasonable, to be thereafter
followed, and to make an order that the carrier
or carriers shall cease and desist from such
violation to the extent to which the Commission
finds that the same does or will exist, and shall
not thereafter publish, demand, or collect any
rate, fare, or charge for such transportation
other than the rate, fare, or charge so
prescribed, or in excess of the maximum or less
than the minimum so prescribed, as the case
may be, and shall adopt the classification and
shall conform to and observe the regulation or
practice so prescribed.

227a
3. 49 U.S.C. App. § 17(10) (1988) provides in
relevant part:
Commission procedure;
duties; rehearings

delegation

of

(10) Judicial relief from decisions, etc.,
upon denial or other disposition of
application for rehearing, etc.
When an application for rehearing, reargument,
or reconsideration of any decision, order, or
requirement of a division, an individual
Commissioner, or a board with respect to any
matter assigned or referred to him or it shall
have been made and shall have been denied, or
after rehearing, reargument, or reconsideration
otherwise disposed of, by the Commission or an
appellate division, a suit to enforce, enjoin,
suspend, or set aside such decision, order;·.or
requirement, in whole or in part, may be
brought in a court of the United States under
those provisions of law applicable in the case of
suits to enforce, enjoin, suspend, or set aside
orders of the Commission, but not otherwise.

228a
4. 5 U.S.C. 706(2)(A), (E) provides in relevant part:
To the extent necessary to decision and when
presented, the reviewing court shall decide all
relevant
questions
of
law,
interpret
constitutional and statutory provisions, and
determine the meaning or applicability of the
terms of an agency action. The reviewing court
shall—
(2) hold unlawful and set aside agency action,
findings, and conclusions found to be—
(A) arbitrary, capricious, an abuse of discretion,
or otherwise not in accordance with law
(E) unsupported by substantial evidence in a
case subject to sections 556 and 557 of this title
or otherwise reviewed on the record of an agency
hearing provided by statute; or
5. 26 U.S.C.S. § 7704 provides:
Certain publicly traded
treated as corporations.

partnerships

(a) General rule. For purposes of this title,
except as provided in subsection (c), a publicly

229a
traded partnership shall be treated as a
corporation.
(b) Publicly traded partnership. For
purposes of this section, the term “publicly
traded partnership” means any partnership if—
(1) interests in such partnership are traded
on an established securities market, or
(2) interests in such partnership are readily
tradable on a secondary market (or the
substantial equivalent thereof).
(c) Exception for
passive-type income.

partnerships

with

(1) In general. Subsection (a) shall not apply
to any publicly traded partnership for any
taxable year if such partnership met the gross
income requirements of paragraph (2) for such
taxable year and each preceding taxable year
beginning after December 31, 1987, during
which the partnership (or any predecessor)
was in existence. For purposes of the preceding
sentence, a partnership shall not be treated as
being in existence during any period before the
1st taxable year in which such partnership (or
a predecessor) was a publicly traded
partnership.

230a
(2) Gross income requirements. A
partnership meets the gross income
requirements of this paragraph for any
taxable year if 90 percent or more of the gross
income of such partnership for such taxable
year consists of qualifying income.
(3) Exception not to apply to certain
partnerships which could qualify as
regulated investment companies. This
subsection shall not apply to any partnership
which would be described in section 851(a) [26
USCS § 851(a)] if such partnership were a
domestic corporation. To the extent provided
in regulations, the preceding sentence shall
not apply to any partnership a principal
activity of which is the buying and selling of
commodities (not described in section
1221(a)(1) [26 USCS § 1221(a)(1)]), or options,
futures, or forwards with respect to
commodities.
(d) Qualifying income. For purposes of this
section—
(1) In general. Except as otherwise provided
in this subsection, the term “qualifying
income” means—
(A) interest,

231a
(B) dividends,
(C) real property rents,
(D) gain from the sale or other disposition of
real property (including property described
in section 1221(a)(1) [26 USCS §
1221(a)(1)]),
(E) income and gains derived from the
exploration,
development,
mining or
production,
processing,
refining,
transportation
(including
pipelines
transporting gas, oil, or products thereof), or
the marketing of any mineral or natural
resource (including fertilizer, geothermal
energy, and timber), industrial source
carbon dioxide, or the transportation or
storage of any fuel described in subsection
(b), (c), (d), or (e) of section 6426 [26 USCS §
6426], or any alcohol fuel defined in section
6426(b)(4)(A) or any biodiesel fuel as defined
in section 40A(d)(1) [26 USCS § 40A],
(F) any gain from the sale or disposition of a
capital asset (or property described in
section 1231(b) [26 USCS § 1231(b)]) held for
the production of income described in any of
the foregoing subparagraphs of this
paragraph, and

232a
(G) in the case of a partnership described in
the second sentence of subsection (c)(3),
income and gains from commodities (not
described in section 1221(a)(1) [26 USCS §
1221(a)(1)]) or futures, forwards, and
options with respect to commodities.
For purposes of subparagraph (E), the term
“mineral or natural resource” means any
product of a character with respect to which a
deduction for depletion is allowable under
section 611 [26 USCS § 611]; except that such
term shall not include any product described in
subparagraph (A) or (B) of section 613(b)(7) [26
USCS § 613(b)(7)].
(2) Certain interest not qualified. Interest
shall not be treated as qualifying income if—
(A) such interest is derived in the conduct of a
financial or insurance business, or
(B) such interest would be excluded from the
term “interest” under section 856(f) [26 USCS
§ 856(f)].
(3) Real property rent. The term “real
property rent” means amounts which would
qualify as rent from real property under section
856(d) [26 USCS § 856(d)] if—

233a
(A) such section were applied without regard
to paragraph (2)(C) thereof (relating to
independent contractor requirements), and
(B) stock owned, directly or indirectly, by or
for a partner would not be considered as owned
under section 318(a)(3)(A) [26 USCS §
318(a)(3)(A)] by the partnership unless 5
percent or more (by value) of the interests in
such partnership are owned, directly or
indirectly, by or for such partner.
(4) Certain income qualifying under
regulated investment company or real
estate trust provisions. The term “qualifying
income” also includes any income which would
qualify under section 851(b)(2)(A) or 856(c)(2)
[26 USCS § 851(b)(2)(A) or 856(c)(2)].
(5) Special rule for determining gross
income from certain real property sales. In
the case of the sale or other disposition of real
property described in section 1221(a)(1) [26
USCS § 1221(a)(1)], gross income shall not be
reduced by inventory costs.
(e) Inadvertent terminations. If—
(1) a partnership fails to meet the gross
income requirements of subsection (c)(2),

234a
(2) the Secretary determines that such failure
was inadvertent,
(3) no later than a reasonable time after the
discovery of such failure, steps are taken so
that such partnership once more meets such
gross income requirements, and
(4) such partnership agrees to make such
adjustments (including adjustments with
respect to the partners) or to pay such
amounts as may be required by the Secretary
with respect to such period,
then, notwithstanding such failure, such entity
shall be treated as continuing to meet such gross
income requirements for such period.
(f) Effect of becoming corporation. As of the
1st day that a partnership is treated as a
corporation under this section, for purposes of
this title, such partnership shall be treated as—
(1) transferring all of its assets (subject to its
liabilities) to a newly formed corporation in
exchange for the stock of the corporation, and
(2) distributing such stock to its partners in
liquidation of their interests in the
partnership.

235a
(g)
Exception
partnerships.

for

electing

1987

(1) In general. Subsection (a) shall not apply
to an electing 1987 partnership.
(2) Electing 1987 partnership. For purposes
of this subsection, the term “electing 1987
partnership” means any publicly traded
partnership if—
(A) such partnership is an existing
partnership
(as
defined in section
10211(c)(2) of the Revenue Reconciliation
Act of 1987),
(B) subsection (a) has not applied (and
without regard to subsection (c)(1) would not
have applied) to such partnership for all
prior taxable years beginning after
December 31, 1987, and before January 1,
1998, and
(C) such partnership elects the application
of this subsection, and consents to the
application of the tax imposed by paragraph
(3), for its first taxable year beginning after
December 31, 1997.
A partnership which, but for this sentence,
would be treated as an electing 1987

236a
partnership shall cease to be so treated (and the
election under subparagraph (C) shall cease to
be in effect) as of the 1st day after December 31,
1997, on which there has been an addition of a
substantial new line of business with respect to
such partnership.
(3) Additional tax on electing partnerships.
(A) Imposition of tax. There is hereby imposed
for each taxable year on the income of each
electing 1987 partnership a tax equal to 3.5
percent of such partnership’s gross income for
the taxable year from the active conduct of
trades and businesses by the partnership.
(B) Adjustments in the case of tiered
partnerships. For purposes of this paragraph,
in the case of a partnership which is a partner
in another partnership, the gross income
referred to in subparagraph (A) shall include
the partnership’s distributive share of the
gross income of such other partnership from
the active conduct of trades and businesses of
such other partnership. A similar rule shall
apply in the case of lower-tiered partnerships.
(C) Treatment of tax. For purposes of this
title, the tax imposed by this paragraph shall
be treated as imposed by chapter 1 [26 USCS

237a
§§ 1 et seq.] other than for purposes of
determining the amount of any credit
allowable under chapter 1 [26 USCS §§ 1 et
seq.] and shall be paid by the partnership.
Section 6655 [26 USCS § 6655] shall be
applied to such partnership with respect to
such tax in the same manner as if the
partnership were a corporation, such tax were
imposed by section 11 [26 USCS § 11], and
references in such section to taxable income
were references to the gross income referred to
in subparagraph (A).
(4) Election. An election and consent under
this subsection shall apply to the taxable year
for which made and all subsequent taxable
years unless revoked by the partnership. Such
revocation may be made without the consent of
the Secretary, but, once so revoked, may not be
reinstated.
6. 18 C.F.R. § 342.2 provides:
Establishing initial rates.
A carrier must justify an initial rate for new
service by:

238a
(a) Filing cost, revenue, and throughput data
supporting such rate as required by Part 346 of
this chapter; or
(b) Filing a sworn affidavit that the rate is
agreed to by at least one non-affiliated person
who intends to use the service in question,
provided that if a protest to the initial rate is
filed, the carrier must comply with paragraph
(a) of this section.
7. 18 C.F.R. § 346.2 provides:
Material in support of initial rates or
change in rates.
A carrier that files for rates pursuant to §
342.2(a) or § 342.4(a) of this chapter, or a carrier
described in § 342.0(b) that files to establish or
change rates by filing cost, revenue, and
throughput data supporting such rates, other
than pursuant to a Commission-approved
settlement, must file the following statements,
schedules, and supporting workpapers. The
statement, schedules, and workpapers must be
based upon an appropriate test period.

239a
(a) Base and test periods defined. (1) For a
carrier which has been in operation for at least
12 months:
(i) A base period must consist of 12 consecutive
months of actual experience. The 12 months of
experience must be adjusted to eliminate
nonrecurring items (except minor accounts).
The filing carrier may include appropriate
normalizing
adjustments
in
lieu
of
nonrecurring items.
(ii) A test period must consist of a base period
adjusted for changes in revenues and costs
which are known and are measurable with
reasonable accuracy at the time of filing and
which will become effective within nine
months after the last month of available actual
experience utilized in the filing. For good
cause shown, the Commission may allow
reasonable deviation from the prescribed test
period.
(2) For a carrier which has less than 12
months’ experience, the test period may
consist of 12 consecutive months ending not
more than one year from the filing date. For
good cause shown, the Commission may

240a
allow reasonable deviation
prescribed test period.

from

the

(3) For a carrier which is establishing rates
for new service, the test period will be based
on a 12-month projection of costs and
revenues.
(b) Cost-of-service summary schedule. This
schedule
must
contain
the
following
information:
(1) Total carrier cost of service for the test
period.
(2) Throughput for the test period in both
barrels and barrel-miles.
(3) For filings pursuant to § 342.4(a) of this
chapter, the schedule must include the
proposed rates, the rates which would be
permitted under § 342.3 of this chapter, and
the revenues to be realized from both sets of
rates.
(c) Content of statements. Any cost-of-service
rate filing must include supporting statements

241a
containing the following information for the test
period.
(1) Statement A — total cost of service. This
statement must summarize the total cost of
service for a carrier (operating and
maintenance expense, depreciation and
amortization, return, and taxes) developed
from Statements B through G described in
paragraphs (c) (2) through (7) of this section.
(2) Statement B — operation and maintenance
expense. This statement must set forth the
operation, maintenance, administration and
general, and depreciation expenses for the test
period. Items used in the computations or
derived on this statement must consist of
operations, including salaries and wages,
supplies and expenses, outside services,
operating fuel and power, and oil losses and
shortages; maintenance, including salaries
and wages, supplies and expenses, outside
services, and maintenance and materials;
administrative and general, including salaries
and wages, supplies and expenses, outside
services, rentals, pensions and benefits,
insurance, casualty and other losses, and

242a
pipeline taxes;
amortization.

and

depreciation

and

(3) Statement C — overall return on rate base.
This statement must set forth the rate base for
return purposes from Statement E in
paragraph (c)(5) of this section and must also
state the claimed rate of return and the
application of the claimed rate of return to the
overall rate base. The claimed rate of return
must consist of a weighted cost of capital,
combining the rate of return on debt capital
and the real rate of return on equity capital.
Items used in the computations or derived on
this statement must include deferred
earnings, equity ratio, debt ratio, weighted
cost of capital, and costs of debt and equity.
(4) Statement D — income taxes. This
statement must set forth the income tax
computation. Items used in the computations
or derived on this statement must show:
return allowance, interest expense, equity
return, annual amortization of deferred
earnings, depreciation on equity AFUDC,
underfunded
or
overfunded
ADIT
amortization amount, taxable income, tax
factor, and income tax allowance.

243a
(5) Statement E — rate base. This statement
must set forth the return rate base. Items used
in the computations or derived on this
statement must include beginning balances of
the rate base at December 31, 1983, working
capital (including materials and supplies,
prepayments, and oil inventory), accrued
depreciation on carrier plant, accrued
depreciation on rights of way, and
accumulated deferred income taxes; and
adjustments and end balances for original cost
of retirements, interest during construction,
AFUDC adjustments, original cost of net
additions and retirements from land, original
cost of net additions and retirements from
rights of way, original cost of plant additions,
original cost accruals for depreciation, AFUDC
accrued depreciation adjustment, original cost
depreciation accruals added to rights of way,
net charge for retirements from accrued
depreciation, accumulated deferred income
taxes, changes in working capital (including
materials and supplies, prepayments, and oil
inventory), accrued deferred earnings, annual
amortization of accrued deferred earnings,
and amortization of starting rate base writeup.

244a
(6) Statement F — allowance for funds used
during construction. This statement must set
forth the computation of allowances for funds
used during construction (AFUDC) including
the AFUDC for each year commencing in 1984
and a summary of AFUDC and AFUDC
depreciation for the years 1984 through the
test year.
(7) Statement G — revenues. This statement
must set forth the gross revenues for the
actual 12 months of experience as computed
under both the presently effective rates and
the proposed rates. If the presently effective
rates are not at the maximum ceiling rate
established under § 342.3 of this chapter, then
gross revenues must also be computed and set
forth as if the ceiling rates were effective for
the 12 month period.

245a
APPENDIX F
UNITED STATES COURT OF APPEALS
FOR THE DISTRICT OF
COLUMBIA CIRCUIT
Argued March 22, 2016 Decided July 1, 2016
No. 11-1479
UNITED AIRLINES, INC., ET AL., PETITIONERS
v.
FEDERAL ENERGY REGULATORY
COMMISSION AND
UNITED STATES OF AMERICA,
RESPONDENTS
BP WEST COAST PRODUCTS LLC, ET AL.,
INTERVENORS
Consolidated with 12-1069, 12-1070, 12-1073,
12-1086, 15-1101, 15-1105, 15-1107
On Petitions for Review of Orders of the Federal
Energy Regulatory Commission

246a
Thomas J. Eastment argued the cause for Shipper
Petitioners. With him on the briefs were Gregory S.
Wagner, Richard E. Powers, Jr., Melvin Goldstein, and
Steven A. Adducci. Frederick G. Jauss and Marcus W.
Sisk Jr. entered appearances.
Charles F. Caldwell argued the cause for Petitioner
SFPP L.P. With him on the briefs were Dean Lefler
and Daniel W. Sanborn. Deborah R. Repman entered
an appearance.
Ross R. Fulton and Lisa B. Luftig, Attorneys, Federal
Energy Regulatory Commission, argued the causes for
respondents. On the brief were William J. Baer,
Assistant Attorney General, U.S. Department of
Justice, James J. Fredricks and Robert J. Wiggers,
Attorneys, Robert H. Solomon, Solicitor, Federal
Energy Regulatory Commission, Beth G. Pacella,
Deputy Solicitor, and Elizabeth E. Rylander, Attorney.
Steven A. Adducci, Thomas J. Eastment, Gregory S.
Wagner, Richard E. Powers Jr., and Melvin Goldstein
were on the brief for Shipper Intervenors in support of
Federal Energy Regulatory Commission.

247a
Charles F. Caldwell, Dean H. Lefler, and Daniel W.
Sanborn were on the brief for intervenor SFPP, L.P. in
support of respondents. Elizabeth B. Kohlhausen
entered an appearance.
Before: GRIFFITH and KAVANAUGH, Circuit
Judges, and SENTELLE, Senior Circuit Judge.
Opinion for the Court filed by Senior Circuit Judge
SENTELLE.

Opinion by: SENTELLE
SENTELLE, Senior Circuit Judge: Petitioners SFPP,
L.P. ("SFPP") and several shippers—"i.e., firms that
pay to transport petroleum products over SFPP's
pipelines," ExxonMobil Oil Corp. v. FERC, 487 F.3d
945, 947, 376 U.S. App. D.C. 259 (D.C. Cir. 2007)—
challenge aspects of three orders from the Federal
Energy Regulatory Commission ("FERC") related to
filings by SFPP for cost-of-service tariffs on its
pipelines. SFPP disputes FERC's choice of data for
calculating SFPP's return on equity and the
Commission's decision to grant only a partial indexed
rate for the 2009 index year. The shipper-petitioners
(the "Shippers") claim that FERC's tax allowance
policy for partnership pipelines, such as SFPP, is
arbitrary or capricious and results in unjust and
unreasonable rates. We grant-in-part and deny-in-part

248a
SFPP's petition and grant the Shippers' petition for
review.

I. BACKGROUND
SFPP is a Delaware limited-partnership, commoncarrier oil pipeline. The pipeline transports refined
petroleum products from California, Oregon, and
Texas to various locations throughout the
southwestern and western United States. On June 30,
2008, SFPP filed tariffs to increase rates on its West
Line, which transports petroleum products throughout
California and Arizona. These new tariffs had an
effective date of August 1, 2008. Also on June 30, 2008,
SFPP made a separate tariff filing to decrease the
rates on its East Line, which runs from West Texas to
Arizona. The purported impetus for these filings was
increased throughput on SFPP's East Line due to a
recently completed expansion, which accordingly
decreased throughput on the West Line. Several
shippers protested the West Line tariff filing by raising
challenges to SFPP's cost of service.
On December 2, 2009, an administrative law judge
issued an Initial Decision addressing the shippers'
arguments. FERC reviewed the Initial Decision in
Opinion 511, 134 FERC ¶ 61,121 (2011), considered a
request for rehearing of that opinion in Opinion 511-A,
137 FERC ¶ 61,220 (2011), and then reviewed a
request for rehearing of Opinion 511-A in Opinion 511-

249a
B, 150 FERC ¶ 61,096 (2015). Both SFPP and the
Shippers 1 petition this Court for review of these three
FERC orders.
SFPP makes two arguments in its petition. First, it
claims that FERC arbitrarily or capriciously failed to
utilize the most recently-available data when
assessing its so-called real return on equity. Second,
SFPP asserts that FERC erred when it declined to
apply the full value of the Commission's published
index when setting SFPP's rates for the 2009 index
year. We grant SFPP's petition with respect to the first
issue but deny the petition with respect to the second.
The Shippers raise a separate challenge to FERC's
current policy of granting to partnership pipelines an
income tax allowance, which accounts for taxes paid by
partner-investors that are attributable to the pipeline
entity. Specifically, the Shippers claim that because
FERC's ratemaking methodology already ensures a
sufficient after-tax rate of return to attract investment
capital, and partnership pipelines otherwise do not
incur entity-level taxes, FERC's tax allowance policy
permits partners in a partnership pipeline to "double
recover" their taxes. We agree that FERC has not

The Shippers are: United Airlines, Inc.; Delta Air Lines,
Inc.; Southwest Airlines Co.; US Airways, Inc.; BP West Coast
Products LLC; Chevron Products Co.; ExxonMobil Oil
Corporation; Valero Marketing and Supply Company; and Tesoro
Refining and Marketing Company LLC.

1

250a
adequately justified its tax allowance policy for
partnership pipelines and grant the Shippers' petition.
II. ANALYSIS
Under the standard dictated by the Administrative
Procedure Act, we will vacate FERC ratemaking
decisions that are arbitrary or capricious. See 5 U.S.C.
§ 706(2)(A). Conversely, "FERC's decisions will be
upheld as long as the Commission has examined the
relevant data and articulated a rational connection
between the facts found and the choice made."
ExxonMobil, 487 F.3d at 951. "In reviewing FERC's
orders, we are 'particularly deferential to the
Commission's expertise' with respect to ratemaking
issues." Id. (quoting Ass'n of Oil Pipe Lines v. FERC,
83 F.3d 1424, 1431, 317 U.S. App. D.C. 376 (D.C. Cir.
1996)). While we have not expressly stated whether we
review for substantial evidence FERC's factual
findings within orders under the Interstate Commerce
Act, "in their application to the requirement of factual
support the substantial evidence test and the arbitrary
or capricious test are one and the same." Butte Cty. v.
Hogen, 613 F.3d 190, 194, 392 U.S. App. D.C. 25 (D.C.
Cir. 2010) (citation omitted); cf. Farmers Union Cent.
Exch., Inc. v. FERC, 734 F.2d 1486, 1499 n.39, 236 U.S.
App. D.C. 203 (D.C. Cir. 1984) (noting the uncertainty
surrounding whether the substantial evidence
standard applies to FERC's ratemaking decisions
under the Interstate Commerce Act).

251a
The statutory regime governing FERC's ratemaking
for oil pipelines is unique. In 1906, as an amendment
to the Interstate Commerce Act (the "ICA"), Congress
delegated regulatory authority over oil pipelines to the
Interstate Commerce Commission. Pub. L. No. 59-337,
§ 1, 34 Stat. 584, 584. But in 1977, Congress
transferred regulatory authority over oil pipelines to
FERC. Department of Energy Organization Act, Pub.
L. No. 95-91, § 402(b), 91 Stat. 565, 584 (1977); see also
49 U.S.C. § 60502. Congress then repealed the ICA in
1978 except as related to FERC's regulation of oil
pipelines. Pub. L. No. 95-473, § 4(c), 92 Stat. 1337,
1470. For such regulation, the ICA continues to apply
"as [it] existed on October 1, 1977 . . . ." Id. The relevant
provisions of the ICA were last reprinted in the
appendix to title 49 of the 1988 edition of the United
States Code, to which we refer as necessary. Cf. BP
West Coast Prods., LLC v. FERC, 374 F.3d 1263, 1271
n.1, 362 U.S. App. D.C. 438 (D.C. Cir. 2004).
Substantively, the ICA requires that all rates be "just
and reasonable." 49 U.S.C. app. § 1(5)(a) (1988). Just
and reasonable rates are "rates yielding sufficient
revenue to cover all proper costs, including federal
income taxes, plus a specified return on invested
capital." ExxonMobil, 487 F.3d at 951 (citation
omitted).

252a
A. FERC'S CHOICE OF DATA FOR ASSESSING
SFPP'S REAL RETURN ON EQUITY WAS
ARBITRARY OR CAPRICIOUS
SFPP challenges as arbitrary or capricious FERC's
reliance on cost-of-equity data from September 2008
when calculating SFPP's so-called "real" return on
equity and the Commission's rejection of more recent
data from April 2009. FERC argues in response that
the more recent cost-of-equity data "encompassed the
stock market collapse beginning in late 2008," and was
therefore anomalous. FERC's Br. 31-32. We agree that
FERC had substantial evidence to support its
determination that the 2009 data did not reflect
SFPP's long-term cost of equity. However, because the
Commission provided no reasoned basis to justify its
decision to rely on the September 2008 data, we hold
that it engaged in arbitrary or capricious decisionmaking and therefore grant SFPP's petition on this
issue.
The Supreme Court stated in Federal Power
Commission v. Hope Natural Gas Co., that "the return
to the equity owner [of a pipeline] should be
commensurate with returns on investments in other
enterprises having corresponding risks." 320 U.S. 591,
603, 64 S. Ct. 281, 88 L. Ed. 333 (1944). Further, "[t]hat
return . . . should be sufficient to assure confidence in
the financial integrity of the enterprise, so as to
maintain its credit and to attract capital." Id. In
accordance with these principles, FERC uses a so-

253a
called "discounted cash flow" model to determine a
pipeline's rate of return on equity. See Composition of
Proxy Groups for Determining Gas and Oil Pipeline
Return on Equity, 123 FERC ¶ 61,048, at 61,271-73 ¶¶
3-9 (2008) (discussing the mechanics of the discounted
cash flow model). "The premise of the [discounted cash
flow] model is that the price of a stock is equal to the
stream of expected dividends, discounted to their
present value." Williston Basin Interstate Pipeline Co.
v. FERC, 165 F.3d 54, 57, 334 U.S. App. D.C. 109 (D.C.
Cir. 1999). Under the discounted cash flow model,
FERC "examin[es] the percentage returns on equity
the market requires for members of a proxy group."
Opinion 511, 134 FERC ¶ 61,121, at ¶ 242. "The
members of the proxy group must fall with[in] a
reasonable range of comparable risks and have
publically traded securities." Id. Based on the stock
prices of securities within the proxy group, FERC
"calculates the yield (the percentage return) by
dividing the dollar amount of the distribution by the
stock price." Id. ¶ 243. After applying the distribution
over the long-term, FERC "discount[s] back at the first
year's percentage yield to obtain the return on equity
required to attract capital to the firm." Id. The
resulting figure is the "nominal" return on equity.
Under its so-called "trended original cost"
methodology, FERC splits the nominal return on
equity into an inflation component and the so-called
"real" return on equity, defined as the difference
between the nominal return on equity and inflation.

254a
See Williams Pipe Line Co., 31 FERC ¶ 61,377, at
61,833-34 (1985). While the pipeline can recover its
real return on equity in its current annual rates,
inflation "is written-off or amortized over the life of the
property." Id. at 61,834; see also Ass'n of Oil Pipe Lines,
83 F.3d at 1429.
When assessing the pipeline's cost structure, FERC
"uses a 'test year' methodology to determine a
pipeline's annual cost of service." BP West Coast, 374
F.3d at 1298. This method starts with a "base period"
that "consist[s] of 12 consecutive months of actual
experience" with some specified adjustments. 18
C.F.R. § 346.2(a)(1)(i). FERC then defines a "test
period" that generally "must consist of a base period
adjusted for changes in revenues and costs which are
known and are measurable with reasonable accuracy
at the time of [rate] filing and which will become
effective within nine months after the last month of
available actual experience utilized in the filing." Id. §
346.2(a)(1)(ii). In this case, FERC used a base period
from January 1, 2007, through December 31, 2007,
meaning that the "nine-month adjustment period for
test period changes [wa]s from January 1, 2008,
through September 30, 2008." Opinion 511, 134 FERC
¶ 61,121, at ¶ 8.
However, for the discounted cash flow analysis, "the
Commission prefers the most recent financial data in
the record," id. ¶ 208, "because the market is always
changing and later figures more accurately reflect

255a
current investor needs," Trunkline Gas Co., 90 FERC
¶ 61,017, at 61,117 (2000). In other words, FERC may
use post-test period data for purposes of the discounted
cash flow analysis, "recognizing that updates are not
permitted once the record has been closed and the
hearing has concluded." Opinion 511, 134 FERC ¶
61,121, at ¶ 208.
SFPP initially submitted return-on-equity data for the
six-month period ending with the test period, i.e.,
through September 2008. See Exhibit SFP-1, Prepared
Direct Testimony of J. Peter Williamson on Behalf of
SFPP, L.P., No. IS08-390-002, at 3-22 (FERC June 2,
2009). However, the pipeline later provided two
updates, one for the six-month period ending January
2009, see Exhibit SFP-76, No. IS08-390-002, at 1
(FERC June 2, 2009), and one for the six-month period
ending April 2009, see Exhibit SFP-323, No. IS08-390002, at 1 (FERC June 2, 2009). From the September
2008 data, the nominal return on equity was 12.63
percent, with 7.69 percent representing the real return
on equity and 4.94 percent as inflation. 2 Opinion 511-

There is some ambiguity in the record regarding the
September 2008 return on equity data. SFPP's initial filings show
that the nominal return on equity for this period was 13.01
percent with 5.37 percent inflation and 7.64 percent real return
on equity. See Exhibit SFP-1, at 21; Exhibit SFP-5, No. IS08-390002, at 9 (FERC June 2, 2009); Opinion 511-A, 137 FERC ¶
61,220, at ¶ 252. As the exact numbers do not affect our holding
and the parties otherwise agree that 7.69 percent was the real
2

256a
A, 137 FERC ¶ 61,220, at ¶ 255. From the January
2009 data, the nominal return on equity was 14.33
percent, distributed between 14.30 percent real return
on equity and 0.03 percent inflation. Exhibit SFP-76,
at 1. The April 2009 data showed a nominal return on
equity of 14.09 percent with a 14.83 percent real return
on equity and-0.74 percent inflation. Exhibit SFP-323,
at 1. FERC also "incorporated into the . . . record" SFPP
cost-of-equity data for the six-month periods ending in
February 2010 and March 2010. Opinion 511, 134
FERC ¶ 61,121, at ¶ 209 & n.339. The nominal return
on equity from the February 2010 data was 11.24
percent, 2.14 percent of which was inflation with a 9.09
percent real return on equity. SFPP's Br. App. A. From
the March 2010 data, the nominal return on equity
was 11.03 percent, inflation was 2.31 percent, and the
real return on equity was 8.72 percent. Id.
SFPP argues that FERC acted arbitrarily or
capriciously when it relied on the September 2008
data, instead of the April 2009 data, in setting SFPP's
real return on equity. In particular, SFPP contends
that FERC ignored its own "policy of using the most
recent equity rate of return data in the record" and
provided no explanation for its choice of the September
2008 data. SFPP's Br. 22-23. In FERC's view, the April
2009 data is not "representative of SFPP's cost of
capital during the future periods the rates proposed in
return on equity for the September 2008 period, we refer to that
figure. See SFPP's Br. 8; FERC's Br. 33-34.

257a
this case may be in effect." Opinion 511, 134 FERC ¶
61,121, at ¶ 209. Specifically, that data "reflects the
collapse of the stock market in late 2008 and early
2009" and a "minimal or negative inflation rate" not
likely to continue into the future. Id.
We hold that it was reasonable for FERC to conclude
that the April 2009 data was not representative of
SFPP's long-term cost of capital. SFPP's argument
that FERC has a bright-line policy of relying on the
most recently available data to determine the real
return on equity is incorrect. As FERC stated in
Trunkline Gas Co., the Commission "seeks to find the
most representative figures on which to base rates." 90
FERC ¶ 61,017, at 61,049 (emphasis added).
Therefore, FERC "may adopt test period estimates, or
it may adopt other, more representative figures of
historical costs . . . if it determines that these other
figures are the best, most representative evidence of
the pipeline's experience for the test period." Id. The
real return on equity from the April 2009 data, 14.83
percent, is the highest among each of the periods FERC
considered, and only this data includes negative
inflation. Had FERC decided to use the April 2009
data, SFPP would have been able to recoup essentially
its entire nominal return on equity in its current rates,
see Williams Pipe Line Co., 31 FERC ¶ 61,377, at
61,833-34, despite the fact that the February 2010 and
March 2010 data indicated that negative inflation was
a short-term phenomenon. Substantial evidence
therefore supported FERC's finding that the April

258a
2009 data was not the most representative data for
assessing SFPP's real return on equity, meaning that
FERC did not engage in arbitrary-or-capricious
decision-making by rejecting that data. See Opinion
511, 134 FERC ¶ 61,121, at ¶¶ 208-09; Opinion 511-A,
137 FERC ¶ 61,220, at ¶¶ 256-59.
However, this conclusion does not end the inquiry. In
lieu of the more recently available April 2009 data,
FERC relied instead on the September 2008 data to fix
SFPP's real return on equity. See Opinion 511, 134
FERC ¶ 61,121, at ¶ 209. Because we agree with SFPP
that FERC provided no reasoned explanation for its
choice of the September 2008 data, we grant SFPP's
petition for review and vacate FERC's orders with
respect to this issue.
While there may be evidence to support the conclusion
that the nominal return on equity for September 2008
was in line with historical trends, this evidence does
not show that the real return on equity for that time
period was representative of SFPP's costs. See Request
for Rehearing of SFPP, L.P., No. IS08-390-002, at 1112 (FERC Apr. 11, 2011) (SFPP conceding that the
September 2008 nominal return on equity is
"consistent with historical periods"); see also Opinion
511, 134 FERC ¶ 61,121, at ¶ 209; Opinion 511-A, 137
FERC ¶ 61,220, at ¶¶ 252-59. To the contrary, FERC
provides only a cursory comparison of real returns on
equity from the September 2008 through the March
2010 time periods, and otherwise appears to have

259a
chosen the smallest real return on equity from the data
available. See Opinion 511, 134 FERC ¶ 61,121, at ¶
209. FERC was further unable to identify any such
explanation in the record when pressed to do so at oral
argument. See Oral Arg. Tr. 44:6-45:14. While "we are
particularly deferential to the Commission's expertise
with respect to ratemaking issues," ExxonMobil, 487
F.3d at 951 (citation and internal quotation marks
omitted), FERC cannot rely in conclusory fashion on its
knowledge and expertise without adequate support in
the record. See, e.g., Int'l Union, United Mine Workers
of Am. v. Mine Safety & Health Admin., 626 F.3d 84,
93, 393 U.S. App. D.C. 200 (D.C. Cir. 2010).
Because we agree that FERC engaged in arbitrary-orcapricious decision-making by adopting the September
2008 real return on equity without reasoned
explanation, we need not reach SFPP's alternative
argument that FERC improperly rejected SFPP's
proposal to adopt an average real return on equity. We
grant SFPP's petition on this issue.
B. FERC'S INDEXING ANALYSIS WAS NOT
ARBITRARY OR CAPRICIOUS
SFPP also argues that FERC engaged in arbitrary-orcapricious decision-making when it declined to apply
the full amount of the 2009 rate index adjustment in
calculating SFPP's rates and refunds for the period
from July 1, 2009, through June 30, 2010. FERC

260a
responds that it complied with the plain text of its
regulations when it found that granting SFPP a full
indexed rate adjustment would result in unjust and
unreasonable rates. We agree with FERC and deny
SFPP's petition on this issue.
As part of the Energy Policy Act of 1992, Congress
required FERC to "issue a final rule which establishes
a simplified and generally applicable ratemaking
methodology for oil pipelines in accordance with
section 1(5) of part I of the [ICA]." Pub. L. No. 102-486,
§ 1801(a), 106 Stat. 2776, 3010. Congress also
mandated that "the Commission . . . issue a final rule
to streamline procedures of the Commission relating to
oil pipeline rates in order to avoid unnecessary
regulatory costs and delays." Id. § 1802(a). In response,
FERC released a notice of proposed rulemaking on
July 2, 1993, which set forth an indexing scheme for
setting oil pipeline rates. See Revisions to Oil Pipeline
Regulations Pursuant to the Energy Policy Act of 1992;
Proposed Rulemaking, 58 Fed. Reg. 37,671, at 37,672
(1993). FERC then issued on November 4, 1993, its
final rule implementing the indexing scheme.
Revisions to Oil Pipeline Regulations Pursuant to the
Energy Policy Act of 1992, 58 Fed. Reg. 58,753, at
58,754 (1993).
Under the final rule, FERC required that oil pipelines
utilize the indexing system for rate changes unless
specified circumstances permit use of an alternative
methodology. Id. at 58,757. "First, a cost-of-service

261a
showing may be utilized to change a rate whenever a
pipeline can show that it has experienced
uncontrollable
circumstances
that
preclude
recoupment of its costs through the indexing system."
Id.; see also 18 C.F.R. § 342.4(a). "Second, whenever a
pipeline can secure the agreement of all existing
customers, it may file a rate change based on such a
settlement." 58 Fed. Reg. at 58,757; see also 18 C.F.R.
§ 342.4(c). Finally, FERC permits market-based
ratemaking if the pipeline can show that it "lacks
significant market power in the markets in question . .
. ." 58 Fed. Reg. at 58,757; see also 18 C.F.R. § 342.4(b).
At a general level, FERC's indexing methodology
directs pipelines to file initial rates, usually reflecting
their costs-of-service. 58 Fed. Reg. at 58,758. Based on
the initial rate filings, FERC then calculates rate
ceilings for future years based on the change in the
Producer Price Index for Finished Goods. Id. at 58,760;
see also 18 C.F.R. § 342.3(d)(2). Importantly, "the index
establishes a ceiling on rates—it does not establish the
rate itself." 58 Fed. Reg. at 58,759. In other words, "a
company is not required to charge the ceiling rate, and
if it does not, it may adjust its rates upwards to the
ceiling at any time during the year upon filing of the
requisite data . . . and upon giving the appropriate
notice." Id. at 58,761. For future years, the index "is
cumulative[, meaning that] . . . the index applies to the
applicable ceiling rate, which is required to be
calculated each year, not to the actual rate charged."
Id. at 58,762. The stated purpose of this regime is to

262a
"preserve[] the value of just and reasonable rates in
real economic terms [by] . . . tak[ing] into account
inflation, thus allowing the nominal level of rates to
rise in order to preserve their real value in real terms."
Id. at 58,759.
In this case, SFPP filed cost-of-service rates, effective
August 1, 2008, proposing to increase the rates
charged on its West Line "based upon the cost of
providing the service covered by the rate . . . ." 18
C.F.R. § 342.4(a). Because this rate took effect during
the 2008 index year—i.e., between July 1, 2008, and
June 30, 2009—it also "constitute[d] the applicable
ceiling level for that index year." Id. § 342.3(d)(5); see
also id. § 342.3(c) (defining the index year as "the
period from July 1 to June 30"). Therefore, to compute
the ceiling level for the 2009 index year—i.e., between
July 1, 2009, and June 30, 2010—SFPP "multipl[ied]
the previous index year's [2008's] ceiling level by the
most recent index published by [FERC]." Id. §
342.3(d)(1). The index for 2009 was 7.6025 percent.
Revisions to Oil Pipeline Regulations Pursuant to the
Energy Policy Act of 1992, 127 FERC ¶ 61,184 (2009).
SFPP therefore contends that it has the right to apply
this full index when calculating its 2009 rates. FERC
argues that, because SFPP's cost-of-service rates for
2008 already partially "accounted for the changes in
costs associated with the index increase," Opinion 511A, 137 FERC ¶ 61,220, at ¶ 407, SFPP can only apply
that portion of the 2009 index "not reflected in the cost
of service adopted by Opinion No. 511 or the rates

263a
SFPP must establish [in Opinion No. 511-A]," id. ¶
405. In particular, FERC permitted SFPP to use an
index of 1.9006 percent, "correspond[ing] to the three
months of 2008 cost changes that are outside" the
period of costs already covered by SFPP's proposed
rates. Id. In other words, FERC limited SFPP's 2009
index to twenty-five percent of the published value for
that index year.
Were this information all that the Court had to
consider, SFPP's argument that FERC "ignore[d] its
regulations, which have the force of law," SFPP's Br.
35, might be plausible in light of the plain text of
FERC's indexing regulations, see 18 C.F.R. § 342.3.
But the analysis is only half-complete. "[M]erely
because the Commission regulations permit SFPP to
request the index increase does not mean that the
Commission is bound to accept the indexed rate
increase." Opinion 511-A, 137 FERC ¶ 61,220, at ¶ 407.
In particular, "persons with a substantial economic
interest in the tariff filing may file a protest to a tariff
filing pursuant to the Interstate Commerce Act." 18
C.F.R. § 343.2(b). A protest to a proposed rate under 18
C.F.R. § 343.2 must allege "reasonable grounds for
asserting that the rate violates the applicable ceiling
level, or that the rate increase is so substantially in
excess of the actual cost increases incurred by the
carrier that the rate is unjust and unreasonable, or
that the rate decrease is so substantially less than the
actual cost decrease incurred by the carrier that the
rate is unjust and unreasonable." Id. § 343.2(c)(1). In

264a
this case, the Shippers did file protests to SFPP's
indexed rates for the 2009 index year. See Protest and
Comments
of
Chevron
Products
Company,
ConocoPhillips Company, Continental Airlines, Inc.,
Northwest Airlines, Inc., Southwest Airlines Co., US
Airways, Inc., and Valero Marketing and Supply
Company on SFPP, L.P. Compliance Filing ("Protest
I"), Nos. IS08-390-002, IS08-390-006, IS11-338-000,
135 F.E.R.C. P61,235 (FERC June 15, 2011); Protest of
ExxonMobil Oil Corporation and BP West Coast
Products LLC of Compliance Filing Implementing
Opinion No. 511 ("Protest II"), No. IS08-390-006
(FERC June 15, 2011). Therein, they argued that
because "[t]he 2009 index is based on [FERC's]
computation of industry-wide cost increases between
2007 and 2008[,]" SFPP should not be permitted to
double-recover its costs by combining its 2008 cost-ofservice rates with proposed 2009 indexed rates. Protest
II, at 12. Equivalently, the Shippers alleged that
SFPP's 2009 indexed rate increase was "substantially
in excess of the actual cost increases incurred by
[SFPP]" during 2008. 18 C.F.R. § 343.2(c)(1). FERC
agreed. See Opinion 511-A, 137 FERC ¶ 61,220, at ¶
411; Opinion 511-B, 150 FERC ¶ 61,096, at ¶¶ 27-33.
"Because the subject of our scrutiny is a ratemaking—
and thus an agency decision involving complex
industry analyses and difficult policy choices—the
court will be particularly deferential to the
Commission's expertise." Ass'n of Oil Pipe Lines, 83
F.3d at 1431. With this principle in mind, we discern
no error in FERC's decision-making.

265a
SFPP's
principal
retort
to
this
otherwise
straightforward application of FERC's regulations is
that the alleged purpose of FERC's indexing
procedures is to permit a pipeline to capture future
inflation-based cost adjustments, not prior-year costof-service changes. FERC responds, somewhat
cryptically, that indexing "allows rates to track
inflation in the general economy, essentially
preserving pipelines' existing rates in real economic
terms." FERC's Br. 43.
SFPP's argument is irrelevant to this case. Admittedly,
whether FERC's indexing mechanism is retrospective
or prospective is unclear. For example, FERC has
previously described the purpose of indexing as
"preserv[ing] the value of just and reasonable rates in
real economic terms . . . [by] tak[ing] into account
inflation, thus allowing the nominal level of rates to
rise in order to preserve their real value in real terms."
Revisions to Oil Pipeline Regulations Pursuant to the
Energy Policy Act of 1992, 58 Fed. Reg. at 58,759; see
also SFPP, L.P., 117 FERC ¶ 61,271, at 62,337 (2006).
By contrast, we have stated that indexing "enable[s]
pipelines to recover costs by allowing pipelines to raise
rates at the same pace as they are predicted to
experience cost increases." Ass'n of Oil Pipe Lines, 83
F.3d at 1430. However, once a party files a protest to a
pipeline's proposed rates, FERC's regulations state
that the Commission will compare the "actual cost
increases incurred by the carrier" with the proposed
rate increase. 18 C.F.R. § 343.2(c)(1) (emphasis added).

266a
FERC made this comparison when it noted that SFPP
would effectively double-recover its 2008 costs were it
to receive the full 2009 index. See Opinion 511-A, 137
FERC ¶ 61,220, at ¶¶ 409-11; Opinion 511-B, 150
FERC ¶ 61,096, at ¶¶ 27-33. While admittedly FERC's
analysis was less quantitative than in prior rate
proceedings, we hold that FERC provided sufficient
justification for its decision to reduce SFPP's 2009
index to one-quarter of the published value. See
Opinion 511-A, 137 FERC ¶ 61,220, at ¶ 411 n.687;
SFPP, L.P., 135 FERC ¶ 61,274, at 62,513 ¶¶ 11-12
(2011)
(describing
the
so-called
"percentage
comparison test"); see also SFPP, L.P., 117 FERC ¶
61,271, at 62,337 ¶ 5 (denying indexed rate increase to
SFPP's East Line rates where base rates already
"recover[ed] all the relevant operating and capital
costs").
SFPP's reliance on prior FERC proceedings involving
indexing, see, e.g., Opinion 435, 86 FERC ¶ 61,022, at
61,085 (2000); Opinion 435-A, 91 FERC ¶ 61,135, at
61,516 (2000), is inapposite. As SFPP admitted during
oral argument, those proceedings at most permitted
FERC to apply the full index to SFPP's rates but did
not compel it. See Oral Arg. Tr. 22:12-:15. Notably,
FERC did not address in those cases whether the
indexed rates were "so substantially in excess of the
actual cost increases incurred by the carrier," 18 C.F.R.
§ 343.2(c)(1), which it has done here. We otherwise
agree with FERC that SFPP "has failed to demonstrate

267a
that [FERC's] determination . . . is inconsistent with
precedent." FERC's Br. 48.
We therefore deny SFPP's petition on this issue.
C. FERC MUST DEMONSTRATE THAT THERE
IS NO DOUBLE RECOVERY OF TAXES FOR
PARTNERSHIP PIPELINES
The Shippers argue that FERC engaged in arbitraryor-capricious decision-making when it granted an
income tax allowance to SFPP. Specifically, the
Shippers note that, as a partnership pipeline, SFPP is
not taxed at the pipeline level. Because FERC's
discounted cash flow return on equity already ensures
a sufficient after-tax return to attract investment to
the pipeline, they argue, the tax allowance results in
"double recovery" of taxes to SFPP's partners. In
FERC's view, we already decided this issue in
ExxonMobil, where we held that FERC's policy of
permitting partnership pipelines to receive a tax
allowance was "not unreasonable" in light of "FERC's
expert judgment about the best way to equalize aftertax returns for partnerships and corporations." 487
F.3d at 953. FERC therefore posits that the Shippers'
petition in this case is an impermissible collateral
attack on our decision in ExxonMobil. Further, FERC
denies that granting a tax allowance to SFPP results
in a double-recovery of taxes and avers that any
disparity in after-tax returns to partners or
shareholders arises from the Internal Revenue Code,

268a
not from FERC's tax allowance policy. Because we
reserved the issue of whether the combination of the
discounted cash flow return on equity and the tax
allowance results in double recovery of taxes for
partnership pipelines, we disagree with FERC's
collateral attack argument. Nonetheless, we
acknowledge that our opinion in ExxonMobil stated
that it may be reasonable for FERC to grant a tax
allowance to partnership pipelines. However, because
FERC failed to demonstrate that there is no doublerecovery of taxes for partnership, as opposed to
corporate, pipelines, we hold that FERC acted
arbitrarily or capriciously. We therefore grant the
Shippers' petition.
As all parties acknowledge, this case is not the first
time that we have considered FERC's tax allowance
policy for oil pipelines. Until our decision in BP West
Coast, 374 F.3d at 1293, FERC relied on the so-called
Lakehead policy when granting tax allowances. Named
for the FERC decision in which the Commission
formalized the policy, see Lakehead Pipe Line Co., 71
FERC ¶ 61,338, at 62,314-15 (1995), the Lakehead
policy addressed the situation in which a partnership
pipeline has both corporate-partners and individualpartners. FERC therein concluded:
When partnership interests are held by corporations,
the partnership is entitled to a tax allowance in its
cost-of-service for those corporate interests because the
tax cost will be passed on to the corporate owners who

269a
must pay corporate income taxes on their allocated
share of income directly on their tax returns. . . .
However, the Commission concludes that Lakehead
should not receive an income tax allowance with
respect to income attributable to the limited
partnership interests held by individuals. This is
because those individuals do not pay a corporate
income tax.
Id.
We reviewed the Lakehead policy in BP West Coast and
held that "[w]e cannot conclude that FERC's inclusion
of the income tax allowance in SFPP's rates is the
product of reasoned decisionmaking." 374 F.3d at 1288.
In that case, we started from the principle "that the
regulating commission is to set rates in such a fashion
that the regulated entity yields returns for its
investors commensurate with returns expected from
an enterprise of like risks." Id. at 1290. Consistent
with this principle, we rejected FERC's justifications
for its Lakehead policy and held that "where there is
no tax generated by the regulated entity, either
standing alone or as part of a consolidated corporate
group, the regulator cannot create a phantom tax in
order to create an allowance to pass through to the rate
payer." Id. at 1291.
Concededly, our use of the term "phantom tax" in BP
West Coast lacked precision. This was made apparent
in ExxonMobil, as several shipper-petitioners
challenged FERC's revised tax allowance policy, which

270a
granted a full income tax allowance to both
partnership pipelines and corporate pipelines,
regardless of the identities of the partners or
shareholders. 487 F.3d at 950. We rejected the
petitioners' arguments in that case, stating that
because "investors in a limited partnership are
required to pay tax on their distributive shares of the
partnership income, even if they do not receive a cash
distribution[,] . . . the income received from a limited
partnership should be allocated to the pipeline and
included in the regulated entity's cost-of-service." Id.
at 954. FERC did not create a "phantom tax" because
it did not arbitrarily distinguish between corporate
and individual partners in a partnership pipeline, and
the Commission adequately explained why partner
taxes could be considered a pipeline cost.
In this case, the Shippers challenge the same tax
allowance policy at issue in ExxonMobil. Given that
nothing has changed with regard to this policy, FERC's
argument that the Shippers present an impermissible
collateral attack to our ExxonMobil decision is, on first
consideration, conceivable. However, as the Shippers
mention in their reply brief, FERC averred during
briefing in ExxonMobil that it was addressing the
double recovery issue in a separate proceeding. See Br.
of Resp't at 30-31, ExxonMobil Oil Corp. v. FERC, 487
F.3d 945, 376 U.S. App. D.C. 259 (D.C. Cir. 2007) (Nos.
04-1102 et al.). While we did not expressly reserve the
issue in our ExxonMobil opinion, the fact that FERC
took this position both in ExxonMobil and in an

271a
accompanying case, see Br. of Resp't at 29-30,
Canadian Ass'n of Petroleum Producers v. FERC, 487
F.3d 973, 376 U.S. App. D.C. 287 (D.C. Cir. 2007) (No.
05-1382), reflects our implicit reservation of the
question. To clarify, we held in ExxonMobil that, to the
extent FERC has a reasoned basis for granting a tax
allowance to partnership pipelines, it may do so. 487
F.3d at 955. The Shippers now challenge whether such
a reasoned basis exists based on grounds that FERC
agreed were not at issue in the prior case. We therefore
hold that the Shippers' petition is not a collateral
attack on that decision.
As to the merits, we hold that FERC has not provided
sufficient justification for its conclusion that there is
no double recovery of taxes for partnership pipelines
receiving a tax allowance in addition to the discounted
cash flow return on equity. Despite their attempts to
inundate the record with competing mathematical
analyses of whether a double recovery of taxes for
partnership pipelines exists, the parties do not
disagree on the essential facts. First, unlike a
corporate pipeline, a partnership pipeline incurs no
taxes, except those imputed from its partners, at the
entity level. See 26 U.S.C. § 7704(d)(1)(E). Second, the
discounted cash flow return on equity determines the
pre-tax investor return required to attract investment,
irrespective of whether the regulated entity is a
partnership or a corporate pipeline. See Opinion 511,
134 FERC ¶ 61,121, at ¶¶ 243-44; Shippers' Br. 6; see
also supra Part II.A (discussing the mechanics of the

272a
discounted cash flow methodology). Third, with a tax
allowance, a partner in a partnership pipeline will
receive a higher after-tax return than a shareholder in
a corporate pipeline, at least in the short term before
adjustments can occur in the investment market. See
FERC's Br. 29; Shippers' Br. 34-35; Oral Arg. Tr.
32:17-33:2.
These facts support the conclusion that granting a tax
allowance to partnership pipelines results in
inequitable returns for partners in those pipelines as
compared to shareholders in corporate pipelines.
Because the Supreme Court has instructed that "the
return to the equity owner should be commensurate
with returns on investments in other enterprises
having corresponding risks," FERC has not shown that
the resulting rates under FERC's current policy are
"just and reasonable." Hope Nat. Gas Co., 320 U.S. at
603. FERC attempts to circumvent this deduction by
arguing, first, that there is no "gross-up" in the return
rate for partnership pipelines to account for income
taxes, and, second, that any disparate treatment
between partners in partnership pipelines and
shareholders in corporate pipelines is the result of the
Internal Revenue Code, not FERC's tax allowance
policy. These arguments, which are two sides of the
same metaphorical coin, are not persuasive.
The crux of FERC's "gross-up" theory is that "in the
context of Commission rate design[,]" Opinion 511-A,
137 FERC ¶ 61,220, at ¶ 290, "the Commission does

273a
not gross up a jurisdictional entity's operating
revenues or return to cover the income taxes that must
be paid to obtain its after-tax return," id. ¶ 280. What
the Commission apparently means by this rather
obscure statement is that it imputes the income taxes
paid by partners in a partnership pipeline to the
pipeline itself, meaning that an income tax allowance
is then necessary to equalize the after-tax "entitylevel" rates of return for partnership and corporate
pipelines. See Opinion 511, 134 FERC ¶ 61,121, at ¶¶
241-50; see also Opinion 511-A, 137 FERC ¶ 61,220, at
¶ 319. Of course, when one then considers the after-tax
returns to partners or shareholders, the necessary
conclusion is that partners in a partnership pipeline
receive a windfall compared to shareholders in a
corporate pipeline, a point which FERC concedes. See
FERC's Br. at 29; Oral Arg. Tr. 32:17-33:2. FERC, in a
form of Orwellian doublethink, attributes this
disparity in returns to the Internal Revenue Code
while simultaneously denying that double-recovery
exists. See Opinion 511-A, 137 FERC ¶ 61,220, at ¶
315.
True, FERC has a justifiable basis for its attribution of
partner taxes to the partnership pipeline. In
ExxonMobil, we acknowledged that "investors in a
limited partnership are 24 required to pay tax on their
distributive shares of the partnership income, even if
they do not receive a cash distribution." 487 F.3d at
954. By contrast, "a shareholder of a corporation is
generally taxed on the amount of the cash dividend

274a
actually received." Id. For this reason, allocation of
partner-level taxes to a partnership pipeline may not
result in a "phantom tax" of the type we rejected in BP
West Coast. However, our holding in ExxonMobil did
not absolve FERC of its obligation to ensure
"commensurate . . . returns on investments" for "equity
owner[s]" as required under Hope Natural Gas, 320
U.S. at 603. Even if FERC elects to impute partner
taxes to the partnership pipeline entity, it must still
ensure parity between equity owners in partnership
and corporate pipelines. FERC's failure to do so in this
case is therefore arbitrary or capricious.
The remaining issue is the appropriate remedy. The
Shippers do not request that we overturn our decision
in ExxonMobil, which we are unable to do in any case
absent an en banc decision from the Court. See
LaShawn A. v. Barry, 87 F.3d 1389, 1395, 318 U.S.
App. D.C. 380 (D.C. Cir. 1996). But we also believe
such action is unnecessary. When questioned at oral
argument, FERC conceded that it might be able to
remove any duplicative tax recovery for partnership
pipelines directly from the discounted cash flow return
on equity. See Oral Arg. Tr. 36:3-:10. We note also that,
prior to ExxonMobil, FERC considered the possibility
of eliminating all income tax allowances and setting
rates based on pre-tax returns. See Policy Statement on
Income Tax Allowances, 111 FERC ¶ 61,139, at 61,741
(2005). To the extent that FERC can provide a
reasoned basis for such a policy, we do not read our
decision in ExxonMobil as foreclosing that option. See

275a
487 F.3d at 955 ("Arguably, a fair return on equity
might have been afforded if FERC had chosen the
fourth alternative of computing return on pretax
income and providing no tax allowance at all for the
pipeline owners."). We therefore grant the Shippers'
petition, vacate FERC's orders with respect to this
issue, and remand for FERC to consider these or other
mechanisms for which the Commission can
demonstrate that there is no double recovery.
III. CONCLUSION
For the reasons stated herein, the Court: (i) grants-inpart SFPP's petition with respect to the choice of data
for assessing SFPP's real return on equity, vacates
FERC's orders accordingly, and remands for further
proceedings consistent with this opinion; (ii) denies-inpart SFPP's petition with respect to the indexing issue;
and (iii) grants the Shippers' petition, vacates FERC's
orders with respect to the double recovery issue, and
remands to FERC for further proceedings consistent
with this opinion.
So ordered.

276a
APPENDIX G
137 FERC ¶ 61,220
UNITED STATES OF AMERICA
FEDERAL ENERGY REGULATORY COMMISSION
OPINION NO. 511-A
SFPP, L.P.

Docket Nos. IS08-390-004
IS08-390-006

ORDER ON REHEARING AND COMPLIANCE FILING

(Issued December 16, 2011)

277a
TABLE OF CONTENTS
Paragraph Numbers
I. Background.............................................................. 3
II. Test Year Definition and Throughput ................... 9
A. Opinion No. 511 ..................................................... 9
B. Rehearing ............................................................... 10
1. Rehearing Arguments ............................................ 10
2. Commission Determination ................................... 18
C. Compliance Filing .................................................. 26
1. SFPP’s Compliance Filing ...................................... 26
2. Shipper Protests ..................................................... 27
3. Commission Determination ................................... 30
III. Volumetric Allocation of Costs............................. 32
IV. Operating Expenses and Rate Design ................. 35
A. Litigation Costs ...................................................... 35
1. Opinion No. 511 ...................................................... 35
2. Rehearing ................................................................ 36
3. Compliance Filing ................................................... 43
B. Environmental Costs ............................................. 52
C. Fuel and Power Costs ............................................ 58
V. Overhead Cost Allocation ...................................... 63
A. General ................................................................... 63
1. Summary of 2009 ID Determinations.................... 63
2. Opinion No. 511 ...................................................... 65
B. Rehearing Requests ............................................... 70
1. Appropriateness of SFPP’s Cost Allocation
Methodology ................................................................. 72

278a
2. Relevance of Using Different Accounting
Methods for Different Regulatory Bodies ................... 92
3. Quality of Direct Assignments ............................... 97
4. Exclusion of Certain KMEP Subsidiaries.............. 114
5. Appropriateness of Certain Cost and Revenue
Components ................................................................. 158
6. KN Method .............................................................. 169
C. Compliance Filing on Cost Allocation Issues ........ 176
1. G&A Costs Directly Assigned to SFPP,
Pacific Pipeline Group Sub-tier, or PPL Tier ............. 179
2. G&A Costs in KMI Cross-Charge .......................... 202
3. Indirect G&A Capital Project Costs ....................... 218
VI. Capital Structure and the Cost of Capital............ 230
A. PAA ......................................................................... 230
1. Opinion No. 511 ...................................................... 230
2. Rehearing Requests ................................................ 232
3. Commission Determination ................................... 235
4. Compliance Filing ................................................... 242
B. Debt Cost ................................................................ 245
1. Opinion No. 511 ...................................................... 245
2. Rehearing Requests ................................................ 246
3. Compliance Filing ................................................... 248
C. Return on Equity.................................................... 250
1. Opinion No. 511 ...................................................... 252
2. Rehearing Requests ................................................ 253
3. Commission Determination ................................... 256
D. Rate Base and Deferred Return ............................ 260
1. Rehearing Requests ................................................ 261
2. Commission Determination ................................... 262
VII. Income Tax Allowance Issues .............................. 266

279a
A. Opinion No. 511 ...................................................... 268
B. Summary of the Requests for Rehearing ............... 273
C. Whether to Revisit the Commission’s Income
Tax Allowance Policy ................................................... 279
1. The Regulatory Context of an Income Tax
Allowance ..................................................................... 281
2. Analysis of the DCF Methodology.......................... 289
3. Comparative Analysis of MLP and Corporate
Returns......................................................................... 297
4. Capital Attraction Standard .................................. 331
5. Summary and Conclusion ...................................... 339
D. Other Legal and Policy Issues ................................ 341
1. Congressional Purpose in Permitting Energy
MLPs ............................................................................ 342
2. Interpretation of Section 7704 of the IRC ............. 347
3. Commission’s Stand-Alone Policy .......................... 354
4. Proposed Changes to SFPP’s Income Tax
Allowance and Return ................................................. 366
5. Other Issues Involving the Income Tax
Allowance Calculations ............................................... 383
VIII. Substantial Divergence Standard ..................... 393
IX. Refund Related Issues .......................................... 397

280a
137 FERC ¶ 61,220
UNITED STATES OF AMERICA
FEDERAL ENERGY REGULATORY COMMISSION
Before Commissioners: Jon Wellinghoff, Chairman;
Phillip D. Moeller,
John R. Norris, and
Cheryl A. LaFleur.
SFPP, L.P.

Docket Nos. IS08-390-004
IS08-390-006
OPINION NO. 511-A

ORDER ON REHEARING AND COMPLIANCE
FILING
(Issued December 16, 2011)
1.
This order addresses requests for rehearing of
Opinion No. 511 issued February 17, 2011 in Docket
No. IS08-390-002. 1 Opinion No. 511 addressed briefs
on and opposing exceptions to an Initial Decision
1

SFPP, L.P., 134 FERC ¶ 61,121 (2011) (Opinion No. 511).

281a
issued on December 2, 2009 concerning a cost of
service rate case filed by SFPP, L.P. (SFPP) for its
West Line rates. 2 This order also addresses SFPP’s
April 25, 2011 compliance filing submitted in
compliance
with
Opinion
No.
511. 3
2.
The Commission affirms its prior findings
regarding throughput, litigation costs,
capital
structure and the cost of capital (both debt and
equity), and all income tax allowance issues except
those related to the calculation of allowance for
deferred income taxes (ADIT). As discussed below,
2

See SFPP, L.P., 129 FERC ¶ 63,020 (2009) (2009 ID).

3 SFPP, L.P. April 25, 2011 Compliance Filing in Docket No.
IS08-390-006 (Compliance Filing).
On April 25, 2011, as
replaced on May 16, 2011, SFPP filed tariffs for its West Line
that reflect the revisions required by Opinion No. 511 and other
corrections SFPP identified in its Compliance Filing. See SFPP,
May 16, 2011, Tariff Filing, Docket No. IS11-338-000. On June
15, 2011, the Commission issued an order accepting the tariffs to
be effective June 1, 2011, subject to refund and to the outcome of
SFPP’s cost of service Compliance Filing in Docket No. IS08-390006.
See SFPP, L.P. 135 FERC ¶ 61,235 (2011).
The
Commission noted that its conditional acceptance of the tariffs
in Docket No. IS11-338-000 is subject to further order, and any
additional process that may subsequently be required upon
review of the Compliance Filing in Docket
No. IS08-390-006.
Id. P 8.

282a
the Commission generally denies the requests for
rehearing regarding overhead cost allocation except
regarding the assignment of certain costs to SFPP
and the exclusion of the KM Canada Entities. The
Commission also grants rehearing to require SFPP to
recalculate its starting rate base write-up. The
Commission grants rehearing on the issue of
substantial divergence and requires SFPP to modify
its indexing calculations. The Commission therefore
directs SFPP to make a revised compliance filing
consistent with these rulings and to recalculate the
refunds
due
its
shippers.
I.

Background

3.
On June 30, 2008, SFPP submitted, pursuant
to 18 C.F.R. § 342.4(a), revised FERC Tariff Nos. 171
and 172 to reflect proposed cost of service rates which
would result in a rate increase for all shipments on
SFPP’s West Line between Watson Station, Los
Angeles County, California and Phoenix, Arizona.
The proposed rates were protested by BP West Coast
Products LLC and ExxonMobil Oil Corporation
(together “ExxonMobil/BP”), Tesoro Refining and
Marketing
Company
(Tesoro),
ConocoPhillips
Company, Continental Airlines, Inc., Northwest
Airlines Inc., Southwest Airlines Co., US Airways,
Inc., Chevron Products Company (Chevron), and
Valero Marketing and Supply Company (together, the
ACV Shippers). The protesting shippers alleged that
SFPP failed to demonstrate a substantial divergence

283a
between SFPP’s actual costs and its current ceiling
rates such that the ceiling rates would preclude SFPP
from being able to charge just and reasonable rates.
The protesting parties raised numerous issues of
material fact regarding SFPP’s claimed actual costs
and proposed rate levels.
4.
SFPP supported its proposed rate increase
arguing that the rate increase responds to a decline in
volumes on SFPP’s West Line that are a result of a
corresponding increase in throughput to Phoenix from
SFPP’s East Line. SFPP calculated its West Line cost
of service for the test period at $47,162,000. SFPP’s
test period revenue under its then-existing rates
would have been $41,988,000, resulting in an underrecovery of approximately $5,174,000 or 12.3 percent.
SFPP projected that the test period revenue under
the proposed rates would be approximately
$47,157,000. SFPP used calendar year 2007 as the
base period for actual costs, revenue, and throughput
data. SFPP used the first nine months of 2008
(January through September) for the test period to
adjust the base period for known and measurable
changes.
5.
By order issued July 29, 2008, the Commission
accepted and suspended SFPP’s proposed rates for
the West Line to become effective August 1, 2008

284a
subject to refund. 4
The issues surrounding the
proposed West Line rates were set for hearing and
settlement judge procedures.
After settlement
discussions reached a stalemate, a hearing was held
in June 2009. The Presiding Administrative Law
Judge (ALJ) issued the Initial Decision on December
2, 2009 (2009 ID). The principal sections of the 2009
ID address (1) the base and test periods, (2) allowed
return, (3) income tax allowance, (4) the level and
allocation of operating and maintenance expenses, (5)
the throughput volume level for determining rates,
and (6) classification of costs for Account No. 590.
The 2009 ID concluded that the just and reasonable
going-forward rates for the West Line are those rates
calculated after all of the adjustments ordered by the
ALJ are implemented. Subsequently, the parties filed
briefs on exceptions and briefs opposing exceptions.
6.
In Opinion No. 511, the Commission generally
affirmed the ALJ’s determinations. However, the
Commission determined that several issues required
revisions. Specifically, the Commission modified the
ALJ’s findings regarding throughput, purchase
accounting adjustments, the allocation of litigation
costs, and some rate base and secondary cost of
service issues. The Commission ordered SFPP to file
4

SFPP, L.P., 124 FERC ¶ 61,103 (2008).

285a
an enhanced overhead cost recovery analysis, revised
tariffs, and an estimated refund report consistent
with the conclusions in Opinion No. 511.
The
Commission affirmed most of the other rulings by the
ALJ, including his holdings regarding goodwill, the
allocation of costs among SFPP’s affiliates, and
between SFPP’s jurisdictional and non-jurisdictional
services, and most capital structure and income tax
allowance issues.
7.
On April 25, 2011, SFPP submitted its
Compliance Filing in response to Opinion No. 511 in
Docket No. IS08-390-006. The Compliance Filing
contains the cost of service information SFPP filed to
support the revised West Line rates, including the
further justification of SFPP’s overhead cost
allocations required by the Opinion No. 511.
8.
SFPP, Tesoro, ExxonMobil/BP, and the ACV
Shippers request rehearing of Opinion No. 511. 5
These rehearing requests are summarized below and
then addressed by topic. Each section of this order
also contains a discussion of issues that were properly
raised in the parties’ comments and reply comments
on the SFPP Compliance Filing. The Commission
5 This order uses “Shipper Parties” to reference more than one of
the shipper litigants in this proceeding.

286a
does not address any comments raising matters that
should have been addressed in the parties’ rehearing
requests or which only repeat the arguments in those
rehearing requests. It is well established that the
only matter to be addressed in a compliance filing is
whether that filing conforms to the rulings of the
relevant order, in this case Opinion No. 511. 6 The
Shipper Parties’ requests for rehearing also contain
numerous quotations and citations to the findings of
an Initial Decision in Docket
No. IS09-437-000, 7
SFPP’s pending East Line rate case (East Line ID).
No part of the record in that docket is before the
Commission in the instant docket and the East Line
ID has no precedential value in this proceeding.
Therefore, they are accorded no weight here. 8
Kern River Gas Transmission Co., Opinion No. 486-D, 133
FERC ¶ 61,162, at P 84, 89 (2009). (Opinion No. 486-D).
6

7

SFPP, L.P., 134 FERC ¶ 63,013 (2011) (East Line ID).

8 Texas New Mexico Power Company v. El Paso Electric
Company, 110 FERC ¶ 61,258, at P 10 (2005); KeySpan Energy
Development Corporation v. New York Independent Sys.
Operator, Inc., 108 FERC ¶ 61,201, at P 4 (2004); see also Illinois
Power Co., 62 FERC ¶ 61,147, at 62,062 n.17 (1993); Southern
Company Services, Inc., 61 FERC ¶ 61,339, at 62,336 n.63
(1992).

287a
VII.

Income Tax Allowance Issues

266. This part of the order addresses income tax
allowance issues raised on rehearing. The discussion
includes the following: (1) a summary of Opinion No.
511, (2) a summary of the issues on rehearing, (3)
whether the Commission’s current income tax policy
should be revisited, (4) whether granting a master
limited partnership (MLP) an income tax allowance
results in a double recovery of the partner’s income
taxes, (5) whether an MLP income tax allowance is
inconsistent with Congressional purpose and the
Commission’s rate authority, (6) whether certain
aspects of the Commission’s MLP income tax
allowance methodology violate the stand-alone
doctrine, (7) whether an MLP’s regulatory return
should be adjusted to reflect the benefit of tax
deferrals from owning a partnership interest, and (8)
computational issues, including allowance for
deferred income taxes (ADIT) and the proper source
for
state
income
taxes.
267. The Commission denies all requests for
rehearing asserting that a jurisdictional MLP should
not have an income tax allowance or that there
should be adjustments to an MLP’s return or cost of
service to reflect the benefits of an income tax
allowance. The Commission grants one rehearing
request regarding the method for calculating SFPP’s
ADIT. As with most other matters addressed by this
order, the Commission finds that the comments of the

288a
Shipper Parties on SFPP’s April 25, 2011 Compliance
Filing do not assert that the SFPP failed to comply
with the directions of Opinion No. 511 in calculating
the income tax component of its regulatory cost of
service. Rather, they repeat the numerous arguments
opposing SFPP’s income allowance contained in their
requests for hearing. Therefore the Commission will
accord
no
weight
to
those
comments.
A.

Opinion No. 511

268. Opinion No. 511’s analysis of income tax
allowance issues included the following: (1) whether
the Commission’s income tax allowance policy should
be revisited, (2) the appropriateness of that policy’s
implementing methodology, (3) the relevance of the
Commission’s stand-alone methodology, (4) proposed
adjustments to SFPP’s rate-of-return on equity (ROE)
to reflect any benefits that may flow from income
taxes deferrals, (5) issues involving accumulated
deferred income taxes, and (6) the method for
determining the marginal tax rate for the state
income
tax
component
of
any
allowance.
342

269.
342

In response to arguments that the Commission

Opinion No. 511, 134 FERC ¶ 61,121 at P 219-321.

289a
should revisit its income tax allowance policies,
Opinion No. 511 concluded that ExxonMobil Oil
Corporation v. FERC 343 correctly held that income
taxes are a real, if imputed, business and regulatory
cost for partnerships. 344
Opinion No. 511 thus
rejected arguments that BP West Coast Products,
LLC v. FERC 345 is still good law and that a
partnership income tax allowance compensates for
“phantom taxes,” that is for an income tax cost that a
partnership does not incur. 346 Opinion No. 511
further concluded that the fact that cash distributions
may be made to a partner and thereby reflected in the
after-tax ROE percentages generated by the
Commission’s discounted cash flow (DCF) model does
not mean that there is a double recovery of a
partner’s income tax liability. 347 Opinion No. 511 also
acknowledged that because there is no double
343 ExxonMobil Oil Corporation v. FERC, 487 F.3d 945 (D.C. Cir.
2007) (ExxonMobil).
344

Opinion No. 511, 134 FERC ¶ 61,121 at P 230-231.

BP West Coast Products, LLC v. FERC, 374 F.3d 1263 (D.C.
Cir. 2004) (BP West Coast).
345

346

Opinion No. 511, 134 FERC ¶ 61,121 at P 232-240.

347

Id. P 241-250, 261-262.

290a
taxation of a partner’s income, a partner can expect to
receive more after-tax cash than a corporate
shareholder. 348 Opinion No. 511 recognized that this
results in more cash flows flowing through the DCF
model that is used to determine a jurisdictional
pipeline’s ROE. 349 Therefore, the equity units of a
partnership will have a higher market value than the
shares of a corporation due to the double taxation on
any
dividends
paid
to
the
corporation’s
No. 511 also concluded
shareholders. 350 Opinion
that this higher market value occurs because
financial markets will equalize the percentage return
on the equity securities of partnerships and
corporations of the same risk. 351 Thus, although the
dollar return to the partnership’s partner may be
higher than that of a corporate shareholder, the
percentage ROE will be
the same for jurisdictional pipeline securities of the
same risk. 352 Opinion No. 511 held this is consistent
348

Id. P 245.

349

Id.

350

Id. P 239, 257-258.

351

Id. P 249.

352

Id. P 245-246, 249.

291a
with

the

Hope

capital

attraction

standard. 353

270. Opinion No. 511 also recognized that the
MLP’s higher equity price per unit gives it an
advantage in raising equity capital as the higher unit
price means that an MLP can issue fewer equity units
than a corporation to obtain the same dollar amount
of capital, which lowers the MLP’s equity cost of
capital. 354 It further concluded that this financial
advantage reflects Congress’ intention to encourage
investment in energy-related facilities. Opinion No.
511 concluded that this financial incentive is not
inconsistent with the Commission’s ratemaking
responsibilities under the Interstate Commerce Act,
or with the capital attraction standard underpinning
a jurisdictional entity’s rates of return. 355 Opinion
No. 511 also held that the presumptions the
Commission uses to determine the marginal tax rates
that are used to impute taxes to a jurisdictional
partnership do not incorporate a double recovery of a
partner’s income taxes via the DCF model. 356 Opinion
Id. P 259 (citing Fed. Power Comm’n v. Hope Natural Gas
Co., 320 U.S. 591, 605 (1944) (Hope)).

353

354

Id. P 249-250.

355

Id. P 251-259, 261-262.

356

Id. P 296.

292a
No. 511 again concluded that granting an income tax
allowance to a jurisdictional MLP is not unfair to its
rate payers since an MLP’s revenue requirement is no
higher than that of a jurisdictional corporate
pipeline. 357 It also held that the Shipper Parties had
not proven that MLPs had a higher cost of service and
revenue requirement based on a statistical analysis of
the fact that MLP natural gas pipelines had higher
ROEs than corporate natural gas pipelines in 2007
and 2008. 358 Opinion No. 511 therefore concluded
that granting a jurisdictional MLP an income tax
allowance does not result in a phantom income tax
cost, the double recovery of the partner’s income tax
liability, or unjust or unreasonable rates.359
271. With regard to the methodology used to
implement the Commission’s income tax allowance
policy, Opinion No. 511 stated that a partner’s income
tax Form K-1 showing positive or negative
partnership income was sufficient to prove that an
MLP met the actual or potential income tax standard
affirmed by ExxonMobil. 360 Opinion No. 511 also held
357

Id. P 261.

358

Id. P 298-304.

359

Id. P 249-50, 258, 259, 261, 296.

360

Id. P 273 (citing December 2007 Order, 121 FERC ¶ 61,240 at

293a
that positive (taxable) partnership income need not be
recognized in the base or test year to obtain an MLP
income tax allowance 361 and that the actual date of
recognition did not need to be known or projected
with certainty. 362 Opinion No. 511 also rejected
arguments that the capital gains taxes from future
sales of equity interest are reflected in the
Commission’s income tax allowance methodology.363
It also held that use of incentive distributions is not
inequitable nor do income allocations to the general
partner violate the Commission’s stand-alone
doctrine. 364
It further concluded that any
distributions paid to a mutual fund should reflect
that marginal rate paid on those dividends by the
shareholder, i.e., whether they are qualified or
ordinary dividends for taxation purposes. 365 Opinion

P 27).
361

Id. P 271-274.

362

Id. P 280-282.

363

Id. P 275-277.

364

Id. P 283-291.

365

Id. P 292-295.

294a
No. 511 also held that the state income tax
component of an income tax calculation should be
based on the source state of the partner’s income.366
272. Opinion No. 511 did recognize that there are
tax deferrals that benefit the partners investing in
the MLP format, but that these deferrals and any
related tax savings serve to encourage infrastructure
investment. Thus the Commission need not pass such
tax savings back to the rate payers as any such
savings are already reflected in a higher price for the
partnership equity units. 367
Opinion No. 511
therefore rejected all proposed adjustments to SFPP’s
ROE to reflect the present value of benefits that
might flow to a partner from income tax deferrals
resulting from the ownership of an MLP’s equity
interests. As with the analysis of the double counting
issue, it concluded that if there are tax savings from
such deferrals, any such deferrals or tax savings
reflect Congress’ intention to encourage investment in
energy MLPs. 368 Opinion No. 511 likewise held that
any tax savings that might result from the mandatory
366

Id. P 314.

367

Id. P 302-308.

368

Id.

295a
election of section 743(b) depreciation do not violate
the Commission’s stand-alone doctrine and thus any
time value of tax savings from such depreciation need
not be normalized for the rate payer’s benefit.369
Opinion No. 511 also held that in calculating its cost
of service, SFPP must use the highest marginal tax
rate in effect in any tax year in calculating the ADIT
component of its rates under the Opinion No. 154-B
oil
pipeline
rate
methodology.370
B.

Summary of the Requests for Rehearing

273. ExxonMobil/BP and ACV Shippers filed
extensive requests for rehearing of Opinion No. 511’s
findings regarding MLP income tax allowances.
Their central argument is that SFPP may not be
provided an income tax allowance as this will result
in double recovery of its partners’ income tax liability.
Shipper Parties claim this will occur because the cash
flow to pay those taxes is already embedded in the
after-tax returns calculated by the Commission’s DCF
model. 371 They assert that unlike previous SFPP
369

Id. P 309-311.

370

Id. P 320; Opinion No. 154-B, 31 FERC ¶ 61,377.

371 ExxonMobil/BP Rehearing at 3, 7-9, 13-15; ACV Rehearing at
9-10, 14-15, 20-21.

296a
proceedings that addressed income tax allowance
issues, this double recovery of an MLP’s partner’s
income taxes is clearly established by the record in
this proceeding. They assert that given this new
evidence the Commission may not stand on its
current income tax allowance policy and its
regulatory methodology implementing that policy.
Rather, as a matter of law, the Commission must
revisit its income tax allowance policy given this new
evidence that the double recovery of an MLP’s
partner’s income tax liability will result in rates that
are excessively high and therefore are unjust and
unreasonable. 372
274. The Shipper Parties also assert that the
Commission’s current income tax allowance policy is
grounded on an arbitrary and inaccurate concept of
parity that equates the after-tax returns of MLP
partners on their equity in a jurisdictional
partnership’s rate base and the after-tax ROE on the
equity component of the rate base of a jurisdictional
corporation having the same risk. 373 They assert that
the record establishes that both ExxonMobil and the
Commission incorrectly compare an MLP partner’s
372

ExxonMobil/BP Rehearing at 9-13; ACV Rehearing at 10-14.

373

ExxonMobil/BP Rehearing at 28-37; ACV Rehearing at 15-16.

297a
return to a corporation’s return. Shipper Parties
maintain that the proper comparison of the after-tax
dollar and percentage ROEs is between those
obtained by an MLP’s partners and a corporation’s
shareholders. 374
They claim that the capital
attraction standard under Hope 375 requires investors
in pipeline enterprises of similar risks to receive
comparable after-tax ROEs. The investors are the
equity holders of the MLP or the corporation.376
Shipper Parties further argue that granting an MLP
an income tax allowance results in higher after-tax
cash flow for the partners and a higher revenue
requirement for the MLP even though the income tax
burden to its partners is less than a corporation’s and
its shareholders’ tax burden. 377
Shipper Parties
assert that because the partners double recover their
income taxes they will obtain an ROE greater than
that required to attract capital, which violates the
374 ExxonMobil/BP Rehearing at 27-30, 32-36; ACV Rehearing at
26-30.
375

320 U.S. 591, 605.

ExxonMobil/BP Rehearing at 27-28, 33-34, 36; ACV
Rehearing at 10, 21-22, 28-29.

376

ExxonMobil/BP Rehearing at 24, 40, 57; ACV Rehearing at
24-26.

377

298a
capital attraction standard. 378 They assert that this
double recovery gives an MLP a financial and
regulatory advantage over a corporation that comes
at the cost of excessively high rates for an MLP’s
shippers. 379 They conclude that the remedy; i.e., to
obtain parity between investors in MLPs and
corporations, is to deny MLPs an income tax
allowance. 380
275. The Shipper Parties also assert that Congress
did not grant the Commission authority to permit
jurisdictional MLP pipelines to double recover an
MLP’s investor tax liability when Congress exempted
certain partnerships from corporate tax liability.381
They further assert that Opinion No. 511 improperly
relied on Congressional silence in reaching the
opposite conclusion. 382 In that regard, the Shipper
ExxonMobil/BP Rehearing at 16, 27-28; ACV Rehearing at 10,
21-22.

378

379

ExxonMobil/BP Rehearing at 22-24; ACV Rehearing at 18-19.

ExxonMobil/BP Rehearing at 31-32, 37-38; ACV Rehearing at
25-26, 30.

380

381 ExxonMobil/BP Rehearing at 38-40; ACV Rehearing at 30-31,
37-39.
382

ExxonMobil/BP Rehearing at 42-44; ACV Rehearing at 31-33,

299a
Parties assert the legislative history cited in Opinion
No. 511 does not support the Commission’s
conclusions that (i) an MLP income tax allowance is
lawful and (ii) section 7704 of the Internal Revenue
Code (IRC) authorized an MLP income tax
allowance. 383 They also argue that Congress did not
authorize the Commission to permit a monopoly
pipeline to retain the savings from any income tax
allowance exemptions. 384 Shipper Parties urge the
Commission to pass all savings through to rate
payers, 385 particularly since Congress has stated
when it would permit a pipeline to retain those
savings. 386 They assert that the just and reasonable
ratemaking standard and judicial precedent requires
that
same
result.387

39-41.
383 ExxonMobil/BP Rehearing at 53-57; ACV Rehearing at 33-35,
50-57.

ExxonMobil/BP Rehearing at 48-49, 68-70; ACV Rehearing at
35-37, 41-42.
384

ExxonMobil/BP Rehearing at 49-50; ACV Rehearing at 41-42,
47-49.
385

386

ExxonMobil/BP Rehearing at 51-52; ACV Rehearing at 49-50.

300a
276. The Shipper Parties further claim that if an
income tax allowance is afforded an MLP, then the
Commission must assure that any tax savings from
the avoidance of double taxation or from tax deferrals
that benefit the MLP or its partners are passed on to
the rate payers. 388 In that regard they argue that
Opinion No. 511 contains two conclusions that are
inconsistent with the Commission’s stand-alone
doctrine.
They claim that including incentive
distributions in the calculation of an MLP’s income
tax allowance improperly shifts distributive income
from the limited partners to the general partner. 389
They also assert that the limited partners’ use of an
IRC section 743(c) deduction provides the limited
partners benefits requiring an adjustment to SFPP’s
ROE. 390 They state that this should be done by
adjusting the MLP’s ROE to reflect the present value

ExxonMobil/BP Rehearing at 41-42, 49-51; ACV Rehearing at
17-18, 30, 32-33.
387

ExxonMobil/BP Rehearing at 58-61, 64-65, 67-70; ACV
Rehearing at 47-50.
388

389

ACV Rehearing at 58-64.

390

ExxonMobil/BP Rehearing at 49-51, 65-67.

301a
of any benefits that occur. 391 The Shipper Parties
also contend that the Commission incorrectly stated
that an income tax allowance is required to assure
that jurisdictional MLPs will be able to compete for
equity capital with non-jurisdictional MLPs in
competitive markets as the jurisdictional MLPs are
monopolies that do not require such an allowance.392
They also argue that the state income tax rate used to
determine SFPP’s income tax allowance incorrectly
uses the marginal tax rate of the source state rather
than that of the taxpayer’s residence. 393
277. The Shipper Parties therefore urge the
Commission to reverse Opinion No. 511 and to adopt
the financial analysis advanced at hearing by their
witness Dr. Horst. Based on his conclusion that MLP
partners double recover their income taxes if the MLP
receives an income tax allowance, the Shipper Parties
request that the Commission (1) deny SFPP an
income tax allowance, 394 or (2) reduce SFPP’s income
tax allowance to 78.4 percent of the standard
391

Id. at 58-60, 63-65.

392

Id. at 41-42, 48-49; ACV Rehearing at 42-48.

393

ExxonMobil/BP Rehearing at 70-72.

394

Id. at 7, 11, 16-17, 19, 44.

302a
calculation to reflect the tax benefits that limited
partners receive from owning equity interests in
SFPP’s parent MLP partnership, KMEP. 395 Such an
adjustment, together with an adjustment to reflect
the proper calculation of the state income tax
allowance, would reduce the marginal tax rate on
SFPP’s income by approximately two percent. 396
278. SFPP has two requests for rehearing on
income tax issues related to its ADIT calculation. It
first asserts that Opinion No. 511 incorrectly required
the use of the statutory maximum rate to calculate
the allowance for deferred income taxes (ADIT) to be
used in years prior to the 2007 base period in this
proceeding. 397 Second, it asserts that the Commission
did not select the right date for the application of its
Income Tax Allowance Policy Statement 398 to SFPP’s
ADIT calculation. 399 SFPP’s reply comments on its
395

Id. at 62-63.

396

Id. at 72.

397

SFPP Rehearing at 22-27.

Inquiry Regarding Income Tax Allowances, 111 FERC ¶
61,139 (2005) (Income Tax Policy Statement).

398

399

SFPP Rehearing at 27-30.

303a
April 25, 2011 Compliance Filing support the income
tax allowance holdings in Opinion No. 511 and reject
the arguments contained in the Shipper Parties’
rehearing requests and their comments on SFPP’s
Compliance
Filing.
C.
Whether to Revisit the Commission’s
Income Tax Allowance Policy
279. This part of the order addresses the Shipper
Parties’ assertions that the Commission should
reverse Opinion No. 511 and thereby hold that BP
West Coast remains good law in light of the new
record evidence in this proceeding. This section first
reviews the regulatory framework governing MLP
income tax allowances, which was discussed in detail
throughout the income tax allowance part of Opinion
No. 511. 400 The order then addresses in detail several
technical issues that underpin the Shipper Parties’
core argument that providing an MLP an income tax
allowance causes the MLP partners to double recover
the income taxes on the distributive income they are
allocated by an MLP.
Those issues include
regulatory, accounting, and financial arguments that
the Shipper Parties advance in support of their
central conclusion that ExxonMobil incorrectly held
400

Opinion No. 511, 134 FERC ¶ 61,121 at P 219-321.

304a
that granting an MLP an income tax allowance was
reasonable and could be appropriately included in an
MLP’s regulatory cost of service. 401 These arguments
are centered on the Shipper Parties’ assertion that an
income tax allowance double recovers the MLP
partners’ income tax liability because that liability is
already priced into the ROE generated by the
Commission’s DCF model. At bottom this is not a
legal determination but a financial, accounting, and
mathematical issue. Therefore, this order addresses
the technical issues in detail within the context of the
regulatory framework discussed in Opinion No. 511.
Those analyses include a review of the Commission’s
DCF model, an analysis of Dr. Horst’s testimony and
analysis on behalf of the Shipper Parties, the
Commission’s analysis of the relative after-tax ROEs
of partnerships and corporations, an analysis of
certain portions of Opinion No. 511, including Ex.
SFP-98 and Ex. SFP-99, and a discussion of the
capital
attraction
standard.
280. The Commission’s analysis here also includes a
series of Commission-drafted tables (Tables 1 through
7) that illustrate that granting an income tax
allowance does not result in the double recovery of a
MLP partner’s income tax liability. In doing so, the
401

ExxonMobil, 487 F.3d at 952-554.

305a
Commission explains and corrects a methodological
error in Ex. SFP-98 and Ex. SFP-99 that could lead
one to the opposite conclusion. The following analysis
also establishes that the revenues required to cover a
partner’s income tax liability can be obtained either
by grossing up a non-jurisdictional entity’s operating
revenues, as such a revenue gross up would be
reflected in the DCF analysis, 402 or by obtaining an
income tax allowance, but not both. In contrast to the
way in which income taxes are grossed up outside the
context of Commission regulation, the Commission
does not gross up a jurisdictional entity’s operating
revenues or return to cover the income taxes that
must be paid to obtain its after-tax return. Rather
the income taxes on the jurisdictional entity’s allowed
equity return are covered through the income tax
allowance. Thus there is no double recovery of a
partner's income tax liability by providing an income
tax allowance to an MLP. ExxonMobil correctly

402 The revenue gross up is the additional revenue the firm must
earn to pay the income taxes on its net operating revenue and
thereby obtain an adequate after-tax return. For example, if the
firm desires an after-tax return of $100 and its marginal tax rate
is 35 percent, it must gross up its operating revenue sufficiently
to generate approximately $154 in pre-tax income. After
payment of the income taxes, the result is after-tax income of
$100, the desired dollar return provided in this example. Id.

306a
affirmed granting MLPs an income tax allowance. 403
1.
The Regulatory
Income Tax Allowance

Context

of

an

281. The central issue Shipper Parties assert is that
the Commission must revisit its income tax policy
because the record here purportedly establishes that
granting an income tax allowance to an MLP results
in a double recovery of the MLP’s partners’ income
taxes.
Shipper Parties also argue that an
administrative agency is required to reexamine its
existing policies if there are reasonable grounds to
conclude that those policies are no longer sound and
that failure to do so would be arbitrary and
unreasonable. 404
For example, ExxonMobil/BP
contend that the record here establishes that an MLP
pipeline that is allowed an income tax allowance has
a higher revenue requirement and higher rates than
The focus on this proceeding is on MLPs given the increased
ownership of jurisdictional assets by such entities. However the
income tax allowance issues discussed here are applicable to any
other type of jurisdictional partnership. Therefore, this order
uses the term “partnership” to reflect all types of FERC
jurisdictional partnerships and uses the term “MLP” when
specifically addressing master limited partnership issues.
403

404

ExxonMobil/BP Rehearing at 9-13; ACV Rehearing at 10-14.

307a
a corporate pipeline. 405 Shipper Parties, therefore,
argue that Opinion No. 511 erred by following
ExxonMobil. 406 They conclude that on rehearing the
Commission should hold that providing an MLP an
income tax allowance results in the double recovery of
an MLP partner’s income taxes and compensates the
MLP partners for an unjustified cost in violation BP
West
Coast. 407
282. In Opinion No. 511, the Commission provided
a detailed review of its income tax allowance policies.
Except as necessary to respond to an argument on
rehearing, the Commission will not repeat Opinion
No. 511’s discussion of the mechanics of the
Commission’s income tax allowance policy, but
reiterates here the more important statements in
ExxonMobil. 408
In upholding the Commission’s

405

ExxonMobil/BP Rehearing at 24, 38-39, 40.

406

ExxonMobil/BP Rehearing at 9, 12-14; ACV Rehearing at 14-

15.

ExxonMobil/BP Rehearing at 13, 17, 19, 26, 38, 40 (citing BP
West Coast, 374 F.3d at 1291, 1293); ACV Rehearing at 9-10, 14,
31, 37-38.
407

408

Opinion No. 511, 134 FERC ¶ 61,121 at P 221-321.

308a
Income Tax Policy Statement 409 and the June 2005
Order 410 implementing that Policy Statement, the
court in ExxonMobil agreed that tax liability for
partnership income occurs at the partner level, and
that the partner is responsible for any taxes on
distributive income from the partnership. 411 The
court
stated:
In the Policy Statement and the Remand
Order, the Commission resolved the principal
defect of the Lakehead policy, which was the
unexplained
differential
treatment
of
individual and corporate partners. FERC
then determined that it would be ‘just and
reasonable’ to grant regulated pipelines an
income tax allowance to the extent that all of
the pipeline’s partners – whether individual
or corporate – incur actual or potential tax
liability.
The Commission reasonably
409

Income Tax Policy Statement, 111 FERC ¶ 61,139.

410

June 2005 Order III FERC ¶ 61,334 at P10-46.

411 ExxonMobil, 487 F.3d at 951-52, 954 (holding that under the
principles of partnership law “investors in a limited partnership
are required to pay tax on their distributive shares of the
partnership income, even if they do not receive a cash
distribution”).

309a
determined that such taxes are ‘attributable’
to the regulated entity, given that partners
must pay tax on their share of the
partnership income regardless of whether
they actually receive a cash distribution.
Additionally, the Commission reasonably
relied upon evidence that a full income tax
allowance is necessary to ensure that
corporations and partnerships of like risk
will earn comparable after-tax returns. 412
The court then reviewed a comparison of the pre- and
after-tax returns of a corporation and the partners of
an MLP absent an income tax allowance:
In the Policy Statement, FERC concluded
that it would be inequitable to grant a full
income tax allowance to corporations while
denying a similar allowance to limited
partnerships. For example, if the corporate
tax rate is 35 percent, then a pipeline that
operates as a corporation is permitted to
charge a rate of $154 in order to earn aftertax income of $100. As several commenters
pointed out, ‘if an income tax allowance is not
allowed the partnership, then the partners
412

Id. at 955 (emphasis added).

310a
must pay a $35 income tax on $100 of utility
income, leaving them with only an after-tax
return
of
$65.’413
The court continued:
Based on these comments, the Commission
has determined that pipelines operating as
limited partnerships should receive a full
income tax allowance in order to maintain
parity with pipelines that operate as
corporations.
This conclusion was not
unreasonable and we defer to FERC’s expert
judgment about the best way to equalize
after-tax returns for partnerships and
corporations. 414
Having again concluded that partnerships have the
equivalent of an entity level tax, albeit indirect, on a
regulated entity’s income, the court stated:
And

there

is

at

least

one

aspect

of

Id. at 953 (interior citations omitted). See also Composition of
Proxy Groups for Determining Gas and Oil Pipeline Return on
Equity, 123 FERC ¶ 61,048, at P 10-15 (2008) (Proxy Group
Policy Statement).
413

414

ExxonMobil, 487 F.3d at 953 (emphasis added).

311a
partnership law that supports FERC’s
conclusion but was not advanced by the
Commission in BP West Coast – investors in
a limited partnership are required to pay tax
on their distributive shares of the
partnership income, even if they do not
receive a cash distribution. As explained
above, this supports FERC’s determination
that taxes on the income received from a
limited partnership should be allocated to the
pipeline and included in the regulated
entity’s cost of service.
In this sense,
petitioners’ likening of partnership tax to
shareholder dividend tax is inapposite
because a shareholder of a corporation is
generally taxed on the amount of the cash
dividend
actually
received.415
Through these holdings the court recognized that an
MLP’s partner and a corporation must pay taxes on a
jurisdictional entity’s income, but that a corporation’s
shareholders only pay taxes on cash dividends and as
such only on income that is actually received.
Therefore, dividends are not jurisdictional income
that is used to measure the return on the equity

415

Id. at 954-55 (citations omitted) (emphasis added).

312a
component of a jurisdictional entity’s rate base.416
The court also recognized that to obtain a regulatory
after-tax return of $100, taxable income must be $154
assuming a 35 percent marginal tax rate. 417 This
requires pre-tax net income of $154, or a gross up of
$54. 418 The Commission’s rate design methodology
provides this through the income tax allowance, not
by grossing up the firm’s operating revenues to cover
the income tax liability. 419 In contrast, a nonjurisdictional entity would gross up its operating
revenue to reach the $154 in pre-tax net income,
which after payment of the income taxes results in
the required after-tax return of $100.
In fact, at bottom BP West Coast concurs in this basic fact and
the distinction is central to its conclusions. See BP West Coast,
374 F.3d at 1290-91.
416

417

ExxonMobil, 487 F.3d at 953.

The standard formula for calculating the amount of the gross
up necessary to cover the income taxes on any given dollar of
pre-tax income is 1/(1- the marginal tax). Thus, if the desired
after-tax income and return is $100 and the marginal tax rate is
35 percent, the formula is $100/(1-.35), or approximately $154.
The exact amount is $153.85. This order uses the rounded $154
as was done in ExxonMobil. See ExxonMobil, 487 F.3d at 953.
418

See Appendix for how this is done under the Commission’s
rate design methodology.

419

313a
283. On rehearing, Shipper Parties assert that
ExxonMobil incorrectly held that it is necessary to
provide an income tax allowance to an MLP in order
to obtain an after-tax dollar return of $100. They
state that the new evidence provided in this case
establishes that it is not necessary to provide the
income tax allowance of $54 discussed in ExxonMobil.
Their argument is that the $54 “gross up” discussed
in that opinion is provided through the tax gross up
embedded in the after-tax returns generated by the
Commission’s DCF model.
In essence, their
conclusion is that the after-tax return included in the
return component of the MLP’s regulatory cost of
service generates the cash flow needed to provide the
required after-tax regulatory rate of return. They
claim that this in turn will equalize the after-tax
dollar cash flows of partners and shareholders if there
is no MLP income tax allowance. Their position
thereby rejects the conclusion in ExxonMobil that
comparison of returns should be at the entity level.
At bottom, Shipper Parties’ analytical position is that
the after-tax cash flows reflected in the ROEs
generated by the DCF model have the same purpose
and structure as the cash flows the Commission
develops
in
the
context
of
rate
design.
284. The Shipper Parties’ position is fundamentally
incorrect because it rejects the distinction between
how revenue is grossed up to cover taxes outside the
context of Commission ratemaking and how income

314a
taxes are covered in the context of Commission
ratemaking. As previously stated, outside the context
of Commission ratemaking a firm grosses up its
operating revenues and return by the amount
necessary to pay its income taxes and to obtain the
$100 after-tax return discussed in ExxonMobil.
However, under the Commission’s rate design
methodology, the pipeline’s cost of service contains a
series of discreet cost of service components that form
a part of its regulatory cost of service before income
taxes. This is shown by Appendices A and B, both of
which demonstrate that rate base return, operating
expenses exclusive of depreciation, depreciation, and
two other items are stated as specific dollar amounts
that would be based on test year numbers developed
in a general rate case proceeding. 420 Appendices A
and B make clear that these cost of service
components are not “grossed up” to provide additional
operating revenue that would cover income taxes
420 See SFPP 2010 FERC Form No. 6, Page 700, Appendix A
hereto.
Appendix B reproduces Statement A of SFPP’s
Compliance Filing and similarly shows separate cost of service
components for overall return on rate base, income tax
allowance,
operating
expenses
excluding
depreciation,
deprecation and certain specialized amortizations. See also
April 25 Compliance Filing at Statement A; see also Attachment
B hereto. See also Williston Basin Pipeline Co. v. FERC, 165
F.3d 54, 57 (D.C. Cir. 1999) (Williston).

315a
outside the context of ratemaking. In other words,
the pipelines rate design will only reflect the specific
dollar amounts derived from each of the pipeline’s
cost of service components. Because those cost of
service components are not grossed up in the
pipeline’s rates, the cash flow necessary to pay the
taxes on the equity dollar return must be derived
from another source. Under the Commission’s rate
design methodology this is achieved through the
income tax allowance which becomes the equivalent
of a revenue and return gross up outside the context
of Commission rate design. 421 Thus, in the context of
rate design the Commission limits a pipeline’s pre-tax
income to the dollar amount of its equity dollar return
component.
Absent an income tax allowance a
jurisdictional entity will not have the cash flow
necessary to pay the income taxes on its income and
obtain its regulatory ROE as stated by the analysis in
ExxonMobil.
285. To illustrate this critical difference between
how the required tax “gross up” functions within and
outside the context of Commission rate design, the
Commission developed two tables that do not involve
421 For the calculation of the gross up for tax purposes see SFPP
Compliance Filing at Statement D, appended to this order as
Appendix C.

316a
the complications of the corporate business model.422
Moreover, because of the continuing controversy
regarding the pass-through characteristics of
partnerships, these two tables display the results for
a partnership and an individual owning a sole
proprietorship as there is no dispute here that the
income taxes are a cost of doing business to such an
individual.
Table 1 therefore compares a sole
proprietor and a partnership that are not subject to
the Commission’s rate jurisdiction. Examples 1 and 3
of Table 1 assume that both business formats have
only enough revenue to cover operating costs and
earn pre-tax income of $100. With a marginal tax
rate of 35 percent, in Examples 1 and 3 after-tax
income drops to $65 dollars, or an after-tax return on
the firm’s equity of 6.5 percent. This is less than the
posited required 10 percent after-tax ROE required
by its investors and the capitalized value of both
firms is only $650. In contrast, Examples 2 and 4
show that if both firms are able to gross up revenues
by an additional $54, then pre-tax income is $154.
As with the parties’ analyses, the Commission’s examples
exclude the growth factor from the equity cost of capital. This
simplifies that analysis, but does not change the results. See
Opinion No. 511, 134 FERC ¶ 61,121 at P 244 n.415; Ex. SFP-94
at
42-43. The analysis also assumes that cash from
deprecation is reinvested to maintain the same level of utility.
Therefore that cash neither causes growth nor is it distributed.
422

317a
After payment of the income taxes, after-tax income is
$100, and their capitalized market value is $1000. By
grossing up their revenue both firms earn their
required
after-tax
equity
cost
of
capital.
286. Table 1 also addresses Shipper Parties’
assertion that a MLP should not receive an income
tax allowance because an MLP does not actually pay
the income taxes. 423 ExxonMobil rejected this point
stating that the Commission reasonably concluded
that the taxes a partner must pay on partnership
income should be imputed to the partnership. 424 As
such, this federal precedent preempts any state
decisions to the contrary.
In contrast to any
arguments that income taxes are not part of a
partnership's cost of business, Table 1 shows that the
Motion of Chevron Products Company, Conoco Phillips
Company, Continental Airlines, Inc., Northwest Airlines, Inc.,
Southwest Airlines Co., US Airways, Inc., and Valero Marketing
and Supply Company to Lodge the decisions of the Public
Utilities Commission of the State of California and the Arizona
Corporation Commission dated July 5, 2011. The motion to
lodge is denied because the actions of state regulatory agencies
at issue here are inconsistent with ExxonMobil and the
Commission’s subsequent rulings. Moreover, the cited state
decisions add nothing to the arguments that the Shipper Parties
are assert here.
423

424

ExxonMobil, 487 F.3d at 951-52, 954-55.

318a
sole proprietor pays the income taxes directly and the
MLP partners pay the taxes on the partnership
income distributed to them. Table 1 also shows the
after-tax dollar return, the after-tax ROE and the
capitalized ownership values of both formats are the
same regardless of whether the sole proprietor or the
partners pay the income tax. 425 However, a rationale
based on who actually pays the taxes would grant the
sole proprietor an income tax allowance while
denying one to the MLP even though the after-tax
dollar results are the same for both business formats.

425 See Income Tax Policy Statement, 111 FERC ¶ 61,139 at P 40
(noting how public utility income controlled directly by an
individual may be taxed and that an MLP is simply an
intermediate ownership device that leads to the same result).

319a

287. Table 2 presents the same analysis as Table 1,
but for a jurisdictional sole proprietor and
jurisdictional partnership. Absent an income tax
allowance, taxable income is only $65 for both
business formats, and the after-tax ROE is 6.5
percent. This is less than the required 10 percent
after-tax ROE and the capitalized value of both firms
is only $650. Thus, neither firm recovers the required
after-tax ROE or its regulatory cost of service. In
contrast, if either firm is granted an income tax
allowance, this increases taxable income to $154 and
the after-tax ROE (income) is $100. This equals 10
percent of the equity rate base of $1000, results in a
capitalized market value of $1000, and both firms
recover their after-tax regulatory equity cost of

320a
capital and cost-of-service. Table 2 illustrates that no
jurisdictional firm will recover its required after-tax
ROE if denied an income tax allowance because the
Commission does not structure a jurisdictional
entity’s cash flows to gross up its operating revenues
to obtain the after-tax return generated by the DCF
model. Only after the income tax allowance is added
to the pipeline’s cost of service through the income tax
component of a jurisdictional entity’s rate design will
there be sufficient pre-tax return (income) to cover
the income taxes on the return component of a
jurisdictional cost-of-service.
288. The Commission developed Tables 1 and 2 to
illustrate the context in which the findings of
ExxonMobil occur. That decision only discussed the
narrow mechanics of how an income tax gross up
results in the required equity dollar return, that is
$100 as stated in that decision. 426 Tables 1 and 2
illustrate how the result in ExxonMobil flows logically
from the cost of service structure and the related cash
flows that are embedded in the Commission’s
ratemaking methodology. 427 ExxonMobil thus held
426

ExxonMobil, 487 F.3d at 953.

427 In fact, Tables 1 and 2, and the subsequent Tables 3 through
6, are a simplified version of the obligatory cost of service
formats reproduced in Appendices B and C.

321a
that income taxes are an appropriate part of a
partnership’s jurisdictional cost of service, albeit an
indirect one, and that an income allowance does not
result in a phantom income tax. 428 This order next
addresses the relevance of the DCF model to this
conclusion.

2.

Analysis of the DCF Methodology

289. The second core element to Shipper Parties’
double recovery argument is that the Commission’s
DCF model reflects after-tax ROEs that include a
428

Id. at 952-54.

322a
gross up component for the payment of income taxes
on the income distributed to the partners of an MLP,
and that this provides the cash flow necessary to pay
the MLP partner’s income tax. They provide an
example from Opinion No. 511 stating that if the
required after-tax ROE is
six percent and the
marginal tax rate is 25 percent, the investor will
require a DCF ROE of eight percent and that the 25
percent marginal tax rate will be reflected in the
ROEs calculated by the Commission’s DCF model.429
Shipper Parties assert that because a tax gross up is
built into an after-tax DCF ROE, this means that an
MLP income tax allowance is not required to obtain
the after-tax ROE required by the capital attraction
standard contained in Hope Natural Gas. 430 Shipper
Parties repeatedly refer to the gross up reflected in
the ROE’s as a “built in” income tax allowance. 431
290. As previously discussed, this argument fails
because the tax gross up is not built into the ROE
component of the jurisdictional rates of either a
corporate pipeline or an MLP pipeline since the
429

ExxonMobil/BP Rehearing at 13.

Hope, 320 U.S. 591; Bluefield Water Works & Improvement
Co. v. Public Service Comm’n, 262 U.S. 679 (1923).
430

431

ExxonMobil/BP Rehearing at 13, 22, 29, 30.

323a
Commission does not gross up a jurisdictional
pipeline’s revenues to cover the income tax liability on
the pipeline’s allowed equity dollar return. This is in
contrast to the operation of the Commission’s DCF
model which develops the after-tax return that is to
be applied to the equity component of the pipeline’s
rate base. Such DCF results do reflect the actual
after-tax returns, and therefore the pre-tax gross up,
of the jurisdictional firms included in the DCF
sample, but do not provide after-tax cash flow or
income in the context of Commission rate design. 432
To explain this distinction fully requires a further
review
of
the
DCF
model.
291.
The Commission stated in its Proxy Group
Policy Statement, 433 that the Supreme Court has held
that “the return to the equity owner should be
commensurate with the return on investments in
other enterprises having corresponding risks. That
return, moreover, should be sufficient to assure
confidence in the financial integrity of the enterprise,
so as to maintain its credit and to attract capital.”434
These actual returns reflect the firm’s operations and do not
necessarily equate to the amount of the allowed return
embedded in the firm’s jurisdictional rates.
432

433

Proxy Group Policy Statement, 123 FERC ¶ 61,048 at P 3.

434

Hope, 320 U.S. 591, 605.

324a
Therefore, since the 1980s, the Commission has used
a DCF model to develop a range of ROEs earned on
investments in companies with corresponding risks
for purposes of determining the ROE to be awarded
natural gas and oil pipelines. The DCF model was
originally developed as a method for investors to
estimate the value of securities, including common
stocks. It is based on the premise that “a stock’s price
is equal to the present value of the infinite stream of
expected dividends discounted at a market rate
commensurate with the stock’s risk.” 435
With
simplifying assumptions, the investor uses the
following DCF formula to determine the share price:
P = D/(r-g)
where P is the price of the stock at the relevant time,
D is the current dividend, r is the discount rate or
rate of return, and g is the expected constant growth
in dividend income to be reflected in the capital
appreciation of the stock over the time of the
analysis. 436
435

CAPP v. FERC, 254 F.3d 289, 293 (2001) (CAPP).

436 See id.; see also National Fuel Gas Supply Corp., 51 FERC ¶
61,122, at 61,337 n.68 (1990); Ozark Gas Transmission System,
68 FERC ¶ 61,032, at 61,104 n.16 (1994).

325a
292. The Commission uses the DCF model to
determine the ROE (the “r” component) to be included
in the pipeline’s rates, rather than to estimate a
stock’s value. Therefore, the Commission solves the
DCF formula for the discount rate, which represents
the rate of return that an investor requires in order to
invest in a firm. Under this DCF formula, ROE
equals current dividend yield (dividends divided by
share price) plus the projected future growth rate of
dividends:
r = D/P + g
This approach means that the Commission observes
what is occurring in the market by examining the
price of the security and the dividend paid in order to
determine the yield, including the compounding
return caused by DCF model’s short and long term
growth factors. Because no two firms have exactly
the same risk, the Commission develops a proxy
group of firms with comparable risks in order to
arrive at a representative yield for the jurisdictional
firms included in the sample. It is clear from the
parties’ exhibits that the resulting median DCF
return is the required after-tax ROE. 437 This median
437 See Ex. XOM-1 at 41, Table 2 prepared by Dr. Horst; see also
Ex. SFP-97. intended to correct Dr. Horst’s Table 2.

326a
after-tax ROE is applied to the equity portion of the
pipeline’s rate base to obtain the after-tax dollar ROE
that becomes the equity return rate component of the
pipeline’s
rate
design. 438
293. The analysis in the prior section explained a
fundamental consequence of the different approaches
used by an investor and the Commission. That
difference is demonstrated in Tables 1 and 2. In
those Tables, the first point for comparison is the
firm’s return on book equity or the equity component
of its rate base. In both those Tables the firm has
equity of $1000 and earns $100 after all expenses and
income taxes by either grossing up revenues to cover
the income taxes or by obtaining an income tax
allowance for the same purpose. However, either case
results in an after-tax ROE of 10 percent. Regardless
of the ROE (in dollars or a percent) earned by the
firm, the investor obtains the required after-tax
return of 10 percent. If the firm has an after-tax
return of $100, the investor values the firm at $1000,
or its book equity, because $100 is 10 percent of
$1000. If the firm only has an after-tax return of $65
as it lacks the revenues to cover the income taxes, the
investor values the firm at $650 because $65 is 10
percent of $650.
438

See SFPP Compliance Filing, Schedule D.

327a
294. In contrast to the investor, the Commission
would conclude from prior examples here that the
investor is requiring an after-tax ROE of 10 percent
because if the dollar return to the investor is $100,
the investor values the firm at $1000.
The
Commission would also conclude that the after-tax
cost of capital is 10 percent if the dollar return to the
investor is $65 and the investor pays $650 to obtain
that return. But in one case the firm is earning 10
percent after-tax on its equity and in the other the
firm is only earning an after-tax on equity of 6.5
percent. 439 In the latter case the firm would not
recover its cost of equity capital even though the
market values its equity interest at 10 times its aftertax return because the investor’s required after-tax
equity ROE is 10 percent.
295. As explained in the prior section, the Shipper
Parties’ argument breaks down upon application of
the median DCF ROE to a jurisdictional entity’s rate
base. The ROEs generated by the DCF model do
reflect how the firms included in the DCF sample
have grossed up their revenues above non-tax costs to
generate the discounted cash flows to meet the
required after-tax ROE. Thus, Examples 2 and 4 of
439

This calculation is illustrated in Tables 2 through 6.

328a
Table 1 reflect the fact that the firm has “grossed up”
its operating revenue to produce a ROE (and the
related distributions or dividends) that will provide
the required after-tax return of $100. But as Table 2
demonstrates, the Commission’s rate design
methodology does not “gross up” a jurisdictional
pipeline’s operating revenues to achieve the required
pre-tax ROE as is displayed in Table 1. As Table 2
displays, the Commission first determines the
jurisdictional entity’s operating revenue and return
requirements without grossing up its revenue or its
return to reflect the income tax cost element that is
embedded in the investor’s required after-tax ROE.
The Commission then uses the income tax allowance
to add back the required income tax rate design
component (Examples 2 and 4 of both Tables) to
achieve the necessary after-tax ROE. 440
This
provides the jurisdictional entity the cash flow that is
necessary to pay the income taxes on its allowed
equity return. The difference between the cash flows
and returns in Table 1 and Table 2 is subtle, but
essential to the difference of how a jurisdictional
entity’s cost of-service is defined and how its revenue
requirements would be reflected in the returns
generated by the Commission’s DCF model. At
See SFPP 2010 FERC Form No. 6, Page 700, Attachment A
hereto.

440

329a
bottom, the ROEs generated by the DCF model
inform the Commission of the equity rate of return (a
percent) to be used to design a jurisdictional pipeline’s
rates. However the dollar equity return that results
from the application of that percent that is included
in the pipeline’s cost of service does not in itself
generate the funds to cover the income taxes that
must be paid on that return because that return is
not
grossed
up
to
do
so.441
296. Thus the central error of the Shipper Parties’
argument is again that it equates the way that cash
flows, and thereby returns, are reflected in the aftertax ROEs generated by the DCF model with the way
that a jurisdictional entity’s revenues and cash flows
are structured under the Commission’s rate design
methodology. To reiterate, Table 1 reflects the cash
flows in a non-jurisdictional context. If the firm is
able to “gross up” its revenues to recover the tax
impacts on its net revenue income, it will recover all
of its costs, including its after-tax cost of capital. If
the firm cannot gross up revenue, it will not recover
its equity cost of capital. As Table 2 displays, if a
jurisdictional partnership does not obtain an income
441 See Lines 3 and 8 of Appendix C for the derivation of the total
dollar taxable allowed return prior to the application of the
income tax allowance.

330a
tax allowance, it lacks the equivalent of the “gross up”
of the non-jurisdictional firm and thus will not
recover its regulatory cost of service. 442
Thus,
contrary to the Shipper Parties’ arguments, denying
an income tax allowance to a jurisdictional MLP
reduces both its after-tax dollar and percent equity
return below that required by the capital attraction
standard of Hope. 443
3.
Comparative Analysis of MLP and
Corporate Returns
297. This section of the order extends the previous
analyses to address arguments regarding (1) the
relative after-tax dollar and percentage returns on
This does not mean that an MLP denied an income tax
allowance will have negative income or cash flow. In the
examples here, a jurisdictional MLP only has an after-tax return
6.5 percent on its equity rate base if denied an income tax
allowance rather than the after-tax return of 10 percent
generated by the DCF model. However, even though it has a
positive return, the MLP will not obtain the after-tax return of
10 percent that a corporate pipeline earns if the latter is
provided an income tax allowance. See Income Tax Policy
Statement, 111 FERC ¶ 61,139 at P 33.
442

443 Hope, 320 U.S. 591, 605; see also ExxonMobil, 487 F.3d at 954
(noting the practical results of denying an MLP an income tax
allowance).

331a
equity of an MLP and a Schedule C corporation and
(2) their respective revenue requirements.
The
Shipper Parties’ premise is that an income tax
allowance provides more after-tax cash and
percentage returns on equity to the MLP partner
than to a corporation shareholder holder. 444
ExxonMobil/BP asserts that Opinion No. 511
demonstrates that MLPs make greater cash
distributions to an MLP’s partners that a corporation
does to its shareholders and that this results in an
over-recovery of the MLP partners’ income tax
costs. 445 ExxonMobil/BP further argues that this
alleged extra cash of an MLP causes the MLP to have
a higher revenue requirement than a corporation
even though an MLP and its partners have an overall
lower tax burden than a corporation and its
shareholders. 446 They conclude that the resulting
higher security prices for an MLP thus stem from
total revenues that are higher than is necessary to
meet the capital attraction standard of Hope. 447 The
444 ExxonMobil/BP Rehearing at 15-16, 18, 24, 38; ACV
Rehearing at 18-19, 22-23, 28-30.
445

ExxonMobil/BP Rehearing at 38.

446

Id. at 24, 38-40.

Id. at 31, 36, 38 (citing Hope, 320 U.S. 591, 605); ACV
Rehearing at 18, 24-26, 28-30.
447

332a
Shipper Parties assert that the resulting benefits to
the MLP and the MLP’s partners means an MLP’s
rates will be higher than would be the case without
an income tax allowance and therefore the rates are
unjust and unreasonable. 448
298. This portion of the Shipper Parties’ requests
for rehearing is grounded in two analyses. The
Shipper Parties rely in part on the statistical analysis
Dr. Horst submitted at hearing to establish (1) that
an MLP’s partners will double recover their income
taxes if an MLP is provided an income tax allowance
and (2) that an MLP income tax allowance will result
in a higher revenue requirement for an MLP than a
corporation. 449 They also rely heavily on the two
exhibits attached to Opinion No. 511 as appendices,
Ex. SFP-98 and SFP-99 to support their position.450
Ex. SFP-98 concluded that granting an income tax
allowance to both an MLP and a corporation results
in a greater after-tax value for the MLP securities,
but that the partner and the shareholder will receive
the same percentage ROE. Ex. SFP-99 concluded
that the after-tax value of an MLP and a corporation
ExxonMobil/BP Rehearing at 38-39, 43-44; ACV Rehearing at
12-13, 21-22, 28-29.
448

449

ExxonMobil/BP Rehearing at 13-14, 16.

450

Id. at 16, 20, 22-23, 30; ACV Rehearing at 14, 24-25.

333a
will be equal if an MLP is denied an income tax
allowance and if the MLP investor and the
shareholder have the same marginal tax rate. 451 The
Commission turns first to a review of Dr. Horst’s
testimony on behalf of the Shipper Parties, second to
its own technical analysis of the relative after-tax
returns of partnerships and corporations, and third,
reprise the analysis of Opinion No. 511 and of the two
SFFP
exhibits
attached
to
that
Opinion.
a.
Analysis of Dr. Horst’s
Statistical Methodology
299. Opinion No. 511 affirmed the ruling by the
2009 ID that Dr. Horst’s statistical methodology did
not establish that there was a double recovery of an
MLP partner' s income tax liability. 452 On rehearing,
the Shipper Parties reprise Dr. Horst’s analysis in
several important regards and urge the Commission
either to deny SFPP an allowance or adjust SFPP’s
ROE. Shipper Parties rely in part on Dr. Horst’s
testimony that (1) an MLP income tax allowance
See Ex. SFP-98 and Ex. SFP-98 respectively.
The
Commission explains below why this conclusion is incorrect in
the context of the Commission’s rate design methodology.

451

452

Opinion No. 511, 134 FERC ¶ 61,121 at P 298-301.

334a
results in the double recovery of an MLP partner’s
income tax liability from an MLP, and (2) this is
reflected in the higher ROEs of MLP natural gas
pipelines compared to corporate natural gas
pipelines. 453 Opinion No. 511 did not analyze Dr.
Horst’s recommendation in detail. Rather Opinion
No. 511 stated that if two firms have equivalent risks,
but different after-tax cash flows, their stock prices
will adjust to reflect a higher after-tax security
price. 454 Opinion No. 511 then reasoned that because
there is no double recovery of the MLP partner’s
income tax liability, the higher security price of an
MLP’s equity interests is not caused by the MLP’s
income tax allowance, but because there is no double
taxation of the MLP partner’s income. 455
The
Prepared Answering Testimony of Thomas Horst on Behalf of
ExxonMobil Oil Corporation, Ex. XOM-1 at 5-23.
453

Opinion No. 511, 134 FERC ¶ 61,121 at P 245-249. Dr. Horst
(ExxonMobil) and Dr. Schink (SFPP) appear to agree on this
point. See Ex. XOM-1 at 17-18 and Ex. SFP-94 at 16. Where
they disagree is the source of the difference in the after-tax cash
454

flows, i.e., whether it is from the double recovery of the MLP
partner’s income tax liability or due to the impact of double
taxation.
Opinion No. 511, 134 FERC ¶ 61,121 at P 301. The Income
Tax Policy Statement noted this adjustment at the outset of the
debate about partnership income tax allowances. See Income

455

335a
Commission therefore concluded that no further
analysis was required based on the ruling that an
MLP income tax allowance was appropriate under
ExxonMobil.
300. Dr. Horst served as a witness for ExxonMobil
at hearing. There he testified that an MLP income
tax allowance does not result in the parity of after-tax
returns of MLP and corporate pipelines, and that in
fact granting an MLP income tax allowance results in
a higher ROE for the MLP pipelines even though the
MLP and its partners have a lower combined income
tax burden than a corporate pipeline and its
shareholders. Dr. Horst concluded that there was a
difference in the median after-tax ROE between
MLPs and corporations of 3.67 percent in 2008 456 and
4.01 percent in 2007. 457 Dr. Horst explained that he
analyzed the relative risk of the members of his proxy
group sample to assure that differences in risks were
not the cause of the difference in MLP and corporate
ROEs. Dr. Horst concluded that a 3.67 percentage
Tax Policy Statement, 111 FERC ¶ 61,139 at P 4 n.6. See also,
Proxy Group Policy Statement, 123 FERC ¶ 61,048 at P 65 n.82.
456

See Ex. XOM-4.

457

See Ex. XOM-5.

336a
point difference in an MLP ROE and a corporate ROE
creates a 4.68 percent after-tax difference in the ROE
of a MLP partner versus a corporate shareholder..458
He further testified that the source of this difference
in after-tax percentage return is driven by the
additional cash provided the MLP by the income tax
allowance and is reflected in the difference between
the ROEs of MLP and corporate gas pipelines in 2008.
Given this supposed discrepancy, Dr. Horst sought to
equalize the DCF ROEs of the MLP and the corporate
pipelines by denying an MLP income tax allowance.
By doing so, he reduced the after-tax 3.67 percent
differential between a partner’s and a shareholder’s
after-tax ROE in 2008 to 1.01 percent. 459
Alternatively, Dr. Horst recommended adjusting the
ROE of MLP pipelines to the median ROE of the
corporate natural gas pipelines to 10.13 percent based
on his 2008 sample. 460
He also recommended
adjusting SFPP’s ROE to reflect the present value of
any income tax deferrals benefits from the ownership
of
the
limited
partnership
interests. 461
458

See Ex. XOM-1 at 41, Table 2.

459

See id. at 42, Table 3.

460

See id. 13-17.

461 See Ex. XOM-1 at 35-36 and Ex. XOM-10, as amended by Ex.
XOM-21 and Ex. XOM-25. See also ExxonMobil/BP Rehearing

337a
301. The Commission did not address SFPP’s
criticisms of Dr. Horst’s methodology in Opinion No.
511 because it reasoned there was no double recovery.
However, the core issue in reviewing Dr. Horst’s
analysis is whether the seven MLPs and seven
corporate gas pipelines used in his proxy group
analysis have similar risks. 462 If they do not, this
could account for the 3.7 percent difference in ROE
between MLPs and corporations. In its rebuttal
testimony, SFPP provided a table that summarized
the business activities of the seven MLPs and seven
corporations for the three years 2006 through 2008.
These activities were divided into three groups: gas
pipelines, local distribution companies (LDC), and
other activities. 463 With one exception, Dr. Horst’s
MLPs had natural gas pipeline activities of 84 to 100

at 63, n.27.
See Petal Gas Storage, L.L.C. v. FERC, 496 F.3d 695, 697,
699-700 (D.C. Cir. 2007) (Petal); see also, ExxonMobil, 487 F.3d
at 953. Both opinions cite Hope, 320 U.S. 603.
462

463
Other activities include exploration and production,
marketing, treating natural gas, retail propane, petrochemical
services, and timber. These are market driven activities that
Commission has found to be riskier than gas pipeline activities.

338a
percent. 464
The exception was Atlas Pipeline
Partners, L.P. (Atlas), which had natural gas pipeline
activities of 7 to 14 percent. Moreover, one of the
MLPs lacked an investment grade credit rating and
two MLPs had no credit rating. 465 Of the seven
natural gas pipelines only two, El Paso and Southern
Union, had pipeline related activities of more than 50
percent. Two natural gas corporations had strong
LDC activities and four had a range of other
activities.
Similarly, Questar and three other
corporate pipelines had significant other activities
that had exceeded the natural gas pipeline and LDC
functions combined. 466 Two corporate pipelines, El
Paso and Williams lacked an investment grade debt
rating and had notably unstable dividend payouts. 467
302. Against this background, the Commission
concludes that Dr. Horst included firms in his sample
that had significantly different characteristics from
each other, and thus this could account for the 3.7
percentage point difference in the after-tax ROE for
464

See Ex. SFP-103.

465

See Ex. SFP-94 at 22.

466

See Ex. SFP-103.

467

See Ex. SFP-94 at 22-23.

339a
the MLPs and corporations in his analysis.
Furthermore, the Commission would not have
included six of the fourteen entities in a proxy group
because of these deficiencies. The Commission notes
that within the MLP group one pipeline (Atlas) is
particularly dependent on non-pipeline revenue and
three have credit ratings that are either below
investment grade or none at all. At least three of the
corporate pipelines, Williams, Questar, and Oneok
had significant exposure to other activities in 2008
and Williams lacked an investment credit rating as
well. 468 For these reasons all six of those companies
would not be included in a Commission proxy group
as they would be viewed as having too much risk to be
a representative firm. 469 One of the firms, National
Fuel, had an LDC component of about 50 percent and
second one, Equitable, close to 40 percent. 470 These
468

See Ex. SFP-94 at 21-22 and Ex. SFP-104.

Kern River Gas Transmission Company, 129 FERC ¶ 61,240,
Opinion
No. 486-C, at P 21 n.37 & 69 (2009) (regarding the
exclusion of Williams Gas Marketing, Inc. and El Paso Natural
Gas Company from a proxy group due to their undue financial
risk. Opinion No. 486-C excluded one diversified natural gas
company, Questar Corporation, on the grounds that its risk was
too high due to its heavy exploration and production function).
469

470

Ex. SFP-103, lines 10 and 9 respectively.

340a
two firms have a risk profile below what the
Commission generally considers representative. 471 In
fact, only one of the corporate natural gas pipelines
meets the Commission’s standards for inclusion in
proxy group as a firm of comparable risk to SFPP.
Therefore Dr. Horst did not successfully modify his
sample for risk, as SFPP’s testimony at hearing
convincingly demonstrates. 472
Consequently, Dr.
Horst’s analysis sought to establish that the
difference in after-tax ROEs between MLP and
corporate
gas
pipelines
is
attributable
to
Commission’s income tax allowance assuming all
other things are equal. 473 In short, the Commission
finds that Dr. Horst failed to establish that a 3.7
Opinion No. 486-C, 129 FERC ¶ 61,240 at P 62, 65-69
(explaining why diversified natural gas companies with a large
LDC component generally have less risk that an interstate gas
pipeline with a transmission function that equals at least 50
percent of its activities). In the Kern River rate proceeding, the
Commission ultimately excluded two LDC dominated firms,
Equitable Gas Resources, Inc. and NiSource, from Kern River’s
proxy group. See Opinion No. 486-C, 129 FERC ¶ 61,240 at P
72-80, 86-93. NiSource was also excluded because it had cut its
dividend and this could result in an unrepresentative DCF
calculation. See also Proxy Group Policy Statement, 123 FERC
¶ 61,048 at P 51.
471

472

See Ex. SFP-94 at 18-20; Ex. SFP-102 passim.

473

See Ex. XOM-1 at 6.

341a
percent difference in 2008 between the ROEs of MLPs
and corporations in Dr. Horst’s proxy group stem
from the Commission’s income tax allowance policy
and not differences in business focus and risks.
303. Dr. Horst’s analysis is also deficient because it
does not isolate sources of the cash flow for the
dividends or distributions. 474 Indeed, Dr. Horst’s
proxy group analysis does not distinguish between
474 The DCF model’s first component is the dollar distribution in
the last six months of the test year. This determines the current
yield when measured against the price of the equity interest.
Because the distribution is compounded in the subsequent years
and then discounted back to the test year, a large distribution
has a material impact on the calculation. In some cases the five
year IBES forecast for an MLP can be close to that of a
corporation. If the MLP distribution is significantly higher than
that of a corporation, the MLP ROE could be higher. This
means that any analysis must carefully compare the source of
cash for the distribution. This can include net cash from
operations, cash flow from the depreciation component of the
cost of service, the return component of the cost of service,
distributions of external sources, distributions from nonjurisdictional sources, and the jurisdictional income tax
allowance. Dr Horst’s statistical analysis is inadequate to
address these different factors and he has provided no analytical
basis to support a conclusion that the difference in ROEs
between an MLP and a corporation is driven by the MLP’s
income tax allowance. Cf. Opinion No. 511, 134 FERC ¶ 61,121
at 244-245.

342a
the revenues generated by jurisdictional activities
and those from non-jurisdictional activities. If the
income and cash flow of a diversified firm is driven by
non-jurisdictional activities, the Commission’s income
tax allowance is not relevant to that portion of the
firm’s operations.
However the distributions or
dividends from such non-jurisdictional income would
still be reflected in yields and in the growth factors
contained in the Commission’s DCF formula.475
Compared to complexities and relative subjectivity of
Dr. Horst’s analysis, the Commission’s practice of
developing an ROE cost-of-capital from a sample of
firms with comparable risks is well established.476
The Commission’s DCF approach is therefore
grounded in the basic assumption that firms of the
same risk will generate similar returns. 477 As such,
Thus, in the case of National Fuel the Commission’s income
tax allowance policy would apply to some ten percent of income
compared to 100 percent for Oneok Partners, L.P., assuming
that in 2008 either had a full income tax allowance actually
embedded in their rates in that year. See Ex. SFP-103, line 10
and line 6 respectively.
475

476 Proxy Group Policy Statement, 123 FERC ¶ 61,048 at P 3, 7,
47-49; see also, Petal, 463 F.3d at 699-700 and ExxonMobil, 476
F.3d at 953.

Cf. Petal, 496 F.3d at 698-700. If the firm’s risk, yield, and
growth prospects were identical, then their ROE’s also would be.
As the text states, adjusting all the factors of a range of firms to

477

343a
the Commission’s DCF method provides a well
defined and reliable measure of relative risk and
return under different market conditions while Dr.
Horst’s
analysis
does
not.
304. Finally, Dr. Horst’s analysis is grounded in his
Table 2 comparing the relative gross ups of an MLP
and corporate pipeline and from that comparison the
relative after-tax returns of the MLP partner and
shareholder. However Dr. Horst’s Table 2 starts from
a basic error in its efforts to display the relative aftertax return of the MLP partner and the corporate
shareholder. First, it assumes based on Dr. Horst’s
statistical analysis that there is a different revenue
requirement and after-tax ROE required for an MLP
pipeline and a corporate pipeline as adjusted for risk,
that is, the 3.67 percent displayed in that Table. The
Commission has concluded this statistical analysis is
unsound. Second, Dr. Horst's Table 2 states that the
pre-tax return to the MLP and the after-tax return to
the partner are both 13.80 percent. 478
This is
mathematically impossible because the pre-tax and
after-tax figures cannot be identical unless the

reach that identity is difficult, if not impossible.
478

See Ex. XOM-1 at 41.

344a
marginal tax rate is zero. It is also inconsistent with
the Shipper Parties’ argument that the ROEs
generated by the DCF model include a gross up
adequate to cover the investor’s income tax liability
and to meet the investor’s after-tax return. Under
the Shipper Parties’ central theory here the
calculations of the MLP’s pretax DCF return and the
MLP’s partner’s after-tax return cannot be the same
because the marginal tax rate of the partner is
embedded in the ROE generated by the DCF model.
SFPP correctly points out, if the partner’s marginal
tax rate is 32 percent, the after-tax return to the
partner in Table 2 should be 9.34 percent, not 13.8
percent. 479
305. To that end, SFPP’s Ex. 96 partially corrected
Dr. Horst’s Table 2 to correctly state that the MLP
pipeline and its partners have the same required
after-tax ROE of 13.80 percent as does the corporate
pipeline. This is because the two business forms have
the same costs either in a competitive environment or
under Commission regulation, and hence the same
revenue requirement. The gross up is somewhat
different because the partners and the corporation
have different marginal tax rates leaving the MLP
pipeline with a before-tax ROE of 20.29 percent and
479

See Ex. SFP-94 at 15, 40-41.

345a
the corporation with a before-tax ROE of 21.23
percent. After allowing for double taxation of the
corporate return the after-tax return to the partner is
13.80 percent and 12.42 percent to the shareholder
using Dr. Horst’s marginal tax rate on dividends of 10
percent. After the adjustment in the equity price of
the MLP and the corporation the return is 13.80
percent with the MLP equity price at $100 and the
corporate equity price at $90 based on the 10 percent
marginal tax rate Dr. Horst applies to dividends. 480
SFPP’s Ex. 97 extends the analysis in Ex. SFP-96 to
assume a marginal tax rate on dividends of 32
percent. At that marginal tax rate the adjustment
results in a corporate share price of $68 compared to a
MLP equity price of $100, and thus is again a direct
function of the marginal tax rate on the dividends.481
Ex. SFP-96. SFPP’s corrections are described at Ex. SFP-94
at 28-33. The after-tax value for the corporation equity of $90 is
similar to the $85 after-tax value of corporate equity in the
Commission’s Table 4 infra, which uses a marginal tax of 15
percent rather than the 10 percent assume in Dr. Horst’s
analysis. See Ex. XOM-1 at 10. As discussed below in Tables 3
though 7, the difference in the value of the equity interests is a
function of the marginal tax rate on the dividends paid to the
shareholders.
480

481 Ex. SFP-97. SFPP’s additional adjustments are discussed at
Ex. SFP-94 at 39-40.
The result is comparable to the
Commission’s Table 6 infra which uses a marginal tax rate on
dividends of 35 percent and therefore results in a corporate

346a
These tables and the Commission’s analysis below
start from the basic financial assumption that an
MLP and a corporate pipeline have the same
economic functions. As such, they correctly conclude
that the difference in the after-tax cash return and
the price adjustment is a function of double taxation,
not a statistical difference driven by the income tax
allowance.
306. Therefore, for the reasons stated, the
Commission rejects Dr. Host’s analysis and his
conclusions that (1) the difference in ROEs between
MLP and corporate pipelines is driven by “double
recovery” of the MLP partner’s income tax liability
due to excess cash resulting from an MLP income tax
allowance, and (2), that granting an income tax
allowance thereby destroys the parity of regulatory
returns of MLP and corporate pipelines. In this
regard ExxonMobil cites paragraph 261 of Opinion
No. 511 for the proposition “granting an income tax
allowance to MLPs results in an adjustment in the

share price of $65 compared to the MLP equity price of $100.
The Commission takes no position on the appropriateness of the
32 percent marginal rate as this does not affect the outcome
here. Either way the stock price will adjust to reflect the
shareholder’s marginal rate.

347a
relative investment price of an MLP’s and a
corporation’s securities to the former’s advantage.”482
The implication is the income tax allowance provides
unnecessary cash to cover the income tax liabilities of
the partners and that this results in an undeserved
price advantage for the MLP. The actual context is:
Under both the Income Tax Policy Statement
and ExxonMobil, the comparison of relative
returns was between the MLP as a regulated
entity, including the imputed income tax
liability, and the corporation as a regulated
entity, with its explicit income tax liability.
The comparison was not between the
individual unit holder and the corporate
shareholder as the ACV Shippers urge here.
The Income Tax Policy Statement recognizes
that unlike corporate income, MLP income is
not subject to double taxation.
Thus
granting an income tax allowance to MLPs
results in an adjustment in the relative
investment price of an MLP’s and a
corporation’s securities to the former’s
advantage.
ExxonMobil accepted the
Commission’s determination that elimination
482 ExxonMobil/BP Rehearing at 18, 24 (citing in part Opinion
No. 511, 134 FERC ¶ 61,121 at P 261).

348a
of the allowance would create a disincentive
for using partnerships because it would lower
the relative returns for partnerships as
compared to corporations.
Thus the
difference in dollar returns resulting from an
income tax allowance was addressed in the
examples provided in the Income Tax
Allowance Statement and was affirmed by
ExxonMobil. Further, the price advantage
MLPs hold over corporations was recognized
in the Income Tax Policy Statement and was
upheld by the court. 483
In contrast to ExxonMobil/BP’s inference, Opinion No.
511 established that an MLP income tax allowance is
necessary for parity at the entity level and that it is
the impact of double taxation that causes an
advantage at the investor level. As discussed further
in the next section, the taxation of dividend income
unquestionably means a shareholder will have less
after-tax income and cash return than an MLP
partner due to the impact of double taxation of the
corporation and of the shareholder. But this does not
mean that an MLP necessarily distributes more cash
to its partners than a corporation could in dividends.
483 Opinion No. 511, 134 FERC ¶ 61,121 at P 261 (citations
omitted).

349a
This is because an MLP has the same cost of service
as a corporation and therefore the same pre-tax
revenue and pre-tax cash flows. Rather, as Opinion
No. 511 states, the difference between the MLP and
corporate equity holder is properly reflected in the
adjusted price of their equity interests, which results
in their having the same percent ROE. 484
b.
Commission’s
Technical
Analysis of the Relative After-tax
Returns of an MLP Pipeline and a
Corporate
Pipeline
307. In a prior section the Commission presented a
basic example of the impact on the relative after-tax
cash flows and the values of equity interests of an
income tax allowance (both the presence and absence
of one), but without the corporate format. Here the
Commission extends its analysis to compare the
relative after-tax cash flows, ROEs, and value of the
ownership interests of an MLP partner and a
Schedule C corporation shareholder, again with or
without an income tax allowance. Tables 3 through
Table 7 and the related analysis demonstrate that
484 Id. P 301; Income Tax Policy Statement, 111 FERC ¶ 61,139
at n.6. See also December 2007 Order, 121 FERC ¶ 61,240 at P
53.

350a
granting an MLP an income tax allowance does not
result in (1) a higher after-tax percentage ROE for
MLP partner compared to a shareholder, and (2) an
MLP having a higher revenue requirement than a
corporation even though an MLP partners have an
overall lower income tax burden than the combined
income tax burden of a corporation and its
shareholders. The five additional tables compare the
after-tax dollar and percent ROEs of a partner and
the corporation, and the relative after-tax cash flow
and dollar value of a partner’s and the shareholder’s
equity interests. These tables also show whether an
MLP or corporate pipeline recovers its after-tax
equity cost of capital and thus its regulatory cost of
service. The analysis here also serves as a foundation
for the analysis in the next section of the order of the
portions of Opinion No. 511 that relied in part on Ex.
SFP-98 and Ex. SFP-99 in addressing these same
topics.
308. As before, the Commission’s analysis does not
include a growth component and posits an all equity
firm with a required after-tax rate of ROE of 10
percent. Moreover, as all cash flow from depreciation
is reinvested to maintain the same level of service
and all other net cash is distributed, taxable income
and pre-tax cash flow of the partnership and
corporation are the same, as are their respective
distributions and dividends. Imputing the partner’s
income tax liability to the partnership as per
ExxonMobil, the income tax allowance is stated on

351a
the same line for both the partnership and the
corporation. To distinguish the results of the MLP,
the partner, and a corporation, the analyses display
separately the partnership’s, the partner’s, and the
corporation’s after-tax income and percent ROE as
well as the pre-tax and after-tax dollar return to the
shareholder. In Tables 3 through 7 a 35 percent tax
rate always applies to the partner’s and the
corporation’s taxable income and a marginal tax
range of 0 to 35 percent apply to the shareholder’s
dividend
income.
309. Having calculated both the partner’s and the
shareholder’s after-tax dollar ROE, the tables then
determine the capitalized value of the partner’s and
the shareholder’s equity interests at ten times the
dollar value of the distribution or dividend. That
value reflects the principal amount required to
provide an after-tax 10 percent ROE on the investor’s
equity interest. For example, if the after-tax dollar
return to a partner is $100 and the after-tax dollar
return for the shareholder is $85, given the required
after-tax ROE of 10 percent the partner’s equity is
valued at $1000 and the shareholder’s equity is
valued at $850. The Commission adopts this format
because a dollar figure displays most clearly the
impact of double taxation on after-tax dollar returns
and
equity
values.
310. Table 3 compares the partnership and
shareholder ROEs and values when the marginal tax

352a
rate on dividends is zero percent. Example 4 of Table
3 discloses that when there is no tax on dividends the
corporation has 10 percent after-tax ROE. Example 3
of Table 3 further shows that in the absence of double
taxation the after-tax percentage ROE to the
partnership (and its partners) is the same as that
corporation, 10 percent, and the after-tax dollar
return of the partner and the shareholder is the same,
$100, as is the value of their equity, $1000. Example
1 and Example 2 of Table 3 demonstrate the
partnership (and thus its partners) and the
corporation both earn an after-tax rate ROE of only
6.5 percent if either is denied an income taxallowance. Thus neither the partnership nor the
corporation earns the required after-tax ROE.
However, whether the after-tax return is 6.5 percent
or 10 percent given the presence or absence of the
income tax allowance, the partner and the
shareholder have the same after-tax dollar and aftertax percent ROEs if there is no double taxation.
311. In contrast to Table 3, Tables 4 through 6
include a tax on corporate dividends at different
marginal tax rates. The marginal tax rate for Table 4
is 15 percent, Table 5 is 25 percent, and Table 6 is 35
percent. The results at the entity level are always the
same for the MLP (and thus for its partners) and the
corporation for both the after-tax dollar and
percentage returns. Thus in Table 4 if both the
partnership and the corporation are provided an
income tax allowance, both the partners and the

353a
corporation will have an after-tax ROE of 10 percent
and their after-tax income is the same. If neither is
provided an income tax allowance, the after-tax ROE
drops to 8.5 percent for both entities and neither
obtains the required after-tax rate of return.
Regardless of whether the after-tax ROE is 10 percent
or 8.5 percent, the after-tax dollar and percent ROEs
at the entity level are the same. 485 Moreover, if an
income tax allowance is provided to the partnership,
the dollar return to the partner remains $100 and the
capitalized value of the partner’s equity is $1000 as
there is no double taxation of that income. But the
shareholder’s dollar return and equity value drop in
proportion to the marginal tax rate on dividends.
Table 4 thus shows a shareholder return of $85 and a
capitalized value of $850, Table 5 shows a
shareholder value of $75 and a capitalized value of
$750, and Table 6 shows a shareholder value of $65
and
a
capitalized
value
of
$650.
312. Tables 3 through 6 thereby show that if an
MLP has no income tax allowance, it will not recover
its cost of capital. Of equal importance, Tables 3
through Table 5 show that if the MLP is denied an
485 This assumes that an MLP and a corporation are both either
granted or denied an income tax allowance so that there is no
difference in their comparative cash flows.

354a
income tax allowance, the after-tax dollar return to
its partners will be less than the after-tax return to
the shareholder and the MLP equity interests will
have a lower capitalized value than the shareholders
until the partner and the shareholder have the same
marginal tax rate of 35 percent, the essential holding
of ExxonMobil. 486 Table 6 shows that the MLP will
not recover its cost of service when the partner and
the shareholder have the same after-tax dollar return
because this occurs only if the MLP does not have an
income tax allowance. 487 Tables 3 through 6 also
show that an MLP and a corporate pipeline have the
same revenue requirement regardless of the marginal
tax rate if both are provided an income tax allowance.

486

Compare Example 1 to Example 4 on each of the Tables.

487 See Opinion No. 511, 134 FERC ¶ 61,121 at P 248.
As
discussed below, Opinion No. 511 did not make this point and
that Opinion has therefore been construed by the Shipper
Parties as an admission that the returns of the partner and the
shareholder are equal if the MLP is denied an income tax
allowance. However, in the context of Commission rate design
policy, got the MLP Ex. SFP-99 incorrectly grosses up the return
in the example as well as denying an income tax allowance. As
previously noted, Ex. SFP-99 will reach the same result as the
Commission’s Table 6 if the gross up to the return line is
eliminated, namely that the MLP does not recover its cost of
service.

355a
313. It is important to note that just because the
capitalized value of the after-tax return to the
shareholders is less than the dollar value of the
corporation’s equity rate base does not mean that the
corporation fails to earn its required after-tax ROE
under the Commission’s ratemaking methodology if it
is provided an income tax allowance.
The
corporation’s after-tax return is $100, which is the
required after-tax ten percent ROE on the
corporation’s equity rate base of $1000. However
given a 15 percent marginal tax rate, at a required
ten percent after-tax ROE the shareholder’s after-tax
dollar return is $85 or the capitalized value of the
shares is $850, the principal amount required for a
10 percent after-tax rate of return ROE. But a
comparison of the partner’s and the shareholder’s
after-tax percent ROE shows that the after-tax
percent ROE is the same both, that is a 10 percent
after-tax return on the capitalized value of their
interests.
314. Tables 3 through 6 confirm that an MLP
benefits from the absence of double taxation through
the higher equity dollar value that results from the
absence of double taxation. However, as Opinion No
511 states, the MLP partners will not benefit from the
absence of double taxation if the prices adjust to
accurately reflect the difference in the capitalized
value of the after-tax cash flows because the MLP
partners pay a higher price for the security than the
corporate shareholders in order to obtain the same

356a
after-tax dollar return. 488 Thus, while Opinion No.
511 did state that Congress intended that any tax
benefits from use of the MLP format were for the
account of the investors and not the rate payers, 489 it
is more accurate to say that the benefits are to flow to
the MLP through the lower cost of equity capital it
derives from the higher priced shares. Even so, the
single taxation and tax deferrals can make for an
attractive investment vehicle for the MLP partner, if
the investor captures some of the higher equity price
that theoretically flows to the MLP. But in either
case there is no doubt that Section 7704 of the IRC
was to provide that incentive for certain types of
business formats to encourage investment. 490 Where
the Shipper Parties and the Commission disagree is
that the Commission again concludes that Congress
intended that either the investor or the MLP retain
the benefits of single taxation and tax deferrals
depending on the price the investor actually pays for
the MLP equity interests. Opinion No. 511 was
correct in concluding any tax advantage to an MLP
As noted, this is a point that Dr. Horst conceded in his
testimony. See Ex. XOM-1 at 17-18; see also Ex. SFP-94 at 16,
32-33, 36-37, 40.
488

489

Opinion No. 511, 134 FERC ¶ 61,121 at P 251-256.

490

Id. P 253, 256, 259, 308.

357a
from single rather than double taxation is not for the
benefit of the rate payers.

358a

359a

315. It is in this context that the Shipper Parties
assert that Opinion No. 511 concedes that the MLP
format is a tax advantaged business format that
distributes extra after-tax cash flow to their partners
compared to that available to a corporation. 491 In
that regard, the Commission has always recognized
the MLPs have financial advantages over
corporations because the income of an MLP is not
subject to double taxation when it is distributed,
ExxonMobil/BP Rehearing at 38, 40; ACV Rehearing at 19,
30-31, 53.

491

360a
unlike corporate dividends. 492
Moreover, the
Commission has recognized that MLPs usually make
greater cash distributions to the partners than a
corporation does with its dividends because MLPs
normally distribute all available cash to their
partners. 493 This in turn results in a reduction of the
partner’s basis and the deferral of income taxes to the
extent the distributed cash exceeds the partner’s
distributed income. 494 But this does not mean that
Income Tax Policy Statement, 111 FERC ¶ 61,139 at P 4, 9,
30, 33, n.6.
492

The Commission has ruled that corporations usually retain
more cash for use as internal financing. MLPs rely more on
external financing and may distribute the cash generated by
depreciation and external financing in addition to that from
earnings and the income tax allowance. See Proxy Group Policy
Statement, 123 FERC ¶ 61,048 at P 11-13, 15, 92-93. But as the
tables display, this does not mean that an MLP generates more
cash from operations than a corporation or that the greater
amount of cash distributed comes from the income tax allowance
assuming both firms have the same costs, revenues, and risk.
The Shipper Parties’ inference to the contrary is inaccurate.
493

Income Tax Policy Statement, 111 FERC ¶ 61,139 at P 36,
n.35. See also December 2006 Sepulveda Order, 117 FERC ¶
61,285 at P 45 (recognizing this point but then reaching the
incorrect conclusion that there must be an adjustment to the
pipeline’s equity return to reflect the value of any income tax
deferrals).

494

361a
MLPs distribute cash that results in the double
recovery of partner’s income tax liability. The pre-tax
cash distributions to the partner and the pre-tax
dividends to the shareholder are the same assuming
that all available cash is distributed, but the MLP
partner obtains more after-tax cash than the
corporate shareholder.
This result is precisely
because the partners (and under ExxonMobil the
MLP) have a lower over-all tax burden than a
corporation and its shareholders. 495 It does not follow
that the over-all lower tax burden results in excessive
after-tax cash flow to the MLP’s partners or the
double recovery of the MLP partner’s income tax
liability.
316. Rather the difference in the price of their
equity securities is due to single taxation that makes
the MLP a tax-advantaged entity, not that there are
any income tax dollar savings on net operating
income
(return)
generated
by
the
entity’s
jurisdictional operations. In other words, the MLP’s
tax advantage occurs at the investor level when the
MLP limited partners pay a higher price for the
MLP’s equity interests. ExxonMobil/BP distorts this
basic conclusion by citing paragraph 247 of Opinion
As argued by ExxonMobil/BP in their rehearing request at
24, 38-39, 40.

495

362a
No. 511 for the proposition that extra cash generated
by the income tax allowance causes an unwarranted
rise in this price. 496 The actual statement is that “as
the risk is the same for both business models, the
higher MLP unit price reflects its higher after-tax
dollar income and cash returns compared to the
corporation.” 497 Opinion No. 511 at paragraph 245
makes clear, however, that this sentence occurs in the
context of “comparing the after-tax returns of an MLP
and a corporation as presented in the Income Tax
Policy Statement and repeated in ExxonMobil.” 498
Aside from the fact that both the cited sources
approved the income tax allowance as necessary to
maintain parity in the returns of partnerships and
corporations, any inference that Opinion No. 511
stated that the excess cash is generated by an MLP
income tax allowance is incorrect.
The double
taxation of corporate income or an MLP partners’ tax
deferrals occur at the investor level and not at the
level of the operating entities regardless of whether
they are a partnership or a corporation. Thus, as a
matter of cost of service analysis, it is incorrect to
ExxonMobil/BP Rehearing at 30, 38 (citing Opinion No. 511,
134 FERC ¶ 61,121 at P 247).
496

497

Opinion No. 511, 134 FERC ¶ 61,121 at P 247.

498

Id. P 245 (citations omitted).

363a
imply that the “tax savings” to the MLP partners
from the elimination of double taxation or tax
deferrals are reflected in the MLP’s regulatory cost of
service
or
rate
design.499
317. In contrast to the Shipper Parties' arguments,
an MLP's financial advantage stems from the
avoidance on the tax on dividends that must be paid
by a corporation’s shareholders. This means that the
corporation's equity interests are priced lower than
those of the MLP because neither the corporation nor
the MLP can charge higher rates nor obtain lower
costs than the other. Because the corporation cannot
obtain higher gross revenues or lower costs than the
MLP, the corporation’s gross revenues will never be
sufficient to cover the income tax on the dividends it
distributes to its shareholders. Thus, as long as there
is tax rate on dividends, the after-tax cash flow to the
shareholder and the value of the shareholder’s
interest is always less than that of MLP partner even
though both the dollar and the percentage returns on
rate base are the same at the entity level.

Id. P 41. Similarly, the conclusion at P 45 of the December
2006 Sepulveda Order that the pipeline benefits at the expenses
of the rate payers contradicts the earlier statement at P 41 that
income tax deferrals are not part of the pipeline’s cost of service.
499

364a
318. However ExxonMobil further argues that the
Commission arbitrarily excluded shareholders as
investors by focusing parity on the first tier of
ownership, i.e., at the MLP partner and the
shareholder level. 500 But this argument assumes that
the shareholder and the partner have identical
ownership interests, which they do not. Because the
MLP is a pass through entity, the MLP partner has a
direct interest in assets which are reflected in the
partner’s partnership account. The partner's returns
directly reflect the revenue, expenses, and income of
the partnership and the partner must pay the taxes
thereon whether or not provided the cash to pay the
taxes. In this regard, the MLP partner’s ownership
interest is accounted for on a balance sheet and
income statement that is very similar to those of a
corporation. The MLP partner's tax return reflects
net changes to the entity’s capital account from net
income, plant, and investments from external sources
and from losses and distributions (similar to
dividends). In contrast, the shareholder’s interest in
the assets is indirect and the shareholder has no
direct accounting interest in the corporation’s assets
and the corporation’s balance sheet is not reflected in
shareholder’s net worth. A shareholder has no asset
500 ExxonMobil/BP Rehearing at 30, 34, 36; cf. ACV Rehearing at
27-28.

365a
account that replicates the entity’s rate base and has
no liability for taxes on the income generated by the
entity’s rate base. ExxonMobil clearly recognized this
fundamental
distinction.501
319. The foregoing shows that the Shipper Parties
are simply incorrect that the Commission should
equalize the returns of partners and shareholders.
Indeed, the court in ExxonMobil affirmed the
Commission’s decision to equalize the after-tax
returns at the level of the jurisdictional entity. 502 It
is at the entity level the Commission establishes the
allowed ROE on the rate base of a jurisdictional
entity and it is at that level that the Commission
determines if a jurisdictional entity has a realized
ROE that is less than, equals, or exceeds its allowed
jurisdictional after-tax return. Tables 3 through 6 in
this order apply the ExxonMobil analysis to the
equity rate base of partnership and corporate
business structures and calculate the resulting ROEs.
Those tables show that when both business formats
obtain an income tax allowance the returns on the
501

ExxonMobil, 487 F.3d at 951-53.

366a
equity portion of the jurisdictional rate base are the
same for both business formats. This is true even
though the after-tax dollar return to the shareholder
is less than that of the MLP partner due to the impact
of double taxation. In turn the percentage return to
the partner and the shareholder is the same due to
difference in the capitalized value of their positions.
320. However, in theory the Commission could
equalize both the after-tax percentage and the aftertax dollar returns of partners and shareholders as
urged by the Shipper Parties and assure that both
earn their required regulatory ROE. This could be
done by providing the corporation an additional
income tax allowance to cover the marginal tax rate
on the shareholder’s dividends. This would replicate
how a corporation must gross up operating revenue
not only for the 35 percent tax on its earnings, but
also to cover the estimated tax cost on the dividends
distributed to its shareholders. This is shown by
Examples 2 and 4 in Table 7. In Example 4, the
corporate after-tax dollar return increases to $118
and to a percentage after-tax ROE of 11.77 percent
instead of 10 percent. After applying the marginal
tax rate to the dividend, the partner’s and the
shareholder’s after-tax value of their equity interests
is the same. 503
However the corporation over503

Table 7 assumes a 15 percent marginal tax rate on dividends.

367a
recovers

its

cost

of

service.

321. Therefore, consistent with Opinion No. 511,
the Commission again concludes that it is
mathematically incorrect to argue that an MLP’s
partners will double recover their income taxes if the
MLP is provided an income tax allowance.504
Contrary to the assertions on rehearing, as discussed
above, the difference in dollar value between a
partner’s and the shareholder’s equity interest results
from double taxation and not from granting the MLP
an income tax allowance. Because an MLP will not
recover its cost of service if denied an income tax
allowance, that difference cannot be remedied under
the Commission’s ratemaking methodology by means
that will allow a partnership and corporation to both
earn an appropriate after-tax return on the equity
portion of their jurisdictional rate base. 505

504

Opinion No. 151, 134 FERC ¶ 61,121 at P 250.

505 See ExxonMobil, 487 F.3d at 953-55 (holding that a
comparison of equity returns must be at the entity level).

368a

c.

Reprise of Opinion No. 511

322. The previous sections in this part of the order
have explained why an MLP will not recover its
regulatory cost of service if denied an income tax
allowance because the Commission’s rate design
methodology does not permit a jurisdictional entity to
gross up operating revenue or the pipeline’s return
component to recover the income taxes on the aftertax return derived from the Commission’s DCF
model. 506 The analysis in Opinion No. 511 was more
506

Opinion No. 511, 134 FERC ¶ 61,121 at P 263.

369a
narrowly focused and held that denying an MLP an
income tax allowance would have two results. First,
the MLP would have lower after-tax cash flow than a
corporation, as was affirmed in ExxonMobil. 507
Second, the MLP after-tax dollar return and the price
of the MLP equity interests would drop relative to
those of a corporation, but the MLP equity owner and
the shareholder would continue to have the same
percentage ROE because the price of the securities
would adjust to reflect the difference in the after-tax
cash flow. 508 Opinion No. 511 also held that while the
distributions or dividends to pay income taxes on
distributive income is reflected in the ROEs
generated by the DCF model, the argument of a
double-recovery of an MLP’s partners income tax
allowance was incorrect because corporations and
MLPs have the same revenue requirements. 509 In
doing so, Opinion No. 511 relied in part on Ex. SFP98 and Ex. SFP-99 to conclude that granting an MLP
an income tax allowance will not provide a higher
ROE to the MLP investor or cause a higher revenue
requirement for the MLP than for a shareholder or
507

Id. P 264, 301.

508

Id. P 245-46, 249, 261.

509

Id. P 250.

370a
the corporation. Thus, Opinion No. 511 held there is
no double recovery of an MLP partner's income tax
liability from an MLP income tax allowance.510
323. In their rehearing requests, the Shipper
Parties placed increased reliance on the Ex. SFP-98
and Ex. SFP-99 to assert 511 that (1) Opinion No. 511
concedes that the after-tax dollar returns of a MLP
partner and a corporate shareholder will be the same
only if the MLP is denied an income tax allowance,
and (2) that Ex. SFP-98 and Ex. SFP-99 support this
conclusion because they demonstrate that an MLP
income tax allowance double counts cash flow
required to pay a partner’s income tax liability.512
ExxonMobil/BP further contends that SFPP’s own
witness Dr. Schink agreed that a jurisdictional MLP
510

Id. P 249-250, 265.

ExxonMobil/BP at 16, 17-18, 20-21, 22-23; ACV Rehearing at
18, 24. The arguments regarding Ex. SFP-98 and Ex. SFP-99
are within the bounds of a rehearing request of despite the fact
that they were embedded in a section of ExxonMobil/BP’s
request for rehearing captioned by a reference to the East Line
initial decision in Docket No. IS09-437-000. Id. at 19-20.
Therefore the arguments are addressed here but without regard
to the East Line ID.
511

512

24.

ExxonMobil/BP Rehearing at 18, 21, 22-23; ACV Rehearing at

371a
can obtain an adequate return without an income tax
allowance. 513 They therefore again conclude that an
income tax allowance is unnecessary to recover an
MLP partner’s income taxes as the necessary cash
flow is reflected in the ROEs calculated by the
Commission’s DCF model. 514
324. The Commission denies the double recovery
rehearing requests consistent with its rulings in
Opinion No. 511. Opinion No. 511 explained that the
after-tax cash flow of an MLP partner and a corporate
shareholder will differ depending on (1) whether the
MLP is provided an income tax allowance, and (2) the
level of the marginal tax rate on corporate dividends.
The analysis in Opinion No. 511 relied on the
fundamental fact that a greater distribution or
dividend will result in a higher stock price and a
lower distribution or dividend will result in lower
stock price because prices adjust to reflect the same
after-tax return. 515 In doing so Opinion No. 511 did
513

ExxonMobil/BP Rehearing at 16.

514 ExxonMobil/BP Rehearing at 16, 20-21, 25; ACV Rehearing at
18-19, 24-26, 29-30.
515 Cf. Opinion No. 511, 134 FERC ¶ 61,121 at P 246-249. This
conclusion is implicit in Opinion No. 511’s discussion of the
relative cash flows of an MLP pipeline and a corporate pipeline
with and without an income tax allowance, but is not explicitly

372a
not concede that the income tax allowance was a
double recovery of the investor’s income tax cost, that
an income tax allowance resulted in an artificial cost,
or that the fact that the ROE reflects an after-tax cost
support this conclusion. The statement that an ROE
analysis must reflect a pre-tax yield 8 percent to
reflect an ROE yield of 6 percent did not mean that
Opinion No. 511 conceded that the gross up to 8
percent is reflected in the regulatory return
component of a jurisdictional entity’s regulatory costof-service.
325. In fact, in examining a jurisdictional entity’s
cost of service and cash flows Opinion No. 511
reached the same conclusion as the court’s example in
ExxonMobil, 516 namely that absent an income tax
allowance a jurisdictional MLP (and its partners) will
not have as much after-tax return (or cash) as that of
a jurisdictional corporation. Opinion No. 511 thus
concluded that a jurisdictional MLP will have lower
after-tax cash flow if denied an income tax allowance.
It thus followed the MLP would have a lower security
price than a corporation if denied an income tax

stated.
516

ExxonMobil, 487 F.3d at 953.

373a
allowance. This necessarily supports the conclusion
in ExxonMobil that “termination of the allowance
would clearly act as a disincentive for the use of the
partnership format, because it would lower the
returns of partnerships vis-à-vis corporations, and
because it would prevent certain investors from
realizing the benefits of a consolidated income tax
return.” 517 As noted, Opinion No. 511 assumed that a
jurisdictional MLP would not recover its regulatory
cost of service if denied an income tax allowance.518
The earlier analysis in this order shows that this
would be the case and thus that the ultimate
conclusions in Opinion No. 511 are correct.
326. Turning now to Ex. SFP-98 and Ex. SFP-99,
these exhibits were developed for two purposes. The
first was to display the proper format for comparing
the after-tax percentage ROEs of partners and
shareholders and thereby display how the relative
price MLP and how the equity interests adjust to
reflect the difference in the after-tax cash flows of a
partner and a shareholder. Both exhibits start with a
required after-tax percent equity return (line 1), gross
up the percentage ROE (not dollars) to the required
517

Id. at 952-53 (affirming the Commission’s rationale).

518

Opinion No. 511, 134 FERC ¶ 61,121 at P 261, 263-264.

374a
pre-tax percent ROE (line 3), state several cost of
service assumptions (lines 6-12) determine the aftertax cash flow available to the MLP unit holder and
the shareholder (line 21), and then calculate an
imputed share price (line 25), the investor's after-tax
percent ROE (line 26), and the resulting DCF ROE
(line 27). 519 These two SFPP exhibits do support two
conclusions in Opinion No. 511 as they stand. First,
that with or without an income tax allowance the
after-tax percentage ROE is the same for the partner
and the shareholder as the price of the equity
interests always adjusts to obtain that result. This is
also the conclusion of the Ex. SFP-96 and Ex. SFP-97,
which corrected Dr. Horst’s Table 2 testimony that
the difference in the ROE’s of an MLP and corporate
gas pipeline in 2007 and 2008 was caused by an MLP
income tax allowance. 520 Second, Ex. SFP-98 shows
that if an MLP is afforded an income tax allowance,
the revenue requirement of an MLP pipeline is no
greater than that of a corporate pipeline, but affords
the MLP partner a higher after-tax cash distribution.
However, this does not result in a higher percent
ROE to the MLP investor. Rather an MLP partner
See Ex. SFP-98 and Ex. SFP-99 (both of which were included,
respectively, as Appendix B and Appendix C to Opinion No. 511).
519

520

See Ex. SFP-97 and Ex. SFP-98.

375a
pays a higher price for an equity interest due to the
greater after-tax cash distributions as the equity
prices adjust to reflect the higher after-tax cash flow
that is available to the MLP partners. Ex. SFP-99
shows that the revenue requirement is necessarily
lower if an MLP is not afforded an income tax
allowance, and the dollar and the percentage ROE is
the same to the partner and the shareholder but
incorrectly assumes that the MLP is recovering its
regulatory cost of service. 521
327. However it became apparent on review that
both the cited SFPP exhibits contain a methodological
error in structuring a jurisdictional entity’s cash flow
and income statement and do not reflect how these
statements should function in the context of
Commission ratemaking.
This is because the
required dollar return stated in both exhibits is
grossed up to reflect the required pre-tax equity ROE
521 Ex. SFP-99, lines 25 and 27. As discussed below, this exhibit
assumes that both the MLP and the corporation are grossing up
the return component of their cost of service. The corporation
receives an income tax allowance in addition to the gross up but
the MLP does not.
Under the Commission’s rate design
methodology neither the corporation nor the MLP would be
permitted to gross up the revenue component of their cost of
service. If Ex. SFPP-99 reflected this practice the MLP would
not recover its regulatory cost of service.

376a
for both the MLP and the corporation in contradiction
to the Commission’s rate design methodology. That
methodology provides that that the after-tax return is
not grossed up to cover the income taxes on the
pipeline’s net income.
Rather an income tax
allowance is provided instead of the gross up of the
return. Therefore, if an income tax allowance is
added to the analysis in Ex. SFP-98 and SFP-99 in
addition to the exhibit’s grossing up of the after-tax
return, this will overstate the revenue requirement of
both the MLP and the corporate pipeline because the
necessary income tax gross up is already reflected in
the dollar return component of both entities. Because
the cited exhibits incorrectly include both
a gross
up of the equity return and an income tax allowance,
they give an impression
that an income tax
allowance over-recovers the MLPs cost-of service.522
However if
Ex. SFP-99 is revised to reflect
Commission rate design methodology by eliminating
522 In this regard Ex. SFP-98 and Ex. SFP-99 apply a pre-tax
rate of return of 13.8 percent to the equity base to get the aftertax dollar return on rate base, or the $6,900,000 on line 13,
which when included in the revenue requirement reflects the
grossed-up revenue necessary to obtain the required equity
return. As such, both these SFPP exhibits reflect an investor’s
approach to a DCF model and assume the investor’s view
reflects the cash flow and income statements resulting from the
Commission’s rate design methodology.

377a
the return gross up, it would show that the MLP will
not recover its after-tax return or its regulatory cost
of service because the MLP will have neither grossed
up its return nor obtained an income tax allowance.
By removing the gross up of the dollar return from
both the MLP and corporate formats in Ex. SFP-98
and Ex. SFP-99, both exhibits will then establish the
Commission’s points that (1) there is no double
recovery of the income tax liability, (2) the revenue
requirement of a partnership and a corporation is the
same, and (3) a jurisdictional MLP will not recover its
revenue requirement without an income tax
allowance.
Appendix D contains a partial
modification of Ex. SFP-99 to reflect the proper
method for stating the required dollar equity return
under the Commission's rate design methodology.
328. To clarify this matter further it should be
noted that the Commission’s Table 6 reaches many of
the same conclusions as Ex. SFP-98 and Ex. SFP-99,
but without the error of the gross up of the dollar
return. Examples 3 and Example 4 of Table 6 show
that if the MLP is provided an income tax allowance,
then the after-tax dollar return of the MLP partner is
$100 and the after-tax dollar return to the corporate
shareholder is $65. The capitalized values are $1000
and $650, respectively. However, the ROE at the
MLP and corporate entity level is the same for both
the after-tax dollar return and the percent ROE. In
contrast, Examples 1 and 4 of Table 6 show that if the
MLP is denied an income tax allowance at a marginal

378a
tax rate of 35 percent, then the partner and the
shareholder will also have the same after-tax dollar
return of $65 and the capitalized value of their equity
interests is $650. Thus Examples 1 and 2 in Table 6
demonstrate that neither the partnership nor the
corporation earns its required after-tax equity cost of
capital or its regulatory cost of service if either is
denied an income tax allowance. Only when the
Commission adds back in the income tax allowance as
a separate rate element to the rate design will a
jurisdictional entity recover its regulatory cost of
service. Although Opinion No. 511 did not expressly
discuss this limitation of Ex. SFP-98 and Ex. SFP-99,
Tables 3 through 6 demonstrate that Opinion No. 511
correctly concluded that an MLP has a higher market
value than a corporation results from the tax
implications of the corporate structure not the
Commission’s income tax allowance policy.523
329. Finally, it should be noted that contrary to the
Shipper Parties’ assertions, Dr. Schink denied that
there was a double recovery on the income tax
allowance. 524 What he stated was that if there is no
income tax allowance, the value represented by the
523

Opinion No. 511, 134 FERC ¶ 61,121 at 249, 257, 301.

524

See Tr. 595-95.

379a
absence of that allowance accrues to the shippers
through lower rates. Likewise, if there is an income
tax allowance, the dollar value of the income tax
allowance will accrue to the MLP through higher
rates. 525 It does not follow from this conclusion,
however, that there is a double recovery of the MLP’s
income tax allowance or that an income tax allowance
is an improper component of an MLP’s cost of service.
Rather, the transcript’s related discussion of “tax
savings” is directed to the Shipper Parties’ argument
that the absence of double taxation of an MLP
partner’s income produces tax savings at the entity
level. The Shipper Parties first assert that a MLP
and its partners have only one level of taxes
compared to the two levels of taxes paid by a
corporation and its shareholders. They then assert
that this difference is reflected in the fact that while
an MLP only has to gross up to $154 to cover the
taxes of the partners, a corporation has to gross up to
$237 to cover the taxes of the corporation and the
shareholder. They assert that the difference of $83 is
a savings that should be reflected in a lower cost of
service for the MLP 526 and conclude that the MLP
525

See Tr. 533-542.

ExxonMobil/BP Rehearing at 24, 30-31; ACV Rehearing at
24-26.

526

380a
should have lower rates than the corporation because
the “tax savings” from the absence of double taxation
will be passed through to the rate payers. 527
330. But their assumption is incorrect. Under
conditions of competition the only difference in the
two firms is their business form and both are price
takers. 528 As such they will only be able to gross up
their revenues to cover the taxes required on the
revenue earned at the business entity level that is on
their net operating revenue. This is true because
competition precludes the corporation from obtaining
the higher gross up needed to cover the additional
income taxes on shareholder’s distributions.
Similarly, under Commission regulation, an MLP and
a corporation are both limited to their actual
operating costs (including depreciation) and their cost
ExxonMobil/BP Rehearing at 38, 41, 44, 48, 53-54; ACV
Rehearing at 41-42, 44-47.
527

Because competition determines both firms’ costs (their
inputs) and the prices they can charge, they are price takers. On
rehearing the Shipper Parties expand the concept of competition
between the MLP and the corporation beyond that stated in
Opinion No. 511, but fail to recognize that competition requires
both firms to have the same revenue requirements and that
their revenue will be limited to that of the firm with the lowest
operating and cost of capital cost.
528

381a
of capital, which includes an ROE.
Under
Commission regulation, both entities are also limited
to an income tax allowance which takes the place of
the return gross up that occurs under conditions of
competition.
Thus, as Tables 2 through 6
demonstrate, their cost of service will be the same
and their after-tax dollar return and ROE will be the
same at the entity level. Contrary to the Shipper
Parties’ assertions, the income tax “savings” occur at
the investor level because the MLP partner does not
have to pay a second tax on the income received. If
there is a marginal tax rate on corporate dividends,
then the shareholder must pay it. But, as Table 3
demonstrates, if there is no marginal tax rate on
corporate dividends, then the ROE to the partnership,
the partner, the corporation, and the shareholder are
the same. However, any equivalence of the MLP
partner’s and the corporate shareholder’s after-tax
cash returns disappears once there is a marginal tax
rate on corporate dividends.
In sum, any “tax
savings” are strictly at the investor level and are not
reflected in an entity’s regulatory cost of service.
Consequently, there is no merit to the argument that
there will be tax savings at the entity level from the
lack of double taxation on MLP income these should
be reflected in the MLP’s cost of service and its rates.
4.

Capital Attraction Standard

331. On rehearing the Shipper Parties again assert
that the granting an MLP an income tax allowance

382a
violates the capital attraction standard of Hope. 529 As
noted the Supreme Court has held that “the return to
the equity owner should be commensurate with the
return on investments in other enterprises having
corresponding risks. That return, must be sufficient
to assure confidence in the financial integrity of the
enterprise so as to maintain its credit and to attract
capital.” 530 Regarding this standard, the Shipper
Parties again argue that (1) an MLP partner’s income
tax allowance is recovered through the after-tax
ROEs generated by the DCF model, and (2) granting
an MLP income tax allowance is a double recovery of
the MLP partners’ income taxes and thereby violates
that capital attraction standard. 531 They contend
that Opinion No. 511 erred by holding that an MLP
income tax allowance does not violate the capital
attraction
standard.
332. In Opinion No. 511, the Commission explained
the Shipper Parties’ capital attraction argument was
contrary to ExxonMobil, where the court had ruled
ExxonMobil/BP Rehearing at 4-5, 26-28; ACV Rehearing at
17-18, 22.

529

530

Hope, 320 U.S. at 605.

531

ExxonMobil/BP Rehearing at 26, 29, 31-32; ACV Rehearing at

22.

383a
that the Commission had adequately explained that
income taxes were a cost to a partnership and
therefore the Commission was correct to rule that an
income tax allowance was necessary.
The
Commission also noted that the ExxonMobil court
had specifically described the capital attraction
standard and it concluded that the Commission’s
adoption of an income tax allowance for partnerships
was reasonable under that standard. Therefore, the
Commission affirmed the 2009 ID on this point.
333. On rehearing, the Shipper Parties have not
given the Commission any reason to reverse that
ruling. Rather, the Commission will further expound
upon the inadequacies of the Shipper Parties
arguments in light of Tables 2 through 6. Table 2
through Table 6 show that if an MLP is denied an
income tax allowance, an MLP will not earn enough
after-tax revenue (after attribution of the partner’s
income taxes) to earn the required after-tax ROE on
the equity portion of its rate base. Moving beyond the
more generic argument presented by those tables, the
Shipper Parties assert that the Commission’s income
tax analysis overlooks the fact that a corporation
must gross up its pre-tax income twice in order for a
shareholder to obtain the same after-tax dollar and
percentage return as an MPL partner. They argue if
the corporation has a marginal tax rate of 35 percent
and the shareholder a marginal tax rate of 35
percent, then the corporation grosses up revenues
first to cover the 35 percent tax and then grosses up

384a
the resulting revenue another 35 percent to obtain
the total revenue, or percentage, gross up required to
cover both the corporation’s and the shareholder’s
income taxes. 532 In contrast, they assert that the
unregulated MLP has to gross up only once to cover
the 35 percent marginal tax rate on the partner’s
income. To state the same point in dollar terms, the
Shipper Parties assert that an MLP grosses up to
$154, pays no taxes, and passes this $154 through to
its partners. After paying a 35 percent marginal tax
rate, the partner’s return is $100. They state the
corporate investors also gross up their return to $154
cover the tax on the dividends and the corporation
will gross up to $237 in order to pay its taxes. After
payment of $83 in corporate taxes, the corporation
passes through $154 and the shareholder pays $54
dollars in taxes and earns $100. 533 The Shipper
Parties assert this will result in equal dollar returns
to partners and shareholders.
334. Shipper Parties’ central conclusion from this
analysis of the difference between the gross up
ExxonMobil/BP Rehearing at 28-29, 32; ACV Rehearing at
24-25.

532

533 ExxonMobil/BP Rehearing at 30-32; ACV Rehearing at 24-26,
28-30.

385a
required by a corporation and a partnership is that an
MLP income tax allowance results in unnecessary
cash to cover an MLP partner’s income tax allowance.
They claim it is this extra cash purportedly generated
by the income tax allowance that causes the higher
MLP stock price that the Commission concluded
resulted from the impact of the double taxation of
corporate dividends. The Shipper Parties contend
that the difference in the after-tax cash flow between
an MLP partner and a shareholder and the resulting
adjustment of the shareholder’s equity price is only
the mirror image consequence of an unnecessary MLP
income tax allowance. 534 They then conclude that the
only possible way to achieve equality of returns
between investors in corporations and MLPs is to
remove what they view as the additional cash flows
that an MLP partner receives from the inclusion of an
income tax allowance in the pipelines regulatory cost
of service. 535 Shipper Parties also contend that their
analysis invalidates the difference between the
second and first tier taxation that underpins the
income tax allowance policy as it was affirmed in
ExxonMobil/BP Rehearing at 18, 26, 30, 34, 38; ACV
Rehearing at 19.
534

535

25.

ExxonMobil/BP Rehearing at 25-288; ACV Rehearing at13,

386a
ExxonMobil. 536 Consequently, they advocate equating
shareholder dividend income and partnership
distributive income contrary to ExxonMobil’s holding
of the difference between first and second tier
income. 537
335. The Commission disagrees. There are two
major flaws in the Shipper Parties’ argument. The
first flaw is the Shipper Parties’ continuing
assumption that under Commission rate design
methodology the gross up reflected in the after-tax
returns of FERC jurisdictional MLPs and FERC
jurisdictional corporations is reflected in Commission
rate design. As discussed earlier in this order at
Sections VII.C.1 and 3.b, this is simply incorrect. The
second flaw in the Shipper Parties’ argument is that
they incorrectly assume that a non-jurisdictional
corporation can actually obtain the total revenue of
$237 to cover the gross up required for both levels of
taxation. As noted, an MLP only requires total
revenue of $154. But under conditions of competition
the gross revenues and operating expenses of the
MLP and the corporation will be the same, and
ExxonMobil/BP Rehearing at 26, 28, 30, 32, 35-36; ACV
Rehearing at 19-21, 26-288.
536

537

ExxonMobil, 487 F.3d at 952, 954-55.

387a
therefore so will their pre-tax net operating income.
If gross revenues and all other expenses are the same
for the corporation and the MLP, the corporation’s
pre-tax net revenue and return will never exceed
$154. As the corporation cannot gross up above $154,
the shareholder can only achieve the same after-tax
percentage ROE as the partner by paying a lower
price for the corporation’s stock, in this case to $65.
Therefore the equality in after-tax dollar return urged
by the Shipper Parties cannot be obtained by grossing
up the corporation’s operating revenues to $237 under
conditions of competitive. 538
538 Id. at 952, 954. The ACV Shippers raise a similar argument.
They assert that a corporation must gross up its prices to cover
its cash income tax costs and that a MLP need not gross up
prices to the same level because the MLP does not have cash
income tax costs. They assert that in the short run the MLP will
charge prices at the same level as the corporation and have a
higher return because it has excess cash flow above its cash
operating costs, including its ROE. They assert that over time
new firms will enter the market and drive the higher cost
corporations out of business and price levels will drop. ACV
Rehearing at 46-47. But as has been discussed, this assumes
that the corporation under competition can and will price its
services above those of the MLP. This is incorrect because the
costs of both firms transportation functions and their
transportation prices are the same. If the income tax for both
(including at the partner level) is 35 percent, then both the MLP
and the corporation will price at a level that provides the gross
up necessary to cover the taxes on their net operating income.
However, competition will prevent the corporation from pricing

388a
336. Similarly, under Commission regulation the
corporation is not permitted to gross up to $237 as
this would cause the corporation to over-recover its
cost of service, as is shown by Table 7. 539 As Table 2
through Table 6 display, given the limitations on
gross revenue imposed under the Commission’s rate
design methodology, both a corporation and an MLP
will earn an after-tax return of $100 on their equity
after the income tax is added back to the return
component. The income tax allowance provides the
equivalent of a non-jurisdictional revenue gross up to
at a higher level needed to cover the taxes on the shareholder’s
dividends and therefore the after-tax dollar return to the
shareholder is less. Moreover, the ACV Shippers’ present no
empirical evidence that MLPs, or any other partnership, will put
competing corporations out of business due the absence of double
taxation. The MLPs will not because a corporation will have the
same after-tax return on assets as the partnership. The
difference in the after-tax cash flow is reflected at the
shareholder level since the after-tax cash flow from operations is
the same for both formats. The corporation’s higher cost of
capital is from the double taxation of its return, which reflected
in its share price, not a difference in the corporation’s pre-tax
operating cash flow.
539 The exercise of market power would occur because under
conditions of competition the corporation cannot obtain higher
gross revenues or lower expenses than an MLP, and as such may
not have a higher cost of service or revenue requirement.

389a
$154 for both the MLP and the corporation, but the
income tax allowance does not duplicate the DCF
gross up due to the limitations of the Commission’s
rate design methodology. As either competition or
regulation will constrain the corporation’s pre-tax
revenue and return, the shareholder adjusts the stock
price as revenue is not available to pay the taxes on
the dividends.
337. Therefore, contrary to the Shipper Parties’
assertions, 540 the Commission’s income tax allowance
methodology correctly replicates an equity capital
market. Under ExxonMobil, the first tier of taxable
income is that of the partnership as distributed to its
partners as well the taxable income of the
corporation. 541 The second tier of taxable income
stems from the dividends paid to the corporation’s
shareholders, whose return is not measured against
the equity component of the corporation’s rate base,
but as reflected in the corporation’s stock price. As
the share price varies based on a combination of the
dividend, relative risk, and the marginal tax rate on
dividends (all of which the Commission cannot
540 ExxonMobil/BP Rehearing at 48-51, 63-64; ACV Rehearing
at 44-47.
541

ExxonMobil, 487 F.3d at 952, 954-55.

390a
control), it is the entity level regulation that
establishes the dollar and percentage return on the
equity component of the rate base necessary to assure
confidence in the financial integrity of the enterprise.
It is also at the entity level (first tier) that the
regulation applies the income tax allowance to cover
the taxes on the required equity dollar return. 542
338. Therefore, the Shipper Parties are incorrect
that by comparing returns at the entity level the
Commission has arbitrarily excluded shareholders
from participating in getting the same return on
assets as the partners. 543 But this occurs because of
double taxation and, as Table 3 shows, if the marginal
tax rates on dividends is zero, there will be no
difference as the after-tax cash return is the same for
the partnership, the partners, the corporation, and
the shareholder. The Commission does not control
marginal tax rate on dividends; Congress does, and it
was Congress that provided MLPs relief from the
burden of double taxation on partnership net income.
However, given that there is a tax on dividends, the
after-tax dollar return and the equity values of the
partner and the shareholder will diverge, but the
542

Williston, 165 F.3d at 56-57.

543

ExxonMobil/BP Rehearing at 34-36; ACV Rehearing at 28.

391a
after-tax percentage return of the partner and the
shareholder remain the same. For that reason the
December 2006 Sepulveda Order incorrectly held that
the MLP’s financial advantage is at the expense of the
MLP’s rate payers. 544
As an MLP income tax
allowance does not cause an excessive return for the
partners, it is consistent with the Hope capital
attraction standard.
5.

Summary and Conclusion

339. This part of the order has demonstrated that
Opinion No. 511 correctly declined to revise the
Commission’s
Income
Tax
Allowance
Policy
Statement’s conclusion that the proper comparison of
regulatory returns should be at the entity level. This
part also expands on Opinion No. 511’s analysis of
ExxonMobil’s determination as to whether an MLP
would recover its required after-tax return absent an
income tax allowance. To this end, the Commission
has included Tables 2 through Table 6, which display
this point by taking the after-tax dollar amounts used
in the court’s example and applying them to a
hypothetical equity rate base of $1000. 545 Under that
544

46.
545

December 2006 Sepulveda Order, 117 FERC ¶ 61,285 at P 45ExxonMobil, 487 F.3d at 953.

392a
analysis, if the required after-tax return is 10 percent,
with an income tax allowance the corporation earns
$100 of after-tax income on $1000 of equity or a ROE
of 10 percent at the entity level. In contrast, if an
MLP is denied an income tax allowance, an MLP has
only $65 after-tax income on $1000 of equity, or an
ROE of 6.5 percent at the entity level. Denying a
jurisdictional MLP an income tax allowance creates a
rate design that precludes it from having a
reasonable opportunity to recover its cost of service
contrary to Hope. 546
340. The foregoing also shows that the Income Tax
Allowance Policy Statement correctly concluded that
the returns of MLP and corporate pipelines should be
compared at the entity level, not the investor level.
The Commission therefore again concludes here “that
a full income tax allowance is necessary to ensure
that corporations and partnerships of like risk will
earn comparable after-tax returns” and to recover the
income tax costs that are properly included in their
regulatory costs-of-service. 547 As Opinion No. 511
states, the Shipper Parties’ double recovery argument
fails because it erroneously considers the taxes an
546

Cf. Hope, 320 U.S. at 603 (precluding this result).

547

ExxonMobil, 487 F.3d at 952, 954-55.

393a
MLP partner pays on the MLP distributed income to
be the financial and cost of service equivalent of the
taxes a shareholder pays on dividends. ExxonMobil
recognized that that they are not equivalent because
an MLP is a pass-through entity and therefore the
partner’s income taxes are properly imputed to an
MLP’s regulatory cost of service. 548 Rehearing is
denied for all of the preceding income tax allowance
issues.
D.

Other Legal and Policy Issues

341. This part of the order examines additional
legal and policy arguments that have been made on
rehearing. They include: (1) Congress’s intent in
permitting energy MLPs; (2) the interpretation of
section 7704 on the IRC; (3) the Commission’s standalone methodology; (4) whether to adjust SFPP’s
income tax allowance or return to reflect any tax
benefits or savings from the MLP business format; (5)
the treatment of accumulated deferred income taxes;
and (6) how to calculate the state marginal income
tax rates. These issues are discussed in light of the
earlier findings that an MLP income tax allowance
does not: (1) cause an MLP partner to double recover
the income tax liability on distributive income; (2)
548

Opinion No. 511, 134 FERC ¶ 61,121 at P 250.

394a
cause an MLP pipeline to over-recover its cost of
service or have a revenue requirement greater than
that of a corporate pipeline; or (3) violate the Hope
capital attraction standard or the just and reasonable
rate standard of the ICA.
1.
Congressional
Purpose
Permitting Energy MLPs

in

342. Opinion No. 511 concluded that granting a
jurisdictional MLP an income allowance was
consistent with Congress’s purpose of encouraging
investment in energy infrastructure by allowing
energy partnerships to use the MLP business
format. 549 Opinion No. 511 recognized the MLP
business form gives an MLP pipeline a financial
advantage over a corporate pipeline, but held that a
review of the limited legislative materials available
established that Congress (1) authorized the use of
energy MLPs as a vehicle to encourage investment in
energy infrastructure and (2) did not intend to
prohibit a jurisdictional MLP from having a
regulatory income tax allowance. 550 Opinion No. 511
549

Id. at P 253-258.

550 Id. at P 253, 256-57; see also December 2007 Order, 121
FERC ¶ 61,240 at P 29-30.

395a
also held that this interpretation did not create a tax
cost where none had existed before, and thus it was
consistent with ExxonMobil’s approval of the use of a
MLP income tax allowances in Commission rate
design. 551

343. The Shipper Parties assert on rehearing that there
are no grounds to conclude that Congress intended to
provide a jurisdictional MLP pipeline with a regulatory
advantage as well as a financial advantage since any
regulatory advantage would be at the expense of the rate
payers in violation of the rate reasonableness provisions
of the ICA. 552 They argue that the Commission erred by
concluding that a jurisdictional MLP may have an
income tax allowance because Congress was silent on
whether such an income tax allowance is lawful. The
Shipper Parties assert that an MLP income tax allowance
results in an over-recovery of an MLP’s regulatory cost
of service, therefore, they argue that the Commission has
effectively amended through silence the maximum rate
provisions of the ICA without specific statutory
authorization from Congress to do so. 553
551

Opinion No. 511, 134 FERC ¶ 61,121 at. P 265.

552

ExxonMobil/BP Rehearing at 43, 45; ACV Rehearing at 30-32.

553

ExxonMobil/BP Rehearing at 45-47; ACV Rehearing at 33-34.

396a

344. The Commission, however, explained in Sections
VII.C.3 and 4 why a jurisdictional MLP will not overrecover its cost of service if granted an income tax
allowance and why an MLP partner will not double
recover its tax liability on distributed income. The
Commission further explained that, to the contrary, a
FERC-jurisdictional MLP will not be able to recover its
regulatory cost of service if denied an income tax
allowance. For this reason, the Commission affirmed
that granting an MLP an income tax allowance did not
violate the Hope capital attraction standard or the rate
reasonableness standards of the ICA. In short, if an MLP
income tax allowance does not result in a rate that is
unjust and unreasonable, as the Commission has held
here, then all arguments that the Commission improperly
amended the ICA by silence are irrelevant.
345. Moreover, while the legislative history is quite
limited, there is no evidence on this record that
Congress expressly intended to deny FERCjurisdictional MLPs a regulatory income tax
allowance. Shipper Parties acknowledge that Section
7704 was intended to provide a single level of
taxation for entities such as MLP energy pipelines.
Their argument, however, is that in the absence of
specific authority this exemption does not extend to
permitting a jurisdictional MLP income tax allowance
as that results in an unlawful over-recovery or
because explicit authority is necessary to extent the
single taxation format to jurisdictional pipelines. As

397a
the prior analysis demonstrates, an MLP pipeline
obtains no regulatory advantage over a corporate
pipeline if the MLP pipeline is provided an income tax
allowance because its jurisdictional cost of service is
the same as the corporate pipeline. Therefore the
Commission concludes that adopting this argument
would create a regulatory structure that would make
it impossible for a FERC-jurisdictional MLP to
recover its cost of service. Such action would be
contrary to Hope and its ruling that the Commission
may not deny a jurisdictional pipeline a reasonable
chance to recover its full cost of service at the entity
level compared to that of a corporate pipeline.554
Therefore, consistent with the Commission's rulings
in Opinion No. 511, the Commission rules that an
MLP pipeline does not have a regulatory advantage
over a corporate pipeline.
346. Finally, the Shipper Parties assert that in
certain circumstances Congress has specifically
precluded jurisdictional entities from capturing the
benefits of investment tax credit provisions of section
203(e) of the Revenue Act of 1964 through their
rates. 555
The Commission concludes that this
554

Hope, 320 U.S. at 603.

555 ACV Rehearing at 49 (citing Revenue Act of 1964, Pub. L. No.
88-272, § 203(e), 78 Stat. 35 and Kupark Trans. Co., 45 FERC ¶

398a
limitation was designed to assure that investment tax
credit provisions of the Revenue Act of 1964 did not
override the Commission’s tax normalization
practices. Those limitations applied to investment
incentives involving investments in the pipeline’s rate
base. In that regard, the Commission’s accounting
regulations state that “a pipeline must compute
income tax component of its cost of service using tax
normalization for all transactions.” 556 A transaction
means an activity of the pipeline that gives rise to an
accounting transaction. 557
The tax effect of a
transaction that must be normalized is “the tax
reduction or addition associated with a specific
expense or revenue transaction.” 558 The decision to
remove the burden of double taxation by allowing the

63,006, at 65,058 (1988), aff’d 55 FERC ¶ 61,122, at 61,383
(1991)); see also ExxonMobil/BP Rehearing at 49-53.
Tax normalization means computing the income tax
component as if the transactions recognized in each period for
ratemaking purposes are also recognized in the same amount
and in the same period for income tax purposes. 18 C.F.R. §
154.305(b)(1) (2011) (emphasis added).
556

557

18 C.F.R. § 154.305(b)(7) (2011).

558

18 C.F.R. §154.305(b)(6) (2011).

399a
use of the MLP business format has nothing to do
with the pipeline’s accounting transactions or the
depreciation or amortization of its rate base. This is
because the absence of double taxation at the investor
level causes no activity giving rise to a specific
expense or revenue transaction at the pipeline
level. 559 Rather it reduces the total tax burden on the
net income that results from all accounting
transactions
of
the
pipeline’s
jurisdictional
operations. Since the double counting argued by the
Shipper Parties does not exist, it is hard to see why
Congress would deprive an MLP pipeline the benefits
of the MLP format through silence when Congress did
so explicitly regarding the investment tax credit
provisions of the Revenue Act of 1964. This would
certainly seem to be the case when denying an MLP
an income tax allowance means that an MLP would
under-recover its cost of service and obtaining an
after-tax return on its rate base less favorable than
those of a corporate pipeline.
As stated in
ExxonMobil, this would be a clear disincentive to
investment in the MLP business model. 560 The use of
Section 154.305(c)(2) of the Commission’s regulations states
that “rate base reductions or additions must be limited to
deferred taxes related to rate base, construction, or other costs
and revenues affecting jurisdictional cost-of-service.”
18
C.F.R. § 154.305(c)(2) (2011) (emphasis added).
559

560

ExxonMobil, 486 F.3d at 952-53.

400a
normalization at the pipeline operating level has no
such penalty. Rehearing is denied.

2.
Interpretation of Section 7704 of the
IRC
347. Opinion No. 511 held that any benefits from
the absence of double taxation or tax deferrals were
for the benefits of the investors and the MLP in order
to encourage investment in the interstate pipeline
system. 561
The Shipper Parties advance several
arguments asserting that the Commission incorrectly
interpreted the purpose and legislative history of
section 7704 of the IRC, which authorized the
creation of energy MLPs. These include that: (1)
section 7704 did not authorize income tax allowances
for
FERC-jurisdictional
MLPs; 562
(2)
the
Commission’s interpretation of section 7704
improperly amended the ICA; 563 (3) the Commission
561

Opinion No. 511, 134 FERC ¶ 61,121 at P 258, 306, 308.

ExxonMobil/BP Rehearing at 42-43; 51-52; ACV Rehearing at
30-31, 37-38, 38-39.
562

563 ExxonMobil/BP Rehearing at 53-57; ACV Rehearing at 35-36,
38-39.

401a
did not properly interpret the context in which the
section was enacted; 564 (4) the legislative history cited
by the Commission does not support its
interpretation; 565 (5) the committees responsible for
the oversight of the ICA did not address section
7704; 566 (6) Congress did not intend an MLP to retain
any tax savings and has specifically stated when it
wished a jurisdictional entity to do so; 567 (7) an
income tax allowance is not necessary to enable
FERC-jurisdictional MLPs to duplicate the results of
non-jurisdictional MLPs; 568 (8) the Commission had
previously determined in Lakehead that an MLP
income tax allowance is not necessary to encourage
investment in pipeline infrastructure; 569 and (9) that
Lakehead correctly concluded that section 7704 did
not require an income tax allowance because
564

ExxonMobil/BP Rehearing at 44-45; ACV Rehearing at 33-35.

565

ExxonMobil/BP Rehearing at 42-44; ACV Rehearing at 50-55.

566

ACV Rehearing at 55-57.

567 ExxonMobil/BP Rehearing at 51-55; ACV Rehearing at 41-43,
49-50.
568

ACV Rehearing at 44-47.

569

ExxonMobil/BP Rehearing at 49-50; ACV Rehearing at 47-48.

402a
partnerships do not have income tax cost. 570 They
also assert that BP West Coast held that the
enactment of section 7704 did not authorize the
Commission to provide investment incentives if this
meant creating a regulatory cost where one does not
exist and that is what the Commission did through its
income tax allowance policies. 571
348. As discussed in Section VII.D.1 above, the
Commission rejected the arguments that (1) Congress
did not authorize jurisdictional MLPs to have an
income tax allowance because there are no express
provisions denying such MLPs an income tax
allowance, and (2) that the Commission amended the
ICA by silence.
The Commission agrees with
ExxonMobil that Congress did not include language
explicitly restricting the tax benefits of investment
from section 7704 in the same manner as Congress
restricted those that would flow from the investment
tax credits under the Revenue Act of 1962. However,
the Commission does not agree with ExxonMobil that
in the absence of any explicit restrictive statutory
language, BP West Coast nonetheless requires the
Commission to deny jurisdictional MLPs the benefits
570

ExxonMobil/BP Rehearing at 51-52; ACV Rehearing at 30-31.

571

ExxonMobil/BP Rehearing at 43-44; ACV Rehearing at 31.

403a
of any income tax allowance since BP West Coast
requires ratepayers to obtain all tax savings. 572 To
this end, ExxonMobil relies on statutory silence to
reach this conclusion by assuming that BP West Coast
purportedly requires that all tax savings of any kind
must be passed through to the ratepayers and, (3)
that the avoidance of double taxation is a tax savings
that is reflected in the MLP’s regulatory cost of
service.
Both assumptions are demonstrably
incorrect.
349. Neither City of Charlottesville nor BP West
Coast held that the Commission must pass through
all tax savings to the ratepayer. 573 Rather BP West
Coast held that income tax costs are the same as any
other costs and that the costs of a parent company
may not be included in the cost of service of a
jurisdictional subsidiary. BP West Coast therefore
concluded that because an income tax cost is not
actually incurred by the jurisdictional pipeline whose
rates are at issue, a partnership pipeline may not be
afforded an income tax allowance. The court ruled
that this is true whether or not the partners involved

572

ExxonMobil Request for Rehearing at 52-53.

573

City of Charlottesville, 774 F.2d 1205, 1211, 1215-16.

404a
were corporations or individuals. 574 After BP West
Coast, the Commission issued its Income Tax
Allowance Policy Statement explaining why income
taxes are not the same as all other costs. 575
ExxonMobil affirmed the Commission’s analysis by
holding that income taxes were a legitimate
component of a FERC-jurisdictional partnership’s cost
of service. 576 As such, there is no logical connection
between Congress’s decision not to deny MLPs an
income tax allowance and the reference to a legal
point on which BP West Coast is itself silent.
350. Second, it is also incorrect that the elimination
of double taxation creates an income tax savings at
the entity level. While income taxes are a legitimate
part of an MLP’s regulatory cost of service, the
marginal tax rate to be applied to the equity return
component of the MLP’s cost of service is based on the
weighted average of the MLP’s partners. While the
marginal tax rate is applied at the entity level, as
with a corporation, in the case of the MLP the taxes
are paid at the investor level due to the pass through
574

BP West Coast, 374 F.3d 1263, 1291-92.

575

Income Tax Policy Statement, 111 FERC ¶ 61,139 at P 9, 21-

22.
576

ExxonMobil, 487 F.3d at 945-55.

405a
nature of the MLP. Taxes are also paid at the
shareholder level, but this is the second tier income
tax in addition to the income taxes that are paid at
the corporate entity level. It is the absence of the
second level of taxation that results in the tax savings
for the MLP partner.
351. Moreover, the MLP income tax allowance does
not create an improper investment incentive by
creating an income tax cost where one would not have
otherwise existed. This is because there is no double
recovery of the MLP partner’s income tax liability,
and therefore the Commission is not creating
regulatory cost where one would otherwise not exist
in violation of the holding in BP West Coast. 577 Given
the findings in this order that part of BP West Coast
is not controlling since ExxonMobil’s held that an
income tax allowance properly imputes the MLP
partner’s income tax cost to MLP. 578 Thus Opinion
No. 511 correctly held that an MLP income tax
allowance is necessary to achieve the investment
goals of section 7704 but this ruling does not create
an improper incentive for investment at the expense
of the rate payers. 579 Conversely, denying an MLP
577

BP West Coast, 374 F.3d at 1292-94.

578

ExxonMobil, 487 F.3d at 945-55.

406a
income tax allowance would be a disincentive to
investment.
352. Shipper Parties also argue that Congress
intended to restrict the scope of section 7704 based on
the Treasury Department’s complete opposition to
that section. 580 However, Congress passed the bill
over the Treasury Department’s opposition and did
not restrict MLPs from benefiting from its provisions.
This is in contrast to the explicit limitations that were
placed on the investment incentive provisions of the
Revenue Act of 1964 that were discussed earlier in
this order. The Shipper Parties also assert that the
Congressional committees responsible for the
oversight of the ICA did not review or take action on
section 7704. 581 Because the Commission has not
amended the ICA through its Income Tax Allowance
Policy Statement, any argument based on the
Commission’s purported oversight responsibility of
Congress is irrelevant as the Commission does not
have jurisdiction over Congress. In fact, Shipper

579

Opinion No. 511, 134 FERC ¶ 61,121 at P 265.

580

ACV Rehearing at 54-55.

581

Id. at 55-57.

407a
Parties’ own analysis belies their argument. Indeed,
there is no express statutory language or legislative
history stating that MLP pipelines may not have an
income tax allowance. As such, the Shipper Parties’
arguments rely on inferences based on portions of the
legislative history that are inconsistent with what
Congress actually did in enacting section 7704.
353. Turning
to
the
Commission’s
prior
interpretations of section 7704, it is true that the
Commission’s 1994 decision in Lakehead stated that
partnerships did not need an income tax allowance
because the partnership format alone provided
enough incentives for investment without a tax
allowance, and that in any event section 7704 did not
authorize the recovery of a non-existent tax cost. 582
However both conclusions were over-ruled by the
Commission’s
Income
Tax
Allowance
Policy
583
Statement
and that Policy Statement was affirmed
by ExxonMobil’s holding that the an MLP income tax
allowance does not create a non-existent tax cost.584
Lakehead Pipe Line Company, L.P., Opinion No. 397, 71
FERC ¶ 61,338 (1995), reh’g denied, Opinion No. 397-A, 75
FERC ¶ 61,181 (1996) (Lakehead ).
582

583 Income Tax Policy Statement, 111 FERC ¶ 61,139 at P 1, 3233, 38-40.
584

ExxonMobil, 487 F.3d at 953-55.

408a
That conclusion has been reaffirmed here based on
the detailed financial and cost analysis in this order.
As such, the Commission views ExxonMobil as having
explicitly overruled BP West Coast’s holding that the
Commission could not use a need for investment
incentives to create a cost where one does not
otherwise exist. ExxonMobil could not have been
clearer that this argument is no longer relevant if one
concludes that an income tax allowance is properly
included in an MLP pipeline’s regulatory cost of
service. Given that income taxes do not over-recover
an MLP’s income tax allowance and are a cost
properly included in an MLP’s regulatory cost of
service, albeit indirectly, it is rational to conclude that
denying a jurisdictional MLP its ability to recover its
regulatory cost of service will reduce the incentive to
use in MLP’s regardless of whatever other benefits
might flow from that business format. 585 Rehearing
is
denied
for
the
reasons
stated.
3.

Commission’s

Stand-Alone

Policy

354. Opinion No. 511 held that an MLP income tax
allowance did not violate the Commission’s standalone policy. 586 On rehearing, Shipper Parties assert
585

Id. at 952-53.

586

Opinion No. 511, 134 FERC ¶ 61,121 at P 287-289.

409a
that there are two aspects of MLP tax accounting
practices that violate the Commission’s stand-alone
policy. The first is that allocating income to a general
partner in proportion to the cash distributed to the
general partner under the incentive distribution
provisions of many MLP partnership agreements
violate of the Commission’s stand alone policy. 587 The
second is the practice of providing additional
depreciation to KMEP’s limited partners under
section 743(b) of the IRC. 588 Shipper Parties assert
that Opinion No. 511 should have held that these
MLP accounting practices violate the stand-alone
policy. They also make several secondary arguments
to the same affect.
Opinion No. 511 explained that the
Commission’s stand-alone policy separates the cost of
service calculations and the accounting records of a
jurisdictional subsidiary from that of its jurisdictional
parent. 589 What is most relevant here is that under
the traditional stand-alone analysis, the dollar
amount of an income tax allowance would be

355.

587

ACV Rehearing at 57-58, 62-64.

588

ExxonMobil/BP Rehearing at 65-67.

589 Opinion No. 511, 134 FERC ¶ 61,121 at P 287, 289. See also
December 2007 Order, 121 FERC ¶ 61,240 at P 41.

410a
determined by applying the relevant marginal tax
rate to the net income of a corporate subsidiary and
not combining that subsidiary’s net income with that
of a parent company to determine the marginal tax
rate. Similarly, the depreciation accounts of the
subsidiary and the parent company are separated. As
such, under City of Charlottesville there is no
obligation to adjust the income tax allowance for
deferrals in the year they occur when these flow from
the parent company’s non-jurisdictional activities.590
The Commission further notes that before the
adoption of the Income Tax Allowance Policy
Statement, partnerships were treated like corporate
subsidiaries for purposes of the stand-alone
methodology because the Lakehead doctrine
permitted an income tax allowance on the income
that was attributed to the parent corporation, i.e. the
parent’s numerical partnership interests. 591 Thus,
the limited use of jurisdictional pipeline partnerships
prior to the early 1990’s did not normally raise standalone issues before the increased use of the MLP
business
form.
City of Charlottesville v. FERC, 774 F.2d 1205 (1985) (City of
Charlottesville).

590

Income Tax Policy Statement, 111 FERC ¶ 61,139 at P 32-33.
See also December 2007 Order, 121 FERC ¶ 61,240 at P 27.
591

411a

a.

Incentive Distributions

356. The ACV Shipper’s argue that the Opinion No.
511 leaves to the general partners’ undue discretion
how to define how the income tax allowance is
determined by the amount of income that may be
shifted. 592 Opinion No. 511 explained, however, that
income shifts from incentive distributions are a
function of a lawful partnership structure and as such
properly reflects the partnership’s tax cost because
that cost is the actual or potential tax burden the
partners do or will incur on their distributed
income. 593 It is true that the Commission does not
control the amount of the income that may be shifted
to the general partner through the use of incentive
distributions, but there is nothing illegal about
provisions that are used throughout partnerships, not
just
in
the
context
of
MLPs.
357. The ACV Shipper’s also argue that the shift in
distributed income inequitably shifts SFPP’s
592

ACV Rehearing at 63-65.

593

Opinion No. 511, 134 FERC ¶ 61,121 at P 291.

412a
marginal tax rate toward the higher corporate
marginal tax rate compared to that of other income
categories used to determine the weighted marginal
tax rate. This is true with regard to the income that
is shifted, but this is a function of a lawful
partnership business form, not the Commission’s
income tax allowance policy. Moreover, the weighted
tax calculation is based on the income distributed to
the six partnership categories used to develop the
jurisdictional entity’s weighted marginal tax rate, not
the taxable income of a partner that results after all
costs and credits that may offset distributed income
when a partner prepares an IRS return. As long as
the use of the MLP format results in a lower marginal
tax rate on jurisdictional income, the rate payers are
no worse off than they would be from using the
corporate 35 percent marginal tax rate.
358. As discussed in Opinion No. 511, under an
incentive distribution provision cash distributions
provide a general partner an increasing percentage of
distributed cash as the amount of cash available for
distribution increases, to as much as forty-nine
percent, hence the term incentive distributions.
Opinion No. 511 further explained that dollar income
is allocated to the general partner in proportion to the
dollar amount of the distribution.
This usually
allocates income away from the limited partners

413a
while leaving their allocation of the partnership’s
expenses unchanged. 594 There are two consequences
of such an allocation. The Commission’s income tax
allowance is based on the weighted income tax cost of
distributed partnership income. 595
Thus, if the
general partner has a book partnership interest of one
percent, the limited partners have a ninety-nine
percent interest in the partnership assets. Absent the
incentive distribution provision, the limited partners
would be allocated ninety-nine percent of distributive
income and their collective marginal tax rate would
apply thereto. However, if forty-nine percent of
distributive income is allocated to the general
partner, (usually a corporation), then the marginal
tax rate of the corporation will apply to the fifty
percent of income so allocated. The limited partners’
marginal tax rate, which is usually collectively lower
than that of a corporation, would then apply to only
fifty percent rather than ninety-nine percent of the
partnership income. Therefore this shift in
distributed income increases the weighted marginal
tax rate of the partnership as a whole. Moreover,
allocation of distributed income away from the limited
594

Opinion No. 511, 134 FERC ¶ 61,121 at P 285, 291.

Id. P 266, 276, 285, 291; see also ExxonMobil, 487 F.3d at 952,
954; December 2007 Order, 121 FERC ¶ 61,240 at P 46-47, 51.

595

414a
partners may result in a tax loss as their income is
reduced, but their share of distributed expenses is
not. Thus incentive distributions allocated to the
general partner can be a major source of tax deferrals
for the limited partners. 596
359. At bottom, failure to reflect the income
allocated to the general partner under the incentive
distribution provisions would understate the actual or
potential income tax cost of the partnership and
thereby understate the partnership’s regulatory cost
of service. This would be inconsistent with Hope and
its requirement that the partnership have a
reasonable opportunity to recover its cost of service
and return on the equity invested in the firm. It
would also deter the use of consolidated returns in
some cases where that would be economically efficient
for some public utility investments. 597 Opinion No.
511 therefore correctly recognized that a practical
adjustment must be made to the stand-alone doctrine
to accommodate MLP tax accounting practices in a
manner consistent with the recovery of the MLP’s
Opinion No. 511, 134 FERC ¶ 61,121 at P 305; December
2007 Order, 121 FERC ¶ 61,240 at P 56-57.

596

Income Tax Policy Statement, 111 FERC ¶ 61,139 at P 29;
ExxonMobil, 487 F.3d at 952-53.

597

415a
regulatory

cost

b.

Section

of

743(b)

service.598

Depreciation

360. The additional depreciation a partner receives
under an IRC section 743(b) adjustment is unique to
each partner. As stated in Opinion No. 511, such
depreciation reflects the amortization of the
difference between the book equity value of a
partnership interest and the price paid for the
partnership interest at the time it was acquired.599
The depreciation rate to recover the difference is
based on the composite depreciation rate of the
partnership. On rehearing the ExxonMobil/BP assert
that because the dollar amount of the section 743(b)
depreciation deduction reflects the depreciation rate
of the partnership’s assets, that amount is therefore
part of the jurisdictional entity’s cost of service. 600
They state that the dollar amount of this
depreciation, which is a deduction on a partner’s K-1
598

See December 2007 Order, 121 FERC ¶ 61,240 at P 57-58.

599

Opinion No. 511, 134 FERC ¶ 61,121 at P 310-311.

600

ExxonMobil/BP Rehearing at 62-63, 66-67.

416a
federal income information form and on the partner’s
tax return, often results in negative partnership
taxable income for the partner and therefore often
causes an income tax deferral. Thus, as with other
deferrals that are caused by the pipeline’s cost of
service, ExxonMobil/BP would address this concern
by adjusting the pipeline’s return for any benefits
that flow to the limited partners from such
deferrals. 601
361. The Commission finds that ExxonMobil/BP is
incorrect that there is a cost of service linkage
between the depreciation account of a specific
jurisdictional entity and a limited partner’s section
743(b) deduction.
One of ExxonMobil/BP’s own
witnesses recognizes that the amount of the section
743(b) depreciation is unique to each partner and that
it reflects the difference between the unit market
price of each such interest and the book value of the
partnership interest at the time of purchase. 602 Of
importance here is that the depreciation rate of the
KMEP partnership, and not that of SFPP’s
601

Id. at 63-65.

602 See Prepared Answering Testimony of Christopher P.
Sintetos on behalf of BP West Coast Products LLC, Ex. BPW-6
at 39.

417a
jurisdictional rate base, that defines the section
743(b) deduction that is applied when the KMEP
partnership interest is purchased. This means that
for the some 50,000 KMEP limited partners there is a
different 743(b) dollar depreciation rate for each of
the partnership interests that those limited partners
purchased at different times. The depreciation rate
for the KMEP partnership depreciation is in turn
derived from a large number of jurisdictional and
non-jurisdiction operations, each with its own
depreciation rate.
362. In fact, as Dr. Horst stated in his Prepared
Answering Testimony and the Shipper Parties
recognize on rehearing, it is impossible to normalize
the depreciation rate of the individual partners based
on the difference in depreciation rates of the limited
partners developed at the time those partners
purchased their KMEP partnership interests. 603 This
would seem to undercut Shipper Parties’ position that
the section 743(b) deduction violates the stand-alone
doctrine. But more fundamentally, while the
composite KMEP depreciation rate at issue is derived
in part from SFPP’s own composite depreciation rate,
the section 743(b) depreciation rate is not part of
SFPP’s regulatory cost of service. As was previously
603

Id.

418a
discussed, under the Commission’s accounting
regulations normalization applies only to tax affects
of a transaction and activity that involves the
jurisdictional entity’s cost of service. In fact, the
section 743(b) depreciation does not even effect the
calculation of the income tax allowance because the
latter is calculated on the allocations of distributed
partnership income. The section 743(b) deduction
offsets distributed income at the level of the
individual partner and thus may lead to negative
taxable income and income tax deferrals at that level.
Therefore, any adjustment to reflect benefits that
may flow from the section 743(b) deduction is not
properly grounded in the stand-alone doctrine
because the so-called tax savings are not reflected in
the
jurisdictional
entity’s
cost
of
service.
c.

Other Stand-alone arguments

363. The ACV Shippers raise two further
arguments that relate to partnership accounting in
the context of the Commission’s stand-alone policy.
They first assert that because the stand-alone method
separates the jurisdictional entity’s revenues and
expenses from those of parent, the Commission
incorrectly allows the aggregation of income at the
KMEP and the partner’s level, but does not require
the aggregation of all expenses or credits at the
partner level. They also appear to conclude that the
Commission inconsistently treats the distributed
income that occurs at the partner level, but does not

419a
offset that income by the credits and tax savings that
occur at the partnership level. They thus conclude
that the marginal tax rate is improperly determined
at the KMEP level, not that of SFPP.604
There is no merit to this position. KMEP consists of a
ACV Rehearing at 61-62. ACV Shippers incorrectly state
that the December 2007 Order held that the marginal tax rate
should be derived from SFPP’s income, not KMEP’s. The
December 2007 Order explicitly states that the marginal tax
rate is applied at the SFPP level once the marginal rate is
determined at the KMEP level. See December 2007 Order, 121
FERC ¶ 61,240 at P 48. Likewise, the December 2007 Order is
clear that the marginal tax rate is developed based on the
categories of the publicly traded securities owned by the
partners, which are indisputably owned at the KMEP level.
Id. P 35 (stating “In light of this basic financial principal the
Commission affirms it prior conclusion in the Policy Statement,
the December Order, and the December 2006 Sepulveda Order
that the income tax allowance of a pass-through entity will be
determined by the weighted marginal tax rate of the owning
partners.”). Moreover, in the December 2007 Order, the
Commission developed the marginal tax rates for those partners
based on IRS statistics for various categories of those partners.
To conclude that this means that KMEP’s income was not
relevant to determining the marginal tax rate of those partners
is a distortion of the relevant paragraphs. Id. P 37-39. The
December 2007 Order states that incentive distributions are not
improper and that “SFPP properly used KMEP partnership
income to determine the distributive income of KMEP’s
partners.” Id. P 47. No fair reading of the December 2007 Order
could conclude otherwise.
604

420a
series of interlocking partnerships, one of which is
SFPP. Under basic partnership law at each level the
expense of each such affiliate offsets the operating
income of the same affiliate and both the income and
expenses flow up through the partnership chain.
Thus the net income of all KMEP’s subsidiaries is
distributed to the partners and all offsets in the
entire enterprise are considered in the calculation of
KMEP’s distributable income. The Commission’s
presumptions of the marginal tax rate for each
partnership category also recognize that any positive
or negative benefits from the partnership will be
reduced or enhanced by the other income and
deductions used to determine the partner’s marginal
tax rate. 605 Thus, if tax deferrals occur at the partner
level as a result of incentive distributions or the
section 743(b) election, these are not different than
deductions or credits that may flow to a limited
partner from that partner’s other economic activities
to the extent that the partner is actually permitted to
recognize the benefits from those activities.606
605 Opinion No. 511, 134 FERC ¶ 61,121 at P 281-82; December
2007 Order, 121 FERC ¶ 61,240 at P 29, 47; Income Tax Policy
Statement, 111 FERC ¶ 61,139 at P 38.

Even BP West Coast, while rejecting a partnership income tax
allowance, recognized that neither the flow-through nor the
stand-alone method can be literally applied to SFPP’s rates. See
BP West Coast, 374 F.3d at 1286 (noting that both methodologies
606

421a
ExxonMobil’s recognition that partnerships are passthrough entities for income tax purposes also
implicitly recognized that stand-alone method would
have to be modified to accommodate the reality of
partnership taxation. 607 But even with the effect of
the incentive distributions, the rate payers are better
off under the MLP format than paying a 35 percent
corporate marginal tax rate on the $5.328 million
dollar equity return contained in SFPP’s regulatory
cost of service. Removing the incentive to invest in
MLPs may cause pipelines to revert to the corporate
mode would likely result in the application of the 35
percent marginal corporate rate to all income rather
than some
32 percent weighted marginal tax rate
that often applies to a jurisdictional MLP.
364. Second, the ACV Shippers assert that the
Commission’s Income Tax Policy Statement provide
that the income tax allowance should be calculated

arose in the context of the corporate ownership of a jurisdictional
pipeline by a tax-paying corporation which is part of an affiliated
group). This historical fact is equally true for any opinion that
approved a partnership income tax allowance prior to the
adoption of the Lakehead methodology, which BP West Coast
overruled.
607

ExxonMobil, 487 F.3d at 952-54.

422a
only on the actual or potential income tax on the
jurisdictional entity’s utility income. 608
This
essentially asserts that the marginal tax rate should
be determined only on the $5.238 million in equity
return included in SFPP’s 2007 cost of service because
that return is separated stated from KMEP’s
consolidated income. Thus, if the general partner was
allocated
50 percent of distributed income, ACV
Shippers’ theory would appear to be that the
marginal tax rate for the general partner should
reflect $2.669 million.
Likewise, if the general
partner is only allocated one percent of utility income,
then the tax rate would be that on $52,380. But this
suggests that if a limited partner has an actual or
potential tax liability on $4000 distributed KMEP
income, that the marginal tax rate for this income
should be zero even if the partner actually has a
$100,000 in investment income alone and the
partner’s marginal tax rate is well in excess of 28
percent.
365. Unlike the case of a corporate subsidiary, basic
partnership law makes it impossible to derive a
meaningful marginal tax rate based solely on the
MLP subsidiary’s utility income. This is because all
income is comingled at the partner level for tax
608

ACV Rehearing at 63-64.

423a
purposes and this determines the marginal rate that
will be paid on all of the utility income distributed to
the partner, as ExxonMobil recognized. 609 Moreover,
as City of Charlottesville recognizes, corporations and
individuals make investment decisions based on the
marginal rate applicable to a particular category of
taxable income. 610 In the instant case that is the
partner’s total ordinary taxable income, of which the
partnership income allocated to the partner is one
component. The ACV Shippers provide no realistic
answer to this problem, which arises regardless of
whether incentive distributions are used to determine
the proportion of partnership income that is allocated
to a corporate general partner or there are deferrals
and credits that may affect a partner’s marginal tax
rate.
4.
Proposed
Changes
to
SFPP’s
Income Tax Allowance and Return
366. This section addresses the Shipper Parties’
arguments that for various reasons the Commission
should pass any tax savings or benefits that flow from
Income Tax Policy Statement, 111 FERC ¶ 61,139 at P 32, 33,
ExxonMobil, 487 F.3d at 952, 954.
609

610

City of Charlottesville, 774 F.2d at 1207.

424a
the use of the MLP business format through to
SFPP’s rate payers. These include: (1) proposed
adjustments to the income tax allowance to reflect the
double recovery of the partner’s income tax allowance
or the absence of an income tax liability, (2) proposed
reductions to SFPP’s equity return to reflect the time
value of income tax deferrals that may flow to the
limited partners from investing in MLPs, (3)
arguments that Congress and the courts require that
any tax savings be passed through to the rate payers,
and (4) assertions that competitive markets would
required any tax savings to be reflected in the
consumer’s prices.
a.
Adjustments to the Income
Tax Allowance
367. Turning first to the requests to adjust the
weighted average of SFPP’s income tax allowance,
ACV Shippers assert that mutual funds, pensions,
and
other
pass-through
entities
receiving
distributions from KMEP should be attributed a zero
marginal income tax rate weight in developing the
weighted average cost of any income tax allowance.
The ACV Shippers assert that their economic witness
Matthew P. O’Loughlin establishes that any income
tax allowance is already reflected in the ROEs

425a
calculated by the Commission’s DCF model. 611 The
Commission examined and rejected this argument
earlier in this order and therefore denies rehearing.
Mr. O’Loughlin’s testimony also attributed a
marginal tax rate of zero to such pass-through
entities because they pay no taxes. The Commission
has consistently rejected this argument by holding
that pass-through entities such as mutual funds or
pension trustees make distributions to institutions
and individuals that pay income taxes on the
distributions.
The marginal tax rates of the
beneficiaries are reflected in the price they pay for the
mutual funds and in the benefits from their pensions
or trusts.
Thus the marginal tax rates of the
beneficiaries are properly reflected in the income tax
cost of an MLP’s regulatory cost of service. 612
b.
Adjustments to return based
on equity and fairness
368. Shipper Parties request the Commission to
reduce SFPP’s rate of return to reflect the time value
of any tax benefits to a limited partner from owning
611

ACV Rehearing at 64-65.

612 December 2007 Order, 121 FERC ¶ 61,240 at P 35, 38;
Opinion No. 511, 134 FERC ¶ 61,121 at P 294-295.

426a
an MLP’s limited partnership interests. In addition
to their arguments based on the double recovery of an
MLP partner’s income tax allowance, they assert
Opinion No. 511 erred by not adjusting SFPP’s return
as a matter of equity and fairness, citing the
December 2006 Sepulveda Order. 613 They urge the
Commission to reduce the amount of SFPP’s equity
return to reflect the present value calculations of Dr.
Horst, who would reduce the income tax marginal tax
rate by a factor of 78.4 percent to reflect the present
value of the lower tax burden a partner incurs if the
income tax burden on the income from KMEP’s units
is deferred for eight years. 614 Dr. Horsts’ adjustment
would reduce SFPP’s marginal tax rate from 34.94
percent to 32.92 percent. 615 The lower marginal tax
rate would mean a lower dollar amount for income
tax allowance since the marginal tax rate is applied to
the dollar equity return component of the pipeline’s
regulatory cost of service. This in turn would reduce
the pipeline’s revenue requirement and thereby its
rates.
613

ExxonMobil/BP Rehearing at 58-70.

Id. at 63-64. The analysis for Dr. Horst’s 65.1 percent factor
is at Ex. XOM-1 at 37-39. The calculations are at Ex. XOM-10 at
2 and Ex. XOM-1 as corrected by Ex. XOM-21 and XOM-25.
614

615

ExxonMobil/BP Rehearing at 72.

427a
369. Like the December 2007 Order 616 before it,
Opinion No. 511 over-ruled the December 2006
Sepulveda Order’s holding that fairness requires
adjusting a MLP’s equity return to reflect the present
value of any tax deferrals. 617 On rehearing, the
Commission again concludes that there is a basic
problem with any such adjustment. As previously
discussed, basic finance theory states that tax savings
from any deferrals will be reflected in the price an
MLP partner pays for an MLP equity interest. As the
Shipper Parties’ witness Dr. Horst states, investors
will always pay more for an instrument that has a
lower tax impact. 618 But whatever the resulting
ROE, that is market-based and reflects investor’s
after-tax expectations. Lowering the equity rate of
return to reflect the present value of tax deferrals
obtained by an MLP limited partner reduces the yield
on MLP equity interests twice, once when the limited
partnership interests are purchased and a second
time in a Commission proceeding. A second reduction
understates the cost-of-equity by reducing the yield
on the MLP’s equity interest below that resulting
616

December 2007 Order, 121 FERC ¶ 61,240 at P 29, 32.

617

Opinion No. 511, 134 FERC ¶ 61,121 at 307-308.

618

Ex. XOM-1 at 17-18; accord Ex. SFP-75 at 20-21.

428a
from the application of the Commission’s marketbased DCF methodology. 619 The December 2006
Sepulveda Order failed to raise and address this
fundamental contradiction between the Commission’s
reliance on a DCF model for determining a pipeline’s
equity cost of capital and the reduction in the
capitalized value of the firm that would result. 620 The
619

See Ex. SFP-75 at 20-24.

If the required after-tax return generated by the DCF model
is 10 percent and the equity rate base is $1000, the required
after-tax dollar return to be included in the cost of service is
$100. If the marginal tax rate is 35 percent, the required tax
gross up is $54, or a total pre-tax return of $154 ($153.85) before
payment of the income taxes. Application of the marginal tax
rate then results in an after-tax return of $100, or 10 percent on
the equity component of the rate base. Dr. Horst’s adjustment
would reduce the tax gross up to $49.08 (100/ (1 - 32.92), or a
pre-tax return of $149.08. This reduces the pipeline’s revenue
requirement by $5.77. However the market would continue to
apply a marginal tax rate of 35 percent to the pipeline’s return
and this would depress the equity price accordingly. Equity
markets would view the difference in the marginal tax rate at
approximate $94.44 ($100 - $5.77), or an after-tax return of 9.44
percent on $1000. But the posited cost of equity capital is 10
percent. Therefore the price of the equity security will adjust to
$944.44 (10 x $94.44). The jurisdictional entity under-recovers
its equity cost of capital of 10 percent and does not obtain a
capitalized
value equal to the equity component of its equity
rate base ($944.44 versus $1000), a
6.6 percent reduction.
Thus the MLP pipeline has an after-tax ROE and value that is
less than that of a corporate pipeline.
620

429a
December 2006 Sepulveda Order likewise did not
consider that adjusting an MLP pipeline’s return
would cause it to have a return on jurisdictional
assets that is less than that of corporate pipeline.621
This oversight resulted in a holding that was
inconsistent with the purpose of the Income Tax
Policy Statement 622 and ExxonMobil’s recognition of
the need to maintain the parity of MLP and corporate
returns so that both have the same opportunity to
raise
equity
capital.623
370. Moreover, as noted, reducing the yield
artificially would cause the market price of the MLP
equity interest to fall in response the artificially lower
yield established by the Commission. This means
that an MLP would have to issue more equity units to
raise the same amount of capital, thus undercutting
the investment incentives and advantage the
Congress intended the MLP business format to posses
in the first place. 624 Thus, if the incentives are to be
621

42.

December 2006 Sepulveda Order, 117 FERC ¶ 61,285 at P 39-

Income Tax Policy Statement, 111 FERC ¶ 61,139 at P 1, 910, 27, 33, 35.
622

623

ExxonMobil, 487 F.3d at 952-54.

624

The lower yield would be reflected in the equity cost-of-capital

430a
effective, the tax deferrals must ultimately be for the
benefit of the MLP, not for the rate payers. In that
regard Opinion No. 511 states Congress intended that
that any tax benefits from deferrals accrue to the
MLP unit holders in order to encourage
investment. 625
This statement was not wholly
accurate as it overlooked the fact that the limited
partners will pay a higher price for their equity
interests and therefore may not capture the entire
benefit of the income tax deferrals for themselves.
371. However, regardless of whether one views the
tax deferrals as a benefit to the MLP partner during
the early years of the deferrals, or concludes that the
MLP benefits from the resulting higher equity prices
reflecting those deferrals (or some combination of
both), reducing the present value of the tax deferrals

included in the pipeline’s cost of service, but the lower equity
price makes it harder to raise equity capital. This apparent
paradox occurs because the yield is artificially depressed.
Therefore the price of the equity interests must decline to
provide the market-based yield. See Ex. SFP-75 at 30 for a
historical example of how prices dropped when the return was
adjusted involving the Lakehead Pipeline Co., L.P.
625 Opinion No. 511, 134 FERC ¶ 61,121 at P 253-254, 265, 305308.

431a
reduces the incentives to invest in the MLP and
misstates an MLP’s equity cost-of-capital.
As
discussed earlier, there is no credible evidence here
that Congress intended to deprive jurisdictional
MLPs or their limited partners of any benefits
derived from income tax deferrals resulting of an
MLP. Opinion No. 511 therefore correctly affirmed
the Commission’s prior finding that the December
2006 Sepulveda Order incorrectly held that an MLP’s
rate of return should be adjusted to reflect the value
of the income tax deferrals obtained by an MLP’s
limited partners.
c.
Adjustments
Congressional intent

Based

on

372. The Shipper Parties again argue that Congress
has required that the savings of any tax benefits from
income tax provisions designed to encourage
investment in public utilities must be passed through
to the rate payers by the normalization of those
benefits. Alternatively, they assert that there is no
basis for the Commission to conclude that Congress
intended the jurisdictional entity to keep the financial
benefits that flow from the use of the MLP format.626
This is a variation on their argument that Congress
626

ExxonMobil/BP Rehearing at 51-53; ACV Rehearing at 49-50.

432a
intended that the tax normalization policies of the
Commission’s regulations apply to any income tax
deferrals that flow from the use of the MLP format.
Earlier in this order the Commission rejected
arguments that Congress intended to limit the tax
benefits that flow from the use of the MLP format by
analogy to the limitations on investment tax credit
incentives contained in section 203(e) of the Revenue
Act of 1964. There is no express statement on the
record here that Congress intended the rate payers to
obtain any tax benefits that may flow from the MLP
business format. This is true whether one views
those benefits as the deferrals for the limited partners
or the higher equity prices an MLP may obtain from
its investors based on those deferrals. As discussed,
this would reduce the incentives to use the MLP
business format an investment vehicle, and in any
event, an MLP pipeline’s marginal tax rate is usually
lower than that of corporate pipeline.
d.
Arguments Based on Judicial
Precedent
373. In asserting that section 7704 of the IRC
provides for a tax savings to be passed on to the rate
payers, the Shipper Parties’ argue that judicial
precedent requires that any savings in tax costs must

433a
be passed onto the rate payers. 627 They first cite El
Paso Natural Gas Co. v. FPC, 628 which they assert
holds (1) that full effect must be given to the
Congressional intent to make the several tax savings
available to this taxpayer because it is in the natural
gas business or it is acquiring new equipment subject
to the depreciation options of the 1954 Internal
Revenue Act, and (2), that these tax benefits should
not be translated into additional profits for the
jurisdictional entity over and above a reasonable
return on its investment. Their quotation from the El
Paso decision also noted that the tax savings at issue
included a substantial incentive for the exploration
and development and payment for the gas consumed
in reaching its conclusion. The Shipper Parties also
cite Cities of Lexington v. FPC, which more explicitly
held that the benefits for a statutory depletion
allowance should be passed through to the rate
payers. Cities of Lexington did so on the grounds that
principles of cost accounting should not be used to set
up a fictitious and unreal tax expense that gives the
utility the entire benefit of tax saving statutes and
ExxonMobil/BP Rehearing at 40-41, 49-51; ACV Rehearing at
47-49.
627

El Paso Natural Gas Co. v. FPC, 281 F.2d 567, 573 (5th Cir.
1960) (El Paso).

628

434a
passes none to the consuming public. 629 At bottom,
Shipper Parties argue that these cases hold that any
tax savings must be passed onto the rate payers,
including any that may flow from the elimination of
double
taxation
by
section
7704.
374. This order previously explained that there are
no “tax savings” to the jurisdictional entity from the
elimination of double taxation or the from the tax
deferrals that occur at the level of the MLP partner.
However there are also at least three legal limitations
to the Shipper Parties’ argument that the two cited
cases support a required pass through of “tax
savings.” First, both cases where decided at a time
when the Commission used the flow through method
for determining a jurisdictional entity’s tax
allowance. As explained in City of Charlottesville, the
flow through method required that all that income
and losses, including all deductions for amortization
and depreciation, whether jurisdictional or nonjurisdictional, be combined, if necessary at the parent
company level. If done at the parent level, the
taxable income and thus the taxes of the parent
would be allocated among its subsidiaries. In
contrast, use of the stand-alone method, as approved
629 Cities of Lexington v. FPC, 295 F.2d 109 (4th Cir. 1961) (Cities
of Lexington).

435a
by City of Charlottesville, usually results in higher
tax allowance because the tax base, and hence the
effective tax rate, is not reduced by the losses of the
jurisdictional
entity’s
affiliates.630
375. Second, while these two cited cases were
decided in 1960 and 1961 long before the Commission
adopted the stand-alone method in 1983 in Columbia
Gas Transmission Co., 631 even these cases permitted
the use of tax deferrals rather than requiring
immediate recognition of tax savings. 632 Moreover
the cited cases, which deal with tax savings from
incentives for exploration and production, were also
decided over 25 years before City of Charlottesville,
which unequivocally held in 1985 that the tax savings
630

City of Charlottesville, 774 F.2d 1205, 1207-08.

Columbia Gas Transmission Co., Opinion No. 173, 23 FERC
¶ 61,850 (1983). The Shipper Parties cite this case for the
proposition that only income taxes that are part of jurisdictional
cost of service should be included in the pipeline’s cost of service,
and imply that this case states that MLPs should not have an
income tax allowance because this permits MLPs to recover an
element of its cost of service twice. The Shipper Parties’ use of
this citation is wholly inapposite in that it ignores the holding in
ExxonMobil that income taxes are properly included in a MLP
pipeline’s regulatory cost of service.
631

632

See City of Charlottesville, 774 F.2d at 1213.

436a
obtained by a parent company from such activities do
not have to be used to adjust the income tax cost, and
therefore the income tax allowance, of a subsidiary.
City of Charlottesville so held even though the tax
deferrals and savings were derived from the parent’s
gas exploration and production functions might defer
recognition of taxable income for a very long period of
time, as much as 15 years, or perhaps forever. 633
376. Third, the cited language from El Paso might
be construed as applying to depreciation and
amortization that occurs from incentive based
investments in pipeline facilities used for the
transportation of natural gas in interstate commerce.
But to the extent there are tax deferrals at the
pipeline level, the Commission still requires
normalization of any tax impacts that flow from
activities and accounting transaction at the pipeline
level that reflect pipeline operations. In contrast, any
benefits that occur to the limited partners from use of
the MLP format are equivalent to non-jurisdictional
accounting transactions at that the level of a
corporate parent company, and as such are not
subject to normalization. As discussed, an MLP
pipeline has the same revenue requirement as
corporate pipeline but the MLP is tax advantaged
633

Id. at 1214-16.

437a
because the absence of double taxation leads the MLP
partner to pay a higher price for the MLP equity
interest than would otherwise be the case. The socalled “tax savings” to the MLP do not come from a
reduction in the income tax cost of an MLP or in the
equity rate of return generated by the DCF model. In
fact, City of Charlottesville recognized that for any tax
benefits to accrue to the ratepayers those benefits
must be generated at the level of the jurisdictional
entity’s jurisdictional service as that term is defined
by the Commission’s cost-of-service and rate design
methodologies. 634
377. The Commission previously discussed how it
was necessary to adjust the stand-alone method to
deal with the realities of partnership law because the
relevant marginal tax rates can only be derived by the
partner’s taxable income.
For all other matters
involving jurisdictional income and expenses the
Commission has retained the stand-alone method
approved by City of Charlottesville. The issue here is
whether the Commission has properly applied the
underlying principles of that case to the complexities
of partnership accounting, which the Commission
believes
that
it
has.

634

City of Charlottesville, 774 F.2d 1205.

438a

e.
The Relevance of Competition
to Tax Savings
378. Finally, the Commission addresses here a
secondary point discussed in Opinion No. 511.
Opinion No. 511 stated that the Commission seeks to
replicate the competitive market in its regulation of
jurisdictional entities. Opinion No. 511 held that if
jurisdictional MLPs are denied an income tax
allowance, their returns will be less attractive than
those of non-jurisdictional MLPs and thus less likely
to attract investment than non-jurisdictional
MLPs. 635 On rehearing the Shipper Parties argue
that jurisdictional MLPs are monopolies and will not
reduce their prices in response to competition while a
non-jurisdictional entity are subject to competitive
pressure and will pass on any income tax savings to
its customers. The ACV Shippers argue at length
that the Commission ignores basic economic theory,
which holds that competition means that a firm’s
marginal prices will equal its marginal costs. They
assert that if a competitive firm has savings in its
income tax costs, this will be reflected in its marginal
635

Opinion No. 511, 134 FERC ¶ 61,121 at P 261-262.

439a
costs. ACV Shippers state that in order to meet
competition from another MLP or corporation
competing in the same market, competition will force
a non-jurisdictional MLP to pass the benefits of single
taxation or tax deferrals on to its customer as its
prices will decline to reflect the reduced level of its
income tax costs. 636 The Shipper Parties are thus
arguing that because the Commission has not
required a jurisdictional MLP to pass on any tax
savings from the use of the MLP business format, the
Commission incorrectly concluded that it is
replicating a competitive market if it grants a
jurisdictional MLP an income tax allowance.
379. The Commission disagrees with the Shipper
Parties’ argument that competition will require the
tax-advantages of the MLP business format to be
passed on in the rates or prices of an MLP pipeline.
Their argument has several errors. One is that there
are no tax savings to the MLP from the fact that an
MLP partner pays only one level of taxations. As the
Commission has previously shown, an MLP income
tax allowance does not permit the double recovery on
the partner’s income tax liability; thus, this first
argument lacks any analytical foundation and as such
is irrelevant. Second, the Shipper Parties’ marginal
636

ExxonMobil/BP Rehearing at 48-49; ACV Rehearing at 44-47.

440a
price equals marginal cost arguments likewise
assumes that any “tax savings” from tax deferrals
that may be available to the MLP’s limited partners
or the “tax-advantage” from the elimination of double
taxation are reflected in an MLP’s marginal costs. As
has been previously discussed, this is incorrect. Any
benefits to the MLP or its limited partners from the
use of the MLP business format are reflected in the
pricing investors pay when the purchase an MLP
equity interest. Such investors pay a higher price for
the MLP equity interest due to the absence of double
taxation of corporate dividends or due to the lower tax
burden
resulting
from
any
tax
deferrals.
380. In contrast to costs that are part of the firm’s
transportation function, such as operating expenses
and the cost of capital, income taxes are imposed on
the net income that results from the firm’s operations.
For this reason such taxes are often referred to as the
income tax burden on earnings. 637 As an example of
This point is also discussed in the Income Tax Policy
Statement, 111 FERC ¶ 61,139 at P 21-22, stating arguments
that income taxes are not a component of a pipeline’s operating
expenses, but are a function of net income and return. See also
December 2006 Sepulveda Order also recognized this
fundamental fact although it reached the incorrect conclusion
that the benefits of any deferrals should be for the rate payers.
December 2006 Sepulveda Order, 117 FERC ¶ 61,285 at P 41.
637

441a
this burden the Commission’s tables earlier in this
order discussed a required after-tax return of $100
and the marginal tax rate was 35 percent. These
show that a non-jurisdictional firm must either gross
up revenues to $154 in excess of its operating
expenses or the jurisdictional firm must have an
income tax allowance of $54. Now assume that the
required after-tax dollar return drops to $90 because
the equity cost-of-capital has declined but the
marginal tax rate remains at 35 percent. The dollar
amount of the revenue gross up needed by the nonjurisdictional firm to earn an after-tax return of $90
will decline because the required after-tax return has
declined. This change would be the same whether the
firm involved is a MLP or a corporation. This is also
true regardless of whether they are jurisdictional or
non-jurisdictional firms since they are assumed to
have the same business risk, the same output, and
the same dollar amount of costs before income taxes
and sales. Since a drop in the equity cost of capital
lowers the firm’s cost of service, the firm’s prices or
the rates will drop to reflect those lower operating
costs.
381. It is of course true that a higher marginal tax
rate may make it more difficult for a firm to compete
because this requires a higher tax gross up or a
higher income tax allowance as part of its cost of
service. It is also clear that a lower tax gross up or
income tax allowance results in lower prices since
income tax costs are a gross up of the revenue needed

442a
to cover the firm’s operating expenses and its cost of
capital. But the firm is not passing on income tax
“savings” through lower prices to its customers that
stem from elimination of double taxation or from any
tax deferrals that flow to the limited partners. Rather
the amount of the income tax gross up (or income tax
allowance) drops because the income tax burden is
lower due to lower taxable income. 638 Moreover, if
the imputed tax rate derived from the partners is less
than the 35 percent marginal tax rate for the
corporation, then the tax cost to the entity is lower as
a result and the Commission will provide a lower tax
allowance. Similarly a lower marginal tax rate would
also be reflected in the lower prices a nonjurisdictional entity needs to meet its tax gross up.
Thus the Commission is replicating the price
difference that should result from a difference in their
marginal tax rates.
But that difference in the
marginal tax rate occurs at the first tier (MLP and its
partners or the corporation), not because there are
tax deferrals to the limited partners or because an
MLP is “tax advantaged” due to the absence of double
taxation at the second tier. Rather it is a function of
the limited partner’s lower weighted average tax
marginal tax rate.

638

Income Tax Policy Statement, 111 FERC ¶ 61,139 at P 21-22.

443a
382. Opinion No. 511 simply made the point that if
a jurisdictional MLP is to be competitive with nonjurisdiction MLP in raising equity capital, it must
have both the same after-tax dollar and percent ROE
as the non-jurisdictional MLP with the same risk.639
As Table 2 shows, if the jurisdictional MLP does not
obtain an income tax allowance, the latter will not
even recover its equity cost of capital. If a nonjurisdictional MLP is able to earn its after-tax equity
cost-of-capital and the jurisdictional MLP cannot, it
should be obvious which of the two MLPs would be
more attractive to investors. In this regard the
relative position of the corporate pipeline is irrelevant
to that concern because the corporation is always
disadvantaged by the fact of double taxation.
5.
Tax

Other Issues Involving the Income
Allowance
Calculations

383.
This section of the order addresses three
technical issues involving the income tax allowance
calculations. The first is the income tax marginal tax
rate to be used in calculating the allowance for
deferred income taxes (ADIT) in SFPP’s regulatory
cost of service. As is the case with other jurisdictional

639

Opinion No. 511, 134 FERC ¶ 61,121 at P 263-264.

444a
entities, the Commission’s Opinion
No. 154-B 640 oil
pipeline methodology requires the calculation of the
increases and decreases in ADIT balances over a
large number of years. The ADIT account is intended
to reflect the difference in any given year between the
taxes actually paid by the carrier and the dollar
amount of taxes generated by the income tax
allowance component of the pipeline’s cost of service.
Since the income tax allowance is determined in part
by the marginal tax rate used to develop the
pipeline’s cost of service, the amount of the marginal
tax rate thereby affects the amount of the ADIT
adjustment between the taxes actually paid and the
cash generated by the income tax allowance.641
384. SFPP asserts on rehearing that Opinion No.
511 incorrectly held that the ADIT calculation should
be based on the highest marginal income tax
allowance rate in effect in for each year of that
calculation. 642 SFPP first asserts that that the issue
of the use of the highest marginal tax rate applies
only to the period 1992 through 1996 as no party has
640

Opinion No. 154-B, 31 FERC ¶ 61,377.

641

Opinion No. 511, 134 FERC ¶ 61,121 at P 316-317.

642 SFPP Request for Rehearing at 21-27 (citing Opinion No. 511,
134 FERC ¶ 61,121 at P 319-320).

445a
raised the issue for period after 1996. SFPP argues
that the maximum tax rate for a partnership can vary
from year to year, but in any event it is simply
incorrect to assume that the applicable 35 percent
maximum tax rate actually applied to SFPP for the
entire period 1992-1996. SFPP also argues that it
should not be required to use the maximum corporate
marginal tax rate after 1968 when SFPP became a
partnership, but rather the lower marginal rate that
would have applied to its partnership between 1988
and 1991.
385. The Commission grants rehearing on the point
of whether the maximum corporate tax rate must
always be used to determine SFPP’s marginal tax
rate, including the period 1992 to 1996. As SFPP
states, the marginal tax rate for a partnership or a
corporation can vary based on the year in which a
rate calculation is performed. As such, it would be
incorrect to assume that the maximum corporate
marginal tax rate will always apply in determining
the amount of ADIT incurred or amortized in any
given year. Rather, the proper rate is the marginal
tax rate that is embedded in SFPP’s rate design in a
given year. Thus Opinion No. 511 should have held
that the marginal tax rate actually used in a given
year for SFPP’s rate design should be the marginal
rate used for the ADIT calculation. This assures that
the ADIT adjustment for each year is properly
calculated and does not change retrospectively absent
a Commission order authorizing a change in the

446a
pipeline’s rate design, as was done in a series of
complaints filed between 1992 and 1996.643
386. More specifically, in reviewing SFPP’s East
Line rates in Docket No. OR-92-8-000, et al., the
Commission concluded that SFPP should recalculate
its ADIT as of 1992 because that was the first year
the Commission directed SFPP to change its rate
design for those rates. 644
Thereafter, after the
Commission adopted its Income Tax Policy
Statement, it continued to hold that SFPP should
modify its ADIT as of 1992.
In doing so, the
Commission notes that before 1992 SFPP would have
used a full income tax allowance because the
Lakehead methodology was not applied to its cost of
service. 645
From 1988 through 1991, SFPP’s
E.g. SFPP, L.P., Opinion No. 435-B, 96 FERC ¶ 61,281, at
62,077 (2001).

643

644

Id.

December 2007 Order, 121 FERC ¶ 61,240 at P 144. Given
that rationale, the East Line ADIT would be properly calculated
as of 1992 using the Income Tax Allowance Policy methodology.
The West Line rates were not revised until May 1, 1996, and
therefore the revised ADIT should have begun at that point for
those rates. It is too late at this point to make that adjustment
given the reparations and refunds for the West Line rates at
issue in Docket No. OR96-2-000 have been paid based on a
revised ADIT calculation beginning in 1992. Id. P 144 and
645

447a
regulatory marginal tax rate was that of a
corporation, not a partnership and therefore its
income tax allowance was based on the corporate
marginal tax rate that was embedded in its
jurisdictional rates at that time.
Therefore the
Commission correctly rejected SFPP’s efforts to be
afforded the income tax allowance of a partnership on
a retrospective basis to 1988 and it continues to do so
here.
387. For the period 1992 through 1996 the
Commission permitted SFPP to change the marginal
tax rate in each of those years. In that regard SFPP
argues here that the ADIT calculation is a cost
calculation that varies in any given year by changes
in the dollar amounts on the company’s books of the
rate base, book and tax depreciation rates, the cost-ofcapital, including the marginal tax rate. This is
consistent with SFPP’s earlier argument that an
adjustment to the marginal tax rate was similar to
the annual cost-of-capital adjustment included the
ADIT calculation. 646
This was approved by the

Ordering Par. E.
646 December 2007 Order, 121 FERC ¶ 61,240 at P 143
(summarizing SFPP’s argument regarding its ADIT calculation).

448a
December 2007 Order 647 and at this point is a closed
issue for the period 1992 through 1996 as Opinion No.
511 states. 648 However, the Opinion No. 511 should
not have analogized an annual change in the
marginal tax rate to the annual change in the cost of
capital that occurs in the annual ADIT calculation on
the company’s books. Opinion No. 511 attempted to
explain that the marginal tax rate should not vary
from year to year as a matter of rate design. 649 This
is because the marginal tax rate is a rate design
component derived from the pipeline’s cost of service
test period unlike such book entries as the rate base,
the actual tax payments, or the pipeline’s cost of
capital. 650
388.

By way of contrast to the marginal tax rate,

647

Id. P 144.

648

Opinion No. 511, 134 FERC ¶ 61,121 at P 320.

649

Id. P 319-320.

650 Of course if the maximum tax rate changes, it is appropriate
to change the weighted marginal tax rate to reflect this. But
this is driven by statute, not by a hearing process that
determines the relative weight of the partner’s marginal tax rate
based on their proportionate ownership interests. This should
not be changed outside a rate case.

449a
the cost of capital is the weighted cost of debt and
equity on the company’s books. This book ratio will
change if there is a change in ratio of debt and equity
on the company’s books in any given year. But the
actual cost of the debt and the equity components
embedded in the pipeline's rates is determined only in
the context of a rate case. Such rate components may
not be varied by the pipeline outside a rate
proceeding nor should the marginal tax rate
component of the pipeline’s cost of service be varied
from year to year outside the context of a general rate
case proceeding. Given that the December 2007
Order should not have permitted SFPP to vary the
marginal tax rate from that established by the
relevant test periods, the question then becomes how
to determine the ADIT calculation that should apply
to the instant West Line rates given the cases that
have gone before.
389. SFPP is understandably concerned that
Opinion No. 511 might be construed as requiring an
adjustment to the marginal tax rates that were
previously used to design certain of the SFPP’s rates
in 1992 and 1996 through the effective date of the
rates at issue here. 651 As discussed, in the context
the Docket No. OR92-8-000 and Docket
No. OR96651

SFPP Rehearing at 27-28.

450a
2-000 complaint cases the Commission applied the
Income Tax Policy Statement to the East Line rates
in 1992 and the West Line rates in 1996. 652 This was
consistent with its prior determination that SFPP
should be treated as a partnership as of 1992, the
earliest year for which its rates were modified
pursuant to a complaint. SFPP applied the weighted
average marginal tax methodology to its East Line
rates as of 1992 and the West Line rates as of 1996.
In doing so it developed a separate marginal tax rate
for each year between 1992 and 1996 and developed
its
ADIT
calculations
according.653
390.

That calculation helped determine the net rate

See June 2005 Order, 111 FERC ¶ 61,334 at P 73-74 noting it
would be necessary to determine whether an income tax
allowance was appropriate for the 1994 test year for the first
East Line rate proceeding (Docket OR92-8-000) and the 1996
test year proceeding involving both the East and West Line rates
in Docket No. OR96-2-000. The Commission thereafter accorded
SFPP an income tax allowance for both lines in the December
2005 Order, but required SFPP to make a compliance filing
detailing how the income tax allowance would be implemented
and a revised cost of service for both the East and West Lines.
December 2005 Order, SFPP, L.P., 113 FERC ¶ 61,277 at P 4447.
652

December 2007 Order, 121 FERC ¶ 61,240 at ordering par.
(E).

653

451a
base for both the East and West Line rates during
that period and thereby influenced the net rate base
that would apply to the design of the West Line rates
in the instant docket. The December 2007 Order also
established effective dates for the rates in Docket No.
OR92-8-000 as of August 1, 2000 and May 1, 2006 for
the rates in Docket No. OR96-2-000. The December
2007 Order thereby established the dates for
calculating reparations and refunds until both the
East and the West Line rates were supplanted by
later filings. Given the settlement of those cases the
Commission will not disturb the calculations
underpinning the design of the rates established by
the December 2007 Order.
Revising the ADIT
balances for 1992 and 1996 would change the
calculation of the West Line rates now before the
Commission in a manner favorable to the shippers
because the change to the ADIT balances for the
period 1992 through 1996.
This would be an
inequitable and in effect a retroactive rate that would
be
unjust
and
unreasonable.
391. Given the previous analysis, Opinion No. 511
erred to the extent it implied that the ADIT
calculation for the West Line rates in the instant
docket should not reflect the ADIT calculations
actually embedded in the East and West Line rates
based on the ADIT calculations that SFPP made for

452a
the period 1992 through 1996. 654 Therefore the
proper marginal tax rate for the calculation of the
ADIT component of the West Line rates is as follows.
For 1992 through May 1, 1996 the proper ADIT rate
was the adjusted annual rate as authorized by the
December 2007 Order. Thereafter, as with other cost
of service factors in SFPP’s rate design, the marginal
tax rate must be fixed until that component was
changed on effective date of the current West Line
rates in this proceeding. 655 This will result is a
different ADIT calculation for the rates at issue here.
However the ruling here will not require SFPP to
modify the West Line rates effective May 1, 1996, and
which underpin the reparations and refunds
applicable to the period before the instant West Line
rates became effective on August 1, 2008.
In
summary, Opinion No. 511 only intended to hold that
it is incorrect to vary SFPP’s weighted marginal tax
rate for the period after the effective dates of the West
Line rates established by the December 2007 Order.
As with other rate design factors, the marginal tax
rate should be fixed by the test period calculations.
654

Opinion No. 511, 134 FERC ¶ 61,121 at P 3.

This should be done using the marginal tax rate adopted in
the 1996 calculation, the year that established the West Line
rate design in effect between May 1, 1996 and the filing of the
rate case effective August 1, 2008 in the instant docket.
655

453a
Rehearing on the marginal tax rate issues is granted
and denied as stated.
392. The third technical issue involving the income
tax allowance calculation is whether to use the
marginal rate of the state in which a partner resides
or the source state in which the income was
generated.
This decision affects the weighted
marginal tax rate to be used in developing the income
tax allowance.
Opinion No. 511 held that the
calculation should be based first on the marginal tax
rate of the source state, and then on marginal tax
rate of the partner’s resident state. Opinion No. 511
noted that the taxes paid on the source state are
normally a partial credit against the income taxes of
the partner’s resident state. 656 On rehearing, the
Shipper Parties assert that this should be reversed
because there is no evidence that taxes that are paid
on the gains incurred when a partnership interest is
sold are taxed at the source state. 657 This argument
overlooks the fact that the Commission’s income tax
allowance is relevant only to ordinary income. All
deferred ordinary income must be recognized when a
limited partnership interest is sold and there is no
656

Opinion No. 511, 134 FERC ¶ 61,121 at P 320.

657

ExxonMobil/BP Rehearing at 72.

454a
evidence here that such ordinary income would not be
apportioned at the source state just as is the ordinary
income a partner recognizes in the year it is actually
earned. Otherwise, the deferral component of the
MLP works to the disadvantage of the source state
that would tax that as ordinary income. Moreover,
many states do not recognize the distinction between
capital gains and ordinary income currently
recognized at the federal level. This means that on
the sale of a partnership interest the total tax liability
to the source state may actually be greater than the
amount reflected in the Commission’s income tax
allowance. As Opinion No. 511 states, any such
capital gains are outside the scope of the income tax
allowance. 658
Therefore rehearing is denied.

658

Opinion No. 511, 134 FERC ¶ 61,121 at P 320.

455a
APPENDIX H
134 FERC ¶ 61,121
UNITED STATES OF AMERICA
FEDERAL ENERGY REGULATORY COMMISSION
OPINION NO. 511
SFPP, L.P.

Docket Nos. IS08-390-002

OPINION AND ORDER ON INITIAL DECISION

(Issued February 17, 2011)

456a
TABLE OF CONTENTS
Paragraph Numbers
General Background ................................................... 2
I. Test Year Definition and Throughput .................... 7
A. Exceptions............................................................... 10
1. SFPP ........................................................................ 10
2. Shippers................................................................... 15
B. Briefs Opposing Exceptions ................................... 18
1. SFPP ........................................................................ 18
2. Shippers................................................................... 20
3. Trial Staff ................................................................ 24
C. Discussion ............................................................... 27
II. Operating Expenses ............................................... 31
A. Litigation Costs ...................................................... 31
B. Depreciation............................................................ 38
C. Allocation Factors Between Jurisdictional and Non-

Jurisdictional Services .................................................... 50
D. The Allocation Factors for Certain Operating
Expenses ...................................................................... 58
E. Oil Losses and Shortages ....................................... 63
F. Environmental Remediation .................................. 67

457a
G. Definition of Carrier Service.................................. 71
III. Allocation of Overhead Costs ............................... 73
A. The Corporate Structure ........................................ 74
B. The Accounting Structure ...................................... 75
C. The Massachusetts Formula.................................. 89
1. The Appropriateness of KMI’s Accounting
Methodology ................................................................ 94
2. The Generic Legal Issues........................................ 100
3. The Exclusion of Certain Subsidiaries ................... 110
4. The Accuracy of KMI’s Accounting System ........... 128
5. The Appropriateness of Certain Cost and
Revenue Components ................................................. 140
D. The KN Method ...................................................... 149
IV. Capital Structure and the Cost of Capital ........... 152
A. PAA and Goodwill .................................................. 153
1. PAA .......................................................................... 156
2. Goodwill ................................................................... 177
B. Appropriate Debt to be Included in the Capital
Structure ..................................................................... 181
C. The Cost of Debt ..................................................... 186
1. The Cost of Commercial Paper ............................... 187
2. Industrial Revenue Bonds ...................................... 188
D. The Cost of Equity Capital .................................... 194

458a
1. Composition of the Proxy Group ............................ 195
2. Use of Post-Test Period Data for DCF Analysis .... 205
E. Rate Base Issues..................................................... 211
1.Determination of Deferred Return .......................... 212
2.Calculation of the Inflation Adjustments ............... 216
V. Income Tax Allowance Issues ................................ 219
A. Legality of an Income Tax Allowance .................... 221
1. Legal Background ................................................... 222
2. Whether BP West Coast Remains Controlling
Authority ..................................................................... 231
3. Issues Resolved by ExxonMobil.............................. 233
4. Should the Income Tax Policy Statement Be
Revised ........................................................................ 239
5. Did the ID Err by not Addressing Certain
Implementing Regulatory Protocols........................... 267
B. The Implementing Regulatory Protocols............... 269
1. Must income be recognized in the base year or by
a known period? .......................................................... 270
2. The possible recovery of taxes on downstream
gains ............................................................................ 279
3. The Role of Incentive Distributions ....................... 284
4. Marginal Rate for Mutual Funds and UBTI ......... 293
5. The Role of Presumptions ....................................... 297

459a
C. Proposed Adjustments to SFPP’s Equity Rate of
Return.......................................................................... 298
1. Adjustment of the return for any alleged income
tax over-recovery ......................................................... 299
2. Whether to adjust for the benefits on deferred income
recognition ................................................................... 303
3. The Role of Section 743(b) Depreciation ................ 310
D. Is the Income Tax Allowance Properly
Calculated? .................................................................. 313
E. Accumulated Deferred Income Taxes .................... 315
VI. Substantial Under-recovery ................................. 323
Appendix A
Appendix B
Appendix C

460a
134 FERC ¶ 61,121
UNITED STATES OF AMERICA
FEDERAL ENERGY REGULATORY COMMISSION
Before Commissioners: Jon Wellinghoff, Chairman;
Marc Spitzer,
Phillip D. Moeller,
John R. Norris, and
Cheryl A. LaFleur.
SFPP, L.P.

Docket Nos. IS08-390-002
OPINION NO. 511

ORDER ON INITIAL DECISION
(Issued February 17, 2011)
1.
This order reviews the December 2, 2009
initial decision issued in the captioned docket.1 The
2009 ID addresses the reasonableness of rates that
SFPP, L.P. (SFPP) filed on June 30, 2008 to increase
its West Line rates. This order generally affirms the
2009 ID’s conclusions regarding good-will, the
1

SFPP, L.P., 129 FERC ¶ 63,020 (2009) (2009 ID).

461a
allocation of costs among SFPP’s affiliates and
between SFPP’s jurisdictional and non-jurisdictional
services, and most capital structure, cost of capital
and income tax allowance issues. This order also
modifies the 2009 ID’s findings regarding throughput,
purchase accounting adjustments, the allocation of
litigation costs, and some rate base and secondary
cost of service issues. SFPP must file an enhanced
overhead cost recovery analysis, revised tariffs, and
an estimated report on refunds that are consistent
with the conclusions of this order.
I. General Background
2.
On June 30, 2008, SFPP submitted, pursuant
to 18 C.F.R. § 342.4(a), revised FERC Tariff Nos. 171
and 172 to reflect proposed cost-of-service rates which
would result in a rate increase for all shipments on
SFPP’s West Line between Watson Station, Los
Angeles County, California and Phoenix, Arizona.
The proposed rates were protested by BP West Coast
Products LLC and ExxonMobil Oil Corporation
(together “ExxonMobil/BP”), Tesoro Refining and
Marketing
Company
(Tesoro),
ConocoPhillips
Company, Continental Airlines, Inc., Northwest
Airlines Inc., Southwest Airlines Co., US Airways,
Inc., Chevron Products Company (Chevron), and
Valero Marketing and Supply Company (together the
ACV Shippers). The protesting shippers alleged that
SFPP failed to demonstrate a substantial divergence
between SFPP’s actual costs and its current ceiling

462a
rates such that the ceiling rates would preclude SFPP
from being able to charge just and reasonable rates.
The protesting parties raised numerous issues of
material fact regarding SFPP’s claimed actual costs
and proposed rate levels.
3.
SFPP supports its proposed rate increase
arguing that the rate increase responds to a decline in
volumes on SFPP’s West Line that are a result of a
corresponding increase in throughput to Phoenix from
SFPP’s East Line. The East Line runs from El Paso,
Texas to Phoenix, Arizona, and was expanded in two
phases. The second of these was placed in service in
December 2007. SFPP claims a 32 percent decrease
in throughput on the West Line in the first five
months of 2008, from an average of 114,120 barrels
per day (bpd) to 77,810 bpd. To offset the reduced
throughput, SFPP seeks the following rate increases:
a 12.3 percent increase in rates for volumes from the
Watson and East Hynes Stations in California to
Phoenix, a 26.6 percent increase for volumes
transported between Colton Transmix Facility in
California to Phoenix, and a 10.6 percent increase for
shipments between Watson and East Hynes Stations
to an interconnection with Calnev Pipe Line L.L.C. at
Colton in San Bernardino County, California.
4.
SFPP calculated its cost of service for the test
period at $47,162,000. SFPP’s test period revenue
under its then-existing rates would have been
$41,988,000, resulting in an under-recovery of

463a
approximately $5,174,000 or 12.3 percent. SFPP
projected that the test period revenue under the
proposed rates would be approximately $47,157,000.
SFPP used calendar year 2007 as the base period for
actual costs, revenue, and throughput data. SFPP
used the first nine months of 2008 (January through
September) for the test period to adjust the base
period for known and measurable changes.
5.
By order issued July 29, 2008, the Commission
accepted and suspended SFPP’s proposed rates for
the West Line to become effective August 1, 2008
subject to refund.2
The issues surrounding the
proposed West Line rates were set for hearing and
settlement judge procedures.
After settlement
discussions reached a stalemate, a hearing was held
in June 2009. The Presiding Administrative Law
Judge (ALJ) issued the 220 page 2009 ID on
December 2, 2009. The principal sections of the 2009
ID address: (1) the base and test periods, (2) allowed
return, (3) income tax allowance, (4) the level and
allocation of operating and maintenance expenses, (5)
the throughput volume level for determining rates,
and (6) classification of costs for Account No. 590.
The 2009 ID concludes that the just and reasonable
going-forward rates for the West Line are those rates

2

SFPP, L.P., 124 FERC ¶ 61,103 (2008).

464a
calculated after all of the adjustments ordered by the
ALJ are implemented.
6.
Subsequently, the parties filed briefs on
exceptions and briefs opposing exceptions. During
that post-hearing briefing phase, SFPP filed a motion
on February 1, 2010 urging the Commission to reject
the ACC Shippers’ and Valero’s briefs on exceptions
because their briefs exceed the page limits contained
in the Commission’s procedural regulations.3 SFPP
essentially argues that the ACC Shippers and Valero
pursued a joint litigation strategy, including the filing
of a common protest and the use of the same
witnesses, such that they should be considered a
single party subject to the page limitations governing
briefs on exceptions. The ACC Shippers and Valero
replied that regardless of whether they might have a
coordinated strategy in some regards, they are
nonetheless independent parties and should be
treated as such for purposes of the rules. They assert
that in this instance they elected to do so given the
complexity of the issues and in order to specialize on
the issues that they address. The Commission notes
that while these parties filed joint interventions, we
The joint interventions were under the caption of the ACV
Shippers as defined in paragraph. However Valero filed a
separate brief on exceptions and the remaining joint intervenors
are captioned the ACC Shippers for the purpose of filing
exceptions to the 2009 ID.
3

465a
note that they always retain the right to take
different positions as the proceeding progresses where
it appears to suit their respective interests. As such,
they are reasonably considered to be independent
parties notwithstanding some coordination of their
litigation strategies, and therefore the Commission
denies SFPP’s motion to strike and accepts the ACC
Shippers’ and Valero’s briefs on exceptions. The
remainder of this Order addresses (1) test year
definition and throughput; (2) operating expenses; (3)
the allocation of overhead costs; (4) capital structure
and the cost of capital; (5) income tax allowance
issues;
and
(6)
substantial
under-recovery.

466a
VI. Income Tax Allowance Issues
218. This part addresses income tax allowance
issues raised on exceptions in the instant docket. The
2009 ID held: (1) that SFPP was legally entitled to an
income tax allowance; 353 (2) that SFPP properly
calculated the income tax allowance following the
guidance in prior Commission orders; 354 (3) that
SFPP properly calculated the taxable income of SFPP
and its partners; 355 (4) that SFPP used the correct
marginal tax rate for those partners; 356 (5) that there
should be no adjustments to reflect the benefits of tax
deferrals occasioned by a master limited partnership
(MLP); 357 (6) that there was no income tax allowance
for future capital gains included in SFPP’s cost of
service; 358
(7) that there were no unintended
consequences
from
the
application
of
the
353

2009 ID, 129 FERC ¶ 63,020 at P 670.

Id. P 671-682 (citing SFPP, L.P., 121 FERC ¶ 61,240, at P 2061 (2007); SFPP, L.P., 117 FERC ¶ 61,285, at P 49-66 (2006),
and SFPP, L.P., 113 FERC ¶ 61,277, at P 10-46 (2005)).

354

355

Id. P 684.

356

Id. P 685.

357

Id. P 688.

358

Id. P 689.

467a
Commission’s Income Tax Policy Statement to
SFPP; 359 and (8) that no adjustment should be made
to SFPP’s rate of return on equity to reflect any
benefits that may flow to SFPP’s limited partners
from SFPP’s income tax allowance. 360
219. All of the 2009 ID’s conclusions regarding
SFPP’s income tax allowance are opposed by the ACC
Shippers and by ExxonMobil/BP. SFPP supports the
2009 ID’s conclusions in all regards. The ACC
Shippers and ExxonMobil/BP assert on exceptions in
this case the same arguments they have raised in
numerous prior SFPP rate proceedings, but are
presented here in their most complete form to date.
Accordingly, this review relies on certain aspects of
the Commission’s prior SFPP orders where
appropriate, but will address any refinements or
modifications
to
the
ACC
Shippers’
and
ExxonMobil/BP’s arguments advanced in this
proceeding.
The exceptions fall into five broad
categories:
(1) the legality of an income tax
allowance, (2) whether SFPP complied with the
Commission’s protocols for implementing an income
tax allowance, (3) certain proposed adjustments to the
rate of return on equity to prevent an alleged double
359

Id. P 692.

360

Id. P 669.

468a
recovery of the income tax allowance, (4) whether the
allowance was properly calculated, and (5) related
accumulated deferred income tax (ADIT) issues. The
parties’ arguments are addressed in turn below.
A.

Legality of an Income Tax Allowance

220. Both the ACC Shippers and ExxonMobil/BP
assert that SFPP is not entitled to an income tax
allowance as a matter of law. 361 All arguments
regarding the fundamental legality of the income tax
allowance for master limited partnerships (MLP) are
addressed here. To summarize, with regard to the
legality of applying an income tax allowance to SFPP,
a limited partnership, the ACC Shippers and
ExxonMobil/BP assert that the 2009 ID erred by: (1)
failing to recognize that BP West Coast, 362 as clarified
by ExxonMobil, 363 is controlling authority; (2) failing
to consider whether the Commission had violated its
statutory authority and the intent of Congress; and
ExxonMobil/BP present this argument as an alternative
argument if the Commission declines to adjust SFPP’s rate of
return to correct an alleged double recovery of the income tax
allowance in SFPP’s equity return.

361

BP West Coast Products, LLC v. FERC, 374 F.3d 1263 (D.C.
Cir. 2004)
(BP West Coast).

362

ExxonMobil Oil Corporation v. FERC, 487 F.3d 945 (D.C. Cir.
2007) (ExxonMobil).

363

469a
(3) failing to examine whether the income tax policy
could be appropriately applied to SFPP.
The
following background section provides context for the
Commission’s review of the legality of an income tax
allowance under the Income Tax Policy Statement. 364
1. Legal Background
221. The Commission’s current income tax
allowance policy for partnerships in general, and
MLPs specifically, was occasioned by the court’s
rejection in BP West Coast of the so-called Lakehead
The Lakehead policy provided that a
policy. 365
limited partnership would be permitted to include an
income tax allowance in its rates equal to the
proportion of its limited partnership interests owned
by corporate partners, but could not include a tax
allowance for its partnership interests that were not
owned by corporations.
On review of four
Commission orders addressing various rate issues
pertaining to SFPP, 366 the U.S. Court of Appeals for
Inquiry Regarding Income Tax Allowances, 111 FERC ¶
61,139 (2005) (Income Tax Policy Statement).

364

BP West Coast, 374 F.3d 1263, 1285-1293 (analyzing and
reversing the Commission’s income tax allowance conclusions in
Lakehead Pipeline Company, L.P., 71 FERC ¶ 61,338 (1995),
reh’g denied, 75 FERC ¶ 61,181 (1998) (Lakehead)).
365

366

SFPP, L.P., 86 FERC ¶ 61,022 (1999) (Opinion No. 435),

470a
the D.C. Circuit reviewed the Commission’s
application of the Lakehead policy to SFPP in BP
West Coast.
222. The court held that the Commission had not
justified two central aspects of the Lakehead policy.
First, the Commission failed to explain adequately
why a partnership should be afforded an income tax
allowance on the partnership interests owned by
corporations but not on those owned by individuals.367
Second, the Commission could not grant a regulated
entity organized as a partnership an allowance for
income taxes when the Commission itself had
concluded that partnerships incur no income tax
costs. 368 Holding that the Commission could not
grant an income tax allowance for a phantom tax
cost, 369 the court reversed the Commission’s decision
to rely on Lakehead in awarding SFPP a partial tax

SFPP, L.P.,
91 FERC ¶ 61,135 (2000) (Opinion No. 435-A),
SFPP, L.P., 96 FERC ¶ 61,281 (2001) (Opinion No. 435-B), order
on clarification and rehearing, 97 FERC ¶ 61,138 (2001)
(collectively the Opinion No. 435 Orders).
367

BP West Coast, 374 F.3d at 1289-90.

368

Id. at 1291-92.

369

Id. at 1288, 1291.

471a
allowance and remanded the proceeding to the
Commission. 370
223. In light of the potentially broad implications of
the court’s determination in BP West Coast regarding
income tax allowances, the Commission opened a
generic proceeding seeking industry comment on
income tax allowances. After the receipt of numerous
comments, the Commission issued the Income Tax
Policy Statement. 371 In formulating the Income Tax
Policy Statement, the Commission determined that
the Lakehead policy “mistakenly focused on who pays
the taxes rather than on the more fundamental cost
allocation principle of what costs, including tax costs,
are attributed to regulated service, and therefore
properly included in a regulated cost of service.”372
The Commission found the realities of partnership
law is such that:
[J]ust as a corporation has an actual or
potential income tax liability on income from
the first tier public utility assets it controls,
so do the owners of a partnership or LLC on
the first tier assets and income that they
370

Id. at 1312.

371

Income Tax Policy Statement, 111 FERC ¶ 61,139.

372

Id. P 33.

472a
control by
entity. 373

means

of

the

pass-through

Thus, the Commission found that while a partnership
entity does not pay taxes on its income from its public
utility operations, that income is distributed to its
partners who are liable for income taxes on that
income, just as a corporate entity must pay taxes on
its public utility income. 374 The Commission further
concluded that the responsibility of a regulated
utility’s partners for payment of taxes on partnership
income is the payment of taxes on first tier income,
just as a corporation’s income tax obligations
represent taxes on first tier income. 375
The
Commission ultimately adopted an income tax policy
permitting “an income tax allowance for all entities or
individuals owning public utility assets, provided that
an entity or individual has an actual or potential
income tax liability to be paid on that income from
those assets.” 376

373

Id. P 34.

374

Id. P 33.

375

Id. P 22, 33-36, 38.

376

Id. P 32.

473a
224. Regarding the SFPP orders remanded by BP
West Coast, on remand the Commission applied the
newly formulated Income Tax Policy Statement and
held that SFPP was entitled to an income tax
allowance to the extent the owners of its partnership
interests had actual or potential income tax liability
during the periods at issue. 377
The June 2005
Remand Order was appealed to the U.S. Court of
Appeals for the D.C. Circuit by the shipper parties – a
group that comprises most of the protesting shipper
parties in this proceeding.
225. On appeal, the court noted that in reviewing
the June 2005 Remand Order, it necessarily must
also review the Income Tax Policy Statement because
the June 2005 Remand Order explicitly relied on the
Policy Statement. 378 Addressing the shipper parties’
arguments that BP West Coast precludes a
partnership, including MLPs, from obtaining an
June 2005 Remand Order, 111 FERC ¶ 61,334 at P 27 (or in
ExxonMobil, the Remand Order). The other order that the court
in ExxonMobil reviewed dealt with other issues. See ARCO
Products Co., a Division of Atlantic Richfield Company, Texaco
Refinery and Marketing Inc., and Mobil Oil Corporation v.
SFPP, et al., 106 FERC ¶ 61,300 (2004) (modifying an initial
decision on substantially changed circumstances under section
1803(a) of the Energy Policy Act of 1992, Pub. L. No. 102-486,
106 Stat. 2776 (1992) (EPAct of 1992)).
377

378

ExxonMobil, 487 F.3d at 951.

474a
income tax allowance, the court stated that “[a]t the
outset, we note that BP West Coast did not
categorically prohibit the Commission from granting
income tax allowances to pipelines that operate as
limited partnerships.” 379
In upholding the
Commission’s Policy Statement and the June 2005
Order that implemented that policy, the court noted
that income tax liability for partnership income
occurs at the partner level, and that it is the partner
that is responsible for any tax liability that may
accrue on distributive income derived from the
partnership. 380 The court stated:
In the Policy Statement and the Remand
Order, the Commission resolved the principal
defect of the Lakehead policy, which was the
unexplained
differential
treatment
of
individual and corporate partners. FERC
then determined that it would be “just and
reasonable” to grant regulated pipelines an
income tax allowance to the extent that all of
the pipeline’s partners – whether individual
or corporate – incur actual or potential tax
379

Id. at 953.

Id. at 951-52, 954 (finding that under the principles of
partnership law “investors in a limited partnership are required
to pay tax on their distributive shares of the partnership income,
even if they do not receive a cash distribution”).

380

475a
liability.
The Commission reasonably
determined that such taxes are ‘attributable’
to the regulated entity, given that partners
must pay tax on their share of the
partnership income regardless of whether
they actually receive a cash distribution.
Additionally, the Commission reasonably
relied upon evidence that a full income tax
allowance is necessary to ensure that
corporations and partnerships of like risk
will earn comparable after-tax returns. 381
226. In reaching its conclusion, the court reviewed a
comparison of the pre- and after- tax returns of a
corporation and the partners of a limited partnership
absent an income tax allowance, stating:
In the Policy Statement, FERC concluded
that it would be inequitable to grant a full
income tax allowance to corporations while
denying a similar allowance to limited
partnerships. For example, if the corporate
tax rate is 35%, then a pipeline that operates
as a corporation is permitted to charge a rate
of $154 in order to earn after-tax income of
$100. As several commenters pointed out, ‘if
an income tax allowance is not allowed the
381

Id. at 955.

476a
partnership, then the partners must pay a
$35 income tax on $100 of utility income,
leaving them with only an after-tax return of
$65.’382
The court continued:
Based on these comments, the Commission
has determined that pipelines operating as
limited partnerships should receive a full
income tax allowance in order to maintain
parity with pipelines that operate as
corporations.
This conclusion was not
unreasonable and we defer to FERC’s expert
judgment about the best way to equalize
after-tax returns for partnerships and
corporations. 383
227. In response to the argument that limited
partnerships do not pay entity-level income taxes, the
court stated that this argument was not without
force, but held that it could not prevail.
[A]s FERC explained in the Policy Statement
and the Remand Order, the income taxes for
Id. at 953 (interior citations omitted). See also Proxy Group
Policy Statement, 123 FERC ¶ 61,048 at P 10-15.
382

383

ExxonMobil, 487 F.3d at 953.

477a
which SFPP will receive an income tax are
real, albeit indirect. SFPP will be eligible for
a tax allowance only to the extent it can
demonstrate – in a rate proceeding – that its
partners incur ‘actual or potential’ income
tax liability on their respective shares of the
partnership income. 384
Having thus again concluded that partnerships have
the equivalent of an entity level tax, albeit indirect,
on public utility income, the court continued:
And there is at least one aspect of
partnership law that supports FERC’s
conclusion but was not advanced by the
Commission in BP West Coast – investors in
a limited partnership are required to pay tax
on their distributive shares of the
partnership income, even if they do not
receive a cash distribution. As explained
above, this supports FERC’s determination
that taxes on the income received from a
limited partnership should be allocated to the
pipeline and included in the regulated
entity’s cost-of-service.
In this sense,
petitioners’ likening of partnership tax to
shareholder dividend tax is inapposite
384

Id. at 954.

478a
because a shareholder of a corporation is
generally taxed on the amount of the cash
dividend actually received. 385
The court thereby rejected the argument that an
allowance for income taxes should not be included in
an MLP’s cost-of-service and held that the income
taxes to be paid by the partners were properly
attributed to the MLP as an entity-level regulatory
cost. 386 The court thus upheld the Income Tax Policy
Statement’s two fundamental conclusions regarding
income tax allowances for partnerships. First, that
the income taxes paid on partnership income are real
costs of acquiring and operating the pipeline assets,
and therefore the income tax allowance does not
recover a phantom cost. 387 Second, that the income
tax allowance is appropriate and lawful if the
partners incur an actual or potential income tax
liability on the distributive income they receive. 388
228. Finally, it is important to emphasize that the
Income Tax Policy Statement, as upheld by the court
385

Id. (citations omitted).

386

Id. at 954.

387

Id. at 952, 954.

388

Id. at 951-52, 955.

479a
in ExxonMobil, compares the after-tax returns of the
regulated entity that incurs the taxable net income,
and thus is attributed, either directly or indirectly,
liability for taxes on the income from its jurisdictional
operations. As such, the relevant comparison when
examining the policy rationale for an income tax
allowance is between a jurisdictional partnership
together with its partners, which are jointly treated
as the public utility entity, and a jurisdictional
corporation. As the numerical example cited in
ExxonMobil indicates, the appropriate analysis is for
first tier income that occurs at the level of the
operating entity. For that reason, the tax rate used is
that of the corporation, not the tax rate on dividends,
which may be lower. The correct comparison of aftertax income and cash returns is not between the aftertax return of a partnership’s partners and a
corporation’s
shareholders
because
corporate
shareholders have second tier dividend income on
which they pay taxes as a function of the double
taxation of corporate income. As the above-quoted
text establishes, ExxonMobil recognized this fact. 389
229. The ACC Shippers and ExxonMobil/BP’
exceptions advanced here on the legality of the
income tax allowance occur in this legal framework.
Id. at 954. See also Income Tax Policy Statement, 111 FERC
¶ 61,139 at P 27.
389

480a
In addressing the arguments raised on exceptions, the
Commission will address here those that go to the
central holdings of ExxonMobil and the Income Tax
Policy Statement, specifically: (1) whether BP West
Coast remains controlling legal authority, (2) whether
the application of the Income Tax Policy Statement
results in a double recovery of a partner’s actual or
potential income tax liability, and (3) whether the
2009 ID should have re-examined whether to apply
certain elements of the Commission’s implementing
methodology.
This order also discusses the
implementing protocols adopted in the Commission’s
December 2005, 2006 Sepulveda, and December 2007
Orders in section B below. This includes the issue of
whether SFPP has complied with the relevant
regulatory standards and the various proposals to
adjust the rate of return if SFPP is afforded an
income tax allowance.
2.
Whether BP West Coast Remains
Controlling Authority
230. The ACC Shippers and ExxonMobil/BP assert
that the 2009 ID erred in failing to recognize BP West
Coast as the controlling authority on income tax
allowances. They further assert that ExxonMobil
only clarified the basic holding of BP West Coast, but
did not overrule it. The Commission concludes that
BP West Coast is not the controlling authority on the
issue of whether SFPP is entitled by law to an income
tax allowance. Rather, ExxonMobil, which upheld the

481a
Income Tax Policy Statement, is the prevailing
authority on this issue.
Addressing the same
argument shippers present here, whether BP West
Coast is the law of the case, the court in ExxonMobil
distinguished its ruling in BP West Coast stating:
At the outset, we note that BP West Coast did
not categorically prohibit the Commission
from granting income
tax allowances to pipelines that operate as
limited partnerships.
...
Shipper petitioners also emphasize that in
BP West Coast we rejected SFPP’s argument
that the Commission should have adopted a
full income tax allowance for limited
partnerships. Petitioners argue that this
holding is now the ‘law of the case,’ because
the instant case involves the same issue that
was litigated – and resolved in the shippers’
favor – in the earlier proceeding. Again, we
disagree. In BP West Coast, SFPP crosspetitioned for review of the Lakehead policy.
… SFPP argued that FERC should have
granted a full ITA to pipelines operating as
limited partnerships. We rejected SFPP’s
argument in BP West Coast, but petitioners
now read too much into our holding with

482a
respect to this issue. All we held in BP West
Coast is that the Commission was not
required to grant a full income tax allowance
to pipelines that operate as limited
partnerships. Petitioners’ argument assumes
that ‘not required’ is synonymous with
‘prohibited.’
To the contrary, when an
agency has broad discretion to choose among
different policy options, the fact that any one
option is not required certainly does not
mean that it is prohibited. 390
In short, the court in ExxonMobil addressed and
rejected the precise argument that the shippers again
advance in this case.
231. The ACC Shippers further assert that the
analysis presented by Judge Peter Young in a 2006
Initial Decision in an SFPP rate complaint proceeding
is the correct analysis regarding income tax
allowances for MLPs and should have been followed
in the 2009 ID. In 2006, Judge Young concluded that
the Income Tax Policy Statement failed the standards
of BP West Coast because SFPP, the utility, would
never pay any income taxes. 391 The ACC Shippers
390

ExxonMobil, 487 F.3d at 953, 955.

391

2006 Sepulveda Order, 117 FERC ¶ 61,285 at P 23-24.

483a
assert that the 2009 ID erred by not addressing these
arguments or attempting to distinguish Judge
Young’s 2006 Initial Decision. The Commission notes
that Judge Young’s Initial Decision is of no
precedential value for the purposes of this case.392
Moreover, the basis of Judge Young’s conclusion was
subsequently addressed and rejected in ExxonMobil.
The court in ExxonMobil distinguished its ruling in
BP West Coast and upheld the Commission’s
determinations that (1) the income tax liability of the
partners for the partnership income is properly
attributed to a regulated partnership, 393 and (2)
attributing that tax liability to the partnership does
not result in phantom taxes if the partners have an
actual or potential income tax liability. 394 Given this,
the 2009 ID was correct to summarily reject the ACC
Shipper’s argument. 395
See, e.g., Illinois Power Co., 62 FERC ¶ 61,147, at n.17 (1993);
and Southern Company Services, Inc., 61 FERC ¶ 61,339, at n.56
(1992) (noting that a case subsequently settled prior to
Commission review does not constitute binding precedent).

392

393

ExxonMobil, 487 F.3d at 951-54.

394

Id. at 954-55.

Presiding Administrative Law Judge Cianci specifically noted
in the 2009 ID that “[t]he omission from this initial decision of
any argument raised by the Parties at the hearing or in their
briefs does not mean that it has not been considered; rather, it

395

484a
3. Issues Resolved by ExxonMobil
232. Continuing their attack on the legality of the
Income Tax Policy Statement, the ACC Shippers
further assert that (1) the Income Tax Policy
Statement does not have the force of law, and (2) the
2009 ID erred by ruling that SFPP was entitled to an
income tax allowance by law. SFPP counters that
these issues were resolved by ExxonMobil and that
the ID properly relied on ExxonMobil and subsequent
Commission decisions as binding precedent.
233. Regarding whether the Commission’s income
tax allowance policy, as articulated in the 2005
Income Tax Policy Statement, has the force of law,
the answer lies in the ACC Shippers’ own discussion
of this issue in its Brief on Exceptions. The ACC
Shippers quote extensively from the Commission’s
decision in Marathon. 396 Specifically, in Marathon,
the Commission in addressing the effect of its
Alternative
Rate
Policy
Statement,
quoted

has been evaluated and found to either lack merit or significance
such that inclusion would only tend to lengthen this initial
decision without altering its substance or effect.” 2009 ID, 129
FERC ¶ 63,020 at P 867.
396

ACC Brief on Ex. at 21.

485a
extensively from the seminal court decision on agency
policy statements:
In Pacific Gas and Electric Company v. FPC,
the Court stated that:
An administrative agency has available two
methods for formulating policy that will have
the force of law. An agency may establish
binding
policy
through
rulemaking
procedures by which it promulgates
substantive
rules,
or
through
adjudications which constitute binding
precedents. A general statement of policy
is the outcome of neither a rulemaking nor
adjudication; it is neither a rule nor a
precedent but is merely an announcement to
the public of the policy which the agency
hopes to implement in future rulemakings or
adjudications. A general statement of policy,
like a press release, presages an upcoming
rulemaking or announces the course which
the agency intends to follow in future
adjudications. 397
Id. (quoting Marathon Oil Company v. Trailblazer Pipeline
Co., 111 FERC ¶ 61,236, at P 57 (2005) (quoting Pacific Gas and
Electric Company v. FPC, 506 F.2d 33, 38 (D.C. Cir. 1974)
(emphasis added))).
397

486a
In Marathon, the Commission affirmed that a policy
first articulated through a policy statement does not
become binding precedent; i.e., carry the force of law,
until the Commission addresses the issue in an
adjudicated proceeding. 398 Indeed, the U.S. Court of
Appeals for the D.C. Circuit has recognized that many
agencies choose to adopt interpretations through
adjudications rather than through rulemaking, and
that this process has been widely approved by the
courts. 399
234. After issuance of the Income Tax Policy
Statement on May 4, 2005, 400 the Commission applied
See Marathon Oil Company v. Trailblazer Pipeline Co., 111
FERC ¶ 61,236, at P 56 (2005).

398

Int’l Union, UAW v. Brock, 783 F.2d 237, 248 (D.C. Cir. 1986)
(citing SEC v. Chenery, 332 U.S. 194, 202-03, 67 S. Ct. 1575
(1947); Wisconsin Gas Co. v. FERC, 770 F.2d 1144, 1166 (D.C.
Cir. 1985)). The court in Int’l Union, UAW held: “When an
agency uses an adjudication as a vehicle for announcement of a
new rule, therefore, the effect of the adjudication can go far
beyond its immediate effect on the parties involved in the
specific adjudication.” Id. at 248.

399

The Commission explicitly stated in the Income Tax Policy
Statement that the policy being adopted would be applied to
pending and future rate proceedings.
Income Tax Policy
Statement, 111 FERC ¶ 61,139 at Ordering Paragraph.
400

487a
the newly articulated policy in an adjudicated
proceeding -- the June 2005 Remand Order in the
complaint proceedings against SFPP in Docket No.
OR92-8-024 et al. 401 The Commission concluded in
The SFPP proceedings in Docket No. OR92-8-024 et al.
constitute “adjudicated proceedings.” As it applies here, an
adjudication means an adjudication under section 554 of the
APA in which the position of the United States is represented by
counsel or otherwise. On the issue of what is an adjudication,
the U.S. Court of Appeals for the D.C. Circuit has held:
401

APA section 554 “applies . . . in every case of
adjudication required by statute to be determined on
the record after opportunity for an agency hearing”
with some enumerated exceptions not applicable here.
5 U.S.C. § 554. If an adjudication is governed by
section 554, it must feature the following procedural
components: an impartial and unbiased presiding
officer, id. § 556(b); notice and an opportunity to
participate in the hearing, id. § 554(c); the right of the
parties to appear with counsel, id. § 553(b); the right
to present oral and written evidence (including
rebuttal evidence) and to conduct such crossexamination as is required for a full and true
disclosure of the facts, id. § 556(d); the right to submit
proposed findings, conclusions and exceptions, id. §
557(c); the compilation of an exclusive record upon
which the agency must base its decision, id. § 556(e);
and limitations on ex parte communications and on
the combination of prosecutorial and adjudicative
functions, id. § 554(d).
St. Louis Fuel & Supply Co. v. FERC, 890 F.2d 446, 448 (D.C.

488a
the June 2005 Remand Order that “[g]iven the
Commission’s [Income Tax] Policy Statement and the
application of its policy in this opinion, the
Commission concludes that SFPP, L.P. should be
afforded an income tax allowance on all of its
partnership interests to the extent that the owners of
those interests had an actual or potential income tax
liability during the periods at issue.” 402
As
articulated in Pacific Gas and Electric Company v.
FPC, as a result of the June 2005 Remand Order, a
final order in an adjudicated proceeding, the Income
Tax Allowance Policy became binding precedent
giving that policy the “force of law.” Moreover, in
ExxonMobil, the U.S. Court of Appeals reviewed the
June 2005 Remand Order along with the Income Tax
Policy Statement. 403 The court in ExxonMobil clearly
upheld the Income Tax Policy Statement as
reasonable and affirmed its application to SFPP. 404

Cir. 1989).
402

June 2005 Remand Order, 111 FERC ¶ 61,334 at P 27.

403

ExxonMobil, 487 F.3d at 951.

404

Id. at 951, 953, 955.

489a
235. It is well settled that “an agency must adhere
to its precedents in adjudicating cases before it.”405
As discussed supra, the applicable precedent on the
issue of income tax allowances for regulated utilities
organized as partnerships is ExxonMobil and the
June 2005 Remand Order. This precedent establishes
the legality of allowing an income tax allowance for
pipelines organized as general partnerships, limited
partnerships, MLPs, or other pass-through entities.
The 2009 ID therefore correctly concluded that SFPP,
a limited partnership owned by KMEP, is entitled to
an income tax allowance based upon established legal
precedent.
236. In addition to the ACC Shippers’ failed
argument that BP West Coast remains controlling
authority, the ACC Shippers also assert the more
basic proposition that the Income Tax Policy
Statement and ExxonMobil are simply incorrect. The
ACC Shippers put forth two arguments to support
this position. First, that the funds for any income-tax
payments are included in the distributions that the
Commission’s discounted cash flow (DCF) model uses
to calculate a pipeline’s return on equity. They assert
that this results in a double recovery of any income
Consolidated Edison Company of New York, Inc. v. FERC,
315 F.3d 316, 323 (D.C. Cir. 2003) (quoting Hatch v. FERC, 654
F.2d 825, 835 (D.C. Cir. 1981)).
405

490a
taxes that an MLP’s partners may pay on distributive
income.
Second, the ACC Shippers assert that
Congress did not authorize the Commission to create
an income allowance for MLPs and that providing an
income tax allowance does not equalize the cash and
income returns of the limited partner owners and of
corporate shareholders. The ACC Shippers therefore
conclude that the 2009 ID erred by relying on prior
Commission and other initial decisions involving
SFPP and thereby failing to address those arguments
in detail.
237. As discussed supra, the Income Tax Policy
Statement and ExxonMobil compared the cash and
income returns of the corporation and MLP as
regulated utilities and as taxable entities after
imputing the partner’s income tax liability to the
latter. 406 Thus, the ACC Shippers’ argument that the
comparison should be between the MLP partner and
the corporate shareholder, is clearly inconsistent with
the Income Tax Policy Statement and ExxonMobil.
Accordingly, the Presiding Judge properly rejected
this position in the 2009 ID given the controlling
precedent. Only the Commission may determine
whether to revise the Income Tax Policy Statement
given the arguments presented in the ACC Shippers’

406

ExxonMobil, 487 F.3d at 952-53.

491a
and ExxonMobil/BP’s exceptions.
does so below.

The Commission

4. Should the Income Tax Policy
Statement be Revised?
238. This section addresses the arguments that
underlie the ExxonMobil/BP’s attack on the
fundamental income tax allowance policy as
articulated in the Income Tax Policy Statement.
ExxonMobil/BP make the following arguments in
support of their conclusion that the Commission’s
Income Tax Policy Statement is incorrect and
therefore should be revised to eliminate the income
tax allowance for public utilities organized as
partnerships.
ExxonMobil/BP’s
overarching
contention is that providing an income tax allowance
to an MLP over-recovers any income taxes that the
partners may actually pay and gives MLPs a
competitive advantage over corporations at undue
cost to the ratepayers.
For this reason,
ExxonMobil/BP assert that the Income Tax Policy
Statement should be revised.
239. ExxonMobil/BP’s characterization of the issue
is incorrect. The issue presented is whether the
Income Tax Policy Statement should be revised to
deny MLPs an income tax allowance because the
MLP unit holder will have higher after-tax
distributed income and after-tax cash return than a
corporate shareholder if both an MLP and a

492a
corporation obtain an income tax allowance. This
after-tax difference is the result of the double taxation
of corporate income. Accordingly, if neither the MLP
nor the corporation obtains an income tax allowance,
the MLP unit holder will still have greater after-tax
income and after-tax cash return than the corporate
shareholder. In both cases the MLP will have a
competitive advantage over the corporation in the
equity market. Thus, all other things being equal,
the imputed MLP unit and corporate share prices and
the after-tax income and cash returns on the equity
component of the respective rate bases will be the
same only if the MLP does not obtain an income tax
allowance but the corporation does. Put another way,
the competitive advantage that a MLP enjoys over a
corporation can be eliminated only if the Commission
accords the MLP different treatment than the
corporation.
240. As discussed in the previous section,
ExxonMobil/BP’s argument fails as a matter of law.
ExxonMobil/BP’s argument relies on the erroneous
assumption that the taxes that the MLP partner pays
on the pipeline income are “investor level” taxes. This
assumption is contrary to the Commission’s
determination, as upheld by the court in ExxonMobil,
that taxes on the income received from a regulated
pipeline organized as a partnership should be
attributed to the pipeline and included in the

493a
regulated entity’s cost-of-service. 407 The court thus
held that “petitioners’ likening of partnership tax to
shareholder dividend tax is inapposite because a
shareholder of a corporation is generally taxed on the
amount of the cash dividend actually received.”408
Notwithstanding the foregoing, ExxonMobil/BP’s
argument raises the policy issue of whether an
income tax allowance is needed to ensure that an
MLP will obtain a level of equity return necessary to
attract capital to the pipeline industry. In examining
this, the Commission explains below the mechanics of
the DCF model, the Congressional purpose in
allowing energy-based MLPs, the capital attraction
standard, and the regulatory structure of an income
tax allowance.
a. The DCF Model
241. The issue as framed by ExxonMobil/BP and
the ACC Shippers is that the rate of return on equity
for MLPs, as established using the Commission’s DCF
model, includes a “built-in” tax allowance. According
to ExxonMobil/BP, this “built-in” tax allowance is a
reflection of the fact that the DCF model yields a rate
of return that will be high enough for investors to net
407

Id. at 954.

408

Id.

494a
their required rate of return even after they pay
income taxes. 409 ExxonMobil/BP conclude that if an
MLP pipeline receives an “[income tax allowance]
that is intended to cover investor level taxes (since
there are no pipeline level taxes) and receives an ROE
derived from the DCF methodology utilizing an MLPonly proxy group, there is a double recovery of investor
level income taxes.” 410 Or put another way, an income
tax allowance is not needed to ensure that a MLP will
receive a level of return necessary to attract capital.
As the following description of the DCF model shows,
this assertion is a collateral attack on the conclusions
in the Income Tax Policy Statement, Proxy Group
Policy Statement, and Opinion No. 486-B that tax
factors are assumed to be reflected in the unit prices
and resulting dividend yields, and thus reflect the
relative after-tax advantage of MLP over corporations
in issuing equity securities. 411
242. The objective of the Commission’s DCF model
is to determine the return that must be earned by the
409

ExxonMobil/BP Brief on Ex. at 6-8.

410

Id. at 6-7.

Income Tax Policy Statement, 111 FERC ¶ 61,139 at P 40,
n.6; Kern River Gas Transmission Company, 123 FERC
¶ 61,056, at P 186-187 (2008) (Opinion No. 486-A); Opinion No.
486-B, 126 FERC ¶ 61,034 at P 113-117.

411

495a
regulated entity for the entity to obtain equity capital
from investors.
The DCF finds that return by
examining the percentage returns on equity the
market requires for members of a proxy group. The
members of the proxy group must fall with a
reasonable range of comparable risks and have
publically traded securities. The Commission’s DCF
model uses three fundamental variables. The first is
the stock or unit price and the second is the
distribution or dividend yield on the security. These
two variables are used to determine a current return
measured both in dollars and the percentage yield.
The third variable is the projected dividend or
distribution growth to a terminal point in time using
two different time frames – short-term and long-term.
The first is the projected short term growth rate of
five years. The second is the long term growth rate
which is equal to the projected long term growth for
gross domestic product in the case of corporations,
and one half of that for an MLP. The short-term and
long-term growth rates are combined with the shortterm component weighted at two thirds and the long
term component weighted at one third. 412 Since the
dividend or distribution growth is based on the dollar
value in the first year and the estimated growth to
the end of the investment time frame, the result is
412

35.

See Proxy Group Policy Statement, 123 FERC ¶ 61,048 at P

496a
the estimated total cash flows that will be returned to
the investor over the time frame of the analysis. The
model discounts the cash flows back to the first year
using the percentage yield for each security during
that first year. Because of the growth factor, the
resulting percentage return on equity is higher than
the percentage yield in the first year. In most cases,
the median percentage return on equity of the sample
is what is deemed necessary to attract investors. 413
The DCF model is the same for MLPs and
corporations except for a different long term growth
rate. 414
243. Significantly with respect to the issue raised
by ExxonMobil/BP, the Commission’s DCF model
starts with the stock price of the securities in the
proxy group, observes the distribution or dividend,
and then calculates the yield (the percentage return)
by dividing the dollar amount of the distribution by
the stock price. The dollar amount of the distribution
in the first year, as increased by the growth rate, is
applied over the long-term growth horizon and is
discounted back at the first year’s percentage yield to
obtain the return on equity required to attract capital
The sample must normally consist of at least five members.
See Opinion
No. 486-B, 126 FERC ¶ 61,034 at P 102-105.

413

Id. P 45-50 (dividends and distributions), P 119-124 (short
term growth), and P 125-130 (long term growth).
414

497a
to the firm. However, an investor uses the opposite
approach in applying a DCF model. Rather than
solving for the required return on equity, an investor
first determines the required return on equity of
securities of comparable risk. The investor then looks
at the current dollar yield and estimates growth of
that yield, which, as with the Commission’s DCF
model, determines the total cash flows to be
generated over the life of the investment. The
investor’s DCF model then determines the stock price
that will yield the required percentage return given
the current and projected cash flows of the security
involved. Thus, the Commission’s DCF model and
that of the investor are reciprocal applications of the
same methodology. Both are driven by the level of
distributions anticipated by the investor. Under the
Commission’s model, a greater cash flow will be
reflected in a higher dollar yield, but the return of
equity will be the same. For the investor, a higher
distribution means a higher stock price, but again the
return on equity will remain the same. This is
because the percentage return on equity for securities
of similar risk is established by the market whether
viewed from the investor’s or the Commission’s
perspective.
244. The central role of the distributions or
dividends is reflected in the following example. The
investor desires a 6 percent after-tax return and has a

498a
25 percent marginal tax rate. 415 Thus, the security
must have an ROE of 8 percent to achieve an aftertax yield of 6 percent. Assume that the distribution
or dividend is $8. The investor will price the security
at $100. Conversely, if the security price is $100 and
the yield is $8, the Commission determines that the
required return is 8 percent. If the dollar distribution
increases to $10, the investor will price the security at
$125 because $10 is 8 percent of $125.
The
Commission would note that the security price is
$125 and that the yield is $10, or a return of 8
percent. If the distribution is $6, the security price
will drop to
$75, a return of 8 percent. The
Commission would observe a $75 dollar security
price, a $6 yield, and a return of 8 percent. In all
cases the ROE is 8 percent and the after-tax return is
6 percent based on the market-established return.
245. Following on the previous example, the
Commission now recapitulates and expands the
example by comparing the after-tax returns of an
MLP and a corporation presented in the Income Tax
Policy Statement and repeated in ExxonMobil. 416
That example compares the after-tax returns of a
The examples used here omit the growth factor to simplify
the math. This does not change the fundamental mechanics of
the DCF model.

415

416

ExxonMobil, 487 F.3d at 953.

499a
jurisdictional MLP and a jurisdictional corporation
that owned the same assets with the assumption that
the MLP is imputed the income tax liability of its
owing partners. Thus, if the MLP partners and the
corporation both have a marginal tax rate of 35
percent and the entity has net income of $100,
without a tax allowance, the MLP partners would
have an after-tax income of $65 and the corporation
would have an after-tax income of $100. If the MLP
is given an income tax allowance, then the MLP (and
its partners) and the corporation would both have an
after-tax income of $100. If both entities distribute
the entire income as a cash distribution, the after-tax
cash to the individual unit holders is $100 and the
after-tax cash and income to the corporate
shareholders is $90 to $65 depending on what
assumptions are made regarding the corporate
shareholders’ marginal tax rates. Since the securities
trade on the after-tax value of the distribution and
income, in the last example the MLP unit will have a
higher imputed price under a DFC analysis.
Similarly, if neither entity has an income tax
allowance (an option suggested by ExxonMobil), 417
the after-tax income and cash distribution are as
follows: the MLP partners after-tax income and cash
distribution is $65 per unit at the 35 percent bracket;
the corporate shareholder realizes after-tax income
417

Id. at 955.

500a
and cash distribution of $58.50 to $44.25 per share
depending on the marginal tax rate of the corporate
shareholder. Note that the prices of both securities
will drop, but the corporate share will still have lower
imputed price than the MLP unit. 418
246. The implications of the proceeding example for
after-tax income and cash returns, and the imputed
security price, are examined in more detail in
Exhibits SFP-98 and SFP-99, which have been
adopted by both sides in this proceeding. 419 These
exhibits analyze a pipeline with the same operating
and financial data except for the presence or absence
of the MLP income tax allowance. The same rate
base, capital structure, debt and equity cost of capital,
operating revenues and operating expenses are used
for the analysis in both exhibits. The analysis uses a
32 percent marginal tax rate for the MLP unit holder
and the corporate shareholder.

418

Cf. Ex. SFP-75 at 21-23.

Cf. ACC Shipper Brief on Ex. at 39, 45 (citing for the
respectively, Ex. SFP-98 “Oil Pipeline Under Corporate and
MLP Organizational Structures (32% MLP Tax Allowance; 32%
Marginal Investor Tax Rate)” and Ex. SFP-98 “First Alternative
Hypothetical Example of an Oil Pipeline Under Corporate and
MLP Organizational Structures (0% MLP Tax Allowance; 32%
Marginal Investor Tax Rate)”).

419

501a
247. Given the foregoing, Ex. SFP-98 assumes that
the MLP is given an income tax allowance. The pretax income available to the MLP unit holder is
$13.5397 and $9.2070 for the corporate shareholder
after the payment of entity-level taxes by the
corporation, but with no entity-level taxes paid by the
MLP. The after-tax income to the marginal investor
is $9.2070 for the MLP unit holder and $6.2608 for
the corporate shareholder after both pay the 32
percent marginal tax rate resulting in an implied
MLP unit price of $100 and an implied corporate
share price of $68. In both cases the after-tax return
on equity is 9.207 percent and the regulatory ROE is
the 13.540 percent posited as part of the exhibit’s
cost-of-service assumptions. The only difference is
the business format. As the risk is the same for both
business models, the higher MLP unit price reflects
its higher after-tax dollar income and cash returns as
compared to the corporation.
248. Ex. SFP-99 presents the same example as Ex.
SFP-98, but assumes there is no MLP tax allowance.
In Ex. SFP-99, the pre-tax income available to both
the MLP unit holder and the corporate shareholder is
$9.2070 after the corporation pays entity-level taxes
but the MLP does not. The after-tax income to the
marginal investor for both the MLP unit holder and
the corporate shareholder is $6.2608 after both pay a
32 percent marginal tax rate. This results in an
implied MLP unit price of $68.00 and an implied
corporate share price also of $68.00.
For both

502a
ownership formats the after-tax return on equity is
9.207 percent and the regulatory ROE is the 13.540
percent posited as part of the exhibit’s cost-of-service
assumptions. The unit and share prices are the same
as the after-tax dollar income and cash returns are
the same for both business models given the
assumption of their identical risk.
249. As shown by Exs. SFP-98 and SFP-99, the
after-tax dollar income and cash returns of the unit
holder and the shareholder on the equity component
of the rate base will be the same only if the MLP is
denied an income-allowance and the corporation is
granted one. 420 Thus, as SFPP argues, the ACC
Shippers seek a return to the Lakehead regulatory
protocol which provides an income tax allowance only
on those partnership interests owned by a
corporation, a position repudiated by BP West Coast.
Moreover, the analysis in Exs. SFP-98 and SFP-99
demonstrates that it is simply not true that the
income taxes of the MLP partnership are recovered
twice because in fact they are paid only once and
compensated only once. Rather, in all cases there is
cash from the distributions (which may be reflected in
income) that is available to pay the taxes, which is in
turn reflected in the capitalized value of the security
See Ex. SFP-98; Ex. SFP-99, reproduced as Appendix B and
Appendix C.

420

503a
price. This is the fundamental objection the ACC
Shippers present here. At bottom, it is the resulting
drop in the relative MLP unit price from the denial of
an income tax allowance that led the Commission to
conclude, as summarized in ExxonMobil, that
“termination of the allowance would clearly act as a
disincentive for the use of the partnership format,
because it would lower the returns of partnerships
vis-à-vis corporations, and because it would prevent
certain investors from realizing the benefits of a
consolidated income tax return.” 421 In fact, as SFPP
establishes, a drop in the prices of partnership
interests
occurred
immediately
after
the
422
announcement of the Lakehead doctrine.
The
practical consequence of the Lakehead doctrine for
the price of the Lakehead units was completely
consistent with the basic financial theory under
discussion here.
250. As discussed, ExxonMobil/BP’s argument
ultimately fails because (1) it erroneously considers
the taxes that the MLP partner pays on the MLP
pipeline income to be “investor level” taxes rather
than taxes that are imputed to the entity under
ExxonMobil, 487 F.3d at 952-53 (affirming the Commission’s
rationale).
421

422

See Ex. SFP-75 at 30.

504a
ExxonMobil, and (2) it seeks to reinstall the Lakehead
policy through the door of the DCF model. The
ExxonMobil/BP’s and the ACC Shippers’ entire
double-recovery argument, and its implications for
the Commission’s DCF model, hinges on these
erroneous assumptions. Since the argument of a
double recovery is mathematically incorrect, their
position that there is double payment or over-recovery
from ratepayers of an MLP partner’s income taxes
can be sustained only if the court’s analysis in
ExxonMobil upholding the validity of the Income Tax
Policy Statement was incorrect. This order next
turns to the Congressional purpose in authorizing
energy firms to use the MLP business format and
whether Congress placed any limits on the
Commission’s authority to implement that purpose.
b. Congressional Purpose
Regarding Energy MLPs
251. ExxonMobil/BP’s and the ACC Shippers’ next
argument is that the Commission’s income tax
allowance policy exceeds the Commission’s statutory
authority and is contrary to Congressional intent.
ExxonMobil/BP and the ACC Shippers assert that the
Commission’s historic analysis in Lakehead properly
reflected Congressional purpose on the taxation
status of public utility partnerships by not providing
a partnership’s individual partners with an income

505a
tax allowance. 423 They further reiterate the ruling in
BP West Coast that in exempting pipeline limited
partnerships from taxation Congress “did not
empower FERC to do any thing, let alone to create an
ACC Shippers Brief on Ex. at 23. The ACC Shippers cite to
Lakehead, 75 FERC at 61,596, in which the Commission stated:

423

[FERC] is denying Lakehead this particular tax
allowance because that tax expense does not exist.
Congress did not endorse phantom taxes in enacting
section 7704 of the I.R.C. It simply endorsed this
particular form (partnership) in connection with
taxing an enterprise.
That form should be
advantageous on its own merits without the addition
of phantom taxes in a cost-of-service just as it is
advantageous for companies without a cost of service
that are covered by section 7704’s exception.
The Commission notes that this language was itself an earlier
interpretation of section 7704 by the Commission because, as the
ACC Shippers correctly state, Congress did not address the
matter explicitly. The Commission was therefore exercising its
discretion in interpreting the meaning of section 7704. As
discussed, BP West Coast rejected the Commission’s Lakehead
analysis, and thus implicitly rejected the language that the ACC
Shippers rely on here. See BP West Coast, 374 F.3d at 1289-91.
ExxonMobil in turn rejected the argument that providing an
income tax allowance results in a “phantom cost.”
See
ExxonMobil, 487 F.3d at 949, 951, 953, 955. The quote from
Lakehead shows that the ACC Shippers’ citation is inapposite to
the issue at hand.

506a
allowance for fictional income taxes.” 424 The ACC
Shippers further argue that the Commission does not
have the statutory authority to modify Congress’ tax
legislation, specifically section 7704 of the I.R.C.425
through which Congress exempted oil and gas
pipelines organized as partnerships from being
treated as corporations for income tax purposes. 426
252. ExxonMobil/BP and the ACC Shippers also
assert that the 2009 ID erred by failing to address
their contention that when Congress enacted Section
7704 of the Internal Revenue Code, 427 it intended to
provide all energy companies – both regulated and
424 ACC Shippers Brief on Ex. at 17-18 (quoting BP West Coast,
374 F.3d at 1293).
425 Section 7704 of the Internal Revenue Code treats certain
publicly traded partnerships as corporations for income tax
purpose, but exempts from taxation income from certain energyrelated activities, including “income and gains derived from
transportation (including pipelines transporting gas, oil, or
products thereof) . . . of any mineral or natural resource . . .”
See Pub. L. No. 100-203, § 10211, 101 Stat. 1330 (1987).

MLPs were thus permitted to pass their tax liability through
to the member partners and therefore, are referred to as “passthrough” entities.
426

Public L. No. 100-203, Title X, § 10211(a), Dec. 22, 1987, 101
Stat. 1330-1403, (1987).
427

507a
non-regulated, incentives to invest by allowing them
to organize as partnerships. ExxonMobil/BP assert
that Congress could have authorized an income tax
allowance for regulated entities but did not do so.
They also argue that in one prior instance when
Congress created investment incentives for certain
energy companies that it specifically prohibited the
Commission from including those benefits in a
regulated entity’s rates. 428 The ACC Shippers further
argue that certain purported legislative history SFPP
presented at hearing and on initial briefs below
consists of materials created long after the relevant
statutes were passed and as such it has little, if any,
weight. 429 They also argue that the December 2007
Order provided no legislative history to support an
allowance. 430
253. In light of this debate the Commission has
revisited the legislative history of section 7704. In
doing so, the Commission concludes that MLPs were
specifically designed as a tax advantaged form of
investment compared to a corporation and have two
important distinctions. The first is the avoidance of
the tax on dividend distributions (double taxation of
428

ExxonMobil/BP Brief on Ex. at 11.

429

ACC Shippers Brief on Ex. at 26-28.

430

Id. at 26 n.11.

508a
income) and the second is the ability to defer the
recognition of ordinary income at the partner level.
Regarding both points, Congress specifically designed
the MLP business model to have certain advantages
to facilitate the investment of equity capital. 431 As
noted in the prior orders, the legislative history is
limited and hard to find. 432 However there are three
sources of legislative history for section 7704 that
support the conclusions of the December 2007 Order.
254. First, the Staff of the Joint Committee on
Taxation produced a pamphlet report for a hearing
held by the Senate Subcommittee on Taxation and
Debt Management. 433 The pamphlet report provides
that an MLP is a creative new technique for
investment. 434 It states that the driving force behind
As discussed, MLPs are governed by statute. See Certain
Publicly Traded Partnerships Treated as Corporations, 26
U.S.C. § 7704 (2006). Section 7704 was contained in the
Omnibus Budget Reconciliation Act of 1987, H.R. 3545, 100th
Cong., 101 Stat. 1330, 403 (1987).
431

432

December 2007 Order, 121 FERC ¶ 61,240 at P 29.

Staff of the Joint Committee on Taxation, Taxation of Master
Limited Partnerships, JCS-19-87 (1987) (prepared for a hearing
before the Subcommittee on Taxation and Debt Management of
the Senate Subcommittee on Finance on July 21, 1987) (Staff
Report).

433

434

Id. at 3.

509a
the use of an MLP is the appeal of the tax savings
that can be effected by conducting a business in
partnership form (with one level of tax) rather than in
corporate form (with two levels of tax). Use of an
MLP gives the investor an opportunity to realize a
better after-tax yield on current cash return[s] than
corporate stock because of tax savings. 435 Then as
now, the MLP was a type of partnership rather than a
corporation. The issue before the Subcommittee was
whether the MLP should continue to enjoy
partnership status or be considered a corporate
entity. 436 Congress answered this question when it
passed House Bill 3545 and affirmed the partnership
status of an MLP.
255. Second, the report from the July 21, 1987
Senate Subcommittee hearing provides insight into
information provided the Senate prior to going to
Conference on the bill. 437 The Subcommittee hearing
included testimony from one administration witness
and seven public witnesses. The administration
witness and one public witness supported corporate
435

Id. at 16.

436

Id. at 21.

Master Limited Partnerships: Hearing on H.R. 3545 Before
the Subcomm. on Taxation and Debt Mgmt. of the S. Comm. on
Fin., 100th Cong., S. Rep. No. 100-485 (1987) (S. Rep.).

437

510a
tax treatment of MLPs. 438
The balance of the
witnesses, consisting of business executives and
attorneys, supported the continuation of partnership
treatment of MLPs for tax purposes. The witnesses
who supported partnership treatment of MLPs cited
the financial benefits enjoyed by investors as the
main force behind their use and stated that those
benefits encourage potential investors to invest.
Thus, Mr. John P. Neafsey, who was the chief
financial officer for an energy company, testified that
the need for capital from investors was best met
through the use of an MLP. Mr. Neafsey cited the use
of an MLP as the best way to attract investors when
compared to the alternatives of selling shares of stock
or issuing a debt instrument. 439 The advantages of a
MLP were also repeated by the other five witnesses
who supported partnership treatment of a MLP. 440
256. Third, a House Committee Report shows the
Congressional intent behind section 7704 through the
benefits provided to MLPs at that time. 441 While the
Committee Report does not expressly state Congress’
438

Id. at 58, 180.

439

Id. at 84-86.

440

Id. at 93, 145, 169.

441

H.R. Rep. No. 100-495 (1987) (Conf. Rep.).

511a
intent behind its support of MLPs, the Report does
implicitly demonstrate Congress’ support of MLPs.
The first evidence of support is the fact that the MLP
provision, which became section 7704, survived the
Conference agreement between the House and the
Senate. 442 The second evidence of support is that the
Conference agreement afforded MLP investors a
greater tax benefit by allowing a loss deduction that
could be used to offset income generated from sources
other than the MLP. Previously the loss deduction
from an MLP could only be used to offset income from
the same MLP, 443 but this did not invalidate the
general purpose for creating MLPs.
257. The ACC Shippers’ further argue that while
Congress created an incentive for energy companies
to develop energy infrastructure by changing the tax
laws, Congress did not change the Commission’s
statutory authority to allow regulated companies to
recover investment incentives in their rates, 444 but
this is inapposite. Congress does not need to grant
such affirmative permission through legislation.
Rather, silence more likely implies that all the
442

Id. at 419-22.

Id. at 951-52. As discussed supra, at this time the previous
limitation applies.

443

444

ACC Shippers Brief on Ex. at 22-23.

512a
partnership entities involved could be accorded the
same status. The legislative history discussed above
emphasizes that the tax incentives Congress provided
MLPs
have
important
practical
financial
consequences.
The MLP limited partners enjoy
certain tax advantages particularly due to the
avoidance of the double taxation of corporate earnings
and the tax deferrals derived from allocation of
income and losses among the partners. For this
reason they will pay a relatively higher price to
purchase the limited partnership interests, which
gives the partnership a cost of capital advantage and
implements the purpose for Congress’ endorsing the
MLP business model.
258. As Exs. SFP-98 and SFP-99 indicate,
eliminating the income tax allowance for MLPs would
reduce the incentive to invest in such partnerships
because there is no material financial incentive to do
so from the viewpoint of an individual investor.
While the incentives to use partnerships within
corporate
structures,
with
the
resulting
administrative efficiencies, would remain, the Income
Tax Policy Statement rejected this more limited
purpose 445 and was affirmed by ExxonMobil. 446 In
445

Income Tax Policy Statement, 111 FERC ¶ 61,139 at P 15-16.

446

ExxonMobil, 487 F.3d at 952.

513a
this regard, the ACC Shippers are simply incorrect in
citing BP West Coast for the proposition that the
Commission cannot create an income tax allowance to
implement the investment goals of section 7704. The
relevant holding in BP West Coast was premised on
the court’s conclusion that the Commission had not
justified partnership income taxes as an element of
the partnership’s regulatory cost-of-service, and
therefore investment incentives could not create a
cost if one did not exist independently of the
incentive. That ruling no longer applies because
ExxonMobil explicitly held that income taxes were a
legitimate, albeit indirect, part of a jurisdictional costof-service. The Commission therefore concludes that
Congress did not preclude granting MLPs an income
tax allowance and in fact intended the contrary. The
Commission’s prior interpretation of section 7704 in
Lakehead was incorrect because it improperly
distinguished the partnership from the corporate
model. Thus the Commission over-ruled its holding
in Lakehead that section 7704 does not authorize
granting jurisdictional partnerships an income tax
allowance.
c. The Capital Attraction Standard
259. The ACC Shippers also assert that the
providing SFPP an income tax allowance fails the
capital attraction standard set forth in Hope Natural

514a
Gas. 447 As discussed in both BP West Coast and
ExxonMobil, the Commission has an obligation to
provide a regulated entity an opportunity to earn an
equity return that will attract capital to the firm. BP
West Coast held that the Commission had erroneously
concluded that allowing any income tax allowance
was necessary to meet the capital attraction standard
because under the Commission’s own cost accounting
theory partnerships did not pay income taxes, and
therefore had no cost in that regard. 448 Addressing
the same point in ExxonMobil, the court concluded
that the Commission had adequately explained that
income taxes were a cost to a partnership, albeit
indirect, and therefore an income tax allowance was
necessary. The court specifically described the capital
attraction standard and concluded that the
Commission’s adoption of an income tax allowance for
partnerships was reasonable under that standard. 449
The ACC Shippers’ argument in this regard is flatly
inconsistent with the holding of ExxonMobil. At
ACC Shippers Brief on Ex. at 50-53 (citing FPC v. Hope
Natural Gas Co., 320 U.S. 591, 603 (1944)).

447

448

BP West Coast, 374 F.3d at 1290-91.

ExxonMobil, 487 F.3d at 951 (stating that just and reasonable
rates are “rates yielding sufficient revenue to cover all proper
costs, including federal income taxes, plus a specified return on
invested capital”).
449

515a
bottom, their argument approaches the issue of the
difference in the after-tax cash and income return of
an MLP unit holder and a corporate shareholder from
a different angle. The Commission has previously
explained why the higher after-tax cash and income
return received by the MLP unit holder is reasonable
under the Interstate Commerce Act and consistent
with the purpose of section 7704. The 2009 ID was
correct to reject this argument.
d.
Regulatory Purpose for
Income Tax Allowance

an

260. The remaining question regarding the legality
of granting an income tax allowance to a MLP is
whether the Commission should deny the allowance
for regulatory reasons, i.e., to create a “fairer” result
for the ratepayers.
The ACC Shippers and
ExxonMobil/BP further assert that the equity
advantage enjoyed by MLPs comes from the inclusion
of an unnecessary “phantom” cost in the pipeline’s
rates, which results in unjust and unreasonable rates.
They assert that in Lakehead the Commission
correctly concluded that the investment incentives
created by section 7704 should not include a cost that
is not actually incurred by a regulatory utility
partnership – the “phantom” tax cost issue. 450 The
450 ACC Shippers Brief on Ex. at 22-23; ExxonMobil/BP Brief on
Ex. at 8-10.

516a
ACC Shippers conclude that the additional cash flow
to the pipeline generated by the income tax allowance
is a windfall at the expenses of the rate payers. SFPP
replies that the Income Tax Policy Statement rejected
the phantom tax issue and expressly repudiated by
Lakehead. 451 SFPP concludes that because there is
no phantom income tax liability, the income tax
allowance policy does not result in improper
subsidization by ratepayers of the investor tax
benefits Congress granted MLPs.
261. The Lakehead policy has been rejected by both
the Commission and the court. The Commission, in
overruling Lakehead, specifically concluded that
income taxes are a cost of raising a partnership’s
capital because the partners have a liability for the
income generated by the partnership’s public utility
operations. 452 Under both the Income Tax Policy
Statement and ExxonMobil, the comparison of
relative returns was between the MLP as a regulated
entity, including the imputed income tax liability, and
the corporation as a regulated entity, with its explicit
income tax liability. The comparison was not between
the individual unit holder and the corporate
451

SFPP Brief op. Ex. at 7-10.

See Income Tax Policy Statement, 111 FERC ¶ 61,139 at P
33. This conclusion was affirmed in ExxonMobil, 487 F.3d at
951-54.

452

517a
shareholder as the ACC Shippers urge here. The
Income Tax Policy Statement recognizes that unlike
corporate income, MLP income is not subject to
double taxation.
Thus granting an income tax
allowance to MLPs results in an adjustment in the
relative investment price of an MLP’s and a
corporation’s securities to the former’s advantage.453
ExxonMobil accepted the Commission’s determination
that elimination of the allowance would create a
disincentive for using partnerships because it would
lower the relative returns for partnerships as
compared to corporations. 454 Thus the difference in
dollar returns resulting from an income tax allowance
was addressed in the examples provided in the
Income Tax Allowance Statement and was affirmed
by ExxonMobil. Further, the price advantage MLPs
hold over corporations was recognized in the Income
Tax Policy Statement and was upheld by the court.
This precedent forecloses the ACC Shippers’ and
ExxonMobil/BP’s arguments.

Id. P 6 n.6. The footnote states that the investor equalizes
prices to reflect the pre-tax return. The more correct statement
would be that the investor adjusts the price for the same aftertax return because not all investors have the same marginal tax
rate.
453

454

ExxonMobil, 487 F.3d at 952-53.

518a
262. Notwithstanding the foregoing, given that the
ACC Shippers questioning the equity of the Income
Tax Policy Statement, the Commission will revisit the
policy rationale that underlies the Policy Statement.
The Commission’s Income Tax Policy Statement is
consistent with Congress’ decision to give MLPs an
equity price advantage through section 7704 of the
Internal Revenue Code. As Ex. SFP-99 shows, a
MLPs’ equity price advantage is lost if MLPs are
denied an income tax allowance and causes the MLPs
to lose the additional cash flow supporting the
investment
incentives
Congress
created
by
authorizing the MLP format. In short, as discussed
above, if the income tax allowance is eliminated for
MLPs, the impact of the MLP tax incentive granted
by Congress would be voided. It is true that the
ratepayers will pay a higher rate if an MLP has an
income tax allowance. However, shippers’ rates will
be no higher than if the pipelines that are MLPs shift
to the corporate form and thereby obtain an income
tax allowance, 455 and might actually be lower.
263. Moreover, denying MLPs an income tax
allowance
would
apply
different
regulatory
accounting and policy standards to regulated MLPs
than to regulated corporations.
This becomes
455

37.

See Income Tax Policy Statement, 111 FERC ¶ 61,139 at P

519a
apparent by examining the role an income tax
allowance performs in the Commission's cost-ofservice methodology.
Under the cost-of-service
methodology, the pre-tax operating and capital costs
of the regulated entity are calculated to establish the
revenue required to cover those costs, including the
equity return. The income taxes on the return are
then grossed-up and added to the revenue
requirement to assure an adequate after-tax return.
The point is that a regulated firm’s pre-tax gross
revenue is capped based on its capital and operating
costs. This differs from an unregulated entity, which
must earn enough revenue and return from sales to
cover all operating and capital costs and to pay the
related income taxes in order to obtain the same
after-tax return on equity as a regulated entity. In
short, an unregulated entity does not gross up its
revenue through a regulatory markup in order to earn
the after-tax return. Rather, an unregulated entity
earns the equivalent income through its sales. The
purpose of regulation is to replicate a competitive
market. 456 Accordingly, with respect to income taxes,
the Commission replicates the competitive market by
using an income tax allowance as a gross-up
mechanism in lieu of the additional sales volume that
an entity in a competitive market would need to
generate the required after-tax equity return.
456

ExxonMobil, 487 F.3d at 961.

520a
264. Without an income tax allowance, a
jurisdictional MLP would not be able to replicate an
unregulated MLP’s after-tax return because the
jurisdictional MLP does not make sufficient sales to
cover the imputed income taxes of its unit holders.
Thus, under the scenario advocated by the ACC
Shippers, a jurisdictional corporation may obtain an
income tax allowance that replicates the sales and
revenues of a non-jurisdictional corporation, but a
jurisdictional MLP would not be permitted to
replicate the sales and revenues of a nonjurisdictional MLP. 457
This would restore the
irrational distinction between partnerships and
corporations that the court rejected in BP West Coast
and which the Commission rectified in the Income
Tax Policy Statement. 458 The ACC Shippers’ position
that MLPs should be denied an income tax allowance
discriminates against MLPs vis-a-vis corporations
and would undercut the incentives embedded in the
MLP business format.
Finally, the ACC Shippers and ExxonMobil/BP
both again argue that the December 2007 Order
creates a tax benefit or cost where none exists in the

265.

The ACC Shippers essentially state this in their Brief on Ex.
at 23, 28.
457

Income Tax Policy Statement, 111 FERC ¶ 61,139; and BP
West Coast, 374 F.3d at 1292.

458

521a
regulatory structure established by the ICA. They
assert that this violates the holding in BP West Coast
that Congress cannot create a tax liability where none
otherwise exists simply to create an investment
incentive. 459 But this argument misconstrues the
issue at hand. Here, the Commission is not creating a
tax liability where none otherwise exists. An MLP
pipeline does incur a tax cost, albeit indirectly.460
Thus, the issue here is whether the benefits of
Congress’ elimination of double taxation should
accrue to the MLP pipeline, or should be passed back
to the ratepayers by denying MLPs an income tax
allowance. The Commission again concludes that
Congress intended to encourage pipeline investment
by authorizing tax incentives for MLPs. To achieve
this, it is appropriate to grant regulated MLPs an
income tax allowance and equalize the return of the
MLP and the corporation at the entity level. The
Commission therefore affirms its previous conclusions
in the Income Tax Policy Statement as affirmed in
ExxonMobil.

ACC Shippers Brief on Ex. at 18, 49 (citing BP West Coast,
374 F.3d at 1292-93); ExxonMobil/BP Brief on Ex. at 9-10.
459

460

ExxonMobil, 487 F.3d at 954.

522a

D.
Is the Income Tax Allowance Properly
Calculated?
312.
This section addresses the ACC
Shippers’ and ExxonMobil/BP’s various arguments
regarding whether the proposed income allowance
was properly calculated. One such argument is that
SFPP’s income tax allowance must be adjusted to
account for the alleged double recovery of the income
tax cost in the equity rate of return and for the
deferral of the income recognition.542 The Commission
previously rejected these assertions earlier in this
order and therefore the 2009 ID is affirmed in this
regard. ExxonMobil/BP also assert the portion of the
income tax allowance that reflects state taxes should
be adjusted to reflect an alleged overstatement of
weighted
state
tax
rates.543
Specifically,
ExxonMobil/BP argue that the weighted state income
tax rates for KMEP’s unit holders should be reduced
to eliminate any source-state taxation; i.e., the income
tax allowance should only reflect state income tax
from the unit holder’s state of residence.
313.
ExxonMobil/BP’s argument is
inconsistent with actual tax practice. A standard
K-1 includes
542

ExxonMobil/BP Brief on Ex. at 29-32.

543

ExxonMobil/BP Brief on Ex. at 37.

523a
disclosure of the portion of ordinary income
attributable to the each state, when required, not
just tax from the resident state.544 The income is
typically declared with an offset against the state of
residence as the Commission discussed in the
December 2007 Order.545 The exception is denied.

544

See Ex. BPW-9 at 3 of 4; Ex. BPW-12 at 4 of 6.

545

December 2007 Order, 121 FERC ¶ 61,240 at 61.

